U.S. Department of Justice
Office of the Inspector General




 A Review of the Operations 

 of the Voting Section of the 

     Civil Rights Division 





                                  Office of the Inspector General
                                  Oversight and Review Division
                                                     March 2013
                                          Table of Contents

CHAPTER: ONE INTRODUCTION ......................................................................1


I.      Background ..............................................................................................1


II.     Prior Related OIG Reviews ........................................................................5


III.    Methodology of the Investigation ...............................................................6


IV.     Organization of this Report .......................................................................6


CHAPTER TWO: BACKGROUND........................................................................9


I.      Organization of the Civil Rights Division and the Voting Section................9


II.     Voting Rights Laws ................................................................................. 11

        A.      Voting Rights Act of 1965 .............................................................. 11

                1.	      VRA    Section 2 ...................................................................... 11

                2.	      VRA    Section 5 ...................................................................... 12

                3.	      VRA    Sections 3 and 8........................................................... 15

                4.	      VRA    Section 11(b) ................................................................ 15

                5.	      VRA    Sections 203 and 4(f)(4) ................................................ 16

        B.      National Voter Registration Act ...................................................... 16

        C.      Uniformed and Overseas Citizens Absentee Voting Act................... 17

        D.      Help America Vote Act of 2002 ...................................................... 17


CHAPTER THREE: ENFORCEMENT OF SELECTED VOTING RIGHTS

    LAWS OVER TIME .................................................................................. 19


I.	     Introduction ........................................................................................... 19


II.	    Overall Review of Enforcement Actions.................................................... 20


III.	   Enforcement of Sections 2 and 11(b) of the VRA ...................................... 23

        A.	     Data Regarding Enforcement Trends in Sections 2 and 11(b)

                Cases ............................................................................................ 24

        B.	     Examination of Selected Cases Involving the Enforcement of 

                Sections 2 and 11(b) ...................................................................... 32

                1.	      Selected Cases during the Period from 2004 to 2006 ............ 33

                2.	      The New Black Panther Party Case....................................... 45

                3.	      Selected Cases Since 2009 ................................................... 73


                                                        i
        C.	     Conclusions Regarding Enforcement of Sections 2 and 11(b)

                Over Time ..................................................................................... 80


IV.	    Preclearance of Voting Changes under Section 5 ..................................... 81

        A.	     Data Regarding Submissions to the Voting Section Pursuant

                to VRA Section 5 ........................................................................... 81

        B.	     Examination of Selected Cases and Events Related to the 

                Enforcement of Section 5............................................................... 82

                1.	      2001 – 2008......................................................................... 82

                2.	      2009 – 2012......................................................................... 87

        C.	     OIG Analysis of Section 5 Preclearance Review Activities over

                Time .............................................................................................. 91


V.	     Enforcement of the National Voter Registration Act (NVRA) ..................... 93

        A.	     Data Regarding Enforcement Trends in NVRA Cases ..................... 94

        B.	     Enforcement of the NVRA during 2001 – 2008 ............................... 95

        C.	     Enforcement of the NVRA during 2009 – 2012 ............................... 99

                1.	      Division Leadership Declines To Act on Voting Section 

                         Proposal for Section 8 Investigation...................................... 99

                2.	      Drafting of NVRA Guidance .................................................. 99

                3.	      Comments by DAAG Julie Fernandes Regarding NVRA 

                         Enforcement at a November 2009 Section Meeting ............. 100

                4.	      Approval of List-Maintenance Investigations ....................... 102

        D.	     OIG Analysis of Enforcement of NVRA over Time ......................... 106


VI.	    Language-Minority Provisions (Sections 4(e), 4(f)4, and 203) ................. 108


VII.	   The Uniformed and Overseas Citizens Absentee Voting Act ................... 112


VIII.	 Conclusions.......................................................................................... 113


CHAPTER FOUR: HARASSMENT OR MISTREATMENT OF VOTING
    SECTION EMPLOYEES FOR THEIR POLITICAL IDEOLOGY OR
    POSITIONS THEY TOOK ON PARTICULAR MATTERS............................ 117


I.	     Introduction ......................................................................................... 117


II.	    Allegations of Peer-to-Peer Harassment between Career Staff ................ 118

        A.	     Staff Conduct during Georgia Voter ID (2005) .............................. 118

        B.	     Treatment of Members of the Noxubee Case Team (2006-07) ....... 121

        C.	     Conflict during Election Monitoring in County D (2006) ............... 124



                                                       ii
        D.	     Harassment of a Non-Attorney Employee by Section

                Attorneys (2007) .......................................................................... 126

        E.	     Internet Postings by Voting Section Employees (2007) ................. 126

        F.	     Ostracism of Career Employees ................................................... 132

        G.	     Actions To Address and Prevent Harassment ............................... 133

        H.	     Conclusions about Harassment ................................................... 134


III.	   Disclosures by Voting Section Employees of Non-Public Voting

        Section Information .............................................................................. 135


IV.	    Allegations of Retaliation by Managers against Career Employees ......... 138

        A.	     Assignment of OIL Briefs (2005-06) ............................................. 140

        B.	     Alleged Retaliation against Certain Members of the Georgia

                Voter ID Team (2005) .................................................................. 142

        C.	     Consideration of Ideology in the Composition of the Honors 

                Program Hiring Committee (2009)................................................ 144


V.	     Allegations of Removal or Marginalization of Career Section

        Managers by Political Staff .................................................................... 149

        A.	     Marginalization of Voting Section Chief Joseph Rich (2004-05) .... 149

                1.	      Facts ................................................................................. 149

                2.	      Analysis ............................................................................. 153

        B.	     Involuntary Reassignment of Voting Section Deputy Chief

                Robert Berman (2006) ................................................................. 154

                1.	      Facts ................................................................................. 154

                2.	      Analysis ............................................................................. 156

        C.	     Treatment of Voting Section Chief Christopher Coates (2009) ...... 156

                1.	      Facts ................................................................................. 157

                2.	      Analysis ............................................................................. 175


CHAPTER FIVE: THE VOTING SECTION’S RECENT HIRING OF TRIAL 

    ATTORNEYS ......................................................................................... 181


I.	     Introduction ......................................................................................... 181


II.	    Background .......................................................................................... 182

        A.	     Legal Standards for Hiring Career Attorneys ................................ 182

        B.	     Expedited Hiring of Career Employees Throughout the

                Division during the 2000-2001 Transition ................................... 184

        C.	     Prior OIG Investigations of Politicized Hiring in theDepartment .... 188

                                                      iii
III.	   CRT Hiring Procedures from 2002 to 2011 ............................................ 190


IV.	    Hiring of Career Trial Attorneys in 2010 in the Voting Section ............... 194

        A.	     Hiring Procedure ......................................................................... 194

                1.	      Recruiting Preparations and Formation of the Voting 

                         Section’s Hiring Committee ................................................ 194

                2.	      Evaluation of Applications.................................................. 200

                3.	      Qualifications of the Newly Hired Attorneys ........................ 204

        B.	     Statistical Evaluation .................................................................. 204

                1.	      Characteristics of the Applicant Pool .................................. 205

                2.	      Hiring Outcomes ................................................................ 208


V.	     Analysis................................................................................................ 213


VI.	    Conclusion ........................................................................................... 222


CHAPTER SIX: INVESTIGATION OF ALLEGED POLITICITIZATION

    OR BIAS IN RESPONSE TO REQUESTS FOR RECORDS ....................... 223


I.	     Introduction ......................................................................................... 223


II.	    Background .......................................................................................... 224

        A.	     Relevant Standards of Ethical Conduct........................................ 224

        B.	     Overview of Records Requests Received by the Voting Section ...... 225

                1.	      Requests for Pending Section 5 Submission Files ............... 225

                2.	      Requests under the FOIA ................................................... 226

        C.	     Organizational Responsibilities for Responding to Records 

                Requests ..................................................................................... 228

                1.	      Responses to Requests for Pending Section 5 Submission 

                         Files................................................................................... 228

                2.	      Responses to FOIA Requests .............................................. 229

        D.	     Voting Section Creates Procedures To Respond to Records 

                Requests (2003)........................................................................... 230

        E.	     Designation of New Manager to Oversee Records Requests

                in 2006 ....................................................................................... 231

                1.	      Systemization of Records Requests and Responses............. 232

                2.	      Response to Incidents of Potential Favoritism from

                         2006-2008 ......................................................................... 233


III.	   Factual Findings ................................................................................... 234

        A.	     Role of Request Type in Response Times ...................................... 235


                                                       iv
       B.	     Role of Increase in Backlog in Differences in Response Times ...... 237

       C.	     Examination of Particular Comparisons....................................... 240

               1.	      Ashby/Somach/Hebert ...................................................... 240

               2.	      Media Requests for New Hire Resumes: Boston Globe

                        and Pajamas Media (PJM): ................................................. 241

               3.	      National Public Radio (NPR)/PJM ....................................... 243

       D.	     Other Requests from Alleged Conservative Requesters ................. 244

       E.	     OIG Review of Internal Voting Section E-mails for Evidence

               of Ideological Bias in FOIA Responses .......................................... 246

               1.	      League of United Latin American Citizens .......................... 247

               2.	      Mexican American Legal Defense and Education Fund ....... 248


IV.	   Analysis................................................................................................ 248


CHAPTER: SEVEN CONCLUSION .................................................................. 251





                                                      v
PAGE INTENTIONALLY LEFT BLANK





              vi

                                     CHAPTER ONE

                                    INTRODUCTION


I.    Background

      On November 4, 2008 (Election Day), two African-American men stood
outside of the entrance to a polling site on Fairmount Street in Philadelphia,
Pennsylvania. The men were members of the New Black Panther Party (NBPP)
and wore matching paramilitary clothing, such as trousers tucked into their
boots and berets adorned with the NBPP insignia. One of the men carried a
nightstick. Witnesses videotaped the men standing outside the polling place
and uploaded the videos to the Internet.

      Shortly thereafter, the Voting Section of the Department of Justice’s Civil
Rights Division (the Division or CRT) initiated an investigation into the matter.
On January 7, 2009, days before the inauguration of President Barack Obama,
the Division filed a civil action against the two NBPP members in the videos,
the NBPP’s national chairman, and the organization itself. The complaint filed
by the Division alleged violations of Section 11(b) of the Voting Rights Act,
which in general terms prohibits intimidation or attempted intimidation of
voters or other individuals assisting voters. 1

       None of the four defendants in the NBPP case answered the complaint in
the time period required by the Federal Rules of Civil Procedure. As a result,
the Department moved the court for an entry of default as to all four
defendants and, on April 2, 2009, the clerk of the court entered a default
against all of the defendants. The entry of default, however, did not conclude
the civil proceeding. It also was necessary for the Department to obtain from
the Court a default judgment against the defendants, including an order for the
injunctive relief that the Department was seeking. On April 17, 2009, the
Court ordered the government to file formal motion papers seeking the default
judgment and injunctive relief, and the clerk of the court indicated to the
Department that the Court would likely hold a hearing regarding the
Department’s motion.

       On May 15, 2009, the Division moved the court to dismiss the complaint
against three of the four defendants – namely, the NBPP, its chairman, and one
of the two members that were present at the polling station in Philadelphia on
Election Day. The Division continued the action against the fourth defendant,
the individual who stood outside the polling site holding a nightstick, and

      1   See 42 U.S.C. 1973i(b).


                                         1

sought a default judgment and an injunction prohibiting him from bringing a
weapon to a polling place in Philadelphia through 2013. The court granted the
Division’s requested relief on May 18, 2009.

       The Division’s handling of the NBPP case attracted attention from
Congress and national media. For example, several members of Congress sent
letters to Department personnel, including Attorney General Eric Holder,
requesting information about the NBPP matter. Similarly, in June 2009, the
U.S. Commission on Civil Rights (USCCR) initiated an investigation into the
Department’s handling of the NBPP case.

       In addition, this office received several letters starting in July 2009 from
Members of Congress, including Representatives Lamar Smith and Frank R.
Wolf, who requested that the Office of the Inspector General (OIG) investigate
the Department’s decision-making in the NBPP matter. In his responses to
those congressional requests, then-Inspector General Glenn A. Fine declined to
initiate such an investigation, noting that the OIG’s governing statute did not
authorize the OIG to investigate allegations of misconduct relating to
Department attorneys’ exercise of their authority in handling of litigation or
legal decisions and that the allegations raised in their letters therefore fell
within the exclusive jurisdiction of the Department’s Office of Professional
Responsibility (OPR). The OIG also referred the matter to OPR for its review.
In August 2009, OPR told the House Judiciary Committee in a letter that it had
initiated a review into the NBPP matter.

       On July 6, 2010, a former trial attorney in the Department’s Voting
Section who had worked on the NBPP case testified at a USCCR hearing
concerning the case and the Voting Section’s enforcement of voting laws. In
that appearance, the attorney stated that he perceived that there was an “open
hostility [in the Division] toward equal enforcement in a colorblind way of the
voting rights laws.” In addition, the attorney testified that he was told that CRT
leadership had instructed Voting Section management that the Voting Section
would not pursue cases against Black defendants for the benefit of White
victims, and that CRT leadership told the Voting Section that the new
administration had “no interest in enforcing” a statutory provision regarding
the removal of ineligible voters from voter rolls because those provisions
purportedly are more strongly supported by Republicans and remove more
potential Democratic voters from the voting rolls. 2

     Following the attorney’s appearance before the USCCR, Representatives
Smith and Wolf wrote to the OIG to request an investigation into the NBPP
matter and various aspects of the Voting Section’s enforcement of civil rights

       2 For purposes of this report, we have adopted the terminology typically employed by

the Division, namely “Blacks,” “Hispanics,” and “Whites.”


                                              2

laws. On September 13, 2010, then-Inspector General Fine sent a letter to
Representatives Smith and Wolf notifying them that the OIG planned to initiate
an investigation, stating:

      In your recent letters you have also identified broader issues that
      go beyond the Department's handling of the New Black Panther
      Party litigation. Through this letter I want to inform you that the
      OIG plans to initiate a review of the enforcement of civil rights laws
      by the Voting Section of the Department's Civil Rights Division.
      This review will examine, among other issues, the types of cases
      brought by the Voting Section and any changes in these types of
      cases over time; any changes in Voting Section enforcement
      policies or procedures over time; whether the Voting Section has
      enforced the civil rights laws in a non-discriminatory manner; and
      whether any Voting Section employees have been harassed for
      participating in the investigation or prosecution of particular
      matters.
The letter also stated: “While our review will include information about cases
such as the New Black Panther Party matter and others, our review will be
focused more broadly on the overall enforcement of civil rights laws by the
Voting Section rather than a single case.”

      Also on September 13, 2010, then-Inspector General Fine sent a
memorandum to CRT Assistant Attorney General Thomas Perez, informing him
that the OIG had initiated an investigation. The memorandum to Perez stated:

      The Office of the Inspector General (OIG) is initiating a review of
      the enforcement of civil rights laws by the Voting Section of the
      Department's Civil Rights Division. Our preliminary objectives are
      to examine the types of cases brought by the Voting Section and
      any changes in the types of cases over time; any changes in Voting
      Section enforcement policies or procedures over time; whether the
      Voting Section has enforced the civil rights laws in a
      nondiscriminatory manner; and whether any Voting Section
      employees have been harassed for participating in the investigation
      or prosecution of particular matters.

       On December 3, 2010, the USCCR released an interim report concerning
its investigation into the NBPP matter, which stated:

      The nature of these charges [concerning the handling of the NBPP
      matter and allegations of hostility in the Division to enforcing civil
      rights laws on behalf of White citizens] paints a picture of a Civil
      Rights Division at war with its core mission of guaranteeing equal
      protection of the laws for all Americans. During the Bush
      administration, the press reported ideological conflict within the

                                         3

       Division. If the testimony before the Commission is true, the
       current conflicts extend beyond policy differences to encompass
       allegations of inappropriately selective enforcement of laws,
       harassment of dissenting employees, and alliances with outside
       interest groups, at odds with the rule of law.

       On March 17, 2011, OPR issued a report concerning its investigation into
the NBPP matter. A redacted version of the OPR report was subsequently
released publicly on the House Committee on the Judiciary Democratic
website. 3 OPR concluded that Department officials did not commit professional
misconduct or exercise poor judgment in connection with the NBPP matter, but
rather acted appropriately in the exercise of their supervisory duties. OPR
further found that the Department’s decision to dismiss three of the four
defendants and to seek more narrowly tailored injunctive relief against the
fourth defendant was based on a good-faith assessment of the law and facts of
the case and had a reasonable basis. According to its report, OPR found no
evidence that partisan politics was a motivating factor in reaching the
Department’s decision or that the decision-makers were influenced by the race
of the defendants or any considerations other than an assessment of the
available evidence and the applicable law. OPR also stated that it had
concluded that the decision to initiate the NBPP case was based upon a good-
faith assessment of the facts and the law, that it found no evidence that
partisan politics was a motivating factor in authorizing the suit against the four
defendants.

       In February 2011, the former Voting Section attorney who appeared
before the USCCR in July 2010 wrote an article on an Internet website that
stated that that he had obtained a log of the Civil Rights Division’s Freedom of
Information Act (FOIA) data and alleged that “[t]he documents show a pattern
of politicized compliance within the Department’s Civil Rights Division.” In
particular, the attorney wrote, “FOIA requests from liberals or politically
connected civil rights groups are often given same day turn-around by the
Department. But requests from conservatives or Republicans face long delays,
if they are fulfilled at all.” 4 Congressman Wolf wrote a letter to the OIG
requesting that it investigate the allegations in the attorney’s article. On April
29, 2011, the OIG responded to Congressman Wolf indicating that we intended
to broaden the scope of our review of the Voting Section to include an
examination of whether requests for records submitted to the Voting Section

       3 http://democrats.judiciary.house.gov/letter/department-justice-opr-report-new-

black-panther-party-matter (accessed on March 8, 2013). In addition, Assistant Attorney
General Thomas Perez discussed the findings of the OPR report in public testimony in July
2011.
       4 The attorney later testified before the Senate Judiciary Committee concerning his

FOIA allegations.


                                              4

were treated differently based upon the perceived political affiliation or ideology
of the requester.

      In August 2011, the former Voting Section attorney mentioned above and
another former CRT attorney wrote a series of Internet articles alleging that,
based on their review of Civil Rights Division documents, the Division had
engaged in politicized or ideological hiring since the beginning of the current
presidential administration. The attorneys asserted that the Civil Rights
Division since January 2009 had hired attorneys that were liberal “activists
who [had] embraced radical political agendas far outside of the legal
mainstream,” and that the improper hiring occurred in all of the CRT sections,
including the Voting Section. On August 11, 2011, U.S. Senator Charles
Grassley wrote to the OIG requesting that it investigate the allegations
concerning politicized hiring in the CRT. In October 2011, the OIG informed
Senator Grassley that it would include a review of the Voting Section’s hiring
practices since January 2009.

       This report describes the results of the OIG’s review.


II.    Prior Related OIG Reviews

       In 2008, the OIG, together with OPR, released three reports concerning
improper hiring practices in the Department. 5 One OIG-OPR report revealed
that former Assistant Attorney General for Civil Rights Bradley Schlozman
considered political and ideological affiliations in several personnel actions,
including the transfer of CRT career employees, case assignments, and
performance awards. A second OIG-OPR report concluded that Monica
Goodling, the Department’s White House Liaison and Senior Counsel to the
Attorney General, also considered political and ideological affiliations in
Department personnel actions, including hiring career personnel and
approving details of career staff, in violation of federal law and Department
policy. Some of the personnel mentioned in this report worked in the Civil
Rights Division. A third report addressed allegations of politicized hiring in the
Department Honors Program and Summer Law Intern Program.




       5  See OIG-OPR Report, An Investigation of Allegations of Politicized Hiring and Other
Improper Personnel Actions in the Civil Rights Division, July 2008 (released publicly January 13,
2009); OIG-OPR Report, An Investigation of Allegations of Politicized Hiring by Monica Goodling
and Other Staff in the Office of the Attorney General, July 2008; OIG-OPR Report, An
Investigation of Allegations of Politicized Hiring in the Department of Justice Honors Program and
Summer Law Intern Program, June 2008.


                                                5

III.   Methodology of the Investigation

        As described in the OIG’s initiation memorandum, the OIG’s review
initially examined several main issues: the types of cases brought by the
Voting Section and any changes in the types of cases over time; any changes in
Voting Section enforcement policies or procedures over time; whether the
Voting Section has enforced the civil rights laws in a non-discriminatory
manner; and whether any Voting Section employees have been harassed for
participating in the investigation or prosecution of particular matters. The
review was subsequently expanded to address allegations about the processing
of FOIA requests by the Voting Section, and the hiring practices by the Voting
Section from 2009 to 2011.

       To investigate these issues, the OIG conducted more than 135 interviews
with more than 80 individuals currently or previously employed by the
Department. Over the course of our inquiry, we interviewed several senior
officials in the Department, including Attorney General Eric H. Holder Jr.,
Associate Attorney General Thomas Perrelli, former Associate Deputy Attorney
General (and current Solicitor General) Donald Verrilli, Counsel to the Attorney
General Aaron Lewis, Deputy Associate Attorney General Samuel Hirsch, and
Assistant Attorney General Thomas Perez, and former Acting Assistant
Attorney General Loretta King. The OIG also interviewed senior Department
personnel from the prior presidential administration, including Assistant
Attorneys General for Civil Rights Ralph Boyd, Alex Acosta, Bradley Schlozman,
and Wan Kim, as well as Acting Assistant Attorney General for Civil Rights
Grace Chung Becker.

       We received more than 100,000 pages of documents during the course of
our review from the Department that we relied upon in drafting this report.
These included materials related to Voting Section cases and matters, Division
enforcement policies and procedures, and Division personnel matters. In
addition to the documents received from the Department, we reviewed
hundreds of thousands of e-mails from the accounts of current and former
Department personnel, as well as court decisions and filings in numerous
cases.


IV.    Organization of this Report

      This report is divided into seven chapters, including this Introduction.
Chapter Two provides relevant background information about the Civil Rights
Division, the Voting Section, and the voting rights laws within the Voting
Section’s enforcement jurisdiction.

      Chapter Three examines the Voting Section’s enforcement of selected
voting rights laws over time. This chapter includes an analysis of whether the
enforcement priorities of the Voting Section have changed over time and
                                       6

whether the Civil Rights Division has enforced voting rights laws in a non-
discriminatory fashion.

       In Chapter Four, we address allegations we received that Voting Section
employees were harassed, mistreated, marginalized, or removed due to their
political ideology or the positions they advocated in connection with Voting
Section matters. We describe in detail a number of events we uncovered over
the course of the investigation and then provide our analysis of the evidence.

      In Chapter Five, we describe the results of our investigation into whether
CRT staff considered the political affiliations or ideology of applicants for Voting
Section career attorney positions advertised between January 20, 2009, and
December 31, 2011.

      Chapter Six describes the results of our investigation into whether Civil
Rights Division staff, primarily the Voting Section, treated responses to
requests for records differently based upon the political affiliation or ideology of
the requester.

       In Chapter Seven, we summarize our overall conclusions regarding the
Civil Rights Division’s enforcement of voting rights laws.

     Appendix A contains the Department’s response to our report.
Appendices B through E contain material described in the body of our report.




                                         7

PAGE INTENTIONALLY LEFT BLANK





              8

                               CHAPTER TWO

                               BACKGROUND


I.    Organization of the Civil Rights Division and the Voting Section

       Created by the enactment of the Civil Rights Act of 1957, the
Department’s Civil Rights Division (the “Division” or “CRT”) enforces a wide
array of laws that protect the civil rights of all individuals, including the
enforcement of federal statutes prohibiting discrimination on the basis of race,
color, sex, disability, religion, familial status, and national origin. During the
time period of our review, the CRT was organized into 11 separate sections, one
of which is the Voting Section.

      The Voting Section is responsible for enforcing federal voting laws,
including investigating and litigating civil matters throughout the United States
and its territories, conducting administrative review of changes in voting
practices and procedures in certain jurisdictions, and monitoring elections in
various parts of the country. The Voting Section is staffed with approximately
100 employees, comprising attorneys, social scientists, civil rights analysts,
and support personnel. Since 1995, the Voting Section has generally employed
35-40 attorneys at any given time, although the number of Section attorneys in
that period has fluctuated between 31 (1998) and 45 attorneys (2010). The
structure of the Section’s management team has varied over time, but Section
leadership has generally included a Section Chief and several Deputy Section
Chiefs and Special Litigation Counsels. The Section’s staff, including its
management team, is comprised entirely of career employees.

      Table 2.1 shows the management of the Civil Rights Division and the
Voting Section during the period from 2001 to 2011.




                                        9

PAGE INTENTIONALLY LEFT BLANK





             10

                                                                                                                              Civil Rights Division and Voting Section Management

                                                                                                                                           January 2001-December 2012



Year          2001                        2002                            2003                              2004                         2005                    2006                          2007                              2008                         2009                            2010                       2011                           2012
Month         J F MA MJ      J A S O N D J F MA MJ J A S O N D J F MA M J                  J A S O N D J F MA MJ J A S O N D J F M A M JJ A S O N D J F M A MJ J A S O N D J F MA MJ J A S O N D JF MA MJ J A S O N D J F MA MJ J A S O N D J F MA MJ J A S O N D J F MA MJ J A S O N D J F MA MJ J A S O

AAG           Bill Yeomans                           Ralph Boyd                                                  R. Alexander Acosta             Schlozman                        Wan Kim                                          Grace Chung Becker                 Loretta King                                        Thomas Perez




                                                                                                                                                                                                                      Comisac
                                                                                            Wiggens




                                                                                                                                                                                                                      (Acting)
                  (Acting)                       (July 2001-July 2003)                                         (August 2003-June 2005)             (Acting)               (November 2005-August 2007)                                    (Acting)                       (Acting)                                       (October 09-Present)
                                                                                                                                                June-Nov 05                                                                       Dec 2007-January 2009              Jan-Sept 2009
               Jan-June 01


                                                                                                                                                                                                                                                                                   Mark
                                                                                                                                                               Bradley
PDAAG                           R. Alexander Acosta                          J. Michael Wiggins                    Sheldon Bradshaw                                                    Rena Comisac                                     Lisa Krigsten                            Kappelhoff                Sam Bagenstos                             Jocelyn Samuels
                                                                                                                                                              Schlozman
                                                                                                                                                                                                                                                                                  (Acting)


                                                                                                                                                                                                                                                                  Steve
VS DAAG                                          J. Michael Wiggins                                          Bradley Schlozman                            Rena Comisac                                Asheesh Agarwal                                           Rosenbaum                            Julie Fernandes
                                                                                                                                                                                                                                                                 (Acting)


VS CHIEF                                                                   Joe Rich                                                                                            John Tanner                                                              Chris Coates                                                         Chris Herren



VS Prin Dep                                                                                                                                                                     Chris Coates                                                                                                     Rebecca Wertz



VS Deputy                                                                                                          Rebecca Wertz                                                                                                                                                                                                Richard Dellheim



VS Deputy                                                                Robert Kengle                                                                                              Susana Lorenzo-Giguere (Acting)                                     Chris Herren                                                                     Sarabeth Donovan



VS Deputy                                                                                                                                                                                                                                                                                        Robert Popper



VS Deputy                                                                                   Gilda Daniels                                                                                                                                                                                                                                Meredith Bell-Platts



VS Deputy                                                                                                                                                                                                                                                                                                Tim Mellett


VS Deputy
                                                                                      Robert Berman                                                                                   Yvette Rivera (Acting)                       Tim Mellett                                                          Robert Berman
(Sec 5)
II.   Voting Rights Laws

      A.    Voting Rights Act of 1965

       President Lyndon B. Johnson signed the Voting Rights Act (VRA) into law
on August 6, 1965. The VRA prohibited voting practices by states and
municipalities that had historically discriminated against Blacks and were
designed or implemented to disenfranchise Black citizens. In particular, the
statute prohibited voting practices that were imposed with the intent or effect
of denying or abridging the right of any U.S. citizen to vote on account of race
or color, such as literacy tests.

       In addition, the VRA provides for enhanced federal oversight of voting
practices in certain states, counties, and other political subdivisions that meet
specific criteria. For instance, under Section 5 of the statute, the political
subdivisions subject to these special provisions, commonly called “covered
jurisdictions,” are required to submit any proposed changes to voting practices
or procedures to the Department or federal district court for review before the
proposed changes can be implemented. Other provisions in the VRA authorize
the federal government to send election observers to polling places in covered
jurisdictions to monitor election-day practices.

       Congress has renewed the VRA and expanded its scope multiple times
since its original enactment in 1965. In 1970 and 1975, Congress extended
the provisions concerning enhanced oversight over covered jurisdictions for five
and seven years, respectively. Congress renewed those special provisions for
an additional 25 years in 1982 and again in 2006.

      These and other voting-related statutes are discussed in greater detail
below.

            1.     VRA Section 2

       Section 2 is widely considered to be the cornerstone of the VRA and
prohibits voting practices and procedures, including redistricting plans, at-
large election systems, and voter-registration procedures, that discriminate on
the basis of race, color, or membership in a language-minority group.

       The language of Section 2 enacted in 1965 provided: “No voting
qualifications or prerequisite to voting, or standard, practice, or procedure
shall be imposed or applied by any State or political subdivision to deny or
abridge the right of any citizen of the United States to vote on account of race
or color.” The 1975 amendments to the VRA expanded the scope of this
provision to prohibit practices or procedures that deny or abridge the right of
any citizen of the United States to vote because of membership in a language-
minority group. In 1982, Congress amended the provision to provide that a
plaintiff could establish a Section 2 violation if the evidence established that, in

                                        11

the context of the “totality of the circumstance of the local electoral process,”
the standard, practice, or procedure being challenged had the result of denying
a racial or language minority an equal opportunity to participate in the political
process.

       Section 2 prohibits election-related practices and procedures that are
intended to be racially discriminatory, as well as those that have a racially
discriminatory impact. In general terms, there are two types of practices
prohibited by Section 2: vote denial and vote dilution. Vote-denial practices,
including literacy tests, poll taxes, and language barriers, are designed or
implemented to prevent people from voting or having their votes counted on the
basis of race or language. Vote-dilution practices diminish minorities' political
influence where they are allowed to vote, such as at-large elections and
redistricting plans that have the intention or effect of reducing the political
influence of minority groups. Unlike some other provisions of the VRA, Section
2 is permanent and applies throughout the United States.

        The Voting Section enforces Section 2 by initiating civil litigation, as well
as filing amicus briefs in Section 2 cases initiated by private plaintiffs. The
Voting Section has also participated in Section 2 matters brought by private
plaintiffs through the submission of statements of interest pursuant to 28
U.S.C. § 517, which authorizes the Attorney General to attend to the interests
of the United States in any pending suit.

              2.      VRA Section 5

       The VRA contains special provisions that impose restrictions on certain
jurisdictions, particularly states and counties that have a history of racial
discrimination in voting. Under the current VRA formula, all or parts of 16
states are subject to these special restrictions. Those entities are commonly
called “covered jurisdictions.”

       The most prominent of the special provisions is Section 5, which freezes
changes in election practices or procedures in covered jurisdictions until the
new procedures have been determined to have neither discriminatory purpose
nor effect. 6 Covered jurisdictions can submit proposed voting changes for

        6 Section 5 states in pertinent part that, whenever a covered jurisdiction seeks to enact

a voting change, including enacting or seeking to administer any voting qualification or
prerequisite to voting, or standard, practice, or procedure:

       (a) . . . such State or subdivision may institute an action in the United States
       District Court for the District of Columbia for a declaratory judgment that such
       qualification, prerequisite, standard, practice, or procedure neither has the
       purpose nor will have the effect of denying or abridging the right to vote on
       account of race or color, or in contravention of the guarantees set forth in
       section 1973b(f)(2) of this title, and unless and until the court enters such
                                                                                          Cont’d

                                               12

administrative review by the United States Attorney General, or a declaratory
lawsuit before the United States District Court for the District of Columbia.
The Department’s administrative review is described in greater detail below. 7

                       a.     Submissions

       As noted above, the Voting Rights Act requires certain covered
jurisdictions to submit all voting changes to the Department or the Federal
District Court in Washington, D.C. for preclearance review before such changes
can become effective. Voting changes that have not been reviewed under
Section 5 are legally unenforceable. More than 99 percent of proposed changes
are submitted to the Department for administrative review, rather than the
federal district court, largely because the Department’s administrative reviews
are less expensive for the covered jurisdiction and generally result in a faster
outcome.

       Upon receiving changes submitted pursuant to VRA Section 5, the Voting
Section reviews the proposed change to determine whether the change is free of
discriminatory purpose and effect. The legal standard for the Section 5 review
is whether the new plan has the purpose or the effect of denying or abridging
the right to vote on account of race or color.



       judgment no person shall be denied the right to vote for failure to comply with
       such qualification, prerequisite, standard, practice, or procedure: Provided,
       That such qualification, prerequisite, standard, practice, or procedure may be
       enforced without such proceeding if the qualification, prerequisite, standard,
       practice, or procedure has been submitted by the chief legal officer or other
       appropriate official of such State or subdivision to the Attorney General and the
       Attorney General has not interposed an objection within sixty days after such
       submission, or upon good cause shown, to facilitate an expedited approval
       within sixty days after such submission, the Attorney General has affirmatively
       indicated that such objection will not be made.[]
       (b) Any voting qualification or prerequisite to voting, or standard, practice, or
       procedure with respect to voting that has the purpose of or will have the effect of
       diminishing the ability of any citizens of the United States on account of race or
       color, or in contravention of the guarantees set forth in section 1973b(f)(2) of this
       title, to elect their preferred candidates of choice denies or abridges the right to
       vote within the meaning of subsection (a) of this section.
42 U.S.C.A. § 1973c.

       7  On November 9, 2012, the U.S. Supreme Court granted certiorari in the matter of
Shelby County v. Holder on the question of “Whether Congress’ decision in 2006 to reauthorize
Section 5 of the Voting Rights Act under the pre-existing coverage formula of Section 4(b) of the
Voting Rights Act exceeded its authority under the Fourteenth and Fifteenth Amendments and
thus violated the Tenth Amendment and Article IV of the United States Constitution.” The
Court heard argument in the case on February 27, 2013.


                                               13

       In evaluating whether a proposed voting change has a discriminatory
purpose, the Department examines the circumstances surrounding the
submitting authority’s adoption of the change to determine whether direct or
circumstantial evidence exists of any discriminatory purpose of denying or
abridging the right to vote on account of race or color, or membership in a
language-minority group. 8 With regard to the discriminatory effect prong of the
Section 5 analysis, a proposed voting change will be deemed to have a
discriminatory effect if the change would leave members of a racial minority
group in a worse position than they had been before the change with respect to
“their effective exercise of the electoral franchise.” See Beer v. United States,
425 U.S. 130, 141 (1976); see also 28 C.F.R. Part 51.54, Procedures for the
Administration of Section 5 of the Voting Rights Act of 1965, as amended
Subpart F, Determinations by the Attorney General, Discriminatory Effect.
This discriminatory effect is commonly called “retrogression” or a “retrogressive
effect.” See id.

       The submitting jurisdiction bears the burden of establishing that the
proposed change is non-discriminatory. If the Department determines that the
proposed change satisfies Section 5’s requirements, it will generally issue a
letter to the submitting jurisdiction indicating that it has no objection to the
proposed change, which is generally called “preclearing” the voting change.
Such preclearance then authorizes the jurisdiction to implement the proposed
change. If the Department determines that the submitting jurisdiction has not
satisfied its burden of establishing that the proposed change is free of
discriminatory purpose or effect, however, the Department will issue a letter to
the jurisdiction interposing an objection, which pursuant to the VRA blocks the
jurisdiction from implementing the proposed change. If the Department
interposes an objection, a submitting jurisdiction may seek preclearance in
federal court. If a covered jurisdiction seeks to implement a voting change
without preclearance from either the Department or a federal court, the
Department is authorized to pursue a civil suit to prevent the implementation
of that change. The Department's enforcement authority is described in
greater detail below.

      Under Section 5, the Department must review the submission within 60
days. If the Department does not interpose an objection to the proposed
change within 60 days, the change is precleared as a matter of law. The Voting
Section is authorized to request additional information from the submitting
jurisdiction, which is generally called a “more-information request” and tolls
the Department’s 60-day deadline until the jurisdiction provides the requested
information.

       8  For instance, the Voting Section will generally review public statements of members of
the adopting body or others who may have played a significant role in the process for evidence
of an intent to deny or abridge the right to vote of a racial minority group.


                                              14

                     b.     Enforcement

       As noted above, voting changes in covered jurisdictions that have not
been reviewed under Section 5 are legally unenforceable. If a covered
jurisdiction implements such a change without obtaining preclearance from the
Department or a favorable ruling from the federal district court, the
Department is authorized under the VRA to sue the jurisdiction in federal court
to enjoin the Section 5 violation. Such lawsuits are commonly called Section 5
enforcement actions, and they are heard by a three-judge panel in federal
district court. If a panel determines that the jurisdiction is violating Section 5,
the typical remedy includes an injunction against further use of the voting
change at issue.

              3.     VRA Sections 3 and 8

       Sections 3 and 8 of the VRA authorize the federal government to dispatch
observers to monitor voting-related procedures in political subdivisions that
have been certified by either a federal court or the Department. The Voting
Section is responsible for investigating whether federal observers are needed in
a particular jurisdiction, by determining whether it is likely that minority voters
will not be allowed to cast a ballot without interference in particular polling
places on Election Day. 9 If the Section concludes that federal observers are
needed in a particular jurisdiction, it will notify the Office of Personnel
Management (OPM) of that determination. Approximately 160 counties and
parishes in 15 states are currently certified for federal observers. See id. OPM
then recruits observers to monitor the jurisdiction’s voting practices and write
reports of the activities they witness, which are then provided to the Voting
Section. The Voting Section uses the observers’ reports to determine whether
further enforcement of the Voting Rights Act is needed in the jurisdiction.

              4.     VRA Section 11(b)

       Section 11(b) of the VRA prohibits intimidation or attempted intimidation
of voters or other individuals assisting voters, stating:

       No person, whether acting under color of law or otherwise, shall
       intimidate, threaten, or coerce, or attempt to intimidate, threaten,
       or coerce any person for voting or attempting to vote, or intimidate,
       threaten, or coerce, or attempt to intimidate, threaten, or coerce
       any person for urging or aiding any person to vote or attempt to
       vote, or intimidate, threaten, or coerce any person for exercising
       any powers or duties under section 3(a), 6, 8, 9, 10, or 12(e).

       9 See Department of Justice, Civil Rights Division, “About Federal Observers and
Election Monitoring,” http://www.justice.gov/crt/about/vot/examine/activ_exam.php
(accessed on March 8, 2013).


                                             15

       The Voting Section has pursued only a handful of Section 11(b) cases
since its enactment in 1965, almost always in conjunction with Section 2
enforcement, as discussed above. Two of the most prominent cases involving
11(b) claims are the Noxubee, Mississippi (2006) and New Black Panthers Party
(2009) cases, which are described in Chapter Three of this report.

            5.     VRA Sections 203 and 4(f)(4)

       In 1975, Congress amended the VRA, expanding its scope to protect
language-minority citizens. Under VRA Sections 203 and 4(f)(4), certain
jurisdictions must provide bilingual written materials and other assistance for
non-English-speaking citizens. The language minorities covered under the
VRA are American Indians, Asian Americans, Alaskan Natives, and Spanish-
heritage citizens. The Census Bureau determines which jurisdictions are
covered under the language-minority provisions, based upon a formula set out
in the VRA. Following the 2010 census, the Director of the Census Bureau
determined that more than 300 jurisdictions in 24 states were subject to the
VRA Section 203. See “Voting Rights Act Amendments of 2006,
Determinations Under Section 203,” 76 Fed. Reg. 198 (October 13, 2011), p.
63602, http://www.justice.gov/crt/about/vot/sec_203/2011_notice.pdf
(accessed on March 8, 2013).

      B.    National Voter Registration Act

       The National Voter Registration Act, also known as the NVRA or the
Motor Voter Act, was enacted in 1993. The general purposes of the NVRA are
two-fold: to increase the number of eligible citizens who register to vote in
federal elections and to protect the integrity of the electoral process. With
respect to its purpose of increasing voter registration, the NVRA requires states
to provide voter registration opportunities at a wide range of state facilities,
including motor vehicle offices (Section 5) and public assistance and disability
offices (Section 7). In addition, the NVRA mandates that states accept voter
registration forms submitted through the mail (Section 6) and register voters
whose applications are received at least 30 days before an election (Section 8).
Section 8(a)(4) of the NVRA is the primary provision addressing the purpose of
protecting electoral integrity. Section 8(a)(4), which is commonly referred to as
the list-maintenance or list-purging provision, requires states to employ a
reasonable effort to remove ineligible voters from their voter rolls, such as those
who have died or moved outside the jurisdiction. Section 8 also includes
certain safeguards to which states must adhere in conducting their list-
maintenance efforts, in order to prevent improper list purging and the removal
of eligible voters.




                                        16

      C.    Uniformed and Overseas Citizens Absentee Voting Act

       The Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA) was
enacted by Congress in 1986 and requires that the states and territories allow
certain groups of citizens to register and vote absentee in elections for federal
offices. The citizens covered under UOCAVA include military personnel and
their families, and citizens residing outside the United States. In 2009,
Congress amended UOCAVA to establish new voter registration and absentee
ballot procedures with the enactment of the Military and Overseas Voter
Empowerment Act (commonly called the “MOVE Act”).

      D.    Help America Vote Act of 2002

     The Help America Vote Act of 2002 (HAVA) is designed to improve the
administration of elections in the United States by establishing minimum
standards for states to follow in several key areas of election administration.




                                        17

PAGE INTENTIONALLY LEFT BLANK





             18

                     CHAPTER THREE

          ENFORCEMENT OF SELECTED VOTING RIGHTS

                    LAWS OVER TIME


I.    Introduction

       In this chapter we examine the Voting Section’s enforcement of selected
voting rights laws over time. Our focus is to determine how the enforcement
priorities of the Voting Section have changed over time and to determine
whether the voting rights laws have been enforced in a non-discriminatory
fashion.

       The OIG utilized the following methodology in this chapter. First, we
collected and analyzed extensive data regarding the activities of the Voting
Section, going back as far as 1993 where appropriate. We interviewed current
and former employees of the Voting Section and the Civil Rights Division in
order to obtain greater insight into the overall activities and enforcement
priorities of the Section and to identify particular case decisions or other
incidents that have given rise to allegations that improper racial, political, or
ideological considerations drove actions taken by CRT managers or Voting
Section staff in the enforcement of voting rights laws. From these interviews,
we selected a group of cases and incidents for deeper investigation.

       We then reviewed thousands of e-mails and internal documents relating
to the selected cases or incidents, and interviewed numerous witnesses who
were involved in the matters. During our investigation, we looked for direct
evidence of improper considerations, such as contemporaneous statements in
e-mails, memoranda, or other documents that would support an inference of
an improper racial bias or political agenda. We also analyzed the positions
taken in the cases, and the stated reasons for case decisions, to determine
whether they were, as some have alleged, a pretext for improper but unstated
considerations. We reviewed evidence across multiple cases and incidents to
assess their cumulative significance and to determine whether the evidence
revealed a pattern of decisions supporting an inference of discriminatory
enforcement of the voting rights laws.

      In reviewing selected cases, we considered a large volume of information
that the Department informed us it considers to be pre-decisional deliberative
materials or otherwise subject to claims of privilege, including the contents of
many internal Division e-mails, memoranda, and other communications in
which career attorneys and Division leadership set forth preliminary analyses
and advocated positions on particular issues. In an effort to protect, where
appropriate, the integrity and candor of the confidential pre-decisional process,

                                       19

in many cases in this report we did not describe in full detail all the materials
we reviewed, as well as the underlying debates and analyses, where we were
able to fairly describe the issues and the reasons for our analyses and
decisions without doing so. Moreover, in some cases discussed in this report,
the Department previously had made public some details of the pre-decisional
process, which enabled us to address the facts in those cases in a more
detailed and specific manner. As a result, the degree to which we discuss
particular decisions in detail varies widely from case to case. Lastly, in some
matters that never became filed cases, we believed it was appropriate and fair
to take steps to conceal the identity of the potential defendants.

       In Section II of this chapter we provide an overall review of enforcement
actions, focusing on data regarding the changing mix of court cases filed under
the various voting rights statutes within the Voting Section’s jurisdiction over
time. We then move to a more detailed examination of the Voting Section’s
activities with respect to the primary statutory provisions that it enforces. In
Section III, we address litigation under Sections 2 and 11(b) of the Voting
Rights Act; in Section IV, we examine the Section’s activities in connection with
preclearance of voting changes under Section 5 of the VRA; in Section V, we
address enforcement of the NVRA; and in Section VI, we examine the Voting
Section’s enforcement of several language-minority provisions of the VRA. In
Section VII, we discuss the Section’s enforcement of UOCAVA. In Section VIII,
we present our conclusions. In summary, we found that, while there were
variations and trends in enforcement of the voting rights statutes over time,
and that these sometimes reflected varying enforcement priorities, there was
not sufficient evidence to conclude that these changes were based on
discriminatory or other improper bases.


II.    Overall Review of Enforcement Actions

      Figure 3.1 presents the number of enforcement actions that the Voting
Section brought or participated in for selected statutory provisions during each
calendar year from 1993 through 2012. The statutes reflected in Figure 3.1
include Sections 2, 4(e), 4(f)(4), 5, 10 11(b), 203, and 208 of the VRA, as well as
the NVRA, HAVA, and UOCAVA. 11 This list includes all of the significant efforts
by the Voting Section to enforce the voting rights laws through litigation. For

         10 The OIG’s analysis includes the Section’s affirmative actions to enforce VRA Section

5, including filing claims in court and amicus briefs in private litigations, but does not include
its review of voting change submissions for preclearance under VRA Section 5, the numbers of
which are beyond the Section’s control and hence do not reflect a choice to emphasize that
particular statute. In addition, Section 5 preclearance submissions number in the thousands
and would overwhelm the other data in this figure.
      11 The analysis of UOCAVA enforcement includes actions taken to enforce provisions of

the MOVE Act, which was enacted in 2009.


                                                20

purposes of this figure, we defined enforcement actions to include the Section’s
affirmative efforts to enforce voting-related laws against specific jurisdictions
and defendants, including filing lawsuits or counterclaims in court, submitting
statements of interest or briefs as amicus curiae in third-party litigation, and
executing out-of-court settlement agreements. 12

Figure 3.1 New Enforcement Actions by the Voting Section, 1993-2012



30




                                                                       1
25

                                                                       4
                                                                                                           VRA Section 11(b)
20                                                                                                         VRA Section 5 Enf.
                                                                       5                                   VRA Section 208
                                                                                 3
                                                                                                           HAVA
                                                                                                     4
                                                                            1    1                         UOCAVA
15    2
                                                                       3    1    1
      1                                                                                                    Lang-Min
               9   3                                              1         3
                                                                                                           NVRA
      3
                                         2         4              2              6
                   1                                         1                                             VRA Section 2
10                                                                                         14        8
                   1                     1                             7
                               4                             2
               1                    1              3                                  1
                                                                  6         8    2
                       3            1                                                 1
                               2
                   7                                                                  1
 5   10                                            2         6                   2              2    2
                       1                 9              1              3
                               2                                                      2
               7                                   1              1
                       2            6                   2                                            2
                               1                                                                3
                                              4    2                        2    4    2
                                                                  3    3                   3
                   2   2       2                        2    2                                       2
                           1                       1                        1         1         1
 0
     1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012



       This chart is not intended to represent the complete workload of the
Voting Section, and year-to-year variations in the total number of cases
initiated by the Section should not be interpreted to represent variation in the
quantity of work performed by the Section’s personnel. The purpose of this
chart is solely to provide a graphic representation of changes in the mix of
enforcement activities that reflect the exercise of enforcement discretion by
Division leadership. The chart omits many activities that do not involve the
exercise of affirmative enforcement discretion, including: (1) administrative
determinations on submissions from jurisdictions seeking Section 5
preclearance for voting changes; (2) defensive litigation initiated by
jurisdictions seeking judicial preclearance under Section 5 for voting changes
such as redistricting plans; (3) constitutional challenges to statutes


          We note that the Section submitted briefs as amicus curiae in several cases from
          12

1993 to 2012 that advocated legal positions that we did not include as enforcement actions,
such as defending the constitutionality of a statute.


                                                            21

administered by the Voting Sections, especially Section 5; and (4) “bailout”
lawsuits under Section 4 of the VRA initiated by jurisdictions seeking to be
removed from Section 5 coverage. 13 We found that these non-discretionary
activities consume a large portion of Voting Section time and resources. 14 For
example, the Voting Section typically addresses thousands of Section 5
preclearance submissions each year.

      In addition, in recent years the number of new cases in the Section’s
defensive docket (categories (2) through (4) above) has exceeded the number of
new enforcement cases that the Section has brought. Surges in the number
and complexity of these matters from year to year inevitably affect the
availability of Voting Section resources for affirmative litigation of cases.
According to information provided by the Department, there have been a total
of 24 bailout actions (category (4) above) filed in the District of Columbia since
2009, representing more than a three-fold increase in the frequency of such
cases. The Department also reported that there has been a similar increase in
the rate of declaratory judgment actions under Section 5 (category (2) above)
since 2010, and in the number of constitutional challenges to Section 5
(category (3) above). Statistics provided by the Department indicate that the
Voting Section’s defensive litigation docket did not begin exceeding its
affirmative docket until FY 2010.

       Figure 3.1 also does not capture some activities by the Voting Section
personnel that do not result in formal litigation or settlement agreements.
Examples include numerous investigations of potential violations of voting
rights laws that do not yield sufficient evidence to support filing a lawsuit. For
example, Assistant Attorney General (AAG) Thomas Perez stated in April 2012
that based on 2010 census data, the Voting Section has opened more than 100
new Section 2 investigations. He also has noted that there were four complex
Section 5 trials in 2012, which affected resources available for other work.

        We found that enforcement activity that does not ripen into formal
litigation, such as new investigations or pre-litigation negotiations, have not
been recorded in a sufficiently consistent manner to permit meaningful


       13  Figure 3.1 does include the small number of Section 5 judicial enforcement actions
that the Voting Section files when covered jurisdictions fail to obtain Section 5 pre-clearance
prior to implementing a voting change.
       14  Our exclusion of defensive litigation from Figure 3.1 (as well as our use of calendar
rather than fiscal years) is the reason the numbers in Figure 3.1 vary significantly from the
numbers given in public testimony describing the number of cases “handled” by the Voting
Section in recent years. See Statement of Thomas E. Perez, Assistant Attorney General, Civil
Rights Division, before the Subcommittee on the Constitution, Committee on the Judiciary,
United States House Of Representatives, Oversight Hearing on the U.S. Department of Justice
Civil Rights Division (July 26, 2012).


                                               22

comparisons across years or administrations and, therefore, such actions are
not reflected in the statistics presented in this report. 15

       Figure 3.1 reveals a very wide variation from year to year both in the
number of total lawsuits filed and in the mix of cases. Such year-to-year
variations do not necessarily reflect a change in enforcement priorities. Some
kinds of voting rights cases are extremely complex and can consume significant
resources and take several years to resolve. A large number of complex cases
filed one year may lead to a very small number of new cases filed the next, due
to the need to devote resources to litigate existing cases rather than develop
new ones. Other factors that may affect numbers from year to year include the
occurrence of federal elections and the release of new census data.

      In the remainder of this chapter we examine trends and significant
individual cases relating to particular statutes within the Voting Section’s
purview, including Sections 2 and 11(b) of the VRA; Section 5 of the VRA; the
NVRA; the language minority provisions of the VRA; and UOCAVA.


III.   Enforcement of Sections 2 and 11(b) of the VRA

       In this section we examine the Voting Section’s enforcement of Sections 2
and 11(b) of the VRA. We grouped these provisions together for several
reasons. They relate to conduct that directly impairs the ability of persons to
vote for their candidates of choice; they are sometimes enforced in the same
cases; and the enforcement decisions relating to them have been the subject of
a debate about whether the statutes should be used only or primarily for the
benefit of minority victims, or whether they also should be used on behalf of
White victims and against minority defendants. Finally, the number of Section
11(b) cases that have ever been filed is extremely small, so we determined it did
not make sense to treat Section 11(b) as a separate category for purposes of
analyzing available data.




        15 AAG Perez has testified that the Voting Section opened 172 new investigations in

Fiscal Year 2011, exceeding the number of investigations opened in any fiscal year during at
least the last 2 dozen years. See July 26, 2012, testimony cited above in footnote 14. As
noted, we did not find that the available records were sufficient to support a comparison of this
type.
        Although we have excluded investigative activity from Figure 3.1, we note that
investigative activity itself may be resource and time-intensive and, thus, that significant
numbers of investigations, especially when driven by periodic events such as the census, could
skew year-to-year comparisons of enforcement activity filed.


                                               23

           A.	          Data Regarding Enforcement Trends in Sections 2 and 11(b)
                        Cases

       According to data provided by the Division, the Voting Section has
participated in 63 actions to enforce Sections 2 and 11(b) since 1993. Of these
actions, the vast majority were Section 2 cases only. The Voting Section
brought only two Section 11(b) actions during this period and in one of those
cases the Voting Section also brought Section 2 claims. Figure 3.2 below
reflects the breakdown of these enforcement actions by year.

      Figure 3.2 Sections 2 and 11(b) Enforcement Actions, 1993-2012
 12


 10


  8


  6
                                                                                       VRA Section 11(b)
      10                                                                               VRA Section 2
                                         9
  4
                7                                        1
                                     6
  2                                          4                         4
                                                         3     3           1
                    2    2       2                   2                             2
                             1                   1                 1       1   1
  0




       We found that this data concerning the enforcement of Sections 2 and
11(b) reflected several trends regarding the overall volume of enforcement
actions since 1993, as well the racial classes protected in those matters.

      Volume of Cases: The data reflected a noteworthy difference in the
number of cases filed from 1993 through 2000, and from 2001 through 2012.
In particular, from 1993 through 2000 the Voting Section filed 35 Section 2
lawsuits and 4 briefs as amicus curiae, which far outpaced the filings during
both the subsequent 8 years (17 lawsuits and 1 out-of-court settlement) 16 and



          Former Counsel to the AAG Hans von Spakovsky noted in his OIG interview that
           16

during his tenure in the CRT front office (2002-2005), Division leadership approved two
additional Section 2 cases that are not reflected in Figure 3.2 because the Voting Section
subsequently withdrew its recommendation to pursue the matters due to changes in the
underlying factual circumstances.


                                                         24

the 4-year period from 2009 through 2012 (only 1 complaint filed, as well as
amicus curiae or statement-of-interest submissions in 3 other cases). 17

       Some current or former career employees in the Voting Section told us
that they believed that some Civil Rights Division leaders during the 2001 to
2008 period were reluctant or resistant toward bringing Section 2 cases.
Witnesses who worked in Division leadership during that period denied this
allegation and said they believed the Division developed a strong record of
enforcing Section 2 during that span of time. In that regard, Hans von
Spakovsky, who worked with Division leadership as Counsel to the CRT AAG
from 2002 to 2005, told the OIG that the number of opportunities to bring
Section 2 cases has decreased considerably over time. For example, according
to von Spakovsky, situations involving vote-denial have been rare since the
1960s and 1970s, and there are few opportunities to assert vote-dilution
claims because those typically arise from the creation of at-large election
districts and such districting is increasingly uncommon. Joseph Rich, who
was Chief of the Voting Section from 1999 through April 2005 (and who we
found sometimes clashed with von Spakovsky on enforcement issues), made
similar statements in his OIG interview, observing that the opportunities to
bring Section 2 cases, particularly vote-dilution claims, were declining at the
time. Rich told the OIG that he believed those opportunities were decreasing
because numerous vote-dilution cases had been brought in the 1980s and
1990s; there were fewer remaining at-large districts, which were traditional
targets of Section 2 claims; and the Section 5 preclearance process had
“weeded out” other situations that might have given rise to a Section 2 claim.

       Moreover, we found it significant that following the change in
administrations in 2009, there was no surge in new Section 2 cases as might
be expected if valid cases had been suppressed or discouraged in the prior
administration. Indeed, the number of Section 2 enforcement actions dwindled
to just four matters from 2009 through 2012.

       Julie Fernandes, who was Deputy Assistant Attorney General (DAAG)
between 2009 and 2011, addressed the small number of Section 2 cases
brought during this time period by the current administration when she was
interviewed by the OIG in early 2011. She indicated that the Section was
working on Section 2 lawsuits initiated during the prior administration,
including cases involving Euclid, Ohio, and Port Chester, New York. According
to Fernandes, the Division had not initiated new Section 2 cases because she
believed Division leadership had inherited a highly dysfunctional section,
       17  The Department submitted a Statement of Interest in third-party litigation in 2011
pursuant to 28 U.S.C. § 517, which authorizes the Attorney General to attend to the interests
of the United States in any pending suit. We included that submission as an enforcement
action because the Voting Section argued that the court should find that a specific jurisdiction,
which was a party to the lawsuit, had violated Section 2.


                                               25

which she largely attributed in her OIG interviews to management failures by
Christopher Coates, who was Voting Section Chief from January 2008 until
January 2010 (we discuss this topic in detail in Chapter Four). She stated
further that the Section had several cases “in the hopper,” including Section 2,
Section 203, and NVRA cases. AAG Perez also has stated in public statements
that the Voting Section initiated numerous investigations into Section 2
matters from 2009 through 2011. 18 Despite these claims, and the blame
leveled by Fernandes towards Coates, only one new Section 2 enforcement
action was brought by the Voting Section in 2010 and 2011, and we noted
that, through the end of 2012, the Section had not filed any new Section 2
actions. 19

      We did not receive allegations during our review that the Division
leadership since 2009 has been hostile or reluctant with respect to the
enforcement of Section 2 cases, and we did not find evidence to suggest that.
The current Division leadership told us that the increase in the defensive
docket, as described above, along with a large number of new enforcement
cases under UOCAVA, as described in Section VII of this chapter, have severely
limited the resources available for new Section 2 enforcement cases.
Nevertheless, we found the recent decline in Section 2 enforcement actions
notable because of the fact that some of the same people who made allegations
to us about the prior administration’s handling of Section 2 cases had
supervisory authority over the Voting Section during a time when few Section 2
cases were filed.

       Racial Demographics of Section 2 and Section 11(b) Cases: Figures
3.3, 3.4, and 3.5 below present the racial composition of the protected classes
in the Sections 2 and 11(b) matters pursued from 1993 through 2000, from
2001 through 2008, and from 2009 through 2012, respectively. The data
reflect considerable differences between the number of Sections 2 and 11(b)
matters pursued in those periods, with wide variances between the


         18 See, e.g., Statement of Thomas Perez, National Association of Secretaries of State

2012 Conference, Washington, DC, January 30, 2012,
http://www.justice.gov/crt/opa/pr/speeches/2012/crt-speech-1201301.html (accessed on
March 8, 2013) (stating: “We’ve opened more than 100 Section 2 investigations in the past
year”); Prepared Remarks of Thomas Perez, Rutgers Law Voting Symposium,
http://www.mainjustice.com/2012/04/13/prepared-remarks-by-assistant-attorney-general-
for-civil-rights-thomas-perez-on-voter-rights/print/ (accessed on March 8, 2013), April 13,
2012.

       19  According to an October 23, 2012, letter to the OIG from Jocelyn Samuels, Principal
DAAG for CRT, in fiscal year 2012 the Voting Section filed one brief in a Section 2 matter that
was initiated in 1986 and several statements-of-interest in Section 2 litigation. We also note
that in October 2012 the Division filed a statement of interest in a Section 2 case in Montana
that was initiated by private parties.


                                              26

enforcement of those provisions on behalf of African-Americans, Hispanics, and
Native Americans.

    Figure 3.3 Sections 2 and 11(b) Enforcement Actions, by Class 

                              Protected

                             (1993-2000)





                                                 African-Americans
                         1 1
                                                 Both African-Americans
                    8                            and Hispanics
                                                 Hispanics

                                     20
                                                 Native Americans
                    7
                                                 Asian-Americans
                          2
                                                 Arab-Americans




    Figure 3.4 Sections 2 and 11(b) Enforcement Actions, by Class 

                              Protected

                             (2001-2008)




                              1

                                      5
                                                 African-Americans

                                                 Whites

                                                 Hispanics
                                           1
                                                 Both Asian-Americans
                   11                            and Hispanics




                                     27

     Figure 3.5 Sections 2 and 11(b) Enforcement Actions, by Class 

                               Protected

                              (2009-2012)




                       1

                                                     African-Americans
                                            2
                                                     Whites
                                                     Hispanics
                  1                                  Native Americans



                              1



According to the OIG’s review of Voting Section enforcement data, the number
of Section 2 enforcement actions on behalf of African-American voters
decreased from 22 (1993-2000) to 5 (2001-2008) to 2 (2009-2012). Similarly,
the number of Section 2 enforcement actions on behalf of Native Americans
decreased from 8 (1993-2000) to 0 (2001-2008) and 1 (2009-2012). The
number of Section 2 enforcement actions on behalf of Hispanics, however,
increased from 9 (1993-2000) to 12 (2001-2008), which subsequently
decreased to 1 in the current administration.

       In addition, the Division under the previous administration filed two
cases enforcing these provisions against minority defendants and on behalf of
White victims. (The latter of these two cases was filed in early 2009, shortly
before the change in administrations, which is why it appears in Figure 3.5.)
Some career employees we interviewed cited these two cases, together with
other decisions by Division leadership during the prior administration that
rejected career staff proposals for enforcement action on behalf of minority
victims, as evidence that Division leadership during this period was more
interested in enforcing the voting laws on behalf of White voters or against
minority defendants than on behalf of the historical victims of discrimination.
Table 3.1 summarizes the cases approved for litigation by the Voting Section
under Sections 2 and 11(b) from January 2001 to January 2009. The “class
protected” column shows the racial or minority status of the class whose voting
rights were being protected in each case.




                                      28

                               Table 3.1

       Sections 2 and 11(b) Matters January 2001 – January 2009


Year     Defendant or       Type of             Class Protected                  Brief Description of
         Jurisdiction       Matter                                                   Allegations
                                       Blacks     Hispanics       Whites

2001   Charleston          Complaint                                       The county’s at-large method of
       County, SC          filed                                           electing members of the county
                                                                           commission violated VRA
                                                                           Section 2 by diluting the voting
                                                                           strength of African-American
                                                                           voters. Complaint was filed
                                         X
                                                                           immediately prior to change in
                                                                           administration in January
                                                                           2001, but the following CRT
                                                                           Division leadership supervised
                                                                           trial and appeal, both of which
                                                                           were successful.

2001   Crockett, County,   Complaint                                       The method of electing the
       TN                  filed                                           county's board of
                                                                           commissioners diluted the
                                         X
                                                                           voting strength of African-
                                                                           American voters in violation of
                                                                           Section 2.

2001   Alamosa County,     Complaint                                       The at-large method of election
       CO                  filed                                           of the Alamosa County Board of
                                                        X                  Commissioners violated Section
                                                                           2 because it diluted the voting
                                                                           strength of Hispanic voters.

2001   City of Lawrence,   Complaint                                       In 1998, the Section brought a
       MA                  filed                                           complaint against Lawrence in
                                                                           1998, alleging that the City
                                                                           presented barriers to entry for
                                                                           Hispanic voters. The parties
                                                                           settled the case, and the matter
                                                                           was closed. In 2001, the City
                                                        X
                                                                           adopted new election plans and
                                                                           the Section brought a
                                                                           Supplemental Complaint that
                                                                           introduced new claims, alleging
                                                                           dilution of Hispanic vote
                                                                           resulting from the newly
                                                                           adopted voting plans.

2002   Osceola County,     Complaint                                       Complaint alleged violations of
       FL                  filed                                           Section 2 by discriminating
                                                                           against Hispanic voters through
                                                                           hostile treatment at the polls
                                                                           and failing to provide adequate
                                                        X
                                                                           language assistance, as well as
                                                                           violations of VRA Section 208
                                                                           by not permitting Hispanic
                                                                           voters to bring assistors of their
                                                                           choice into the polling places.

2004   Township B          Lawsuit                                         The at-large method of election
                           Approved                                        of the governing board violated
                                         X
                                                                           Section 2 because it diluted the
                                                                           voting strength of Black voters.

2003   Berks County, PA    Complaint                                       The county discriminated
                           filed                        X                  against Hispanic voters through
                                                                           hostile treatment at the polls,



                                                  29

                                                                   failure to provide adequate
                                                                   language assistance, and by not
                                                                   permitting Hispanic voters to
                                                                   bring assistors of their choice
                                                                   into the polling place, in
                                                                   violation of VRA Sections 2,
                                                                   4(e), and 208.

2003        Locality F           Lawsuit                           CRT Front Office approved
                                 approved                          Voting Section recommendation
                                                                   to pursue Section 2 action
                                                                   against the locality’s police jury
                                                                   and school board on behalf of
                                              X                    Black citizens, but the Section
                                                                   later withdrew its
                                                                   recommendation after two
                                                                   Black citizens were elected to
                                                                   both of those entities and the
                                                                   matter was closed.

2003        City of Chelsea,     Out-of-                           Department’s investigation
            MA                   court                             concluded that the city’s
                                 settlement                        method of electing members to
                                                       X           its school committee violated
                                                                   Section 2 because it diluted the
                                                                   voting strength of Hispanic
                                                                   voters.

2005        Noxubee County,      Complaint                         Various practices of county
            MS                   filed                             election and party officials,
                                                                   including absentee ballot fraud
                                                             X     and improper voter assistance,
                                                                   discriminated against whites in
                                                                   violation of Sections 2 and
                                                                   11(b).

2005        Osceola County,      Complaint                         Lawsuit challenged the county's
            FL                   filed                             at-large system for electing its
                                                                   Board of Commissioners,
                                                                   arguing that it violated Section
                                                       X           2 by diluting Hispanic voting
                                                                   strength, and that the county
                                                                   had adopted and maintained
                                                                   the at-large method of election
                                                                   with a discriminatory purpose.

2005        City of Boston,      Complaint                         The city's election practices and
            MA                   filed                             procedures discriminated
                                                                   against members of language-
                                                                   minority groups, specifically
                                                   X 20            persons of Hispanic, Chinese,
                                                                   and Vietnamese heritage, by
                                                                   denying and abridging their
                                                                   right to vote.

2006        Long County, GA      Complaint                         Defendants' conduct effectively
                                 filed                             denied Hispanic voters an equal
                                                                   opportunity to participate in the
                                                       X
                                                                   political process and to elect
                                                                   candidates of their choice, in
                                                                   violation of Section 2.

2006        City of Euclid, OH   Complaint                         The city’s mixed at-large/ward
                                              X
                                 filed                             system of electing city council



       20   The complaint in this case also raised claims on behalf of Asian communities.


                                                  30
                                                          members dilutes the voting
                                                          strength of African-American
                                                          citizens in violation of Section
                                                          2.

 2006   Village of Port      Complaint                    The Village’s at-large system of
        Chester, NY          filed                        electing its governing board of
                                                          trustees violated Section 2 by
                                                  X
                                                          diluting the voting strength of
                                                          the jurisdiction’s Hispanic
                                                          citizens.

 2007   City of              Complaint                    Defendants' conduct has had
        Philadelphia, PA     filed                        the effect of denying Hispanic
                                                  X       voters an equal opportunity to
                                                          elect candidates of their choice
                                                          in violation of Section 2.

 2008   Georgetown           Complaint                    The defendants’ at-large
        County School        filed                        methods of electing the school
        District, SC                     X                board diluted the voting
                                                          strength of African-American
                                                          citizens.
2008    Osceola County,      Complaint                    Lawsuit challenged the
        FL                   filed                        districting plan for electing the
                                                          county’s school board, alleging
                                                  X       that the boundaries of the
                                                          existing single-member districts
                                                          diluted Hispanic voting strength
                                                          in violation of Section 2.
2008    Salem County/        Complaint                    Defendants violated Section 2 by
        Borough of Penns     filed                        enforcing standards, practices,
        Grove, NJ                                         or procedures that denied
                                                          Hispanic voters opportunity to
                                                  X
                                                          participate effectively in the
                                                          political process on an equal
                                                          basis with other members of the
                                                          electorate.
2008    Euclid City School   Complaint                    The at-large system of electing
        District Board of    filed                        members of the city’s school
        Education, OH                                     board diluted the voting
                                         X
                                                          strength of African-American
                                                          citizens due to racially polarized
                                                          voting.
2009    New Black Panther    Complaint                    The NBPP, its president, and
        Party (NBPP)         filed                        two members were sued under
                                                          Section 11(b) for intimidating
                                                      X
                                                          and attempting to intimidate
                                                          voters and poll watchers in
                                                          Philadelphia, PA.
2009    Town of Lake         Complaint                    The Town's at-large system of
        Park, FL             filed                        electing commissioners
                                                          effectively violated Section 2 by
                                                          diluting African-American voting
                                         X                strength; investigation
                                                          commenced under previous
                                                          administration and complaint
                                                          was filed under current
                                                          administration in March 2009.


As reflected in the table, from January 2001 through January 2009, Division
leadership approved or prosecuted 22 matters that included claims under VRA
Sections 2 or 11(b). This total included one matter that was approved by the
prior administration but litigated and defended on appeal during this period,
two matters that were initially approved but later determined to be moot for a

                                             31
variety of reasons unrelated to the race of the victims, and one matter that was
initiated during the period in question but was not filed until after the change
in administrations. Of these 22 matters, 8 matters were on behalf of Black
voters, 11 were on behalf of Hispanics or Asian populations, and 2 (Noxubee
and the New Black Panther Party case, discussed in detail below) were on
behalf of White victims or against minority defendants. 21 In light of the fact
that the number of cases brought on behalf of White voters constituted a small
fraction of the total number of cases brought by the Voting Section during this
period, and the fact that the total number of cases brought far exceeded the
number of cases brought during the current administration from 2009 to 2012,
we concluded that the statistical evidence did not support the claim that
Division leadership during this period was hostile to the enforcement of
Sections 2 or 11(b) on behalf of Blacks or other minority populations or
pursued cases on behalf of White voters at the expense of racial minorities.

       B.	    Examination of Selected Cases Involving the Enforcement of
              Sections 2 and 11(b)

       In addition to looking at the statistical data, we selected several specific
Section 2 and 11(b) matters for a detailed examination, based on witness
testimony alleging that positions taken in these cases by political appointees or
career staff were driven by improper racial or political considerations, or that
the reasons given by Division management for those decisions were pretexts for
such improper considerations. We address these cases in three groups. First,
we address a series of decisions made by Division leadership during the prior
administration that were cited to us by some witnesses as reflecting the
Division leadership’s alleged hostility toward enforcing Sections 2 or 11(b) on
behalf of minority defendants or an undue preference for enforcing these
statutes on behalf of White voters and against minority defendants. These
cases also have been the subject of counter-allegations by former Division
leaders and some former career staff that the positions taken by some career
staff reflected hostility toward “race-neutral” enforcement of these statutes.
Second, we examined the New Black Panther Party case – the Section 11(b)
case that bridged two administrations and that triggered accusations that
improper racial and political considerations drove both the decision to bring
the case and the subsequent decision to dismiss it against three of the four
defendants. Third, we examine two cases considered and rejected by Division
leadership in 2009, as well as related incidents, which became the focus of
allegations that the current administration’s leadership was hostile to “race-
neutral” enforcement of Sections 2 and 11(b).


       21  The New Black Panther Party case involved Black defendants but did not involve
allegations of intimidation against known White voters. However, some of the alleged victims of
intimidation in that case were White poll watchers.


                                              32

       We found no direct evidence in any e-mails, documents, or testimony of
any improper racial or political considerations in connection with the decisions
of Division management in these particular Section 2 or 11(b) matters. We
next looked at these cases to determine if they were handled in such a way as
to support an argument that the reasons given were pretexts for improper
considerations.

              1.     Selected Cases during the Period from 2004 to 2006

      In this section we address several controversial decisions made by
Division leadership with respect to the enforcement of Sections 2 and 11(b)
during the period from 2004 to 2006. Most of these decisions were made
during the period that Bradley Schlozman had supervisory authority over the
Voting Section in his capacity as the Division’s Principal DAAG or as the
Division’s Acting AAG. As detailed below, we found that the decisions in these
cases were generally within the enforcement discretion of Division leadership,
and in at least one case was vindicated by a district court and court of appeals.
We found that one of these decisions was based on an interpretation of Section
2 that was inconsistent with the interpretations of prior and subsequent
Division leadership, and that in another case Division leadership failed to
respond to a career staff recommendation for action in a potential Section 11(b)
case. However, we found an insufficient basis to conclude that these decisions
were motivated by improper racial considerations.

                     a.     Factual Summaries

      Rejected Vote-Dilution Action against “Township A” (2004): Several
current or former career attorneys alleged that the Division leadership’s
decision not to file a Section 2 vote-dilution action against a political
jurisdiction (“Township A”) exemplified leadership’s hostility to enforcement of
voting rights laws on behalf of Black voters.

      The Voting Section submitted a proposed action against Township A to
Division leadership in January 2004. In March 2004, before Division
leadership reached a decision on the possible action against Township A, the
Voting Section proposed a similar Section 2 lawsuit on behalf of Black voters in
another jurisdiction (“Township B”). At the time, DAAG Bradley Schlozman
reviewed Voting Section matters, and Schlozman ultimately approved the
Township B case but rejected pursuing the Township A matter.

     Both cases involved majority-White jurisdictions with a substantial
minority of Black residents of voting age. Both jurisdictions utilized staggered
annual at-large elections for their seven-member governing bodies. 22 In each

        Staggered at-large elections to multi-member entities such as those in Township A
       22

and Township B (as contrasted with single-member district systems, for example) have
                                                                                      Cont’d

                                            33

election, the two or three candidates who received the most votes were elected
for staggered three-year terms. In Township B, no Black candidate had ever
been elected to the governing body. In Township A, only one Black candidate
had been elected to the governing body in several decades. The issue in both
cases was whether these at-large systems were being used to dilute the voting
strength of Black citizens in violation of Section 2.

       We examined contemporaneous documents and interviewed witnesses to
determine whether Division leadership’s decision not to file an action against
Township A reflected hostility to enforcing Section 2 on behalf of minority
voters. In making this assessment, we found it was important to compare the
circumstances of Division leadership’s approval of the Township B case. We
concluded that although many of the facts in these cases were similar, there
were important differences that were relevant to two of the three preconditions
for a Section 2 vote-dilution case: that the minority group is politically
cohesive (it tends to vote together), and that the majority group votes as a bloc,
usually defeating the minority voters’ preferred candidate. 23

       The Voting Section’s memoranda to Division leadership (known as “J-
Memos”) regarding the possible Township A and Township B matters were
prepared by different case teams, but both were reviewed and approved by the
Section Chief before being sent to Division leadership. We found the evidence
relating to cohesiveness among Black voters was markedly different in the two
cases. For Township B, there was strong evidence of cohesion, at a rate far
above the threshold for cohesiveness used by most experts. By contrast, the J-
Memo for Township A did not explicitly address the cohesiveness issue, and the
data in the memo indicated that Black voters typically split their votes among
several candidates and very rarely supported any single candidate at a rate
above the threshold used by most experts.

       The evidence also differed between Township A and Township B with
respect to the question of whether bloc voting by the majority usually operated
to defeat the minority’s preferred candidate. In Township B, notwithstanding
the extremely strong cohesion among Black voters, Black-preferred Black
candidates always lost due to bloc voting by Whites, and Black-preferred White
candidates almost always lost. This led Division leadership to conclude that


historically been the subject of scrutiny by the Voting Section under Section 2 of the VRA
because they have been seen as a means for the racial majority to prevent a racial minority
from electing any candidates of choice, even if the racial minority is large and tends to vote
cohesively.
       23  See Thornburg v. Gingles, 478 U.S. 30, 50-51 (1987). The third precondition, which
was not at issue in these cases because it was clearly present, is that the minority is
sufficiently large and geographically compact to form a majority in a district if there were
single-member districts.


                                               34

the Township B facts satisfied the requirement that bloc voting by Whites
usually resulted in the defeat of Black-preferred candidates.

       By contrast, Township A exhibited more complicated patterns in the
voting data. The available evidence showed that a substantial minority of the
candidates elected from 1996 to 2003 were candidates who received the
highest percentage of Black votes. In many of these elections there were no
Black candidates on the ballot. Division leadership concluded that the success
rate of Black-preferred candidates precluded a finding that bloc voting by
Whites usually operated to defeat Black-preferred candidates.

      Division leadership declined to pursue a Section 2 action against
Township A but approved the filing of a Section 2 action against Township B.
However, shortly thereafter, a Black candidate was elected to the Township B
governing body. In light of this result, the Voting Section withdrew its request
to Division leadership to file the case and no Section 2 lawsuit was filed against
Township B.

       Termination of a Section 2 Investigation of “County C”: In
December 2004, Division leadership instructed the Voting Section that it could
not initiate a limited preliminary investigation into whether the system of
staggered at-large elections for the governing body of a jurisdiction (“County C”)
violated Section 2 by diluting the voting power of Native Americans. 24 Some
current and former Voting Section career attorneys, including three Section
managers, told the OIG that the Division leadership’s decision in this matter
was evidence of its hostility towards enforcement of Section 2 on behalf of
minorities.

       The rejected request for a limited preliminary investigation was made
after the Voting Section conducted Internet research that suggested that none
of the five members of County C’s governing body were Native American, even
though Native Americans comprised approximately 20 percent of the
population in the county and were geographically concentrated. The Voting
Section proposed to follow up on this research with limited additional

        24 Prior to April 2003, Voting Section attorneys were permitted to conduct preliminary

investigations without advance approval from Division leadership. In approximately 2003,
Division leadership learned that a Voting Section attorney had contacted a jurisdiction to
request information in connection with one such preliminary investigation. The attorney
allegedly told a local official that the jurisdiction was under investigation, which led to a
complaint that reached Division leadership. In response, Division leadership initiated a policy
requiring that a short Investigation Memo (“I-Memo”) describing the proposed investigation be
submitted to Division leadership prior to contacting local officials. The purpose of the I-Memo
was to provide Division leadership with information about the proposed investigation and the
information that would be sought from local officials and members of the community. In
August 2009, new Division leadership eliminated the I-Memo requirement, and the Voting
Section Chief is now authorized to approve investigations.


                                              35

investigative steps to develop information relevant to the issue of vote dilution.
Division leadership instructed the Voting Section to terminate the investigation
on the ground that County C as a whole was overwhelmingly Republican and
that this fact, rather than race, explained the failure of a Native American
candidate running as a Democrat to be elected to an at-large seat on the
governing body.

      This rationale by the Division’s leadership was contrary to the position
that the Voting Section had argued successfully in 2002 – before Schlozman
assumed his leadership position over the Voting Section – in another Section 2
case on behalf of Black voters against Charleston County, South Carolina. 25 In
that case, Charleston County raised a defense similar to the Division
leadership’s argument in the County C matter, namely that the requirement
that the minority’s candidates of choice usually were defeated due to White
bloc voting was not satisfied because the observed pattern of minority
candidate defeats was the product of partisan voting, not racial voting. In
response, the Voting Section argued, and the district court agreed, that the
cause of cohesive White voting – specifically the question of whether such
voting reflected party affiliation rather than racism – is not a relevant
consideration when determining whether the government satisfied the
precondition.

      In deciding not to pursue the County C matter, Division leadership
concluded that the intent of the voters (in other words whether the voters were
motivated by partisanship rather than race) should be a consideration under
Section 2, notwithstanding the argument accepted by the court in the
Charleston County case.

      A private action under Section 2 was subsequently filed on behalf of the
county’s Native American voters. The Department later intervened in the
action for the limited purpose of defending the constitutionality of Section 2.
The district court ultimately ruled that the at-large system for electing the
county commission violated Section 2.

        Noxubee County/Ike Brown: In February 2005, the Voting Section filed
a civil action against the Noxubee County (Mississippi) Democratic Election
Committee (NDEC), and its Black chairman, Ike Brown, alleging violations of
Sections 2 and 11(b) of the Voting Rights Act. The Noxubee litigation was the
Department’s first lawsuit under Section 2 of the VRA alleging denial or
abridgment of the rights of White voters to vote on account of race by Black
defendants.



      25   United States v. Charleston County, 318 F. Supp. 2d 302, 307-8 (D.S.C. 2002).


                                              36

       Noxubee County is in east-central Mississippi and, according to the 2000
Census, had a voting age population of 8,697, of whom 32.5 percent were
White and 65.7 percent were Black. According to Voting Section documents, in
June 2003, NDEC Chairman Ike Brown published in a local newspaper a list of
approximately 170 White voters who he said “will be subject to challenge if they
attempt to vote in the Aug. 5 Democratic Primary in Noxubee County.” Brown
claimed that most of these voters were in violation of the party-loyalty provision
of the Mississippi Code, which he stated disqualified them from voting in the
Democratic primary. The Voting Section received complaints from local
residents and county officials and requests for a “federal presence” at the
election. Division leadership sent a team of eight attorneys, including then-
Special Litigation Counsel Christopher Coates, to monitor the August 2003
Noxubee County primary election. According to their post-election report, the
attorneys did not observe any voters who were challenged on the basis of party
loyalty, but they did observe absentee balloting irregularities and unsolicited
voter assistance.

       Following completion of an investigation, in February 2005, the
Department filed a complaint alleging that Ike Brown and the NDEC
discriminated against White voters and against White candidates and those
who supported them, in violation of Section 2 of the Voting Rights Act, and
engaged in voter intimidation, in violation of Section 11(b), by, among other
things, publishing the names of White voters who would be challenged at the
polls. The case against Brown proceeded to trial and, in June 2007, the
district court entered judgment for the United States.

        The district judge ruled that Section 2 of the Voting Rights Act protected
the rights of all voters, regardless of race. United States v. Brown, 494 F. Supp.
2d 440 (S.D. Miss. 2007). The court determined that “Brown and the NDEC
have administered and manipulated the political process in ways specifically
intended and designed to impair and impede the participation of white voters
and to dilute their votes, in violation of Section 2.” Id. at 486. Among other
things, the court found that the defendants manipulated the absentee balloting
process in a discriminatory manner and provided improper, unsolicited
“assistance” to Black voters at the polls on Election Day. Id. at 455-471. The
court, however, rejected the Section 11(b) claim, stating: “Although the court
does conclude that there was a racial element to Brown’s publication of this
list, the court does not view the publication as the kind of threat or
intimidation that was envisioned or covered by Section 11(b).” Id. at 477, n.56
(citations omitted). The court also stated that “the Government has given little
attention to this claim, and states that it has found no case in which plaintiffs
have prevailed under this section.” Id. On August 27, 2007, the court entered
a remedial order in which it enjoined Brown, the NDEC, and their agents from
violating the Voting Rights Act. The court appointed a referee-administrator to
act as superintendent of all Democratic primary and runoff elections through
November 2011.

                                       37

      Coates told us that during the flight to Mississippi to observe the
primary, then-Deputy Chief Robert Kengle said to him: “Can you believe we
are going down to Mississippi to protect white voters?” When we interviewed
him, Kengle denied making such a comment or making any reference to White
voters, and said that all he recalled telling Coates was that “he could not
believe they were doing this.” 26 Kengle told us that his conversation with
Coates was about Division leadership repeatedly rejecting cases on behalf of
minorities and that he believed those cases were more meritorious than the
Noxubee matter.

      Numerous witnesses told us that there was widespread opposition to the
Noxubee case among the Voting Section career staff. 27 Some career employees
told us they believed that the decision to bring the Noxubee case while rejecting
others involving Black voters or White defendants reflected a preference by
Division leadership for enforcing Section 2 on behalf of White voters and
against minority defendants. Some Voting Section personnel also told us that
they objected to the Section’s pursuit of the Noxubee case when they perceived
that Division leadership had rejected or stalled other Section 2 cases involving
Black victims. These witnesses also told the OIG that they believed that the
Noxubee case, while justifiable on a legal basis, was a misallocation of
resources and that the Voting Section should have been focusing on cases
involving Black victims. 28


       26  In response to Coates’s testimony about this incident to the U.S. Commission
on Civil Rights, Kengle also filed an affidavit with the Commission denying that he
complained to Coates about protecting White voters.
http://www.usccr.gov/NBPH/USCCR_NBPP_report.pdf (accessed on March 8, 2013) at
52 n.187.
       27 The strong opposition of some career attorneys led them to engage in inappropriate

harassment of another Section employee who worked on this case. These incidents are
discussed in Chapter Four of this report.
         28 Coates told the U.S. Commission on Civil Rights that a Voting Section social scientist

“flatly refused to participate in the investigation” of Noxubee County, and cited this incident in
support of his claim that there was hostility within the Voting Section to the “race-neutral
enforcement of the VRA.” The social scientist told the OIG that he told Coates he did not want
to participate in the investigation phase of the matter because he had other things he was
working on at the time. Coates agreed with this account of the conversation, but told us that
he concluded that the social scientist had other reasons because this was the first time in their
20-year history of working together that the social scientist declined to work with Coates on
anything, and that during previous conversations the social scientist had told Coates that the
Department should not investigate cases with White victims. However, we found that the
social scientist later participated in the litigation of the Noxubee case by hiring and managing
the government’s expert witness during the trial, and that in 2006 Coates signed a
performance assessment of the social scientist rating him as “outstanding” in all categories and
describing, among many other things, his assistance in working with the Section’s expert
witness in the Noxubee case. Coates did not acknowledge the social scientist’s work on the
Noxubee case in his testimony to the Commission.


                                               38

      Coates and other career attorneys told the OIG that they were aware of
comments by some Voting Section attorneys indicating that the Noxubee case
should have never been brought because White citizens were not historical
victims of discrimination or could fend for themselves. Indeed, two career
Voting Section attorneys told us that, even if the Department had infinite
resources, they still would not have supported the filing of the Noxubee case
because it was contrary to the purpose of the Voting Rights Act, which was to
ensure that minorities who had historically been the victims of discrimination
could exercise the right to vote.

       Coates and other career attorneys who supported the Noxubee case told
us that it presented a clear violation of the voting rights laws, and that their
belief that a violation had occurred was vindicated by the district court’s
judgment. These witnesses also indicated that the opposition to the case
among many of the Voting Section’s career staff reflected hostility to “race-
neutral” enforcement of the voting rights laws.

      Investigation of Section 2 Violations in a Majority-Black County: In
2005 and 2006, the Voting Section conducted an investigation of allegations
similar to those in the Noxubee case in a county (“County D”) with a majority-
Black population. The County D investigation became controversial within the
Voting Section for essentially the same reasons as the Noxubee case. 29

       According to Voting Section documents, County D had a historical record
of racial discrimination in which Black citizens were denied the right to vote
through an array of illegal voting practices. The Department had sent election
monitors to observe elections in County D on numerous occasions since
passage of the Voting Rights Act. A Voting Section attorney familiar with
County D told us that in recent years, Black citizens had become more
organized and succeeded in electing their candidates of choice to some political
offices, although White politicians still held several important county offices.

      In May 2005, a then-Special Litigation Counsel in the Voting Section
began working on an investigation focusing on allegations that Black leaders of
a local political organization in County D were engaged in activities similar to
those that the Voting Section pursued in the Ike Brown case, including
absentee ballot fraud and improper voter assistance. Some of these allegations
were the subject of an investigation by the State Attorney General’s office.

      The County D investigation did not ultimately result in the filing of an
enforcement action. Following the primary, the State Attorney General


       29  As discussed in Chapter Four, the Voting Section sent election monitors to County D
in the Spring of 2006, and two Voting Section attorneys had heated arguments about the
purpose and scope of their activities.


                                             39

continued its investigation of absentee ballot fraud in County D. According to
the Special Litigation Counsel, the Voting Section chose not to pursue a Voting
Rights Act case in County D because of the state investigation. The state
investigation resulted in several people associated with the local political group
described above pleading guilty to crimes relating to illegal absentee balloting.

       The Mississippi Section 11(b) Cases: The Mississippi cases were cited
to us as exemplifying a failure of the prior administration to enforce Section
11(b) on behalf of minorities. In both 2005 and 2006, the Voting Section
received complaints that agents from the Mississippi Attorney General’s office,
who were investigating allegations of absentee ballot abuse, were intimidating
Black voters. The agents were allegedly questioning the voters while wearing
badges and weapons, and were asking the voters to identify for the agents the
candidates for whom they had voted. The stated purpose of the agents’
questioning was to help them determine whether the individuals who had
assisted the voters in marking their absentee ballots had done so consistently
with the voters’ wishes. The Voting Section, however, believed that alternative
questions were available for the investigators to ask in order to learn whether
the person assisting the voter with the absentee ballot had marked the ballot
contrary to the voter’s desire and recommended that the Section contact the
Mississippi Attorney General’s Office and advise them that questioning voters
in this manner may violate Section 11(b).

       The first matter arose in 2005, and involved allegations of intimidation in
connection with a voter fraud investigation in a city in Mississippi. Acting AAG
Bradley Schlozman rejected a proposal from the Voting Section to contact the
Mississippi Attorney General’s Office and advise them that questioning voters
in this manner may violate Section 11(b). Division leadership stated in an e-
mail to the Voting Section that they declined to take action in response to these
allegations because the state agents were making the inquiries as part of a
legitimate fraud investigation.

       Allegations of similar conduct by Mississippi investigators arose again a
few months later, in 2006, in connection with a state investigation of alleged
voter fraud in another county. The Voting Section again recommended to
Division leadership that it meet with the Mississippi Attorney General to
discuss concerns about violations of Section 11(b). By this time, Schlozman
had left the Division. We found that CRT Division leadership took no action
with respect to the recommendation. Former AAG Wan Kim told the OIG that
he could not recall the matter. We were not able to determine the reasons, if
any, that no action was taken.

       In March 2010, with the approval of Division leadership, Voting Section
attorneys met with representatives from the Mississippi Attorney General’s
Office. According to a letter to the OIG from AAG Perez, the attorneys informed
the state that if the 2006 conduct occurred again, the Department would

                                        40

immediately open an investigation and take appropriate action. The
Mississippi Attorney General’s representatives assured the Department that it
would take steps to ensure that its investigators understood the sensitivity of
questioning voters about for whom they voted. Furthermore, they agreed to
instruct the investigators to only ask such questions if it was necessary and no
alternative means to gather the information existed.

      Current AAG Thomas Perez told the OIG during this review, as well as
the U.S. Commission on Civil Rights during testimony on May 14, 2010, that
the Mississippi cases and the Pima case (discussed below) were examples of
cases involving minority victims of voter discrimination that were not
prosecuted during the prior administration.

      Pima, Arizona: The Pima case was another example cited to us as
indicative of the prior administration’s failure to enforce Section 11(b) on behalf
of minorities. For example, one career Voting Section attorney told us that the
Pima case was a “clear example” of intimidation of Hispanic voters that was not
pursued, contrasting that decision with Division leadership’s decision to
pursue a Section 11(b) case on behalf of White victims in the New Black
Panther Party matter, discussed below.

      On Election Day 2006, the Voting Section received reports that three
men and one woman dressed in camouflage fatigues appeared outside a polling
place in Pima County and remained there for two hours. According to the
reports, one man was wearing a holstered pistol, another man was making
“constitutional arguments,” and the third man was videotaping their activities,
while the woman stood by watching. The Voting Section did not receive reports
of these individuals appearing at any other polling places that day.

       In July 2007, after reports of the incident in Pima surfaced in the news
media, the Voting Section obtained photographs of the individuals that had
been taken on Election Day, which showed a man with a gun on his hip, but it
was not evident from the photograph whether the individuals were at a polling
place. The Section took steps to locate and interview eyewitnesses to determine
whether anyone would testify that they were intimidated by these individuals.
According to Voting Section documents, none of the witnesses claimed that
they were intimidated by the individuals; instead, the witnesses indicated that
they viewed them “as a joke” and ignored them. The Section also was informed
in the course of the investigation that people could lawfully carry firearms in
Arizona and that the individuals had stationed themselves outside of the
polling place’s exclusionary zone. The Voting Section did not make a
recommendation to the Division’s leadership that it take any action regarding
the matter.




                                        41

                   b.    OIG Analysis

       As noted above, the OIG received allegations from some current and
former career Voting Section attorneys that during at least part of the prior
administration – particularly the time that the Section was under the
supervision of Bradley Schlozman – the Division’s leadership was reluctant or
resistant to enforce Section 2, particularly in “traditional” cases on behalf of
the historical victims of discrimination. We also received related allegations
from these witnesses that the Division’s leadership during this period exhibited
a disproportionate preference for enforcing Sections 2 and 11(b) against
minority defendants or on behalf of White voters.

       We found insufficient evidence to conclude that improper racial or
political considerations affected Division leadership's enforcement decisions.
To begin with, we found no evidence of an explicit policy decision by Division
leadership or the administration to change the criteria for approving Section 2
or 11(b) cases, and our review of e-mails and other documents provided no
support for a claim that there had been discriminatory enforcement.

       As detailed above, cases involving White victims or minority defendants
comprised a very small percentage of Voting Section work during this period.
Based on the data, we found no evidence of a disproportionate preference for
enforcing cases against minority defendants or on behalf of White voters.
Moreover, the Division leadership’s decision to pursue Ike Brown for voting
rights violations in the Noxubee case was found by a federal district judge to be
supported by the law and the facts, and the district judge’s decision was
affirmed on appeal. Likewise, the Voting Section’s decision to investigate the
events in County D in 2005 and 2006 involved alleged conduct that ultimately
resulted in criminal guilty pleas in state court. We also took note of the fact
that the Division’s management, rather than rushing to bring a case against
minority defendants in County D, decided to defer bringing a federal
enforcement case under the Voting Rights Act because of the state
investigation.

       In addition, the decisions we reviewed in which Division leadership
declined to pursue particular Section 2 or 11(b) enforcement actions did not
establish that leadership was unreceptive to enforcement actions on behalf of
minority voters, particularly in light of the data discussed above demonstrating
that leadership during the prior administration approved the Voting Section’s
participation in a significant number of Section 2 cases on behalf of Black or
other minority voters. For example, we found that Division leadership’s
decision not to file a vote-dilution case against Township A resulted from a
finding that sufficient evidence to establish two critical elements in the Section
2 analysis was not present, and not from a generalized hostility to cases on
behalf of Black voters. Importantly, we found that the parallel Township B
case was approved at essentially the same time because Division leadership

                                        42

believed that evidence establishing the same critical factors was present in that
case. 30

      In the Pima case, we found that the Voting Section investigated the
alleged intimidation and did not pursue the case after determining that none of
the witnesses claimed that they were intimidated and that the alleged conduct
occurred outside the polling place’s exclusionary zone. We did not find
evidence to suggest that there was a discriminatory motive behind the Voting
Section’s decision. We further found that Division leadership was not asked to
render a decision regarding a possible enforcement action.

       We found that the stated reason for the Division’s leadership’s
termination of a Voting Section investigation in the County C case was
inconsistent with arguments that the Division had made in 2002 in a similar
Section 2 matter. Moreover, a district court ultimately found that the County C
election system violated Section 2. We found that the Division leadership’s
termination of the County C investigation was the product of a narrow legal
interpretation of the voting rights laws by Schlozman – a legal interpretation
that was not followed by the Division in litigation decisions made before or after
that time. We did not find evidence to conclude, however, that the reason
stated for this single decision to terminate a preliminary investigation was a
pretext evidencing generalized hostility to enforcing Section 2 on behalf of
minority voters.

       We also examined the responses of Division leadership to the Voting
Section’s recommendations in the Mississippi cases that the Department
convey its concerns to the State Attorney General about possible violations of
Section 11(b). Both cases involved allegations of conduct by state investigators
toward Black voters that the Voting Section believed could be intimidating. In
the first matter, Division leadership rejected this recommendation because the
state investigator’s questioning took place as part of a “legitimate fraud
investigation.” The existence of a legitimate fraud investigation does not
necessarily compel the conclusion that Section 11(b) was not violated,
particularly in light of the Voting Section’s belief that less intimidating and
intrusive questions were available that could have yielded the information
needed by the state. However, we found insufficient evidence to conclude that
Division leadership’s position was motivated by hostility to enforcing Section


        30 We believe that an important factor contributing to the allegations we received

concerning the Township A decision was the subjective nature of the Gingles factor analysis
under the relevant case law. For example, both Division leadership and critics of the Township
A decision could use the same evidence to argue for opposite conclusions as to the significance
of the percentages with which Black-preferred candidates won to support their position as to
the presence or absence of bloc voting, and we are not aware of any case law precluding
either’s position.



                                              43

11(b) on behalf of Black voters. In the second matter, we were unable, six
years after the fact, to determine the reasons that the Division leadership at the
time did not respond to the Voting Section’s recommendation that the Division
take action in the matter.

       Most of the allegations we received concerning decisions by the Division’s
leadership during this period involving Section 2 and 11(b) matters were made
by current or former Voting Section career staff who opposed the use of any
Voting Section resources to pursue cases like Noxubee, County D, and the New
Black Panther Party. Many of those individuals told the OIG that they believed
that the reason the voting-rights laws were enacted was to protect historic
victims of discrimination and therefore the Section should prioritize its
resources accordingly. Additionally, some of these individuals, including one
current manager, admitted to us that, while they believed that the text of the
Voting Rights Act is race-neutral and applied to all races, they did not believe
the Voting Section should pursue cases on behalf of White victims. Indeed, our
review of Voting Section e-mails revealed widespread and vehement opposition
among career employees to the prosecution of the Noxubee matter precisely
because the defendants were Black. Some career employees also asserted that
allegations of absentee ballot fraud of the type pursued in the Noxubee and
County D matters could and should be pursued by criminal authorities (both
state and federal) and criminal penalties are a more effective remedy than the
type of injunctive relief generally available under the VRA.

       Despite these concerns and allegations, we did not find evidence to
conclude that the decisions made by Division leadership during the period from
2001 to 2009, including the period during which Bradley Schlozman was
supervising the activities of the Voting Section, reflected improper
discriminatory enforcement under Sections 2 and 11(b). We concluded that the
decisions on whether to pursue these cases were within the enforcement
discretion of the Division’s leadership. In sum, we found that the position the
political leadership in the Division took – that these laws could and should be
used in these matters to protect White voters from discrimination or
harassment in voting – was within its exercise of discretion and, in at least one
case, was supported by decisions in both the district and appellate court.




                                       44

              2.      The New Black Panther Party Case 31

      In this section we examine the New Black Panther Party (NBPP) case, a
Section 11(b) action filed in January 2009, days before the inauguration of the
new administration. In May 2009, the new Division leadership (then
comprising career Division employees serving in an acting capacity) ordered
that three of the original four defendants be dismissed from the case, despite
the fact that the three defendants had defaulted, and that the proposed
injunction against the fourth be significantly narrowed. This case became the
focus of allegations that improper racial or political considerations had affected
decisions at both the outset and the conclusion of the case.

                      a.     Factual Summary

                             (1)     Events Leading to the NBPP Complaint

       On November 4, 2008 (Election Day), an incident occurred at a polling
site on Fairmount Street in Philadelphia, Pennsylvania. Two African American
individuals, later identified as King Samir Shabazz (KS Shabazz) and Jerry
Jackson, both members of the NBPP, stood outside the entrance to the polling
station. 32 They were wearing matching black clothing, trousers tucked into

       31  As noted in Chapter One, the OIG referred to the Department’s Office of Professional
Responsibility (OPR) allegations of misconduct that we received from Congress relating to
Department attorneys’ exercise of their authority in the handling of this matter. Thereafter,
OPR conducted an investigation of the New Black Panther Party case and issued a report dated
March 17, 2011, which found that the attorneys did not commit professional misconduct or
exercise poor judgment, but rather acted appropriately in the exercise of their supervisory
duties; and that the decision to dismiss three of the four defendants and to seek more
narrowly-tailored injunctive relief against the fourth was based on a good faith assessment of
the law and facts of the case and had a reasonable basis. Although the OIG’s review addressed
many of the same facts examined by OPR, the nature of our review was different. As described
in Chapter One, we considered the NBPP matter in response to several requests from members
of Congress, as part of a broader policy review of the Department’s enforcement of the voting
laws over time, and whether the Voting Section has enforced those laws in a non-
discriminatory manner. The NBPP represents a single (albeit highly publicized) data point in
this review.
        Many of the facts underlying the NBPP case, including pre-decisional documents and
internal deliberations, have previously been made public in connection with the OPR report
and the U.S. Commission on Civil Rights Report described in Chapter One. As a result, we are
able to discuss the deliberations relating to this matter with much greater specificity than most
of the other cases analyzed in this report.
       32 The NBPP is a Black separatist group active in several cities, including Philadelphia,

Pennsylvania. Southern Poverty Law Center, Intelligence Report: Snarling at the White Man
(2000). The NBPP is not affiliated with the original Black Panther Party. Id. Over the years,
NBPP leaders have been quoted using violent anti-White and anti-Semitic rhetoric on
numerous occasions. Id.; see also, e.g., Dana DiFilippo, New Panthers’ War on Whites, Phila.
Daily News, Oct 29, 2008, at 4;
http://www.adl.org/main_Extremism/new_black_panther_party.htm (accessed on March 8,
                                                                                           Cont’d

                                               45

their boots, and berets adorned with NBPP insignia. KS Shabazz carried a
nightstick with a lanyard wrapped around his wrist. A Republican poll watcher
recorded KS Shabazz and Jackson on a cell-phone video camera, and the
recording appeared on television news broadcasts the same day and on
YouTube. 33 The 81-second video shows KS Shabazz and Jackson standing in
front of the polling place entrance, a few feet apart, facing toward the street in
a position resembling guards or sentries. Other people can also be seen
standing outside of the polling place, although no interaction between them
and the cameraman or the Black Panthers is shown. On the video, KS Shabazz
identifies himself as “security.” When KS Shabazz asks why he is being
photographed, the cameraman states: “It might be a little bit intimidating that
you have a stick in your hand.”

       In response to a complaint from a Republican poll watcher, two
Philadelphia policemen arrived at the polling station and interviewed KS
Shabazz and Jackson. 34 According to a police report, officers allowed Jackson
to stay at the polling station because he was a credentialed poll watcher, but
instructed KS Shabazz to leave. There is no evidence that KS Shabazz returned
to the polling site that day, and no evidence of any subsequent complaints
about Jackson’s conduct.

       At some point (the exact date of posting became a matter of significant
dispute, as we discuss below), the national NBPP posted an announcement (the
“disclaimer”) which was dated November 4, 2008, about the Philadelphia
incident on its website, stating that the NBPP “does not now nor ever has,
engaged in any form of voter intimidation,” and that:

       Specifically, in the case of Philadelphia, the New Black Panther
       Party wishes to express that the actions of people purported to be
       members do not represent the official views of the New Black
       Panther Party and are not connected nor in keeping with our
       official position as a party. The publicly expressed sentiments and
       actions of purported members do not speak for either the party’s
       leadership or its membership.




2013). As recently as August 13, 2012, in an NBPP radio broadcast, the group’s National Field
Marshal from Philadelphia King Samir Shabazz (a defendant in the NBPP case, as detailed
below) reportedly advocated bombing white churches and killing white babies.
http://blog.adl.org/extremism/king-samir-shabazz-bomb-white-churches-and-kill-white-
babies (accessed on March 8, 2013).
       33 http://www.youtube.com/watch?v=neGbKHyGuHU&feature=related (accessed on
March 8, 2013).
       34   http://www.eusccr.com/nov4footage.htm (accessed on March 8, 2013).


                                             46

       On November 7, 2008, the Chairman of the NBPP, Malik Zulu Shabazz
(MZ Shabazz), was interviewed on Fox News. MZ Shabazz stated that there had
been more than 300 members of the NBPP deployed in several cities on
Election Day to ensure that voting went smoothly. MZ Shabazz stated: “After
my investigation into that case [referring to the Philadelphia incident] I have
found those [NBPP] members were responding to members of the Aryan Nation
and Nazi party who were voting Republican and who were at those polling
stations intimidating black voters.” He also said: “Obviously we don’t condone
bringing billy clubs to polling sites, but when we found out that this was an
emergency response to some other skinhead and white supremacist activity at
that polling site then there was some explanation for that. . . . That’s not that
we normally do, but it was an emergency response.” The Voting Section’s trial
team would later describe the comments of MZ Shabazz in the Fox News
interview as a specific endorsement of KS Shabazz’s use and display of the
nightstick.

       Reports of the incident in Philadelphia were communicated to the
Department and relayed to the Voting Section on Election Day. Voting Section
Chief Coates and Deputy Chief Robert Popper assigned a trial attorney and a
law clerk to investigate the NBPP matter, which was authorized by the
Division’s leadership. Popper told us that around the time he began working
on the NBPP matter, two attorneys in the Voting Section approached him about
it. One suggested it would be “insane” for Popper to work on the matter
because he would be “despised” like the lawyers who worked on the Noxubee
case. 35 Another lawyer told him that politically it was a bad move for him to
work on this case.

       Over the next few weeks, the Voting Section case team interviewed
numerous witnesses, including 11 individuals who worked for or were
employed by the Republican Party as poll watchers, many of whom had been
summoned to the scene of the incident on Election Day; one of the Philadelphia
police officers who responded to the scene on Election Day; an FBI special
agent who was familiar with the activities of the NBPP in Philadelphia; and the
NBPP Chairman MZ Shabazz. None of the case-related documents reviewed by
the OIG provided any indication that the case team had interviewed voters or
individuals working for the Democratic Party, such as Democratic poll-
watchers. They did not locate any voters who stated they had been intimidated
by the Black Panthers.

      On December 22, 2008, Voting Section Chief Coates sent a J-Memo to
Acting AAG Grace Chung Becker recommending that the Division file a
complaint under Section 11(b) against the NBPP, its Chairman MZ Shabazz,

      35 We outline in Chapter Four the harassment that was faced by a Voting Section

employee who worked on the Noxubee case.


                                            47

and NBPP members KS Shabazz and Jerry Jackson. The J-Memo described
some of the videos recorded at the scene in Philadelphia and summarized the
evidence provided by the witnesses interviewed by the case team. 36

      According to the J-Memo, KS Shabazz tapped the nightstick in his hand
and pointed it at individuals. It also stated that one Republican poll-watcher
“heard the Black Panthers call him and his poll watching colleagues ‘white
supremacists’ and that KS Shabazz said ‘f*** you cracker.’” The J-Memo stated
that one Republican poll watcher, Christopher Hill, reported that, when he
sought to enter the location, KS Shabazz and Jackson “stood side by side to
create a larger obstacle to Hill’s entry into the polls,” but that Hill nevertheless
successfully entered the building. The J-Memo also related the impressions of
several Republican poll watchers that voters appeared “apprehensive” in
response to the Panthers. It did not state that any voters were prevented or
dissuaded from voting.

       Among other things, the J-Memo described various witness accounts of
the effect the two Panthers had on Larry and Angela Counts, husband and wife
poll-watchers employed by the Republican Party. It stated that one witness
described Larry Counts as “scared and worried about his safety” and that he
“huddled away” from the Panthers and kept looking over his shoulder at them.
It stated that “Larry and Angela Counts confirmed that they were afraid to
leave the polling place until the Black Panthers had departed,” and that Angela
Counts said “she wondered if someone might ‘bomb the place.’” According to
the J-Memo, one poll watcher “noted that he received a report that the Black
Panthers had confronted [Larry] Counts and called him a ‘race traitor.’” The J-
Memo, however, did not include certain information that the case team learned
during an interview of Larry and Angela Counts on December 20, 2008, as
reflected in an e-mail that the trial attorney sent the same day. The e-mail
stated that Counts told the team that he had no interaction with the Panthers,
and that he did not confirm that they called him a “race traitor.” 37 The e-mail
also stated that Larry and Angela Counts gave “equivoc[al]” accounts of
whether the Black Panthers frightened them. It stated that Larry Counts
“emphasiz[ed] that the black panthers did not scare him,” but that Larry and
Angela Counts said “they were afraid to leave the building until the panthers
were gone.” 38



       36 A copy of the J-Memo has been made available by the U.S. Commission on Civil

Rights at http://www.usccr.gov/NBPH/NBPH.htm.
       37 The e-mail gave plausible reasons as to why the interviewer doubted that Mr. Counts
was being candid, but neither the statements nor the interviewer’s assessment of them were
mentioned in the J-Memo.
        In January 2010, Larry and Angela Counts gave sworn testimony to the U.S.
       38

Commission on Civil Rights in which they stated that they were aware that the police and
                                                                                        Cont’d

                                             48

       The J-Memo described statements made by NBPP Chairman MZ Shabazz
in the Fox News interview and in a telephone interview by the Voting Section. 39
It stated that MZ Shabazz said that there were more than 300 Panthers
deployed to various cities to ensure that the voting process went fairly and
smoothly, and that MZ Shabazz “specifically endorsed the use and display of
the weapon at 1221 Fairmount Street by Samir Shabazz.”

        The J-Memo recommended against what it referred to as the Voting
Section’s “usual practice” of sending a notice letter and a proposed consent
decree to the four defendants in advance of filing the lawsuit. We understand
that the Voting Section normally followed this procedure in an attempt to make
it possible to resolve a violation before the Section formally commenced
litigation. In this case, the J-Memo stated: “The nature of the NBPP is such
that the letter and consent decree may not be received seriously or addressed
in good faith by the defendants, who may instead seek to gain favorable
publicity by publishing these documents and/or characterizing their contents
in a tendentious manner.”

       On or about January 5, 2009, Acting AAG Becker approved the filing of
the civil complaint without sending a notice letter to the four defendants, and
the complaint was filed by the Division in the U.S. District Court for the
Eastern District of Pennsylvania on January 7, 2009. Becker told us that this
was the only Voting Section case she could remember in which she had
approved filing the complaint without sending a notice letter and proposed
consent decree in advance of filing. She also told us that, if she had followed
the usual practice, the complaint would not have been filed before January 20,
2009, when the new administration took office. However, Becker said this was
not a factor in her decision. Instead, she said she approved the
recommendation to file the complaint without sending out a notice letter in
advance because she believed that, in light of the violent and threatening
nature of the conduct at issue, the defendants would not settle.

       The complaint alleged violations of Section 11(b) of the VRA by
defendants KS Shabazz, Jerry Jackson, MZ Shabazz, and the NBPP. It alleged
that KS Shabazz and Jackson were deployed at the Philadelphia polling place
in military-style uniforms associated with the NBPP, that KS Shabazz
brandished a deadly weapon (the nightstick) 8 to 15 feet from the entrance to
the polling place, including tapping the nightstick menacingly and pointing it
at individuals, and that Jackson accompanied KS Shabazz and stood in

television cameras came to the polling site, but that they did not see the Black Panthers or
what was happening outside. Larry Counts testified that he had “no reason to be afraid.”
       39  No notes or memoranda documenting what NBPP Chairman MZ Shabazz said to the
trial team during its telephone interviews were contained in the case records provided to the
OIG.


                                               49
apparent formation with him during this deployment. It also alleged that KS
Shabazz and Jackson made racial threats and racial insults at Black and
White individuals at the polling place, and that they made menacing and
intimidating gestures, statements, and movements at individuals who were
present to aid voters. The complaint further alleged that MZ Shabazz and the
NBPP “managed, directed and endorsed” the behavior of KS Shabazz and
Jackson. The complaint alleged that the defendants thereby violated Section
11(b) in four respects: by intimidating voters, by attempting to intimidate
voters, by intimidating persons who were present to assist voters, and by
attempting to intimidate persons who were present to assist voters.

                            (2)	   Transition Period

      Acting AAG Becker left the Division on January 19, 2009. The Obama
administration took office on January 20, 2009, which was prior to the date by
which the four defendants were required to file their answers to the
Department’s civil complaint. Following the change in administrations, career
DAAG Loretta King served as Acting AAG for the Civil Rights Division through
mid-October 2009, and career Housing Section Chief Steven Rosenbaum
served as Acting DAAG for the Division through mid-July 2009. Although the
NBPP case was listed among the Voting Section’s active cases in briefing
materials that were provided to King and Rosenbaum in the first few months of
the new administration, there is no evidence that this case was the subject of
substantive communications between Division leadership and the Voting
Section until late April 2009. Prior to that time, the Voting Section case team
continued to develop evidence relating to the case.

                            (3)	   Witness Declarations and the Defendants’
                                   Failure to Answer the Complaint

      On March 31 and April 1, 2009, the NBPP trial team obtained signed
declarations from four poll watchers who had observed KS Shabazz and
Jackson at the Philadelphia polling station on Election Day: Bartle Bull,
Christopher Hill, Michael Mauro, and Wayne Byman. 40 The four declarations
included essentially identical language to describe KS Shabazz and Jackson, in
particular the “black uniforms” and insignia they wore, their location at the
entrance, and the fact that the shorter man (KS Shabazz) had a billy-club or
nightstick. Three of the declarations (Bull, Hill, and Mauro) stated that the
shorter man pointed the nightstick at individuals and slapped or tapped it in
his hand. Three of the declarations (Bull, Hill, and Byman) expressed the
opinion that the two uniformed men created a “menacing” or “intimidating”
presence at the entrance to the poll.

     40 Complete copies of the four declarations have been made available by the

Commission on Civil Rights at http://www.usccr.gov/NBPH/NBPH.htm.


                                            50

      In addition to these common elements, the declarations provided various
individualized details. The Bull declaration stated that Bull had extensive
experience in politics and voting procedures, including working to help enforce
the voting rights of Mississippians in the mid-1960s. Bull stated that KS
Shabazz and Jackson confronted and attempted to intimidate voters and
attempted to intimidate and interfere with the work of other poll observers
whom they “apparently believed did not share their preferences politically.” He
said he heard the shorter man (KS Shabazz) make a statement directed toward
White poll observers that “you are about to be ruled by the black man,
cracker.” He further described the conduct as “the most blatant form of voter
intimidation that I have encountered in my life in political campaigns in many
states, even going back to the work I did in Mississippi in the 1960’s.”

      The Hill declaration became significant because of its statement that KS
Shabazz and Jackson worked in unison to attempt to impair Hill’s access to the
polling place. It stated, in relevant part:

       When I attempted to exercise my rights as a credentialed poll
       watcher, and enter the polling place, the two men formed ranks
       and attempted to impair my entrance into the polling place. They
       formed ranks by standing in such a way to make them a
       significant obstacle to my entrance. I also then observed that the
       nightstick contained a lanyard which was wrapped tightly around
       the shorter man's wrist. I am an Army veteran. I knew that use of
       the lanyard would make the nightstick a more effective weapon
       because it could be swung more aggressively without fear of
       dropping the weapon, and by leveraging the firmer grip into a more
       severe blow on any victim. I was forced to avoid their formation in
       order to enter the polling location. I did not make physical contact
       with either of them, but it was without question that they sought
       to intimidate me from entering the polling place and exercising
       rights I had as a credentialed poll watcher. 41
The Hill declaration also stated that KS Shabazz made racially charged
statements, including terms such as “cracker” and miscellaneous profanity.

      The Byman and Mauro statements contained somewhat less detail about
the conduct of KS Shabazz and Jackson. The Mauro declaration described the
discussion between the men and the Philadelphia police officers, and stated:


       41   On Election Day, a television reporter interviewed Hill, who stated among other
things that when he approached the two men, they “closed ranks next to each other. You
know, I’m an Army veteran, that doesn’t scare me. So I walked directly in between them, went
inside, ....” http://www.youtube.com/watch?v=kOtGllNk2Gk&feature=related (deleted
subsequent to viewing by OIG).


                                             51

“As the shorter man departed, he belligerently yelled a statement at me and
other white poll watchers which contained racial terms.”

       None of the four defendants in the NBPP case answered the complaint in
the time period required by the Federal Rules of Civil Procedure. On April 1,
2009, the Division, with the knowledge of Acting DAAG Rosenbaum, filed a
motion with the court for an entry of default as to all four defendants for failing
to timely file an answer to the Department’s complaint. The next day, the clerk
of the court entered a default as to all four defendants. On April 17, the federal
district court, sua sponte, ordered the Department to file its motion for a
default judgment by May 1, 2009. According to an e-mail from a Voting
Section trial attorney who was working on the case team, the court’s deputy
clerk informed the trial attorney that Judge Dalzell would “almost certainly”
hold a hearing on the merits of granting a default judgment against each of the
defendants.

                         (4)   April 15 Meeting Regarding Coates

      As detailed in Chapter Four, on April 15, 2009, King and Deputy
Associate Attorney General Samuel Hirsch (a political appointee in the new
administration) met with Attorney General Holder concerning the potential
removal of Voting Section Chief Christopher Coates. Because the motion for
default judgment in the NBPP case had not yet been presented to anyone in the
new Division leadership for review, it is unlikely that the NBPP case was
discussed at this meeting. However, for reasons discussed below, we believe
that the meeting affected later decisions made in the case.

        Attorney General Holder told us that he understood from what others
told him that Coates was a divisive and controversial person in the Voting
Section and that one concern about Coates was that he “wanted to expand the
use of the power of the Civil Rights Division in such a way that it would take us
into areas that, though justified, would come at a cost of that which the
Department traditionally had done, at the cost of people [that the] Civil Rights
Division had traditionally protected,” specifically “reverse-discrimination”
cases. He also stated that he had been told that Coates “was not a person who
[] believed in the traditional way in which things had been done in the Civil
Rights Division” under Republican and Democratic administrations, and that
Coates’s view on civil rights enforcement was “inconsistent with long-time
Justice Department interpretations and policies.” As further discussed in
Chapter Four, following their meeting with the Attorney General, King and
Hirsch consulted with personnel in the Department’s Justice Management
Division as part of an unsuccessful effort (at that time) to remove or reassign
Coates as Section Chief.




                                        52

                             (5)     The Draft Motion for Default Judgment

      On April 28, Coates forwarded a draft motion for default judgment to
Rosenbaum for review. The draft memorandum summarized the evidence as
follows:

       On election day, November 4, 2008, Defendants King Samir
       Shabazz and Jerry Jackson stood, side by side, at the entrance to
       an open polling place, in the military-style uniforms of the
       Defendant New Black Panther Party for Self-Defense, brandishing
       a weapon, and making racial and other hostile comments. This
       conduct was widely witnessed and documented by means of video
       recorders. Defendants New Black Panther Party for Self-Defense
       and Malik Zulu Shabazz made statements that a nationwide effort
       was underway to post party members in a similar fashion at
       polling locations throughout the country.

        The draft motion stated that the United States would present evidence at
a default hearing that NBPP Chairman MZ Shabazz “announced, on national
television, a nationwide effort to deploy ‘300 party members’ at polling locations
throughout the country.” The draft also stated the United States would present
evidence of statements of MZ Shabazz and KS Shabazz on Election Day and at
other times, “establishing their racial animus and intent.” The draft contained
a general description of evidence that would be presented at the hearing
regarding the conduct of KS Shabazz and Jackson at the polling location,
which was consistent with the content of the Bull, Hill, Byman and Mauro
declarations set forth above, including the statement that KS Shabazz and
Jackson “attempted to block physical access to the polls to one individual
authorized to aid voters.” However, the draft did not identify these witnesses or
attach their declarations. 42 The draft stated that NBPP Chairman MZ Shabazz
“first endorsed and defended the behavior (though later he appeared to
disclaim it).”

      The draft injunction that the trial team proposed for presentation to the
court provided:

       Defendants, their agents and successors in office, and all persons
       acting in concert with them, are permanently enjoined and
       restrained from deploying at the entrance to polling locations in
       the United States either with weapons or in the uniform of the
       Defendant New Black Panther Party for Self-Defense, or both, and


       42  Popper stated that the reason the draft did not provide the declarations was that the
trial team expected the court to schedule a hearing on the default judgment, and the trial team
would call the witnesses then.


                                              53

      from otherwise engaging in coercing, threatening, or intimidating
      behavior at polling locations during elections.
It also enjoined the defendants from appearing within 200 feet of a polling
location in the NBPP uniform, or appearing within 200 feet or within sight of a
polling place with a weapon. It enjoined defendants from “organizing and
deploying or posting armed individuals to polling locations,” and from “making
statements or taking actions which intimidate, threaten or coerce voters, or
those aiding voters.”

                         (6)   Events of April 29-May 1

       On April 29, Rosenbaum sent Coates an e-mail stating: “I have serious
doubts about the merits of the motion for entry of a default judgment and the
request for injunctive relief. Most significantly, this case raises serious First
Amendment issues, but the papers you’ve submitted make no mention of the
First Amendment.” The e-mail asked Coates to identify the evidence that MZ
Shabazz or the NBPP managed or directed the behavior or actions of the other
defendants. Rosenbaum also asked: “Did any of the defendants make any
statements threatening physical harm to voters or persons aiding voters? On
this issue, there is a body of case law on what constitutes ‘true threats.’” The
e-mail also questioned the proposed injunction, including its nationwide scope
and its prohibition on wearing the NBPP uniform. Rosenbaum forwarded this
e-mail to Acting AAG King, stating he had “serious doubts about the case and
the papers that were submitted for review.”

        Later that same day, Coates responded to Rosenbaum’s e-mail,
explaining why the First Amendment was not a concern with respect to using
evidence of the statements of the defendants for the purpose of establishing
liability. The e-mail also stated:

      We have no direct statements by the defendants threatening or
      promising physical harm. (1) We do not think we need it, given the
      nightstick, the brandishing of it, the confrontational language
      used, and the physical blocking of Hill. The context suggests the
      threat of violence in a most basic way. Any of us might hesitate to
      walk into that polling station. We believe the court will look at this
      behavior from the objective point of view of a reasonable voter
      coming to vote. (2) We also have an “attempt” claim, which should
      obviate the need for any direct showing of successful intimidation.
      For both of these reasons we do not believe we need “true threats.”
      Indeed, the Department has never taken the position that Section
      11(b) requires a “true threat.” As recently as the early 90s, we
      brought US v. NC Republican Party to enjoin a prospective voter
      challenge program under Section 11(b). There was no threat of
      violence in that case. It was ultimately settled with a consent

                                       54

       decree. Given that the statute enjoins not just threats, but
       intimidation and coercion, this makes sense.

      Coates’s e-mail also raised the issue of statements on the NBPP’s
website, but did not reference the disclaimer described above that had been
posted (at some point) on the NBPP website. Coates stated that the evidence
that MZ Shabazz managed and directed the incident “consists of statements on
the NBPP’s website before the election as to what the NBPP planned to do, and
the on-air statements by [MZ Shabazz] after the election as to what the NBPP
had done.”

       The e-mail also addressed the nationwide scope of the injunction, stating
that it was justified by the “announced intent [of the NBPP] to have a
nationwide program.” The e-mail further stated that an injunction against the
wearing of the NBPP uniform “makes sense because of the implicit threat the
uniform implies,” noting that many jurisdictions bar the wearing of partisan
attire near a polling place. It stated that the 200-foot distance feature was
“necessarily somewhat arbitrary,” and that “[a]nother number might work.”

      On April 30, in response to further inquiries from Rosenbaum about the
“manage and direct” allegation and the scope of the proposed injunctions, the
NBPP team sent Rosenbaum three witness declarations and a discussion of
case law relating to injunctive relief.

       Also on April 30, at a weekly meeting with Associate Attorney General
Thomas Perrelli and Deputy Associate Attorney General Samuel Hirsch,
Rosenbaum described the NBPP matter and the upcoming deadline, and stated
that he had concerns about liability and relief. According to Hirsch,
Rosenbaum or King stated that the case was “so extraordinarily weak that it
never should have been filed in the first place.” 43 The participants in this
meeting agreed that the government should seek an extension of the deadline
for the motion for default judgment the next day if Division leadership and the
Voting Section did not reach a consensus about the case. Perrelli told
Rosenbaum to keep Hirsch informed about the case going forward.

      Later that afternoon, Rosenbaum met with Coates and Popper to discuss
various concerns that Rosenbaum had about the case. King joined the meeting
and, after further discussion, told Coates and Popper to submit revised motion
papers to her and Rosenbaum addressing the scope of the injunction and the

       43  Rosenbaum told us he does not believe he made the quoted statement during the
April 30 meeting, but that he said something to the effect that the evidence he had seen to date
was “extraordinarily weak.” It is not clear that King attended this meeting, so we believe that
Hirsch was recalling a statement made by Rosenbaum. Both King and Rosenbaum told OPR
investigators that they eventually held and expressed the opinion that the case should not have
been filed in the first place.


                                              55

First Amendment, and to seek an extension from the court. According to
Coates, during this meeting King stated that the NBPP complaint raised Rule
11 issues and should not have been brought against any of the defendants.
King told us that she said that the case was an action that she probably would
not have brought, although she did not specify whether she made this
statement at the April 30 meeting.

       After the meeting ended, Rosenbaum forwarded the trial team’s draft
motion papers to Hirsch, along with his prior e-mail exchanges with Coates.
Rosenbaum described the meeting to Hirsch in a separate e-mail. He stated,
“I’ve seen videos of the activity at the polling place and continue to have the
reservations I discussed this morning. (According to the videos, the defendant
with the nightstick was at the polling place for only an hour and then left when
the police asked him to leave. The other defendant was a resident of the
apartment building that served as the polling place.)” Hirsch called
Rosenbaum to discuss Rosenbaum’s concerns about the case further, and then
e-mailed him thanks for “doing everything you’re doing to make sure that this
case is properly resolved.”

      On the morning of May 1, Coates forwarded revised motion papers to
King and urged that the motion be filed that day to avoid the risk of dismissal.
While reviewing the revised papers, King looked at the NBPP website and
discovered the NBPP’s disclaimer statement quoted above, dated November 4,
2008, disavowing the actions of KS Shabazz and Jackson in Philadelphia. She
also discovered a statement suspending the Philadelphia Chapter as of
January 7, 2009 (the day the complaint was filed). King consulted with
Rosenbaum and then Hirsch, and the three agreed that the Division should
seek an extension of time from the court to file its papers.

      King and Rosenbaum then summoned Coates and Popper to a meeting,
at which Rosenbaum accused Coates and Popper of intentionally withholding
information about the NBPP website and the disclaimer from Division
leadership. Popper and Coates vigorously denied this allegation, and Coates
raised his voice and used profanity. 44 Popper and Coates argued that the
website statements carried no weight because they were not credible, were
made in anticipation of litigation, and were probably backdated, and because

       44  In a later e-mail to King and Rosenbaum, Coates and Popper stated that the draft
memorandum of law that was provided to King and Rosenbaum on April 29 contained the
following language, which they said refuted any claim that they had intentionally withheld
information about the NBPP website content: “After accounts and video of this behavior were
broadcast nationwide on Election Day, the [NBPP] and Chairman [MZ] Shabazz first endorsed
and defended the behavior (though he later appeared to disclaim it).” The e-mail concluded
with a request by Coates for an apology from King and Rosenbaum for accusing Coates and
Popper of intentionally misleading management. Neither Rosenbaum nor King responded to
the e-mail.


                                             56

there was other evidence that KS Shabazz continued to be affiliated with the
NBPP.

      King instructed Coates and Popper to request a 2-week extension from
the court and to prepare a supplemental memorandum for Division leadership
regarding the appropriate remedy. The court extended the deadline for the
motion for default judgment to May 15, 2009.

                        (7)	   May 5 Meeting with Attorney General Holder

        On May 5, 2009, Acting AAG King and Deputy Associate Attorney
General Hirsch met with Attorney General Eric Holder and some of his senior
advisors to discuss personnel matters in the CRT, including whether to remove
Coates as Section Chief. As detailed in Chapter Four, King told the Attorney
General that the Justice Management Division had stated that they would not
support a performance-based removal of Coates at that time without further
documentation and discussion. Witnesses told the OIG that they recalled the
Attorney General urging King to do what was proper with respect to Coates and
to let the chips fall where they may.

        According to several witness accounts and a confirming document,
during this meeting King and Hirsch also briefed the Attorney General on the
NBPP matter, and there was a discussion of the possible dismissal of some of
the defendants. Attorney General Holder told the OPR that at the time of the
meeting he thought King was reporting an action that they had taken or were
about to take, that King was not seeking his approval for the decision, and that
King was simply notifying him of it because it could attract media attention
and possibly create controversy in the Division. The Attorney General also told
investigators that he believed King’s decision to dismiss some defendants was
correct and that he tried to convey that in the meeting. Several witnesses
confirmed that the Attorney General conveyed his approval and that he also
acknowledged that a decision to dismiss some of the defendants would be
criticized by some people who would say that the Attorney General was helping
the NBPP, which had supported President Obama in the election.

       Attorney General Holder told OPR investigators he did not talk to anyone
at the White House about the NBPP case, and that he had no basis to believe
that the decision to dismiss three of the defendants in the case was based on
partisan or racial considerations. Our review of the Attorney General’s e-mails
during this time period did not reveal any communications with the White
House about the NBPP case.

                        (8)	   Further Development of the Disclaimer
                               Controversy

      Following the contentious meeting on May 1, the NBPP case team worked
on preparing the supplemental memorandum requested by Division leadership.
                                      57

During this period the team attempted to determine the timing of the posting of
the disclaimer language on the NBPP website, which was dated November 4,
2008. On May 5, a law clerk on the case team sent an e-mail to Popper and
Coates (and another case team member) stating that he was “reasonably sure”
the disclaimer language regarding events in Philadelphia was posted on the
NBPP website after the complaint was filed in January 2009. However, on May
6, the case team received a chronology from the Anti-Defamation League (ADL)
stating that the disclaimer language had, in fact, been released by the NBPP
late in the day on Election Day (November 4).

       Coates sent a supplemental memorandum prepared by the case team to
Rosenbaum and King on the evening of May 6, after the case team had received
the information from the ADL. The supplemental memorandum did not
reference the information from the ADL, and it stated unequivocally that the
disclaimer language had been added to the NBPP website “after this lawsuit
was filed on January 7, 2009.” The supplemental memorandum also
addressed several issues that had been raised in prior discussions with the
front office, including an explanation of why the disclaimer and suspension
language on NBPP’s website did not preclude injunctive relief, and a discussion
of First Amendment issues. Rosenbaum forwarded the supplemental
memorandum to Hirsch.

      On May 7, Rosenbaum sent an e-mail to Coates and Popper asking how
the team knew when the disclaimer language had been posted on the NBPP
website. Popper responded that a law clerk had pulled language from the
NBPP website in November or December that did not contain the disclaimer
language, that the case team had periodically monitored the website since mid-
November, and that the disclaimer language was not added until after the
complaint was filed. The law clerk told us that although he does not now recall
whether he saw the disclaimer on the website in November 2008, based on his
review of e-mails from January 2009 between himself and the trial attorney on
the case team, he believes that the disclaimer had not been posted at that time.

       Following a discussion with the ADL on May 8, Popper reported to the
case team that the ADL “firmly recollect[s] that the statement was added after
11/04/08 but well before this lawsuit was commenced. They have convinced
us that they are probably right. We believe now that we cannot in good faith
represent to the court that the [statement] was added to the website after this
lawsuit commenced” (emphasis in original). After further inquiries from
Rosenbaum about the timing of the disclaimer, on May 11 Coates e-mailed
Rosenbaum, reporting the information from the ADL and stating “we don’t have
enough information to know for sure” when the disclaimer was added to the
NBPP website. Rosenbaum forwarded this new information to King and Hirsch,
stating to King that “[t]his exchange renews my serious concerns about the
Voting Section’s handling of this case and the representations it makes to the
front office about the case.”

                                      58

                        (9)    Review by the Appellate Section

       On May 7, Rosenbaum forwarded various materials from the NBPP trial
team, including the supplemental remedial memorandum (which included the
incorrect information about the posting date of the disclaimer) and revised
proposed order, to Diana Flynn, Chief of the Civil Rights Division Appellate
Section, and requested the Appellate Section’s views on the proposed order.
Flynn assigned the matter to an attorney in the Appellate Section. On May 11,
Rosenbaum forwarded to Flynn a copy of Coates’s e-mail of the same day,
described above, in which Coates reported the information from the ADL and
stated “we don’t have enough information to know for sure” when the
disclaimer was added to the NBPP website. On May 12, the appellate attorney
provided her views in a long e-mail to Flynn. Among other things, the attorney
questioned whether the government had a sufficient factual basis for alleging
violations by NBPP Chairman MZ Shabazz and the NBPP, or for requesting an
injunction against the two of them. The attorney stated that the Voting
Section’s arguments appeared to be sufficient to support some kind of
injunctive relief against KS Shabazz and Jackson, but that she had concerns
that the specific wording of the case team’s proposed injunction might raise
First Amendment concerns.

       On May 13, Flynn forwarded the appellate attorney’s views to
Rosenbaum and Coates. Flynn’s e-mail stated that the attorney’s comments
“reflect my views.” However, Flynn’s e-mail differed with the attorney’s
comments with respect to the claims against the NBPP and its chairman, MZ
Shabazz, in that she stated: “We can make a reasonable argument in favor of
default relief against all defendants,” and that “we generally concur in Voting’s
recommendation to go forward.” Although she stated that the case against MZ
Shabazz and the NBPP was “a bit of a reach,” she also stated that, given that
the complaint had already been filed, “[w]e probably should not back away from
these allegations just because defendants have not appeared.” Flynn also
wrote: “Voting does seem to have evidence in support of these allegations.”
Flynn’s e-mail does not identify the evidence to which she was referring. Both
the appellate attorney and Flynn stated that the court might require further
evidentiary proceedings before granting the requested relief, despite the
defendants’ failure to answer. Rosenbaum forwarded the Flynn and the
appellate attorney comments to King and Hirsch.

      Rosenbaum told investigators that the appellate attorney’s comments
confirmed his concerns about defendants MZ Shabazz and the NBPP, and that
he disagreed with Flynn’s conclusion that there was evidence in support of the
allegations against them. Rosenbaum said he understood that the evidence to
which Flynn was referring was a statement on the NBPP’s website that the
party was sending 300 members to polling places around the country, which
Rosenbaum did not consider to be evidence that the party or its Chairman
managed and directed the alleged activities in Philadelphia that violated

                                       59

Section 11(b). King stated that “when you read [the appellate attorney]’s e-
mails compared to [Flynn]’s, that they really were not saying the same thing
and [the attorney]’s was a little equivocal,” and that after looking at them she
thought “they are totally opposite each other.”

                         (10)   Perrelli Provides Guidance

      King and Rosenbaum advised Perrelli of the status of the NBPP case on
May 7, during a regularly scheduled weekly meeting. Perrelli and Hirsch
discussed the case at a staff meeting on May 11 and, on May 12, Hirsch
instructed Rosenbaum to prepare an options memorandum for consideration in
the event that the Division did not reach a consensus.

       On May 14, Perrelli told Hirsch and Rosenbaum that, if the CRT
leadership could not reach consensus on the case, they should seek another
extension rather than presenting the dispute to Perrelli and Deputy Attorney
General Ogden for resolution with a deadline of May 15. Perrelli told Hirsch
and Rosenbaum that if Division leadership agreed on some kind of “middle
ground” resolution that fell between two outer limits, it would be supported by
Perrelli so long as it was consistent with the law and the facts, and it could be
filed with the court immediately. The witnesses provided slightly different
accounts of the outer limits that Perrelli said would require an additional
extension of time for further consideration by Department leadership.
According to Perrelli, the extremes were dismissing all four defendants without
obtaining any relief, versus an injunction so broad it violated the First
Amendment. According to Hirsch and Rosenbaum, Perrelli’s second outer limit
was an injunction against all four defendants.

                         (11)	 The Decision to Dismiss Three Defendants
                               and Limit the Scope of Relief Against KS
                               Shabazz

       The deadline for filing the Motion for Default Judgment was May 15. On
May 14 or 15, Rosenbaum raised new questions about the evidence pertaining
to Jerry Jackson, the taller defendant who was present at the polling station in
Philadelphia on Election Day but who did not carry the nightstick. Rosenbaum
told investigators that his decision to take an additional look at the case
against Jackson “admittedly came late,” and that it was based on his review of
the J-Memo (which he did not see until May 14), and was made “against the
backdrop of a lack of candor in the [case team’s] presentations to us, ….” On
the morning of May 15, Rosenbaum asked Coates to identify the evidence
relating to the allegations in the complaint that “Jackson made statements
containing racial threats and insults” during voting hours, and that “Jackson
made menacing and intimidating gestures, statements, and movements”
directed at poll watchers. In response, Coates forwarded an e-mail from Popper
that cited the following facts:

                                        60

            •	 The declaration of poll watcher Chris Hill stated that Jackson had
               formed up side-by-side with KS Shabazz to attempt to block Hill’s
               entrance to the polling station. Hill’s account was confirmed by
               another poll watcher.

            •	 A Republican poll watcher reported that he received complaints
               that other Republican poll watchers were “approached and
               harassed” by Jackson (although these other poll watchers were not
               identified by Coates).

            •	 A Republican poll watcher described poll watcher Larry Counts as
               scared and worried about his safety. 45

            •	 Larry Counts said that he and his wife Angela were afraid to leave
               the polling place while the NBPP members were present, and
               Angela said she was afraid the NBPP members would bomb the
               place.

            •	 Another poll watcher reported that the NBPP members (without
               differentiation) were chanting “black man will rule white man.”

            •	 The witness statements generally did not differentiate between the
               conduct of Jackson and that of KS Shabazz, and suggested the
               men were operating in conjunction with each other.

       Also on the morning of May 15, Rosenbaum told Hirsch that he was
considering, among other things, whether the Division should file an amended
complaint against KS Shabazz and Jackson but omitting the NBPP and its
Chairman MZ Shabazz as defendants and correcting other allegations for which
he believed the Voting Section had insufficient evidence. Rosenbaum also
consulted with Flynn and the Appellate Section attorney who had previously
given advice on the case, about the filing of an amended complaint and they
supported the idea. Hirsch, however, opposed the idea because “it could only
postpone or even frustrate entirely the goal of declaring [KS] Shabazz’s actions
as illegal and enjoining him from repeating them.” After consulting with
Perrelli, Hirsch e-mailed Rosenbaum that the amended complaint proposal
struck both of them (Hirsch and Perrelli) as “a bad one.” 46


        45 Coates’s response did not mention that Larry Counts specifically denied that he was

frightened by the Black Panthers when he was interviewed by Voting Section attorneys.
       46   Hirsch also stated in his e-mail that Perrelli “seemed puzzled” by another option that
Rosenbaum had apparently raised, which involved pursuing default judgment at that time and
reserving the issue of injunctive relief for later. According to Hirsch's e-mail, Perrelli did not
understand why the Department could not resolve the entire case at the time, especially in
light of the 14-day extension the court had already granted.


                                               61

       On the afternoon of May 15, King and Rosenbaum discussed the NBPP
case with the CRT Chief of Staff and an Acting DAAG in CRT. Hirsch also
participated in part of the discussion. Rosenbaum recommended, and King
agreed, that the national party and its chairman MZ Shabazz should be
dismissed from the action because of the lack of evidence that they had
managed and directed the incident. Rosenbaum also recommended that
Jackson be dismissed from the case. Rosenbaum told investigators that
although Hill’s testimony about Jackson moving to obstruct his entry provided
some evidence of a violation of Section 11(b), the other evidence presented by
the NBPP trial team was not persuasive. Rosenbaum noted that the allegation
that Jackson attempted to intimidate Hill was undercut by Hill’s public
statement that he was not frightened. He noted that Jackson did not carry a
weapon; that there was insufficient evidence that Jackson made verbal threats
to anyone; and that, as a credentialed poll watcher, Jackson was entitled to be
present. He also noted that the local police had permitted Jackson to remain
at the scene, and that there was no evidence of any subsequent conduct of
Jackson that violated Section 11(b). King agreed that Jackson should be
dismissed as a defendant, for the same reasons, but she stated the decision
about Jackson was “probably a much closer call” and something about which
“reasonable minds can disagree.” 47

       Rosenbaum and King also agreed that KS Shabazz should be kept in the
case and enjoined from bringing a weapon to a polling place. However, they
decided to limit the proposed injunction to polling places in Philadelphia
(because there was no evidence KS Shabazz had traveled to engage in similar
behavior outside of Philadelphia), to eliminate any prohibition on the wearing of
the NBPP uniform (because of First Amendment concerns), to reduce the radius
of the injunction to 100 feet from the polling entrance (deemed appropriate in a
city environment), and to limit the duration of the injunction to three years
(sufficient to last through several election cycles). Hirsch reported the results
of the meeting to Perrelli. King told us that as a result of her discussions with
senior Department personnel, she understood she had their “tacit approval” for
her decisions.

        Rosenbaum instructed Coates to revise the motion papers to be
consistent with these decisions. Coates requested that the dismissal of the
three defendants be without prejudice (in the event additional evidence came to
light), and that the injunction be extended to 2013 (so as to encompass the
next presidential election). King agreed to these changes. Later that day,
Coates forwarded revised motion papers to the front office. King, Rosenbaum,

       47   Hirsch told the OPR and the OIG that he would have not dismissed Jackson from the
case if it were up to him, but that the Office of the Associate Attorney General deferred to the
decision by the Civil Rights Division leadership because he thought the decision was not
unreasonable.


                                              62

and Hirsch edited the documents. In a contemporaneous document, Hirsch
wrote that he sent Rosenbaum a “few minor line edits to the proposed order”
and later provided Rosenbaum with handwritten edits to other papers
submitted by Coates. He further stated that his edits were “designed to
shorten and streamline the papers.” The revised papers were filed with the
court on time and, on May 18, 2009, the court granted the requested relief
without an evidentiary hearing or oral argument.

                         (12)	 Perrelli’s White House Meetings

       During the period March through May 2009, Associate Attorney General
Perrelli attended several meetings at the White House relating to a variety of
matters within his portfolio unrelated to the NBPP case. Because of their
timing, these meetings later became the subject of speculation regarding White
House involvement in the NBPP matter. Perrelli told OPR that he never
discussed the substance of the NBPP case with anyone at the White House or
with anyone else outside the Department. Our review of Perrelli’s e-mails and
other documents uncovered no evidence of any discussions between Perrelli or
anyone at the White House or anyone else outside the Department regarding
the NBPP case.

                         (13)	 Public Statements about the Involvement of
                               Political Appointees in the Decision to
                               Dismiss Some Defendants

      Senior Department personnel have made public statements minimizing
the extent of the involvement of political appointees in the decision to dismiss
some of the defendants from the NBPP case. In response to a document
request to the U.S. Commission on Civil Rights (“the Commission”), the
Department stated:

      Career supervising attorneys who have over 60 years of experience
      at the Department between them decided not to seek relief against
      three other defendants after a thorough review of the facts and
      applicable legal precedent. The Department implemented that
      decision. Political considerations had no role in that decision and
      reports that political appointees interfered with the advice of career
      attorneys are false. Consistent with the Department’s practice, the
      attorney serving as Acting Assistant Attorney General for Civil
      Rights informed Department supervisors of the Division’s decisions
      related to the case. The Department supervisors did not overrule
      that attorney.
The Department used identical language in a letter dated September 9, 2009,
responding to an inquiry from Senator Jeff Sessions.



                                       63

       On April 16, 2010, in a supplemental response to an interrogatory from
the Commission, the Department gave additional information about the role of
political appointees in the NBPP decision, stating:

      As is customary with complex or potentially controversial issues,
      the then-Acting Assistant Attorney General for Civil Rights [King]
      advised the Associate Attorney General [Perrelli] that she was
      making a case-based assessment of how to proceed in this case,
      engaged in discussions with the Associate Attorney General's staff
      about how to proceed, and informed the Associate's office of her
      decision before it was implemented.

      AAG Perez testified before the Commission on May 14, 2010, concerning
the NBPP matter. Although Perez had not yet been confirmed as AAG and was
not present in the Division at the time of the events in question, he appeared
before the Commission on behalf of the Department in his capacity as AAG.
Concerning the NBPP decisions, he testified as follows:

      COMMISSIONER KIRSANOW: Was there any political leadership
      involved in the decision not to pursue this particular case any
      further than it was?
       ASST. ATTY. GEN. PEREZ: No. The decisions were made by
      Loretta King in consultation with Steve Rosenbaum, who is the
      Acting Deputy Assistant Attorney General.

      Later, in response to a line of questions about whether political
leadership has responsibility and “ownership” of decisions in the Department,
Perez described the briefing process in CRT, noting that the CRT leadership
regularly briefs senior political appointees on specific cases and that:

      If indeed they have an objection or a concern about a decision that
      we are about to make, it is obviously their prerogative to weigh in
      and to say no, I don't want -- I would like to go in a different
      direction.
      So that happens. That happened when I was in Bush I. And that
      happens now. I think that's kind of been the standard operating
      procedure.

      On June 1, 2011 (after the OPR report was issued), Perez testified before
the U.S. House of Representatives Committee on the Judiciary, Subcommittee
on the Constitution, as follows:

      Mr. King: [T]he decision to drop the cases against the other
      individuals, you testified, was made not by political, but by career
      employees. And I think the names were Loretta King and Mr.


                                       64

      Rosenbaum. Does that still remain the case, or would you wish to
      clarify that before the Committee?
      Mr. Perez: The decision was made by Loretta King and Steve
      Rosenbaum, two people who are career attorneys in the Division
      with combined experience of roughly 60 years or so.
      Mr. King: And it was not overruled or reviewed with input from
      political appointees, Perrelli and Hirsch?
      Mr. Perez: Well, again, as I have described before the commission,
      any time you make a decision--I have a regular Thursday meeting
      with the Associate Attorney General and other people on the
      leadership chain. When you are making a decision, I am about to
      do something, an issue in case A. We are about to----
      Mr. King: But the question was, it was not overruled by or 

      influenced unduly by political appointees?

      Mr. Perez: No. And, again, the OPR report concluded, and they
      did not say that there was scant evidence or insufficient evidence
      of political interference. They said there was no evidence of
      political interference.

      The OIG questioned Perez about the specific instances in which political
appointees participated in the decision-making about the NBPP case in a
manner that was more active than merely being briefed by King and
Rosenbaum, including the following incidents: (1) Perrelli told Hirsch and
Rosenbaum that if Division leadership agreed on some kind of “middle ground”
resolution that fell between two extremes, it could be filed with the court
immediately, but that any decision outside these guidelines would require an
additional extension of time for further consideration by Department
leadership; (2) Hirsch rejected Rosenbaum’s idea about filing an amended
complaint to omit the NBPP and its Chairman as defendants and to correct
certain other allegations for which the Voting Section had no evidence; and (3)
Hirsch edited the motion papers that were ultimately filed with the court.

       Perez told us that he was not previously aware of these instances of
participation by political appointees. However, Perez stated that these
incidents were not inconsistent with his testimony to the Commission. He
stated that the context of his testimony was responding to allegations that
political appointees had exercised “undue influence” or “put a thumb on the
scales of justice” during deliberations over the NBPP matter, and that these
incidents did not reflect conduct of that type. Perez stated that these incidents
were not involvement in the decision to dismiss three defendants and limit the
injunction, because King made the decision in consultation with Rosenbaum
and it was not changed by Hirsch or Perrelli. Perez also cited the Department’s
April 16, 2010, supplemental response to an interrogatory from the
Commission (quoted above) as making clear to the Commission that the

                                       65

decision-making process included discussions with the Associate Attorney
General's staff (specifically Hirsch) about how to proceed.

        Perez told us that he anticipated he would receive questions about the
involvement of political appointees during his testimony to the Commission.
He stated that when he asked King and Rosenbaum early on who made the
decision, they told him it was King in consultation with Rosenbaum, and that
the decision was not made by any political appointees. Perez told us that he
did not ask King and Rosenbaum about their dealings with political appointees,
and that after they told him that it was their call, he did not question them
further. Perez told us he did not ask anyone in the Associate Attorney
General’s Office, including Perrelli or Hirsch, about the involvement of political
appointees in the NBPP matter as part of his preparation for the hearing
because of the pendency of the OPR inquiry, which he viewed as focused on the
role, if any, of Department leadership in the case. Perez also stated that he did
not recall any substantive conversation about the case with the Attorney
General.

                  b.     OIG Analysis of the NBPP Case

       The decisions by the prior administration to bring the New Black Panther
Party case and by the current administration to later dismiss three defendants
who had already defaulted have proven to be controversial. We analyzed these
decisions as part of our review of whether improper political or racial
considerations affected the Voting Section’s enforcement of the civil rights laws.
We also analyzed public statements made by AAG Perez regarding the role of
political appointees in the NBPP case.

                         (1)   The Decision to File the Complaint

       We first considered the actions of the Division in approving the NBPP
complaint in January 2009 just prior to the new administration’s inauguration,
and the contention that the outgoing Division’s leadership was motivated by
improper racial or political considerations in bringing the case. We found no
direct evidence, such as testimony or contemporaneous e-mails, and
insufficient indirect evidence, suggesting such improper motivation.

       We took note of the Section’s recommendation to Division leadership that
the Division file the complaint without following the Voting Section’s “usual
practice” of issuing a notice letter and proposed consent decree – and AAG
Becker’s approval of this recommendation. Absent this decision, the case
would not have been filed prior to the change in administrations. Even if there
was little chance that the defendants would agree to a settlement for the
reasons suggested by Becker or otherwise, we were unable to identify any
compelling need to file the complaint before the change in administrations, and
we found no basis to conclude that the case would be harmed materially by

                                       66

following the usual practice for Voting Section cases. 48 Adhering to the usual
process would have given the incoming administration an opportunity to make
its own decision about whether to file the case. 49 Instead, the outgoing
Division leadership’s decision to move forward immediately with the complaint,
and not follow the usual process, created the perception that the decision was
made in order to deprive the new administration of the opportunity to make its
own assessment of the proposed litigation. However, we did not find sufficient
evidence to conclude that the stated reason for this decision was pretextual or
that the decision was motivated by improper racial or political considerations.

                             (2)	   The Decision to Dismiss the Complaint and
                                    Limit Relief

       Critics of the decisions made in the NBPP case have alleged that the
decision to dismiss three of the four defendants after the entry of default, and
to narrow the scope of the proposed injunction against the fourth defendant,
reflected hostility in the current administration to enforcing the voting rights
laws on behalf of White victims or against Black defendants, a desire to protect
the political allies of the Obama administration, or both. As detailed below, we
did not find sufficient evidence to conclude that King, Rosenbaum, or the
political appointees who approved the decision were so motivated.

      The Entry of Default: Some members of the NBPP case team have
contended that because the four NBPP defendants had failed to respond to the
complaint and default had been entered against them, the case was essentially
won and the decision to dismiss some of the defendants was legally
unnecessary and unprecedented, reflecting a partisan or other improper
motive. While the court’s entry of default meant that the defendants were
deemed to have admitted to the well-pleaded factual allegations of the
Division’s complaint, Rule 55 of the Federal Rules of Civil Procedure still
required the United States to satisfy the court that it was legally entitled to the


       48  In comments submitted after reviewing a draft of this report, Becker told the OIG
that she believed the alleged threats of violence in the NBPP matter set this case apart from
other Voting Section cases and that the NBPP case was more like criminal matters filed by the
Division’s Criminal Section, which did not follow the practice of giving prior notice to
defendants before filing. We do not question Becker’s authority to waive the notice letter
procedure in this or any case. However, for the reasons stated in the text, we believe that the
decision to do so in the unusual circumstances of the NBPP matter left the impression that the
case was filed quickly in order to prevent the new administration from making its own
assessment of the strength of the action.
       49 In comments submitted after reviewing a draft of this report, former Voting Section
Chief Christopher Coates recounted a decision made a few days before the inauguration of the
new administration in January 2001 to file a Section 2 action against Charleston County,
South Carolina. Coates acknowledged that, unlike the NBPP case, a notice letter was sent to
Charleston County before the case was filed.


                                              67

injunctive relief it was requesting. 50 Fed R. Civ. P. 55(b)(2). The court’s deputy
clerk told the trial team that the court would likely hold a hearing on this
matter, and the trial team had begun preparing to present evidence to establish
the defendants’ liability and the government’s entitlement to relief. There was
at least a possibility of an adverse judgment, and we believe it was reasonable
and consistent with their supervisory obligations for the leadership of the
Division to undertake to satisfy themselves that the injunction sought by the
NBPP trial team was supported by the evidence and the law.

        Dismissal of the NBPP and Its Chairman: We first examined the
decision to dismiss the case against the NBPP and its Chairman, MZ Shabazz.
In order to obtain the requested injunctive relief against these two defendants,
the Division was required to establish that they “managed and directed” the
conduct in Philadelphia that allegedly violated Section 11(b). This was a
primary focus of the hard questioning of Coates and Popper by King and
Rosenbaum during late April and early May 2009. The support offered by the
trial team for “managed and directed” was that: (1) that the NBPP website
stated before the election that 300 members in 15 cities would be ensuring the
rights of people of color to vote and “provid[ing] security” against white
supremacist threats; (2) that MZ Shabazz “endorsed” the actions in
Philadelphia in interviews with the media and with the trial team after the
election; and (3) that MZ Shabazz and KS Shabazz had a “long relationship
through the NBPP.”

       We do not believe that this evidence was so strong that improper motives
can be imputed to King and Rosenbaum for having found it insufficient to
obtain a default judgment and the requested injunctive relief after they
undertook what appeared to be a careful review of the evidence, which included
consultation with appellate lawyers in the Division. We found that the legal
and factual reasons outlined to us by King and Rosenbaum as the basis for
their decision to not seek a default judgment and injunction against defendants
NBPP Chair KZ Shabazz and the NBPP were well-considered. Among the
reasons outlined were the following: neither the statements on the website nor
those of MZ Shabazz in the post-election FOX News interview established that
he or the NBPP instructed anyone to commit the acts in Philadelphia that
allegedly violated Section 11(b), such as displaying a weapon at the polling
place, directing racial threats or insults at poll watchers, or attempting to
obstruct poll watchers from entering polling sites by standing shoulder-to-
shoulder and moving in unison; the NBPP, like other organizations, was
entitled to send persons to polling places for the purpose of assisting voters,
and its stated intent to do so was not obviously evidence of a plan to intimidate
voters or poll watchers; and there was no evidence that NBPP members
appeared at any other polling sites on Election Day with weapons (or for that

      50   See Comdyne I, Inc. v. Corbin, 908 F.2d 1142 (3d Cir. 1990).


                                               68

matter without them). 51 This last fact undermined the suggestion that KS
Shabazz’s conduct in bringing a nightstick to the polls was managed or
directed by NBPP leadership pursuant to a coordinated strategy of intimidation.

      Given their belief that there was an absence of sufficient evidence to
establish the liability of the NBPP or its chairman, King and Rosenbaum
concluded that the grounds for seeking an injunction against them were
lacking. 52 We did not find sufficient evidence to conclude that this decision
was the result of improper racial or political considerations.

      Dismissal of Jerry Jackson: We next considered the decision to
dismiss the case against Jerry Jackson, in order to determine whether the
reasons given for that decision were a pretext for racial or political
considerations.

       We found that the evidence against Jackson, which was captured on
video, was considerably stronger than it was against the NBPP or its Chairman
MZ Shabazz. By dressing in the same manner as KS Shabazz in black clothing
with Black Panther insignias and standing with KS Shabazz in front of the
polling place entrance while KS Shabazz brandished a weapon, Jackson
communicated that he was acting with KS Shabazz as part of a concerted
activity. Moreover, there was no evidence that Jackson made any effort to
disassociate himself from KS Shabazz when the latter displayed his weapon or
directed racially hostile rhetoric at White poll watchers. Jackson contributed
the presence of a second, similarly outfitted individual standing side-by-side in
front of the doorway with his baton-wielding companion. Invariably, two
individuals working together are more intimidating than one, even if only one is
speaking or carrying a weapon. Moreover, there was no dispute that the
evidence regarding KS Shabazz’s actions were sufficient to establish a violation
of Section 11(b); Division leadership did not dismiss the case against him and
the district judge entered judgment against him.

       The earliest evidence that Division leadership began explicitly
distinguishing between the liability of Jackson and that of KS Shabazz that we
were able to locate was late on May 14 or on the morning of May 15 - the same
day that the Motion for Default Judgment was due and more than two weeks
after King and Rosenbaum became deeply involved in reviewing the NBPP
matter. Indeed, on the morning of May 15, Rosenbaum told Hirsch that he was

       51 Although MZ Shabazz defended the conduct of the Philadelphia defendants after the

fact during his FOX News interview, we are not aware of any evidence that MZ Shabazz
admitted to directing them in advance to bring weapons or make racial threats toward anyone.

       52 We found the input provided by the Appellate Section on the liability of the NBPP
and its Chairman was equivocal, due the fact that Flynn argued that relief should be sought
against them while the appellate attorney questioned the basis for holding them liable.



                                             69

considering the option of filing an amended complaint that would include both
Jackson and KS Shabazz as defendants, but that would omit the NBPP and its
Chairman and correct other allegations for which he believed the Voting
Section had insufficient evidence. We found no evidence that anyone who had
reviewed the case prior to that date, including the Division’s appellate
attorneys, found any basis for distinguishing between the conduct of Jackson
and KS Shabazz in terms of their individual liability. Most of the discussions
during that period were focused on the ability of the Division to seek injunctive
relief regarding the charges against the NBPP and its Chairman.

       We believe that, in making the decision on May 15 to dismiss Jackson,
King and Rosenbaum inevitably were affected by their loss of confidence in the
accuracy of the information that had been provided by the Section to Division
management about the case. When Rosenbaum questioned the basis for the
allegation made in the J-Memo and the complaint that Jackson had made
racially threatening statements, he discovered that it was lacking. This
discovery, which occurred shortly before a decision had to be made on the
motion for a default judgment, and which was on top of the earlier discovery
regarding the website disclaimer, led Rosenbaum and King to question the
accuracy of the case team’s representations despite the fact that objective
evidence was available against Jackson on video and the fact that Jackson was
a defendant who had already defaulted. The result, we believe, was a last-
minute decision to dismiss the charges against Jackson. Indeed, Division
leadership, on May 15, went from raising the possibility of filing an amended
complaint against Jackson to deciding to dismiss the charges against him just
several hours later. We found that this timing may have affected the quality,
and certainly affected the appearance, of the decision to dismiss Jackson. 53

      We also took note of the fact that the controversy arose in the context of
the contemporaneous discussions about removing Coates as Chief of the
Voting Section, which was motivated at least in part by the belief that Coates
would pursue “reverse-discrimination” voting cases (like the NBPP case) at the
expense of more “traditional” cases. We believe that the larger concerns
Division leadership had about Coates inevitably colored their view of the case
he was advocating at the same time.

       For purposes of this report, our assessment of the merits of Division
leadership’s judgment is relevant to the question of whether the reasons given
for dismissing Jackson were a pretext for a decision based on improper racial
or political considerations. Given the confluence of the factors that we outline

       53 After reviewing a draft of this report, Rosenbaum commented that “Division
leadership often has to make decisions close to a filing deadline and in that decision-making
process often solicits additional information from a Section.” Rosenbaum noted that he argued
an en banc appeal in a major fair housing case on May 13 and that he did not receive revised
motion papers from the Voting Section until May 14.


                                             70

in the preceding paragraphs, we found that there was insufficient evidence to
conclude that the decision to dismiss Jackson from the suit was based on
hostility to enforcing the civil rights laws against a Black defendant, or that it
was made for improper political reasons.

       Limiting the Injunction’s Scope: We also considered whether the
decision to limit the scope of the injunction against KS Shabazz was the
product of an improper motive, and concluded that it was not. Rather, we
found that decision was driven by concerns, informed by advice from the
Appellate Section, that the nationwide relief proposed by the case team, which
was unlimited in duration, was unduly broad in the absence of evidence of
prior violations or activity outside the City of Philadelphia.

      We also considered whether the fact that Acting AAG King and Acting
DAAG Rosenbaum overruled the recommendations of career staff in the Voting
Section was so extraordinary that it, by itself, suggests an improper motive.
Some critics of the decision have asserted that King and Rosenbaum, as Acting
AAG and Acting DAAG, were serving as political appointees, and have alleged
that when political employees overrule career staff, this suggests some kind of
partisan political motivation. We do not infer an improper motive by the
leadership of a Division, without substantially more evidence, simply because
the Division’s leadership disagreed with a recommendation from career staff.

       The Role of Higher Level Political Appointees: Higher level political
appointees, including Associate Attorney General Perrelli and Deputy Associate
Attorney General Hirsch, participated to the extent described above in
important decisions in the NBPP case. We found that they set broad outer
limits on the discretion of Division leadership to dismiss all of the defendants,
rejected the idea of amending the complaint, and edited motion papers
submitted to the court. In addition, Attorney General Holder was briefed on
and generally indicated his approval of the decision by King and Rosenbaum to
overrule the case team’s recommendation and dismiss some of the
defendants. 54 However, we do not infer an improper motive, without more,
from these acts. Senior officials in the Department obviously are not required
to recuse themselves from cases with potential political implications merely
because they are political appointees. Based on our review of documents and
the testimony, we did not find evidence to conclude that the political
appointees approved the decision for improper partisan or racial
considerations. 55


       54 We found no evidence that the Attorney General was specifically briefed on the
proposal to dismiss the claims against Jackson. That proposal was not made until May 15, the
same day the motion was due.
       55  We note that similar accusations were made regarding the overruling of career staff
by political appointees in the prior administration, including in connection with the Mississippi
                                                                                           Cont’d

                                              71

      Based on our review of Department e-mails and the interviews we
conducted, we found no evidence of involvement in this matter by political
appointees outside the Department. Associate Attorney General Perrelli
attended White House meetings near the time of the decision to dismiss some
defendants, which some critics have claimed indicates White House
involvement in the decision. Perrelli explained the purposes of his White House
meetings and stated that the NBPP was never discussed. We are aware of and
found no evidence to the contrary.

                             (3)	    Public Statements Regarding the
                                     Involvement of Political Appointees

       As detailed above, AAG Perez testified to the U.S. Commission on Civil
Rights, as a witness on behalf of the Department, that political leadership in
the Department was not “involved” in the decision to dismiss three of the four
defendants from the NBPP case, and that this decision was made by Acting
AAG Loretta King in consultation with Acting DAAG Steve Rosenbaum. Perez
also made it clear that King’s decision was briefed to political appointees, who
had the authority to overrule it but did not do so. Nevertheless, we found that
Perez’s testimony did not reflect the entire story regarding the involvement of
political appointees in NBPP decision-making. In particular, Perez’s
characterizations omitted that Associate Attorney General Perrelli and Deputy
Associate Attorney General Hirsch were involved in consultations about the
decision, as shown in testimony and contemporaneous e-mails. Specifically,
they set clear outer limits on what King and Rosenbaum could decide on the
NBPP matter (including prohibiting them from dismissing the case in its
entirety) without seeking additional approval from the Office of the Associate
Attorney General. In addition, Perrelli and Hirsch advised against a course of
action that Acting DAAG Rosenbaum said he was considering – namely,
submitting an amended complaint to address certain factual assertions – and
Hirsch edited the motion papers to be submitted to the court.

      To be clear, there are no rules prohibiting political appointees like Perrelli
and Hirsch from participating in such decision-making. To the contrary,
involvement by senior Department officials in decision-making on specific
matters, particularly potentially sensitive cases like NBPP, is both routine and
appropriate.

      We note that AAG Perez had not been confirmed at the time of the
decisions at issue and we found that he did not know about these incidents at
the time of his testimony to the Commission on May 14, 2010. Therefore, we


and Texas redistricting cases and the Georgia Voter ID case and, as detailed in the section of
this chapter dealing with Section 5, we found no basis to infer improper political considerations
there either.


                                               72
did not find that Perez intentionally misled the Commission. Nevertheless,
given he was testifying as a Department witness before the Commission, we
believe that Perez should have sought more details from King and Rosenbaum
about the nature and extent of the participation of political employees in the
NBPP decision in advance of his testimony before the Commission. The issue
of whether political appointees were involved in this matter had already
engendered substantial controversy, and Perez told us he expected questions
about it would arise during his testimony.

       In his OIG interview, Perez said he did not believe that these incidents
constituted political appointees being “involved” in the decision. We believe
that these facts evidence “involvement” in the decision by political appointees
within the ordinary meaning of that word, and that Perez’s acknowledgment, in
his statements on behalf of the Department, that political appointees were
briefed on and could have overruled this decision did not capture the full
extent of that involvement. 56

               3.      Selected Cases Since 2009

      In this section we address two Section 2 and 11(b) matters since January
2009 as well as related incidents that became the focus of allegations that the
Division leadership in the current administration was hostile to “race neutral”
enforcement of the voting rights laws.

                       a.     Factual Summaries

       The Small Business Matter (2008-09) On November 13, 2008, roughly
one week after the 2008 presidential election, the Voting Section received
allegations of possible voter intimidation by the proprietor of a small business
against her employees. In particular, the Section learned that the White owner
of the business wrote a memorandum given to the staff in October 2008 that
included the following paragraph:

       Thanks for all you do & remember to ensure job security here we
       are asking for you to support McCain/Palin. This is not a threat
       but I promise if Obama gets elected and starts implementing his
       economic plan - I will be forced to let some go. I will start with
       those that voted for Obama!

       56 We note that the U.S. District Court in the District of Columbia stated in a July 2012
opinion in a NBPP-related FOIA litigation that: “The documents reveal that political appointees
within the Department were conferring about the status and resolution of the New Black
Panther Party case in the days preceding the Department’s dismissal of claims in that case,
which would appear to contradict Assistant Attorney General Perez’s testimony that political
leadership was not involved in that decision.” See Judicial Watch, Inc. v. U.S. Dept. of Justice, --
- F. Supp. 2d ----, 2012 WL 2989945, D.D.C. July 23, 2012.


                                                73

Two of the business’s employees – a Black woman and a White woman – had
previously expressed support for then-Senator Obama in a public manner,
such as placing an Obama bumper-sticker on a car and wearing an Obama
campaign button at work.

      Upon learning of the allegations, the Voting Section conducted an
investigation into the matter as a potential voter-intimidation claim under VRA
Section 11(b). The evidence established that the proprietor admitted writing
the memorandum and making similar threats in meetings with her staff; that
she subsequently apologized to her staff for the statements, including personal
apologies to the two Obama supporters on her staff; and that she gave
spending money to one of the Obama supporters who travelled to Washington,
D.C. to attend the Obama inauguration and later included pictures of the
employee at the inauguration in the business’s periodic newsletter. Division
leadership declined to pursue a civil action or an out-of-court settlement in
that matter.

      At least two former Section attorneys alleged to the OIG that Division
leadership’s decision not to pursue any action against the business proprietor
was motivated by political considerations, exemplified current Division
leadership’s hostility to enforcement of voting rights laws on behalf of White
voters, or both. We examined contemporaneous documents, including e-mails,
and interviewed witnesses to evaluate those allegations.

      Former Acting AAG Loretta King told us that she believed the elements of
a Section 11(b) violation were present, but she identified several factors that
were the basis for her decision not to take enforcement action against the small
business owner. First, King told us the proprietor’s conciliatory actions toward
the employees after the election was relevant to her assessment of the
seriousness of the potential violation and the need for federal action. Second,
King told the OIG that she felt, after the dismissals in the NBPP case, that
Section 11(b) cases could be “very explosive, politically explosive and that if we
brought one, we better be sure that it was a case worthy of a federal
lawsuit.” She stated that she declined to bring a lawsuit as a matter of
prosecutorial discretion.

      As an alternative to initiating a lawsuit, King proposed that the Voting
Section draft a letter to the proprietor proposing an out-of-court settlement of
the potential Section 11(b) action. Newly-installed Deputy Assistant Attorney
General Julie Fernandes decided not to pursue this measure. 57 Fernandes told
the OIG that she believed this matter was outside the Division’s jurisdiction
because she understood that CRT has authority under Department regulations

       57 Fernandes had joined the Department on July 13, 2009, three days after King

declined to pursue a lawsuit in this matter.


                                            74

only over Section 11(b) matters that involve racial targeting, and that if the
allegations involve voter intimidation without racial implications then only the
Criminal Division or the U.S. Attorney’s Office would have jurisdiction. 58
Fernandes told the OIG that the presence of White and Black victims would
undermine evidence of a race-based motivation and therefore remove the
matter from CRT’s jurisdiction. In addition, Fernandes believed that the
underlying allegations in the matter were “nickel-and-dime” issues, and that
writing a letter to the owner of this type of small business was “awfully weak”
and “just didn’t seem right.”

      DAAG Fernandes’s Comments at a Voting Section Meeting
(September 2009): The Voting Section held a meeting with DAAG Fernandez
on September 16, 2009, which included a wide-ranging discussion concerning
the Section’s work. Allegations later arose about comments by DAAG
Fernandes at that meeting regarding Division leadership's priorities related to
enforcement of Section 2.

       The OIG’s review of available evidence – which included interviews of
several attorneys who attended the lunch and two sets of handwritten notes of
the meeting written by career attorneys – established a consensus concerning
the following facts. During the meeting, a Voting Section trial attorney asked
Fernandes for guidance on whether Division leadership would pursue a Section
2 case in which both the anticipated defendants and victims were racial
minorities – specifically, a matter in which a Black majority population was
allegedly diluting the votes of a Hispanic minority. 59 Witnesses agreed that
Fernandes’s response to the question included statements to the effect that the
Voting Section should focus on “traditional civil rights” cases and focus on
political equality for racial and ethnic minorities.

       According to Fernandes, the attorney asked a question about a
hypothetical case involving a jurisdiction composed of racial or ethnic
minorities, specifically Blacks and Hispanics. She stated that she gave a
“professorial response,” saying that it was a critical question and that they
needed to develop a strategy. Fernandes said that her response also included
statements that the Section should focus on “traditional civil rights
enforcement” and that their core mission is providing equal opportunity to
racial and language minority voters. 60 She told the OIG that the Noxubee and
       58 28 C.F.R. § 0.50(a)(2) provides, in relevant part, that the Criminal Division is
responsible for the enforcement of Section 11(b) “insofar as [it] relate[s] to voting and election
matters not involving discrimination or intimidation on grounds of race or color.”
       59 Several witnesses told us that they understood that the attorney had been

developing such a case, although the attorney apparently presented the question as a
hypothetical.
       60 Handwritten notes taken by Voting Section Deputy Chief Robert Popper and a trial
attorney at the meeting substantially corroborate Fernandes’s recollection of her comments.


                                                75

NBPP cases were not on her mind in answering that question and that she did
not instruct the Section to not bring certain types of cases.

       When asked what she meant by “traditional civil rights enforcement,”
Fernandes told the OIG that she believed that CRT had shifted during the prior
administration from “regular” civil rights cases in favor of what she believed
were more peripheral matters, such as writing advisory opinions on HAVA and
sending election observers to jurisdictions without evidence of problems with
voter intimidation. In addition, she told the OIG that she believed that for eight
years there was a wholesale neglect of cases involving African-Americans.
Fernandes told the OIG that she believed the Division would approve a reverse-
discrimination case involving a Black defendant and White victim, and that no
reasonable person could have interpreted her support for equal opportunity in
voting to mean that she would reject cases in which there is discrimination
against White people.

       Although there was general agreement among the attendees regarding
what Fernandes said, there was a sharp disagreement about what attendees
believed her comments meant. Several Voting Section attorneys stated that
they understood Fernandes’s response to the Section 2 hypothetical question
to mean that Division leadership would not approve Section 2 cases against
Black defendants and/or in favor of White voters, such as the Noxubee or
NBPP cases. Other attorneys who attended the lunch, however, interpreted
Fernandes’s response to the hypothetical differently or did not recall the
exchange at all. For instance, Voting Section Deputy Chief Timothy Mellett
said in his OIG interview that he did not interpret Fernandes’s statement to
mean that Division leadership would not pursue cases like the Noxubee matter,
but rather that she meant cases pursuing “traditional” claims would not “get[]
memo’ed to death and delayed.” 61

      Territory D Section 2 Vote-Denial Matter (2009-10): In March 2009,
the Voting Section received allegations and initiated an investigation regarding
a non-binding plebiscite in a United States territory (Territory D). The statute
enacted by the Territory D legislature stated that the plebiscite in question was
intended to present three options “to the Native Inhabitants of [Territory D] to
ascertain their future political relationship with the United States of America,
namely, Independence, Free Association or Statehood.” The law establishing


        61 With a few exceptions, we found that the attorneys’ interpretations of what

Fernandes meant by her statements divided along ideological lines: attorneys who understood
Fernandes to be expressing hostility toward enforcing the voting laws to protect Whites or
against minority defendants were typically those commonly perceived as conservatives who had
been hired or promoted during the prior administration. Those who disputed this
interpretation were generally the attorneys perceived as liberal, many of whom had been hired
prior to 2001 or promoted during the current administration.



                                             76

the plebiscite provided that only “Native Inhabitants” of Territory D – defined to
include only citizens who were residents of the territory as of a particular date
or their descendants – were eligible to vote in the plebiscite. The statute’s
definition of “Native Inhabitants” of Territory D effectively limited voters eligible
to participate in the plebiscite to individuals of a particular ethnicity, who
comprise a plurality of Territory D’s voting-age population. The rest of Territory
D’s residents, which included a mix of Asians, Whites, and a very small
number of Blacks, would not be entitled to register to vote in the plebiscite.
The statute further provided that the plebiscite would be held on the date of a
general election at which 70 percent of eligible voters are registered.

      The Voting Section’s leadership apparently discussed the inquiry with
Acting AAG King in the spring of 2009. However, the evidence is unclear as to
whether the Voting Section submitted a memorandum to the Division’s
leadership regarding the investigation at that time. Voting Section records
indicate that an investigation was opened in March 2009, the same month the
allegations were received.

       In May 2010, the Voting Section attorney assigned to the matter
proposed filing a Section 2 action against Territory D. This proposal was not
approved by Section Chief Herren and no such proposal was forwarded to
Division leadership. Herren described several factual and legal impediments to
such an action, including significant jurisdictional concerns. In particular,
Herren indicated that he believed the law was unclear about whether the
Section could sue Territory D under the VRA. Herren also identified several
other matters that were consuming Section resources at the time, including a
series of “crisis situations,” such as the post-2010 Census redistricting and the
planning for the November 2010 elections, that resulted in belated handling of
numerous proposals across the spectrum of the Section’s work. Herren stated
that several proposals to pursue other Section 2 matters, including
investigations and lawsuits involving traditional minority victims, as well as
investigations to enforce other VRA provisions, were stalled for comparable
lengths of time in roughly the same period. Additionally, Herren indicated that
the matter was not ripe given that the 70-percent threshold of registered voters
required to hold the plebiscite had not been reached, and that it did not seem
likely that the threshold would ever be reached.

      No action was ever filed by the Voting Section. At least three current or
former Voting Section attorneys told the OIG in substance that they believed
that Division leadership and some Voting Section employees opposed pursuing
the Territory D matter because it was perceived to assert a reverse-
discrimination claim on behalf of Whites or against traditional minority classes.

     In 2011, a private citizen of the territory filed a private action against the
Government of Territory D challenging the plebiscite statute. The court


                                         77

dismissed the private citizen’s complaint without prejudice on the grounds that
the controversy was not ripe.

                  b.	    OIG Analysis of Enforcement of Sections 2 and
                         11(b) Since January 2009

       The OIG received allegations that Division leadership between 2009 and
2012 was hostile to “race neutral” enforcement of the voting rights laws and
that the Voting Section would enforce Sections 2 and 11(b) of the Voting Rights
Act only in “traditional” circumstances – namely, to protect minorities as
historical victims of discrimination – and not against minority defendants or to
protect White victims. We found insufficient evidence to conclude that Division
leadership during this period had such a policy, or that the laws were enforced
in a discriminatory manner to achieve that result.

      First, we found no direct evidence, such as e-mails or memoranda, that
the Division considered or espoused a policy of that nature. In addition, every
witness from Division leadership during that time denied that such a policy
existed or that they believed the VRA should be interpreted in such a rigid
manner.

       Further, our review of relevant matters did not provide sufficient
evidence to establish a policy prohibiting cases against Black defendants or in
support of White victims. As a threshold matter, we note that witnesses
identified only a small number of potential “reverse-discrimination” cases
during the relevant time period that allegedly evidenced a policy prohibiting the
bringing of such claims, which provided a scant record to evaluate the
allegation. Moreover, the conduct of Section and Division leadership in the
matters identified by witnesses did not prove such an allegation.

      For instance, several witnesses alleged that DAAG Fernandes’s refusal to
seek an out-of-court settlement in the small business matter evinced a policy
against enforcing the statute in favor of White victims. We found no direct
evidence establishing that her decision was based on improper racial
considerations. Moreover, Fernandes’s assertion that she declined to proceed
with the case because of her belief that the Section did not have jurisdiction
over such a claim was compelling, as the Department’s regulations appear to
carve out such claims from CRT’s jurisdiction. We therefore did not conclude
that Fernandes’s actions in that matter were evidence of a policy prohibiting
enforcement of Section 11(b) to protect White victims.

       Some witnesses told us they believed King initially declined to bring a
case against the small business proprietor out of concern that she would be
accused of partisan bias for bringing a Section 11(b) case against a McCain
supporter so soon after ordering the dismissal of three defendants in the NBPP
case (involving an organization that had supported Obama). King admitted to

                                       78

the OIG that the NBPP dismissals influenced her views of Section 11(b) and
that bringing this case could be “politically explosive.” However, King provided
several additional reasons for not pursuing the matter. We believe that it was
within the exercise of King’s prosecutorial discretion to conclude, taking into
account the small business operator’s apparent contrition and conciliatory
behavior after the election, that this matter did not merit a formal complaint in
federal court even if the elements of a Section 11(b) violation could be
established. 62

       Although we found no evidence of a policy prohibiting enforcement of
Sections 2 or 11(b) to support White victims, the relevant evidence established
or at a minimum suggested that some CRT leadership personnel and career
Voting Section personnel disfavored non-traditional and reverse-discrimination
cases. Specifically, we believe the statements by DAAG Fernandes at the
September 2009 lunch meeting that the Voting Section should focus on
“traditional” civil rights enforcement and that the Section’s core mission is to
provide equal opportunity to racial and language minority voters conveyed to
Section employees that non-traditional claims would be a lower priority for
Division leadership. We also found that the discussions about removing
Section Chief Christopher Coates, which are addressed in Chapter Four, were
based at least in part on his purported desire to bring reverse-discrimination
cases, which supports an inference that such matters were disfavored by those
seeking to remove him.

       The Territory D Section 2 matter was cited to us as demonstrating that
Voting Section and Civil Rights Division leadership disfavored reverse-
discrimination cases. The Territory D matter was not a “traditional” Section 2
matter because many of the alleged victims were White and the potential
defendants were not. Voting Section management identified to us several
nondiscriminatory concerns about the viability of a VRA case against Territory
D and reasons why the matter was a lower priority for the Section at that time.
We took note of the fact that a court later dismissed a private action against
Territory D, finding that the controversy was not ripe, which was one of the
reasons cited to us by Section management for not pursuing the matter. From
our review of the evidence, including the memoranda prepared by Section staff,
internal Section e-mails, and witness interviews, we did not find evidence to
establish that the Division’s decision not to pursue a lawsuit against Territory
D was motivated by improper racial considerations.




       62  King did not identify the issue that Fernandes later identified, namely that the Voting
Section lacks authority under Department regulations to enforce Section 11(b) in cases where
there is insufficient evidence of racial discrimination.


                                               79

      C.	   Conclusions Regarding Enforcement of Sections 2 and 11(b)
            Over Time

       As detailed above, we found that the number of new Section 2 actions
filed by the Voting Section has decreased dramatically in recent years.
However, we do not believe that this change can be attributed to a hostility
toward or reluctance to enforce Section 2. We also found insufficient evidence
to support allegations that inappropriate racial considerations have affected
Section 2 or 11(b) enforcement decisions made by Division leaders since 2001.

       We found no evidence in any e-mails, documents, or testimony of any
improper racial or political considerations in the decisions of Division
management in Section 2 or 11(b) matters. We next looked at the most
significant and controversial cases to determine whether they were handled in
such a way as to support an argument that the reasons given were pretexts for
such improper considerations. In general, we found that Division leadership
made enforcement decisions based on the legal merits as they assessed them,
and that there was insufficient evidence to conclude that these assessments
were pretexts for politically or racially discriminatory decision-making. We
found that during the prior administration, Division leadership supported the
filing of two Section 2 or 11(b) cases on behalf of White voters against Black
defendants, which was unprecedented, but that there was no evidence that
these choices came at the expense of valid Section 2 or 11(b) cases on behalf of
minority victims. We found that Division and Department leadership since
2009 has expressed a desire to emphasize “traditional” cases to protect the
voting rights of members of groups who have historically been the victims of
discrimination, but that there was insufficient evidence to conclude that this
preference has come at the expense of valid Section 2 or 11(b) cases on behalf
of White voters or against minority defendants.

       We were critical of the process followed in connection with a small
number of the decisions we reviewed, including the way the decisions were
made to move forward with filing the NBPP case without following usual
practice days before a new administration was inaugurated, and to dismiss one
of the defendants later at the last minute with no change in the underlying
evidence. However, we did not find that the reasons given for these decisions
were a pretext for improper racial or partisan considerations. In general we
found that throughout the period of our review and through different
administrations, Division leadership acted within its enforcement discretion
with respect to the enforcement of Sections 2 and 11(b).




                                       80

IV.	    Preclearance of Voting Changes under Section 5

       In this section we examine the Voting Section’s activities under Section 5
of the Voting Rights Act, relating to the preclearance of voting changes in
certain jurisdictions. 63

        A.	     Data Regarding Submissions to the Voting Section Pursuant to
                VRA Section 5

      Figure 3.6 displays the number of Section 5 submissions received by the
Department on an annual basis from 1993 through 2012. As reflected in
Figure 3.6, the total number of submissions received by the Section generally
ranges from 4,000 to 7,000 submissions in any given year. 64 The Voting
Section does not control the volume of Section 5 submissions received and
addressed in any particular year.

                                           Figure 3.6

                              Number of Section 5 Submissions, by Year
8000

7000

6000

5000

4000

3000

2000

1000

   0
       1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012


      Because the VRA requires preclearance of all voting changes, the
overwhelming majority of submissions involve routine changes that are
precleared with minimal scrutiny. As a result, the Section has historically
interposed an objection regarding only a small fraction of submissions; in fact,
since Section 5 was enacted, the Department has objected to roughly one
percent of submitted voting changes that have been submitted. Likewise, in
the period of time examined in this report (1993 through 2012), the number of

       63 As noted above in n 7, on February 27, 2013, the Supreme Court heard arguments

on the constitutionality of Section 5 in Shelby County v. Holder.
       64 Submissions may involve multiple voting changes, and according to the Division, the

Section reviews a total of between 14,000 and 20,000 voting changes in a typical year.


                                                   81

objections interposed by the Department typically amounts to less than one
percent of submissions every year.

      Thus, we were unable to draw any conclusions regarding changes in
enforcement priorities under Section 5 from the available statistical data.
Similarly, as with Sections 2 and 11(b), we found no evidence in any e-mails,
documents, or testimony of any improper racial or political considerations in
the decisions of Division management in Section 5 matters. We next looked at
the most significant and controversial cases to determine if they were handled
in such a way as to support an argument that the reasons given were pretexts
for such improper considerations.

      B.	   Examination of Selected Cases and Events Related to the
            Enforcement of Section 5

       Although many election changes submitted for Section 5 preclearance
relate to routine and uncontroversial matters, some high-profile matters, such
as congressional redistricting plans, have obvious and significant implications
for future elections and therefore become the subject of intense scrutiny and
controversy. Some of these matters have become the subject of allegations that
Division leaders or career staff made choices for the purpose of benefitting a
particular political party, or that the reasons given for the Department’s
decisions were pretextual in nature. We selected those events that have been
the subject of the most significant such allegations, and have grouped them
according to the administration in which they occurred.

            1.	   2001 – 2008

      Some high-profile preclearance decisions made by Division leadership
during the prior administration were the subject of bitter disagreements
between career staff and Division leadership, and became the focus of
allegations that decisions were made on the basis of improper partisan
considerations. In this part we examine several cases that became the subject
of controversies of this nature.

      Mississippi Redistricting: Following the 2000 census, Mississippi’s
congressional delegation was reduced from five members to four, and the
Mississippi state legislature was unable to enact a redistricting plan. In
December 2001, a Mississippi State Chancery Court ordered the
implementation of a plan proposed by the Democratic Party. Branch v. Clark,
No. G-2001-1777 (Miss. Chancery Ct. Dec. 21, 2001). Asserting that the
chancery court lacked jurisdiction, Republican intervenors appealed the
chancery court decision to the Mississippi Supreme Court and, in the
meantime, continued to pursue an action in the U.S. District Court asking it to
enjoin the chancery court from issuing a plan and to issue its own plan. On
January 15, 2002, the District Court issued an order indicating that, because

                                      82

it was unclear whether the State would have a plan in place by the March 1
deadline for qualifying candidates for that year’s midterm elections, it would
begin preparing its own plan. Smith v. Clark, 189 F. Supp. 2d 503, 504-07
(S.D. Miss. 2002).

      The Mississippi Attorney General submitted the plan that had been
approved by the State Chancery Court to the Department for preclearance
under Section 5, requesting a decision by January 31, 2002, so that the State
could implement the plan by the March 1 deadline. Essentially, if the
Department precleared the plan by March 1, then it would become the official
plan of the state (though there was a possibility the federal court could still
enjoin its implementation); if the Department objected to the chancery court
plan or deferred decision by requesting more information, the federal court
would implement its own plan.

       The Mississippi submission raised several legal issues. Among these
was whether the Department, in evaluating the submission, should consider
whether the chancery court had jurisdiction under state law to fashion a
redistricting plan for the entire state and whether Article 1, § 4 of the United
States Constitution precluded the chancery court from doing so. 65 A related
issue was whether the Department should leave the issue of the chancery
court’s jurisdiction for resolution to the courts, and instead limit itself to
analyzing whether the plan had a discriminatory purpose or retrogressive
effect. A third issue was whether the Department’s Section 5 regulations
relating to “premature submissions” precluded the Department’s review of the
chancery court plan while it was being appealed to the Mississippi Supreme
Court. 66

      Division leadership concluded that the chancery court plan was not ripe
for Section 5 review and declined to act on it. Instead, the Voting Section
issued a “request for more information” letter to the Mississippi Attorney
General on February 14, 2002. The focus of the request for information was
not whether the chancery court plan was retrogressive but rather whether the
chancery court had jurisdiction to create and implement a statewide

       65  Article 1, § 4 of the Constitution provides, in relevant part, that: “The times, places
and manner of holding elections for Senators and Representatives, shall be prescribed in each
state by the legislature thereof . . . .”

       66 28 C.F.R. § 51.22 – Premature submissions. The Attorney General will not consider

on the merits: (a) Any proposal for a change affecting voting submitted prior to final enactment
or administrative decision; or (b) Any proposed change which has a direct bearing on another
change affecting voting which has not received Section 5 preclearance. However, with respect
to a change for which approval by referendum, a State or Federal court or a Federal agency is
required, the Attorney General may make a determination concerning the change prior to such
approval if the change is not subject to alteration in the final approving action and if all other
action necessary for approval has been taken.


                                                83

redistricting plan. The request letter also raised concern about whether the
Department should review the plan while it was on appeal to the Mississippi
Supreme Court. We found that Division leadership drafted the request letter
and directed Section Chief Joseph Rich to sign it.

       Under the Department’s preclearance regulations, 28 C.F.R. § 51.37(b),
the effect of the letter was to extend the deadline for decision until 60 days
after the state responded to it. Because of the litigation posture of the matter,
the practical effect of the decision not to preclear the chancery court plan was
that the plan was not approved by the March 1 deadline. 67 On February 26,
2002, shortly after the Department sent its request, the plan favored by the
Republican Party was ordered into effect by the United States District Court.
Several months later, the United States Supreme Court affirmed the District
Court’s decision and found that the Department’s request for additional
information was “neither frivolous nor unwarranted.” Branch v. Smith, 538
U.S. 254, 263-64 (2003). Ultimately, in 2003, the Mississippi Supreme Court
held that the State Chancery Court did not have jurisdiction to formulate a
state-wide redistricting plan, Mauldin v. Branch, 866 So.2d 429, 433 (Miss.
2003), and the plan adopted by the U.S. District Court remained in effect.

       Texas Redistricting: Republicans took control of both houses of the
Texas state legislature in 2002 and in October 2003 the state legislature
passed, and the Governor signed, a congressional redistricting plan. The plan
was submitted to the Department for preclearance under Section 5, and the
Voting Section assigned a team of lawyers, a civil rights analyst, and a
statistician to review the plan. In December 2003, the Voting Section
recommended that the Department object to the proposed redistricting plan. 68

        67 We were told that, as the March 1 deadline approached, there was a meeting

involving a member or members of the Congressional Black Caucus and Division management.
According to a Voting Section Deputy Chief, after the meeting, a Counselor to the AAG told the
Deputy Chief, “we’re with you on this, but it’s out of our hands.” Similarly, we found a
January 29, 2002, e-mail sent by Section Chief Rich to Division leadership recommending that
review of the plan be expedited in order to avoid confusion that would result if the federal court
ordered a different plan while the chancery court one was still pending. The Counselor to the
AAG responded, “[J]oe – we are with you in spirit on this, but the speed of the review is out of
our hands on this one now.” We asked AAG Boyd and the Counselor to the AAG if politics
played any role in the Mississippi redistricting decision in light of e-mail and the reported
conversation. Both Boyd and the Counselor to the AAG told the OIG that no one instructed
them on how the Division should resolve the submission and that politics did not play any role
in the decision. The Counselor to the AAG also told us that he had no recollection of ever
speaking to the Voting Section Deputy Chief about the Mississippi redistricting matter.
       68 As noted in Section III of Chapter Four, in December 2005 a confidential internal
memorandum prepared by the Voting Section’s career staff transmitting its recommendation
with regard to the Texas redistricting plan was leaked and became the basis for an article
describing this incident as an incident of conflict between political employees in Division
leadership and career employees in the Voting Section.


                                               84

       The Texas submission presented retrogression issues regarding whether
certain redrawn districts in the proposed plan had previously been “safe”
districts where minority voters could elect their candidates of choice. For
example, available data suggested that Black voters previously had determined
the outcome of the Democratic primary in District 24 and that the Democratic
candidate (who was not Black) thereafter won the general election, indicating
that District 24 had been a “safe” Black district. We found that, in evaluating
whether to object to the proposed redistricting plan, the Division’s leadership
also considered data which showed that the Democratic candidate had run
unopposed in every Democratic primary since 1986. Further, recent primary
results for other offices in this district, which paired a Black non-incumbent
candidate against a White non-incumbent candidate, showed that the Black
candidate was usually defeated. Additional data indicated that White and
Hispanic voters in this district rarely supported Black candidates in the
primary, suggesting that the opportunities for success of Black candidates were
limited. Taking this evidence into account, Division leadership concluded that
District 24 was not a “safe” Black district. Because the elimination of a
different “safe” Black district was balanced by the creation of a new “safe”
Black district under the Texas plan, leadership concluded that the plan as a
whole was not retrogressive as to Black voters.

       After the redistricting plan was precleared by the Department on
December 19, 2003, numerous plaintiffs challenged it in court, alleging various
constitutional and statutory violations. This challenge raised numerous issues
not addressed in the Section 5 preclearance review, but there was some
overlap. Among other things, the plaintiffs alleged that Texas’s redistricting
plan caused vote dilution in some districts, including District 24, in violation of
Section 2 of the VRA. On appeal, a plurality of the Supreme Court concluded
that there was no vote dilution in District 24, in essence because (as Division
leadership had concluded in connection with the Section 5 submission) Black
voters did not have effective control of that district. However, the Court found
dilution of Hispanic voting power in another district in violation of Section 2.
See LULAC v. Perry, 126 S. Ct. 2594 (2006). Following the adjustments to the
lines in that district, the Texas plan remained the legal districting plan until
February 28, 2012, when a new plan was ordered into effect by the U.S.
District Court for the Western District of Texas. 69

       Georgia Voter ID: In 2005, the Georgia legislature passed a voter
identification law that reduced the number of acceptable forms of identification
from 17 to 6. For most Georgians, the only acceptable form would be a driver’s
license. Georgia’s Attorney General submitted the law to the Department for
preclearance pursuant to Section 5 and the Voting Section assembled a team
to review the submission. When the team requested additional help, Section

      69   http://www.tlc.state.tx.us/redist/redist.html (accessed March 8, 2013).


                                              85

Chief Tanner assigned to the team a new attorney who had been hired directly
from a clerkship six weeks earlier, and who was known in the Section to be
politically conservative. Tanner told investigators that he chose the attorney
because he “wanted to get to a decision expeditiously,” and the review process
provided a “training opportunity” for the attorney. Tanner said that he believed
that Division leadership wanted a “diversity of viewpoints” on the review team
because they lacked confidence in the Section 5 review process. Division
leadership confirmed to us that they did not trust the original review team to
act in a non-partisan and unbiased manner and believed that the review team
was predisposed to recommending an objection to the Georgia Voter ID law.

        The team proceeded under the assumption that there would be two
recommendation memoranda prepared for Division leadership: one written by
the new attorney and one written by the original case team. However, Tanner
later agreed with Schlozman that there would be a single memorandum listing
all of the team members as authors of the “factual review and analyses (sic)”
and that Tanner would prepare a “separate covering memo with the Section
recommendation.” Tanner told OPR that the decision to have a single
preclearance recommendation was motivated both as a managerial matter and
by a fear that it would be leaked to the press. 70

      Based on our review of Voting Section documents, we determined that
the evidence relevant to the Georgia submission was complex and at times
contradictory. The available data from the State Department of Motor Vehicles
about the race of approximately 60 percent of Georgia driver’s license holders
indicated that Black voters might actually be more likely to possess acceptable
forms of photo identification than White voters, which suggested that the
Georgia law would not disproportionately exclude Black voters. However,
census data showed that a higher percentage of Blacks than Whites lacked
access to a motor vehicle, suggesting that Black voters might be less likely than
White voters to possess photo identification.




        70 This change to the Section 5 recommendation procedure was controversial within

the Voting Section. Critics expressed the belief that the purpose of the revised policy was to
eliminate a paper trail of opposition to Division leadership’s decisions and thereby to insulate it
from public criticism. Tanner stated that “in hindsight” the change in policy immediately
before a controversial matter like the Georgia submission might have been a mistake. In 2009,
this policy was reversed. According to AAG Perez, current policy requires that when Division
leadership disagrees with Voting Section staff recommendations, it sets forth the reasons for
such disagreements in writing. Current policy also requires each staff member who works on a
Section 5 submission to state whether they concur with the Voting Section’s recommendation.
Perez stated that he believes this procedure is particularly important given the quasi-judicial
nature of the Division’s pre-clearance reviews under Section 5 and what he feels was the
importance of hearing a full range of views in making such decisions.


                                                86

      On the morning of August 26, Tanner submitted a single staff
recommendation memorandum to Schlozman recommending preclearance.
Schlozman directed Tanner to send the preclearance letter that same day. 71

      The Georgia Voter ID law was invalidated by a federal district court on
other grounds in Common Cause/Ga. v. Billups, 406 F. Supp. 2d 1326 (N.D.
Ga. 2005). The court found that the fee associated with obtaining the requisite
photo ID was a poll tax and unduly impinged the fundamental right to vote. In
2006 the Georgia legislature passed a replacement bill, eliminating the fee and
providing resources to create voter ID cards. The court subsequently
dismissed the legal challenges to the Act and, when the amended Act was
submitted to the Department for review, it was precleared.

              2.     2009 – 2012

      We reviewed two of the more controversial Section 5 preclearance
decisions made by the Voting Section since 2009. 72 We also reviewed the
Division’s current interpretation of one element of the Section 5 legal analysis,
which some witnesses alleged reflects hostility to enforcing Section 5 on behalf
of White voters.

      Kinston, NC: In November 2008, 63.8 percent of the voters in the city of
Kinston, North Carolina approved to a referendum to switch from partisan to
non-partisan municipal elections. The city submitted the proposed voting
change to the Department for preclearance under VRA Section 5 in February
2009. In August 2009, Division leadership issued a letter objecting to the
proposed change. In its letter to the city, the Department noted that Kinston
was a majority-Black jurisdiction in terms of total population (62.6 percent),
voting-age population (58.8 percent) and registered voters (64.6 percent).
However, the letter stated that the city’s Black community should be viewed as
the minority population for analytical purposes because Blacks comprised a
minority of voters in several previous municipal elections. The letter stated
that there was racially polarized voting in Kinston and that its Black voters
could elect their candidates-of-choice only with support from a small number
of White Democratic voters who crossed over racial lines and voted on the basis
of partisan cues. The letter concluded that switching to nonpartisan elections
would remove the “partisan cue” and mean that the White cross-over

        71 As discussed in Section III of Chapter Four, in November 2005 one of the internal

memoranda relating to the Georgia submission was leaked and became the subject of a news
report that the review team’s recommendation had been overruled by higher-ranking officials in
the Justice Department.
       72  The OIG’s investigation covered the Voting Section’s enforcement through 2011. We
note that, although the Section became involved in several high-profile Section 5 matters
during the pendency of this investigation in 2012, those matters fell outside the scope of our
investigation and were not addressed in our review.


                                              87

Democrats would be less likely to vote for Black candidates. It also noted that
nonpartisan elections would eliminate the Democratic Party’s campaign
support and other assistance to Black candidates, including campaign funding.
The letter concluded that under these circumstances, the city had not carried
its burden of showing that the change had neither a discriminatory purpose
nor effect. Some witnesses asserted that the objection was issued in order to
protect the political power of Democrats rather than to protect racial
minorities.

       In April 2010, five Kinston residents filed a lawsuit in U.S. District Court
against the Department to challenge the constitutionality of Section 5. On
February 10, 2012, roughly two weeks before the Kinston case would be heard
by the court, the Division informed the city that it was withdrawing its
objection to Kinston’s voting change because the Black electorate in Kinston
had become large enough to successfully elect its preferred candidates in either
partisan or nonpartisan municipal elections in Kinston. The Division stated
that newly available information indicated that the Black portion of Kinston’s
voting-age population and registered voters had increased to 65.0 and 65.4
percent, respectively; that Blacks constituted a majority of voters in the
November 2011 elections; and that Black candidates-of-choice won a majority
of seats on the Kinston City Council in the November 2011 elections. In its
letter informing the city that it was withdrawing its objection, the Department
stated that the basis for the withdrawal was the “shift in electoral pattern”
since the Division’s August 2009 objection.

       Noxubee County: As noted earlier, the Department sued the Noxubee
County Democratic Executive Committee (NDEC) and its Chairman, Ike Brown,
in 2007 for violations of VRA Sections 2 and 11(b) on behalf of White voters, a
case that the Section won at the trial court and on appeal at the Fifth Circuit.
In ruling for the Department, the district court found that Brown and the
NDEC had violated VRA Section 2 (but not Section 11(b)) by administering and
manipulating the political process in ways “specifically intended and designed
to impair and impede participation of white voters and to dilute their votes.” In
its ruling, the court found that Brown had previously attempted to impose a
party-loyalty requirement, which would exclude voters who were believed to be
Republicans from Democratic primaries, “in part because of party loyalty
concerns, but also as an attempt to discourage white voters from voting.”

      The court later issued an order that included the appointment of a
Referee-Administrator to supervise the Noxubee Democratic primary elections
through November 20, 2011. The order gave the Referee-Administrator
authority over “all electoral duties” of the NDEC and expressly prohibited the
enforcement of party-loyalty requirements on racially discriminatory bases.

      In March 2010, roughly 20 months before the expiration of the court’s
order, Brown and the rest of the NDEC unanimously adopted a resolution to

                                        88

exclude from Democratic primary elections in Noxubee any voter who had held
office as a Republican, served on the Republican Executive Committee, or voted
in any Republican primary election in the previous 18 months. The NDEC
submitted its resolution to the Department for Section 5 preclearance in May
2010.

       On July 12, 2010, the Department issued a no-determination letter in
response to the Noxubee submission, stating that it would be inappropriate for
the Department to address the submission because the NDEC failed to
establish that it was authorized to submit such a change under the court’s
2007 order. The no-determination letter did not interpose an objection to the
proposed change, but nevertheless had the effect of preventing its
implementation, unless the NDEC obtained preclearance from the Federal
District Court in the District of Columbia. The next day, the Department
moved the district court in Mississippi that presided over the 2007 trial for
additional relief under its previous order – namely, that the court enjoin the
NDEC and its agents from implementing the party-loyalty resolution, order that
all requests for preclearance for voting changes while its order was in effect be
submitted by the court-appointed Referee-Administrator, and extend its order
for an additional two years, until November 20, 2013.

       In March 2011, the district court granted the Department’s motion to
enjoin the NDEC from implementing the party-loyalty resolution and to direct
that, as long as the court’s order was in effect, only the Referee-Administrator
had authority to submit requests for Section 5 preclearance of voting changes
for Democratic Party primary elections. The court denied, for reasons not
relevant to our analysis, the Department’s request to extend its order for an
additional two years.

      Critics of the current administration have pointed to CRT’s handling of
the 2010 NDEC submission as evidence of the administration’s hostility to
“race-neutral” enforcement of voting laws. At the same time, CRT leadership
has stated that its response to the Noxubee submission constitutes evidence of
its commitment to evenhanded enforcement of the civil rights laws.

      Section 5 Policy Regarding Coverage of White Voters: The Civil
Rights Division’s current leadership has stated that it interprets the
“retrogressive effect” test under Section 5 not to be applicable to White voters
who are in the numerical minority in a particular jurisdiction. This position
has triggered allegations that the Division has refused to enforce Section 5 in a
“race-neutral” manner.

      As noted in Chapter 2 above, upon receiving a proposed voting change
submitted by a jurisdiction covered under Section 5, the Voting Section reviews
the proposed change to determine whether the change is free of discriminatory
purpose and effect. In evaluating whether a proposed voting change has a

                                       89

discriminatory effect, the Voting Section examines whether a proposed voting
change would leave members of a “racial or language minority group” in a
worse position than they had been before the change with respect to “their
effective exercise of the electoral franchise.” Beer v. United States, 425 U.S.
130, 141 (1976); see also 28 C.F.R. Part 51.54, Procedures for the
Administration of Section 5 of the Voting Rights Act of 1965, as amended
Subpart F, Determinations by the Attorney General, Discriminatory Effect.
This discriminatory effect is commonly called “retrogression” or a “retrogressive
effect.” See id.

       In both public filings and statements to the OIG, the Division has stated
that it interprets the non-retrogression principle of Section 5 to be “race-
conscious,” in that it does not cover White citizens when they are in the
numerical minority in a covered jurisdiction. See e.g., LaRoque v. Holder, Case
1:10-cv-00561-JDB, Defendant’s Motion For Summary Judgment, Document
55 Filed August 11, 2011, at pg. 41, n.11 (stating: “the non-retrogression
principle of Section 5 has always been race-conscious in that it denies
preclearance only to voting changes that ‘would lead to a retrogression in the
position of racial minorities with respect to their effective exercise of the
electoral franchise,’” quoting Beer, 425 U.S. at 141; see also LaRoque v. Holder,
USCA Case #11-5349, Brief for the Attorney General as Appellee, Document
#1358195 Filed February 13, 2012). 73 In a February 2011 letter to the OIG
and in his OIG interview, CRT AAG Perez stated that interpreting Section 5’s
retrogressive-effect standard to not cover White citizens was consistent with the
Division’s longstanding practice, as well as case law interpreting the provision
and the intent behind its enactment. Perez also told the OIG that he believed
interpreting the retrogressive-effect prong of the analysis to cover White citizens
would be inconsistent with the history of and intent behind Section 5, which he
stated was enacted to remedy the specific problem of discrimination against
racial minorities. 74 Perez’s letter stated that the precise question of whether
the retrogressive-effect prong of Section 5 protects White citizens has arisen
“exceedingly rarely,” but asserted that a series of Supreme Court opinions “has
consistently recognized that Section 5 was enacted to deal with a particular
historical problem of racial discrimination against minorities.” 75



       73 In his letter and OIG interview, Perez also stated that the Division interpreted

Section 5 to protect every racial group, including White citizens, from voting changes animated
by intentional racial discrimination.
       74In his February 2011 letter, Perez noted that the Division has always understood the
term “minority” to mean not numerical minority, but rather “an identifiable and specially
disadvantaged group.”
       75 Perez’s letter stated that no court had squarely addressed the issue and that the
Division determined that the issue had arisen in only a handful of submissions over the 45
years since the enactment of Section 5, noting that the Section conducted some analysis of the
                                                                                          Cont’d

                                              90

       In addition, according to Perez, applying Section 5’s retrogressive-effect
protections to White citizens would create “dramatic complications.” In
particular, Perez stated in his letter and OIG interview that he believed
interpreting Section 5’s retrogressive-effect prong to cover White citizens would
be infeasible as a practical matter, noting that “many voting changes…will
almost always have some racial effect in some direction,” and if the
retrogressive-effect standard protects everyone, then virtually no proposed
voting changes would ever be approved. 76

       C.	    OIG Analysis of Section 5 Preclearance Review Activities over
              Time

      As noted above, the Voting Section processes thousands of Section 5
preclearance submissions every year. The large majority are routine, and over
99 percent of the voting changes submitted to the Department by covered
jurisdictions are precleared. Nevertheless, since 2001 there have been a small
number of very high profile Section 5 matters that have become the subject of
heated controversy.

       Several witnesses alleged to the OIG that Division leadership’s decisions
in the Section 5 cases during the period from 2001 to 2008 were driven by
improper political considerations. Specifically, some witnesses told us that
they believed that Division leadership’s decisions in the Mississippi, Texas, and
Georgia Voter ID matters described above were made in order to benefit
Republican candidates and interests.

      We found no evidence in the form of contemporaneous documents or
witness testimony to support a conclusion that improper partisan
considerations drove these decisions by Division leadership. Moreover, our
examination did not reveal evidence indicating that the reasoning given for the
decisions in these cases constituted a pretext for a hidden partisan agenda. In
that regard, we found it significant that in the Mississippi and Texas matters
the bases for Division leadership’s decisions were subsequently adopted in
large part by several courts, including the United States Supreme Court. In
the Georgia Voter ID matter, the critical question for Division leadership was
whether minority voters possessed photo IDs in lower percentages than White
voters sufficient to conclude that the requirements of the law would have a
retrogressive effect. Division leadership relied on driver license data for


impact of a proposed voting change on White citizens in connection with two submissions,
occurring in 1981 and 1989.
       76  In his OIG interview, AAG Perez stated in substance that the Division’s interpretation
was the same as that of the prior administration. However, at least three AAGs from the
previous administration told the OIG that Division leadership at that time did not have a policy
to interpret Section 5’s retrogressive-effect prong such that it would not cover White citizens.


                                               91
approximately 60 percent of Georgia’s driver’s license holders suggesting that
Black voters were more likely to possess acceptable identification than White
voters. Although the conclusions were based on a somewhat incomplete data
set, we cannot say that this was a pretext for improper discriminatory or
partisan motivations.

      Over the course of our investigation, other witnesses pointed to the
Division’s handling of certain Section 5 matters between 2009 and 2012 as
evidence of improper considerations in Division leadership’s decision-making.
In particular, witnesses alleged that Division leadership refused to enforce or,
at a minimum, was hostile to enforcing Section 5 on behalf of White citizens.
Our review did not identify evidence to support such a finding. We note at the
outset of our discussion that we did not identify direct evidence in e-mail or
other documents to support such a conclusion, and that we found the indirect
evidence identified by witnesses involving a small handful of Section 5 matters
was insufficient to support such a broad conclusion.

        One Section 5 matter to which critics of current Division leadership cited
was the Noxubee Section 5 submission in 2010, in which the NDEC attempted
to impose a party-loyalty requirement in Noxubee’s Democratic Party primary
elections. We concluded that the Section’s response to that submission –
namely, issuing a no-determination letter and seeking to enjoin the NDEC from
implementing the proposed change and to extend the duration of the trial
court’s order – did not support a finding that Division leadership was hostile to
the enforcement of Section 5 on behalf of Whites. Critics of current Division
leadership argue that it should have taken a stronger position, such as
objecting outright to the NDEC’s proposed change. However, the Section’s
response of issuing a no-determination letter had the identical practical effect,
i.e., barring the NDEC from implementing the proposed change. We also note
that, even though the Section effectively blocked the NDEC from implementing
the change, it took the extra step of moving the district court in the 2007
Noxubee case to enjoin the NDEC from implementing the change and to extend
the duration of the court’s remedial order, which would have kept the Referee-
Administrator in control of Noxubee’s Democratic Party electoral matters for an
additional two years. Those actions undercut the allegation that the handling
of this matter evidenced hostility by Division leadership to enforcing Section 5
on behalf of White citizens.

       With regard to the Division’s handling of the Kinston submission, some
witnesses and critics of the current administration asserted that the initial
objection to the submission was designed to benefit Democratic politicians in
the jurisdiction, and that the objection was withdrawn only when a judicial
challenge posed the possibility of an adverse decision on the constitutionality of
Section 5. We found no direct evidence indicating that the decision in the
Kinston matter was based on improper partisan considerations. We are aware
of no legal precedent that precluded the Division’s analysis of the Kinston

                                       92

submission and cannot conclude that it was a pretext for an improper political
motivation. The possibility that fear of an adverse court ruling on the
constitutionality of Section 5 may have been a factor in the decision is not
relevant to the question before us, which is whether improper partisan
considerations drove the decision. We found an insufficient basis to conclude
that they did.

      Finally, we did not conclude that current Division leadership’s policy that
the Section 5 retrogressive-effect prong does not cover White voters constituted
evidence that Division leadership refused to enforce Section 5 to protect
Whites. We found that their policy reflected their genuine view of how the
statute must be interpreted under the law and their belief that Section 5’s
retrogressive-effect standard simply could not be administered in a way that
would protect White voters. In making this finding, we emphasize that
evaluating the merits of this policy, including Division leadership’s legal
interpretation of Section 5 and its assertion as to the feasibility of
administering the retrogressive-effect analysis to cover White populations, is
beyond the scope of this review. Nevertheless, we believe that Division
leadership’s policy reflects an interpretation of the law that is well within the
discretion of senior management to hold.

       In light of Perez’s views on nonapplicability of the Section 5 retrogressive-
effect prong to White voters, we asked him about his public statements about
the Division’s ”race-neutral” enforcement of the voting rights laws. For
example, during a hearing before the U.S. Commission on Civil Rights on May
14, 2010, Perez was asked: “Do you agree that the voting rights laws should
always be enforced in a race neutral manner?” Perez responded: “Yes, sir.”
Perez told us that he “should have been more precise” in his answer, and he
explained that his general public remarks were intended to convey that the
Division enforced the laws in an “even handed” manner, and should not be
understood to apply to specific provisions, like Section 5, Section 203, and
Section 4(e), that he believed are inherently incapable of being applied in a
“race-neutral” fashion.


V.    Enforcement of the National Voter Registration Act (NVRA)

       In this section we review the Voting Section’s history of enforcing the
National Voter Registration Act, the so-called motor-voter law. Enacted in
1993, the NVRA has two primary purposes: to increase the number of eligible
citizens who register to vote in federal elections and to protect the integrity of
the electoral process. 42 U.S.C. § 1973gg(b). Critics have alleged that CRT
leadership during the prior administration favored enforcement of the list-
maintenance (electoral integrity) provisions because those provisions
purportedly are more strongly supported by Republicans and remove more
potential Democratic voters from the rolls. Conversely, critics of the current

                                        93

CRT leadership allege that it has neglected the electoral integrity provisions of
the NVRA in favor of enforcing the voter access provisions, because these
provisions purportedly are supported by Democratic constituencies and lead to
the registration of more voters who are likely to support Democrats. Without
opining on the underlying political assumptions, we examine both of these
allegations in this section.

           A.        Data Regarding Enforcement Trends in NVRA Cases

       Figure 3.7 below displays the number of NVRA enforcement actions
initiated by the Voting Section on an annual basis since January 1995, when
the statute became effective in most states. Figure 3.7 is broken down by
actions that enforced the statute’s list-maintenance provision (Section 8(a)(4)),
actions that enforced the voter registration provisions (Sections 5, 6, 7, and the
improper purging paragraphs of Section 8), and actions that brought both
types of claims.

                Figure 3.7 Number of NVRA Matters, by Type and Year

                                              Number of NVRA Matters, by Type and Year
  8

  7

  6

  5
                                                                                                  Matters with List Maintenance Claims
                                                                                                  Only
  4    6
                                                                                                  Matters with Voter Registration
                                                                                                  Claims Only
  3
                                                                                                  Matters with both List Maintenance
  2                                                                                               and Voter Registration Claims
                                                    1         3    1                   3
  1         2                             2                             2                   2
       1              1                             1    1         1
  0
      1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012



       The most noteworthy trend in the Department’s enforcement of the NVRA
relates to the statute’s voter list-maintenance provision, Section 8(a)(4). In the
17 years since the statute became effective, the Department has asserted list-
maintenance claims on 7 occasions, 6 of which occurred in a 3-year span
between 2004 and 2007. 77 According to Hans von Spakovsky, CRT leadership

        77 The only list-maintenance claim pursued outside of that 3-year period occurred in

1995, in response to the state of Virginia’s constitutional challenge to the NVRA. Shortly after
the NVRA became effective in January 1995, a flurry of litigation arose between the Voting
Section and seven states regarding the constitutionality of the statute. In connection with each
of these cases, the Department brought affirmative claims alleging that the states were
violating the statute. The Department’s claims in these cases alleged violations of numerous
NVRA requirements, particularly Sections 5, 6, 7, and the improper-purging or failure-to-
                                                                                          Cont’d

                                                                       94

initiated an effort to enforce Section 8’s list-maintenance provision in late
2004. Von Spakovsky told the OIG that he recommended to Division
leadership exploring those cases because he believed that the Department had
never conducted a systematic review of states’ list-maintenance compliance in
the 10 years since the NVRA became effective. 78 This effort ultimately resulted
in the filing of a complaint alleging list-maintenance claims in 2005 and 2006.
According to witnesses involved in the four other matters involving list-
maintenance claims brought between 2004 and 2007, those claims arose when
the Section obtained evidence suggesting a failure to comply with the list-
maintenance provision during the course of ongoing investigations into other
voting-related matters.

       B.      Enforcement of the NVRA during 2001 – 2008

       We received allegations that the only NVRA cases that Division
leadership wanted to pursue during this period were Section 8(a)(4) list-
maintenance claims, at the expense of cases to protect or increase voter
registration under other provisions of the NVRA. Critics further alleged that
the Division’s leadership was particularly focused on bringing such list-purging
cases in political swing states and large Democratic jurisdictions. The
Division’s leadership denied any such focus and identified several cases
approved by Division leadership to controvert the suggestion that NVRA
enforcement decisions were driven by a partisan agenda. We examined the
entire range of NVRA cases pursued during January 2001 to January 2009 in
order to address this issue.

      From January 2001 through January 2009, the Department was
involved in 12 NVRA enforcement matters, summarized in Table 3.2.




register provisions of Section 8. One of the Department’s complaints, filed in the action
defending Virginia’s challenge, asserted a claim concerning voter list-maintenance procedures,
stating that the defendant jurisdiction would not have procedures in place when the NVRA
became effective for the removal of names of ineligible registrants from registration rolls.
       78  Although the Section included a list-maintenance claim in one 1995 case, the OIG
did not find any evidence of any effort to enforce NVRA Section 8(a)(4) on a systemic basis prior
to 2004.


                                               95

             Table 3.2 – NVRA Matters January 2001- January 2009
                                              List Maint.   Ballot-Access     Brief Description of
Year     Jurisdiction       Type of Matter
                                                Claims         Claims             Allegations
2002   City of St. Louis,   Complaint filed                                 Defendant’s procedures
       Missouri                                                             effectively removed eligible
                                                                            voters from registration
                                                                 X          rolls, in violation of NVRA
                                                                            Section 8’s improper-
                                                                            purging provisions.

2002   State of Tennessee   Complaint filed                                 The state failed to ensure
                                                                            that driver’s license
                                                                            applications would serve as
                                                                            voter registration
                                                                            applications and to
                                                                 X          implement voter
                                                                            registration opportunities in
                                                                            state public assistance
                                                                            offices, in violation of NVRA
                                                                            Sections 5 and 7.
2004   State of New York    Complaint filed                                 The state’s public university
                                                                            system violated NVRA
                                                                            Section 7 by failing to offer
                                                                 X          voter registration
                                                                            opportunities at offices
                                                                            serving disabled students.
2004   Pulaski County,      Complaint filed                                 Defendants failed to
       Arkansas                                                             implement requisite voter
                                                                            registration procedures,
                                                                            failed to conduct an
                                                                            adequate Section 8(a)(4)
                                                  X              X          list-maintenance program,
                                                                            and failed to ensure that
                                                                            any list-maintenance
                                                                            activities were conducted in
                                                                            a uniform and
                                                                            nondiscriminatory manner.
2005   State of Missouri    Complaint filed                                 A number of local
                                                                            jurisdictions allegedly failed
                                                                            to conduct effective list-
                                                                            maintenance programs, and
                                                                            some jurisdictions in the
                                                                            state employed list-
                                                  X              X
                                                                            maintenance procedures
                                                                            that did not comply with
                                                                            the NVRA’s voter removal
                                                                            requirements concerning
                                                                            notice and timing.

2006   State of Indiana     Complaint filed                                 The state allegedly violated
                                                                            NVRA Section 8(a)(4)due to
                                                  X                         inadequate list-
                                                                            maintenance procedures.

2006   State of Maine       Complaint filed                                 Complaint, which arose
                                                                            from alleged violations of
                                                                            the Help America Vote Act
                                                                            (HAVA), included claim that
                                                  X                         the state failed to conduct
                                                                            adequate list-maintenance
                                                                            activities required under
                                                                            Section 8(a)(4).




                                                96

                                              List Maint.   Ballot-Access     Brief Description of
Year      Jurisdiction      Type of Matter
                                                Claims         Claims             Allegations
 2006   State of New        Complaint filed                                 Complaint, which arose
        Jersey                                                              from a HAVA investigation,
                                                                            included a claim that the
                                                  X                         state had failed to conduct
                                                                            an adequate Section 8(a)(4)
                                                                            list-maintenance program.

 2007   City of             Complaint filed                                 Complaint brought claims
        Philadelphia, PA                                                    under several voting-related
                                                                            statutes, including a claim
                                                  X                         under NVRA Section 8 for
                                                                            failing to remove deceased
                                                                            voters from registration
                                                                            rolls.

 2007   Cibola County, NM   Complaint filed                                 Complaint included claims
                                                                            under HAVA and the NVRA,
                                                                            alleging violations of
                                                                            NVRA’s voter-registration
                                                                            and improper-removal
                                                                            provisions by failing to
                                                                            ensure proper handling of
                                                                 X          voter registration
                                                                            applications, including
                                                                            hundreds of applications
                                                                            from residents of the
                                                                            Laguna Pueblo, and
                                                                            improperly removing voters’
                                                                            names from the voter
                                                                            registration list.

 2008   State of Arizona    Out-of-court                                    The state was allegedly not
                            settlement                                      in compliance with NVRA
                                                                            Section 7 by failing to
                                                                 X          provide the required voter
                                                                            registration services at
                                                                            certain state aid offices.

 2008   State of Illinois   Out-of-court                                    The state was allegedly
                            settlement                                      violating NVRA Section 7 by
                                                                            failing to provide the
                                                                 X
                                                                            required voter registration
                                                                            services at certain state aid
                                                                            offices.


      As reflected in Table 3.2, the Voting Section began filing list-maintenance
cases in 2004. As noted above, von Spakovsky confirmed that Division
leadership initiated an effort in 2004 to enforce Section 8’s list-maintenance
provision on a systemic basis. Von Spakovsky told the OIG that he
recommended exploring those cases because he believed the Department had
never conducted a systematic review of states’ list-maintenance compliance in
the 10 years since the NVRA’s enactment.

       Division leadership directed the Voting Section to conduct the research
effort, to review the census data and voter registration data for all 50 states to
determine which states had more people registered to vote than the voting-age
population, as reflected in the census data. Based on the results of this
research, the Section sent letters to 12 states, stating that the Section’s review
of relevant data indicated that the state may not be complying with Section 8’s

                                                97

list-maintenance provision and requesting information on their efforts to
remove ineligible voters from their registration lists.

       Von Spakovsky told the OIG that some of the targeted states responded
to the Department’s letter, explained why there was a discrepancy in the data,
and established that they were complying with the NVRA’s list-maintenance
requirements. He also stated that a number of states failed to show that they
were in compliance with Section 8(a)(4) and that the Section proceeded toward
enforcement actions against those non-compliant states.

       Division leadership approved the filing of two complaints as a result of
this enforcement initiative. In November 2005, the Section filed a lawsuit
against the state of Missouri alleging both improper purging and failure-to-
purge violations. In June 2006, the Section filed a complaint against Indiana
alleging that the state failed to conduct list purging as required by Section
8(a)(4). The Indiana case was resolved by a settlement agreement, but the
Missouri case continued until early 2009, when the Division voluntarily
dismissed the case. 79

       In 2006 and 2007, Division leadership approved three additional
complaints containing Section 8(a)(4) list-maintenance claims, against the
States of Maine and New Jersey and the City of Philadelphia. According to the
Voting Section attorney supervising those efforts, these complaints did not
arise out of the enforcement initiative described above. Instead, the complaints
were brought as a result of investigations under the Help America Vote Act
(HAVA) that uncovered evidence of both HAVA and NVRA violations. The
Section ultimately settled the lawsuits with Maine, New Jersey, and
Philadelphia. In each settlement agreement, the jurisdiction agreed to
implement specific steps to satisfy its list-maintenance obligations.

       In August 2007, Voting Section Chief John Tanner initiated a program to
enforce Section 7 of the NVRA, requiring states to provide voter registration
opportunities in public assistance and disability offices. Section attorneys
reviewed federal Election Assistance Commission (EAC) data to identify states
that were not meeting Section 7’s requirements and discovered 18 states that
reported registering 0 voters in offices providing public assistance over the
previous 2-year period. Following further investigation, the Section entered
into settlement agreements with Arizona and Illinois to resolve Section 7
violations.

      In 2007 and 2008, Voting Section teams reviewed EAC data and census
information to identify states that might not be in compliance with the NVRA’s

       79 The circumstances surrounding the dismissal of the Missouri NVRA matter are

discussed in Chapter Four of this report.


                                            98

Section 8(a)(4) list-maintenance requirements. The teams identified states in
which a significant percentage of the counties or electoral jurisdictions had
more registered voters than voting-age population. The teams recommended to
Division leadership that the Voting Section initiate investigations into the
states that failed to meet the relevant criterion. The states that were the
subject of these recommendations included some states that historically have
consistently favored one party in presidential elections as well as political
“swing states.” The 2007 recommendation was approved and the Section later
issued requests for information to the relevant states. Ultimately, however, no
further enforcement action was taken arising out of this effort. The
investigations that were proposed in late November 2008 were never approved
by either the outgoing or the incoming administrations.

       C.	    Enforcement of the NVRA during 2009 – 2012

              1.	    Division Leadership Declines To Act on Voting Section
                     Proposal for Section 8 Investigation

       In February 2009, shortly after the new administration took office, the
Voting Section submitted a memorandum to Division leadership requesting
approval to initiate investigations into the list-maintenance procedures of a
State (“State E”). According to the State E memorandum, voter-registration
data indicated that roughly 22 percent of State E’s counties had more
registered voters than either the voting-age population or the citizen voting-age
population. The memorandum stated that the Section had been alerted to
State E’s potential list-maintenance failures in connection with an unrelated
Section 5 investigation. We were told that the Section never received a
response from Division leadership to the proposal memorandum. 80

              2.	    Drafting of NVRA Guidance

      In the spring of 2009, a few months after the inauguration of the new
administration, the Department commenced an effort to draft public guidance
concerning the requirements of NVRA Section 7. Samuel Hirsch, who joined
the Department in March 2009 as a Deputy Associate Attorney General and led
the NVRA guidance effort, described the project as rewriting the NVRA in plain
terms and posting it on the CRT website to assist those running state
governmental offices in complying with the NVRA’s requirements. Hirsch told
the OIG the original scope of the NVRA guidance project was limited to Section
7 because the administration believed that Section 7 had been somewhat
ignored by state government officials. According to Hirsch, there was a sense


       80 The Voting Section also prepared a memorandum proposing a similar investigation
with respect to another state’s list-maintenance procedures in 2009. However, we found no
evidence that this memorandum was ever forwarded to Division leadership for approval.


                                            99

in the administration that NVRA Section 8 and other provisions were working
fairly well, but that Section 7 “was slipping through the cracks.”

       DAAG Julie Fernandes and AAG Thomas Perez became involved in the
NVRA guidance project after they joined the Department in July and October
2009, respectively. According to Fernandes, she expressed concern to Hirsch
that the project was limited to Section 7 and proposed broadening the guidance
to include other NVRA provisions, such as Sections 5 and 8. Perez also told
the OIG that in early 2010 he instructed that the guidance include a
discussion of all NVRA provisions, including the list-maintenance provisions.
Hirsch told the OIG that he did not oppose expanding the guidance to include
Section 8, but stated that he may have been opposed to holding up the release
of the Section 7 guidance while preparing the Section 8 segment. The Division
ultimately posted guidance concerning NVRA Sections 5, 6, 7, and 8 on its
website in June 2010.

            3.	   Comments by DAAG Julie Fernandes Regarding NVRA
                  Enforcement at a November 2009 Section Meeting

      DAAG Julie Fernandes told the OIG that she urged Voting Section Chief
Christopher Coates to hold section-wide meetings shortly after she joined the
Department in July 2009. As a result, the Voting Section held several brown-
bag lunches. In addition to the September meeting at which Section 2
enforcement was discussed as outlined above, another session devoted to
NVRA matters was held on November 10, 2009.

      At some point during the November meeting, the discussion turned to
the enforcement of the NVRA’s voter list-maintenance provision in Section 8.
Witnesses who recalled Fernandes’s statements uniformly remembered that
she said something to the effect that she was more interested in pursuing cases
under NVRA Section 7 than Section 8 because Section 8 does not expand voter
access. Witnesses’ recollections of the context of Fernandes’s statements, her
precise wording, and the meaning of her comments, however, varied widely.

       Thirteen witnesses told the OIG that Fernandes stated that she “did not
care about” or “was not interested” in pursuing Section 8 cases, or similar
formulations. For instance, Chris Herren, who was later promoted by current
Division leadership to Section Chief, told the OIG that Fernandes made a
controversial and “very provocative” statement at this brown bag lunch. In
particular, Herren stated that Fernandes stated something to the effect of
“[Section 8] does nothing to help voters. We have no interest in that.” Herren
told the OIG that he winced when he heard Fernandes’s response because he
believed it would raise a controversy. Two other Section attorneys took




                                      100

handwritten notes at the meeting, both of which quoted Fernandes saying that
she did not “care” about Section 8. 81

      Ten attorneys who attended the meeting told the OIG that they
interpreted Fernandes’s comments to be a clear directive that Division
leadership would not approve Section 8 list-maintenance cases in the future.
One Section attorney told the OIG that he understood Fernandes’s statements
to mean that proposing a Section 8 case would be futile and that he believed
proposing Section 8 could be detrimental for the attorneys.

       Seven Voting Section attorneys told the OIG, however, that they did not
believe Fernandes said that the Division would not enforce Section 8 of the
NVRA. Among these were three Deputy Chiefs who told the OIG that they
believed Fernandes meant that Section 7 cases would be prioritized over
Section 8 matters, but that they did not construe her statement to mean that
Section 8 cases would not be approved. Those attorneys who were generally
identified as being more conservative tended to recall that Fernandes took the
more extreme position, while those generally identified as being more liberal
tended to recall her statements as being more limited.

       Fernandes told the OIG that she did not recall exactly what she said at
the November brown bag lunch regarding enforcement of Section 8 of the
NVRA. She said that she and the Section staff discussed the NVRA and what
their approach, goals, and strategy should be. She said that she talked about
how Division leadership is interested in creating equal opportunity for minority
voters. Fernandes further told the OIG that she talked about wanting the
Section to focus on voter access, which would involve NVRA Sections 5, 7, and
8, all of which are in the vein of ensuring that jurisdictions have a fair and
accessible process for all voters. She stated that she recalled being asked
about Section 8 and that her response included something to the effect that
Division leadership’s focus is on the provisions of the NVRA pertaining to voter
access.

       With respect to the comments attributed to her that she did not care
about enforcing Section 8, Fernandes told the OIG that she did not think she
said the words “don’t care” about enforcing Section 8 because that is not her
position. Fernandes denied saying that she or Division leadership had no
interest in pursuing Section 8 cases. Fernandes said that she believed her
comment about not caring was in the context of how to determine what
jurisdictions they should target for enforcement, given that she believed there
is widespread noncompliance with the NVRA.


       81 One set of notes stated: “Julie – doesn’t care about Sec. 8,” and the second

indicated: “Sec 8 – list is too big – not an access issue – ‘don’t care’.”


                                             101

       Fernandes noted that the list-maintenance provision of Section 8
requires jurisdictions to employ reasonable, non-discriminatory measures to
ensure that people who are eligible can vote and those who are ineligible
cannot. Therefore, Fernandes stated, she does not care whether a
jurisdiction's voter list is big, but rather whether it has a list-maintenance
program that does not work. She explained that the fact that a jurisdiction’s
voter list is too big means that the Section may want to inquire about the
jurisdiction’s list-maintenance program, but that alone would not justify
bringing a lawsuit.

      Roughly one year later, in September 2010, allegations concerning
Fernandes’s comments at the brown bag lunch regarding NVRA enforcement
surfaced in news media. Fernandes and other Division leadership personnel
assisted other Department officials in preparing talking points to address the
allegations and Fernandes stated in one of the relevant e-mails: “If we are o.k.
with having priorities, we should say that we have a priority on the
enforcement of the NVRA, with a focus on the parts of the statute that require
states to provide voter registration opportunities in a variety of settings.”

            4.    Approval of List-Maintenance Investigations

       In September 2009, the Section submitted a memorandum to DAAG
Fernandes requesting authority to initiate formal investigations into the list-
maintenance procedures of eight states. The recommendation was based on
the Section’s review of an EAC report that contained voting-related data from
each of the 50 states covering the period from November 2006 to November
2008. A Deputy Section Chief supervised a team of Section attorneys that
reviewed the EAC report for anomalous entries, particularly states that
reported that throughout the 2-year period they did not remove any voters from
their rolls due to death or that they had not issued any voter-removal notices
related to citizens who were believed to have moved out of the state. The team
identified eight states that met one of those criteria, four of which reported
removing zero ineligible voters from their rolls over the 2-year period for any
reason, including death, change of address, disqualifying criminal conviction,
or mental incapacity.

      The team presented the relevant data in its memorandum to DAAG
Fernandes and stated that the information suggested that the eight states in
question were not fulfilling their list-maintenance obligations under Section 8.
As a result, the team recommended initiating formal investigations of the states
in question and directing inquiries to relevant state officials.

      Fernandes told the OIG that, after receiving the proposal for the Section
8 investigations, she told Section Chief Coates that he needed to “hold off”
because she was not ready to decide whether this was the proper approach for
NVRA enforcement. Fernandes told the OIG that she believed the Section’s

                                      102

NVRA work when she became DAAG in July 2009 was disorganized and that
its process for evaluating NVRA matters was “random, unstrategic, [and] not
very well thought-out.” She said that Division leadership and Voting Section
management were therefore engaged in a process of identifying what their
NVRA enforcement strategy should be by reviewing where the Section had
focused its enforcement efforts in the past, determining which areas had been
neglected, and developing an analytical model to bring NVRA cases.

        According to Fernandes, she and Division leadership believed that the
NVRA enforcement efforts from January 2001 through January 2009 had
focused on Section 8’s list-maintenance cases, largely to the exclusion of the
voter-registration provisions in Section 7, which she believed had been under-
enforced and neglected. While we found no evidence that she examined any
data to support this belief, it was consistent with what we found to be the
prevailing belief about the prior administration’s efforts in this area.
Fernandes stated further that she believed the way to “rectify this imbalance”
was to determine what Section 7 efforts were in process, whether they were
being performed correctly, and whether the Section should expand its Section 7
enforcement further. Fernandes stated that her supervisors were pressuring
her to move forward on Section 7 enforcement and that she received a clear
message that they viewed enforcing Section 7 as a higher priority than Section
8. 82 She told the OIG that she believed she had to “scratch the Section 7 itch”
before turning to Section 8 matters and that her supervisors would have
criticized her if she had approved Section 8 efforts first. She also noted that
there was significant criticism of the Department from civil rights groups that
their Section 7 enforcement efforts had been inadequate, saying they had
gotten – and continued to get – “beat up all the time by [their] lefty friends on
not doing enough on Section 7.”

      On November 10, 2009, two months after the team submitted the
recommendation memorandum, the Section held the brown bag lunch
concerning the NVRA, which is described above. Deputy Section Chief Robert

        82 The evidence established that CRT leadership repeatedly emphasized their desire to

pursue NVRA Section 7 matters to Fernandes. Perez told the OIG that he made clear that
enforcing Section 7 of the NVRA was a priority and that he exerted pressure on Fernandes to
“pick up the pace” of the Section’s NVRA enforcement efforts. In an e-mail following a June
2010 meeting with voting rights advocacy groups, Perez told Fernandes, Section Chief Chris
Herren, and others: “I must candidly admit that I was also really pissed off during much of
that meeting because I wholeheartedly agree with the sentiments offered by many in the group.
I agree, for instance, that simply agreeing that section 7 enforcement is important, and sharing
their desire to move forward, no longer cuts it. We said that last time and still have nothing to
show and nowhere near having anything to show.” In that e-mail, Perez directed Fernandes
and Herren to present to him a J-Memo and draft complaint for a Section 7 case by Labor Day
of that year. Similarly, in a July 2010 e-mail, former Division Principal DAAG Samuel
Bagenstos wrote to Perez indicating that he had had “a lot of conversations with Julie” in
recent weeks about various enforcement issues, one of which was NVRA enforcement.


                                              103

Popper and the trial attorneys who proposed the list-maintenance
investigations told the OIG that, based on Fernandes’s comments at that brown
bag lunch, they believed Division leadership would not approve the proposed
investigations. Nevertheless, Popper told the OIG that he asked Section Chief
Herren about the status of the proposal multiple times over the ensuing year,
without receiving any response.

       AAG Thomas Perez and Section Chief Herren told the OIG that they
discussed the proposed list-maintenance investigations in the summer or fall of
2010, months after the proposal to Fernandes in September 2009. Perez told
the OIG that the first time he discussed the list-maintenance proposals was in
mid-2010. Herren stated that he recalled mentioning the list-maintenance
proposal in a fall 2010 meeting with Perez, and Perez made it clear to him that
he wanted to pursue those investigations. Herren told the OIG that he recalled
that Perez said in the meeting that he wanted to live up to his public
statements that the Voting Section under the current Division leadership would
enforce all of the statutes under its jurisdiction and they discussed how to
accomplish that goal. According to Herren and Perez, Herren cautioned Perez
that it would not be appropriate to send out the list-maintenance letters that
close to the November 2010 elections. Perez told the OIG that the Division
waited to issue the letters after the elections in order to avoid the perception
that the Department was improperly influencing the elections. 83 In an e-mail
dated November 30, 2010, Perez specifically requested that the Voting Section
provide him with an update on the status of those letters and indicated that he
expected the letters to go out in early December 2010. 84

       On December 15, 2010, a former Voting Section attorney who had
published articles and blog postings highly critical of current Division
leadership, authored an editorial that criticized the Voting Section for allegedly
failing to bring new cases. On December 20, 2010, Section Chief Herren e-
mailed the trial team who had proposed the investigations to inform them that
the list-maintenance proposals had been approved and requested comments on
letters that he had drafted to the eight targeted states. Popper and the lead
attorney on the investigations told the OIG that they never received an
explanation regarding why there was a 15-month delay in approving the
inquiries. The Section subsequently sent letters to the eight target states to

        83 Perez stated in his OIG interview that they were also discussing sending letters to a

number of states concerning Section 7 compliance around the same time and he ultimately
decided to wait until after the November 2010 elections to initiate those efforts as well, in order
to avoid the appearance of “tipping the balance” in the election.
       84 Perez told us that he has repeatedly stated to both the Voting Section and to external
audiences that the Division would enforce the entirety of the NVRA, including the list-
maintenance provision. Perez further told us that this support was evidenced not only by his
urging the issuance of the Section 8 letters in December 2010, but also by his instruction in
early 2010 that the NVRA guidance should be expanded to include Section 8, as noted above.


                                               104

request relevant information. According to Popper and the lead attorney, the
team evaluated the states’ responses to determine which states should be
investigated further and ultimately concluded that the investigations were moot
due to the expected release of updated EAC data in June 2011.

       The attorneys working on this project stated the 15-month interval before
the investigation was approved was unusually long, if not unprecedented, and
that there was no change in the factual or legal issues that would have caused
such a delay. 85 In addition, the Section attorneys stated that the handling of
this proposal was unusual because notice letters like those sent to the target
states in December 2010 are typically drafted by trial attorneys, not the Section
Chief.

      Herren told the OIG that he did not recall Perez mentioning the former
attorney’s article in discussing the Section 8 proposal and that Perez never
indicated to him that the Section 8 proposal was approved as a result of the
OIG investigation. Herren told the OIG that he believed the delay in approving
those investigations was not a result of hostility to list-maintenance cases.
Herren stated further that, while he understood Section 7 was a higher
enforcement priority for the current administration, he believed they would
consider Section 8 investigations as well.

       Herren stated that he believed the delay in approving the proposed list-
maintenance investigations was largely attributable to the “chaos” that
surrounded the Voting Section and the fact that they “lurched from one crisis
to another” throughout 2010. In fact, Herren stated that he could be blamed
for delays in a wide range of matters because he was fully occupied on “crises”
involving the Section. Herren said that there were numerous other cases and
proposed investigations that were stalled during that timeframe, including
investigations under VRA Sections 2, 4(e), and 203, and he was unable to
address those matters with Perez as well.

      Perez denied that the approval of the investigations in December 2010
resulted from public criticisms of Division leadership. Perez stated that he first
discussed the proposed list-maintenance investigations roughly at the same
time as the Section 7 proposal, which occurred several months before they
were approved in December 2010, and that they waited to move forward on
those proposals until after the November 2010 elections, per Herren’s
recommendation, in order to avoid an impression that the Department was
attempting to influence the election.

       85  Popper stated that he recalled other proposals that were approved after extended
periods of time, but those instances involved extensive discussion between Division leadership
and Section personnel concerning relevant facts or law. In contrast, Popper stated, there were
no questions or comments from Division leadership for 15 months until the team was notified
that the investigation had been approved.


                                             105

       Fernandes told the OIG that certain Section 7 investigations were
approved before the Section 8 proposal. According to Fernandes, the difference
in approval time reflected Division leadership’s enforcement priorities, but she
denied that the Section 8 decision was delayed pending the resolution of the
Section 7 proposals. Fernandes also denied that she was stalling the Section 8
proposals and said that the 15-month delay in the approval of those
investigations did not reflect a lack of interest in enforcing the Section 8 list-
maintenance requirements. Instead, Fernandes stated that the delay resulted
from the “chaos” in the Section, such as selecting and transitioning to a new
Section Chief and conducting large attorney hiring and budget-related efforts.
As a result, Fernandes stated, launching a new program under one provision of
the NVRA was not high on her priority list at that time. Fernandes told the
OIG that Division leadership and Voting Section management eventually
stabilized the Voting Section and began moving forward on cases and matters.

      Fernandes stated that the initiation of the OIG investigation (in the fall of
2010) was not a precipitating or contributing factor in the approval of the
Section 8 investigations. Fernandes said further that the Voting Section
generally faces “a heavy amount of scrutiny,” and that she believed the current
administration has received such attention from the outset.

       D.     OIG Analysis of Enforcement of NVRA over Time

       We found that there was insufficient evidence to conclude that Division
leadership enforced the NVRA in an improper partisan manner during the
period from January 2001 to January 2009. A shown on Table 3.2, Division
leadership approved eight enforcement actions (including settlements) relating
to ballot-access violations compared to six actions to enforce the list-
maintenance provisions of Section 8(a)(4). 86 This record does not support an
inference that Division leadership was pushing list-maintenance cases at the
expense of ballot-access cases for improper political purposes. No improper
motive can be inferred from Division management’s decision to pursue
enforcement initiatives under Section 8(a)(4), especially given that so little
enforcement of this provision had occurred previously.

       We also found insufficient basis to conclude that Division leadership
during the period from January 2001 to January 2009 was targeting swing
states or Democratic-leaning jurisdictions for list-maintenance enforcement in
order to benefit Republicans. We found no evidence, such as contemporaneous
e-mails or documents, to support this belief and the criteria that were used to
identify states for investigation or legal action appeared to be impartial and
objective, and included jurisdictions with a variety of historical voting patterns.

        86 As noted, the actions against Missouri and Pulaski County, Arkansas included both

list-maintenance and ballot-access claims.


                                            106

Moreover, Division leadership’s selection of jurisdictions for enforcement of
ballot-access provisions of the NVRA also undercuts any inference of partisan
motivation. Division leadership approved actions to enforce the NVRA’s voter-
registration provisions – which are commonly viewed as benefitting the
Democratic Party and its candidates – in Missouri and New Mexico.

        The evidence established that Division leadership between 2009 and
2012 clearly placed a higher priority on the enforcement of NVRA’s ballot-
access provisions, particularly Section 7, than the enforcement of the statute’s
list-maintenance provision. The Section engaged in five NVRA enforcement
activities in that time period, all of which enforced the NVRA’s ballot-access
provisions. This prioritization is also reflected in several statements concerning
NVRA enforcement from senior Department officials, including Deputy
Associate Attorney General Hirsch’s comments regarding drafting of the NVRA
guidance; DAAG Fernandes’s statement in the September 2010 e-mail
concerning talking points regarding the Division’s priorities; and Fernandes’s
statement to the OIG that she believed she had to “scratch the Section 7 itch”
before turning to Section 8 matters and that her supervisors would have
criticized her if she had approved a Section 8 matter before a Section 7 one.
We also found that, although Fernandes’s comments at the Section’s November
2009 brown bag lunch may not have amounted to a clear rejection of list-
maintenance enforcement, they at a minimum conveyed that such cases were a
lower priority than the voter-registration provisions. We also believe that
Division leadership’s handling of the Section 8 list-maintenance investigation
recommendations, including the failure to respond to the State E proposal and
the 15-month delay in the approval of the eight list-maintenance inquiries, also
conveyed this message.

       We found, however, that the evidence did not support a conclusion that
the decision to send out the Section 8 letters in December 2010 was triggered
by an editorial criticizing the Department. Contemporaneous evidence shows
that AAG Perez urged the Voting Section to issue these inquiries before the
editorial was published. Moreover, we note that in early 2010 Perez instructed
that the NVRA guidance project be expanded to address Section 8.

      Although we found that current Division leadership has a clear priority
structure for NVRA enforcement, we found insufficient evidence to conclude
that they enforced the NVRA in a discriminatory manner. We found no direct
evidence, such as e-mails, indicating or implying a racial or partisan motive for
such prioritization. Moreover, the states in which the Section took enforcement
actions during this time period (Georgia, Rhode Island, and Louisiana) are of
varied geographies and political histories. It was within the discretion of senior
management to prioritize enforcement efforts, particularly based on what
appeared to be genuinely held perceptions about the need to redress previous
enforcement imbalances.


                                       107

VI.    Language-Minority Provisions (Sections 4(e), 4(f)4, and 203)

       The provisions of the Voting Rights Act that protect language-minority
voters are contained in Sections 4(f)4, 203, and 4(e). These provisions require
that in certain states that contain sizeable language-minority populations, all
election information that is available in English must also be available in the
minority language so that all citizens will have an effective opportunity to
register, learn the details of the elections, and cast a free and effective ballot. 87

      Some witnesses, including two Voting Section attorneys and one other
Section employee, told the OIG that they believed, or heard allegations from
other employees, that the Division leadership during the previous
administration prioritized enforcement of the language-minority provisions over
other voting rights cases for political reasons. In general terms, these
witnesses asserted that Division leadership at the time emphasized language-
minority cases to give themselves “political cover” for their failure or refusal to
bring “traditional” Section 2 cases or to garner goodwill for the prior
administration among the Asian and Hispanic populations, who would benefit
most from the language-minority cases.

       Figure 3.8 reflects the Section’s efforts to enforce the language-minority
provisions from 1993 through 2011. The enforcement actions noted in the
figure include complaints filed by the Division bringing a language-minority
claim, amicus briefs submitted by the Division in support of private plaintiffs’
actions to enforce one or more of the language-minority provisions, and out-of-
court agreements between the Division and local jurisdictions that enforce
those provisions.




       87 Language minorities covered under the Act are limited to groups that Congress
found to have faced barriers in the political process, namely American Indians, Asian
Americans, Alaskan Natives, and Spanish-heritage citizens.


                                            108

                                        Figure 3.8

                    Number of Language Minority Actions Per Year
                                    1993-2012
        9
                                                                    8
        8
                                                                7
        7
                                                        6   6
        6
        5
        4
            3                                                                   3
        3
                                2                   2                   2   2       2   2
        2
                    1               1           1
        1
                0       0   0           0   0
        0




     The OIG identified several trends in the enforcement of the language
minority provisions, which are discussed below.

       Increased Volume of Cases from 2001-2008: As reflected in Figure
3.8, the Section’s enforcement activity related to the language-minority
provisions increased dramatically beginning in 2004 and reached a peak
between 2004 and 2007. In the three and one-half years between March 2004
and September 2007, the Section participated in 27 matters to enforce the
language-minority provisions, which is more than the combined total of all
other language-minority enforcement efforts since those provisions were
enacted in 1975 (26 matters). This increased language-minority activity
corresponds with the period in which John Tanner assumed managerial
authority over language-minority claims and his subsequent promotion to
Voting Section Chief. Although the Section has continued to enforce the
language-minority provisions following Tanner’s departure from the Voting
Section in late 2007, the number of new cases of this type declined
substantially.

      Witnesses who worked in Division leadership during that period
consistently told the OIG that the language-minority provisions were a clear
enforcement priority. According to DAAG Bradley Schlozman and Hans von
Spakovsky, who was Counsel to then-CRT AAG Alexander Acosta during the
relevant time period, Acosta took a particular interest in the language-minority
provisions and wanted to increase the Section’s efforts to enforce those
provisions.


                                                109

      Schlozman and von Spakovsky told the OIG that they believed the
language-minority provisions had been neglected by previous administrations
and that Section managers, particularly former Section Chief John Tanner, had
successfully developed a more systematic process to identify targets for
investigation and marshal evidence for such cases. In addition, Division
leadership witnesses told the OIG that part of the motivation behind the
increased focus on those provisions was that such cases were highly efficient,
meaning that they required substantially fewer resources to develop and
prosecute than other cases, particularly Section 2 matters, and that they could
benefit a larger number of voters. 88

       Von Spakovsky told the OIG that he did not approach the language-
minority cases from a political standpoint, and that no one that he worked with
ever said anything to him to the effect that the increased enforcement of
language-minority cases was designed to attract such voters to the Republican
Party. Von Spakovsky also noted that he believed that the likely outcome of
the increased enforcement of the language-minority provisions was to harm the
prior administration and the Republican Party because those cases increased
Hispanic voting and the vast majority of Hispanics do not vote for Republican
candidates.

      Schlozman also denied to the OIG that he had a political motivation for
enforcing the language-minority provisions, noting that Acosta made it an
enforcement priority and that he executed that directive. Schlozman stated
further that he personally did not believe Section 203 was “a good statute” and
would not have emphasized its enforcement. Schlozman also told the OIG that
he did not believe there was a political motivation behind the prioritization of
those cases and that he did not recall any specific discussion of the fact that
such cases could garner goodwill for the Republican Party among the
populations at issue. Schlozman told the OIG that, although he never heard
any discussion that benefiting the Republican Party was the purpose behind
the increased enforcement, he recalled some conversations in which others
observed that increased goodwill among Hispanic populations would probably
be “an added benefit to these cases.”

      Tanner also commented on allegations of politicized enforcement of
Section 203 in his 2007 OIG interview. Specifically, Tanner stated that he had
heard an allegation that the Section was pursuing language-minority cases to

       88  We also note that Andrew Lelling, who was a Counsel to AAG Ralph Boyd from mid-
2001 to mid-2003, before the increase in language-minority cases, told the OIG that the
enforcement of language-minority provisions complemented the administration’s view of voting
rights enforcement, which focused on ensuring an equal opportunity to vote. Lelling also
stated that the increased effort to enforce those provisions was in conjunction with the Voter
Integrity Project, which the administration launched in response to alleged voting irregularities
in the 2000 election.


                                              110

sue Democratic jurisdictions and dismissed that assertion by noting that the
Section during his tenure had taken action against three “big Republican
count[ies].”

      As noted above, some witnesses told the OIG that they believed Division
leadership during the previous administration emphasized language-minority
cases for political reasons. We did not find any direct evidence to support such
allegations. We believe that it was within Division leadership’s discretion to
make Section 203 enforcement a priority for the Voting Section.

       Changing Demographics of Language-Minority Cases: The OIG also
identified two trends related to the minorities protected by the Section’s
enforcement of the language-minority provisions. Figure 3.9 below compares
the composition of the populations protected in new enforcement actions filed
by the Section during three different periods: 1993-2000, 2001-2008, and
2009-2012.

                                   Figure 3.9

                   Racial Demographics of Language Minority
                             Enforcement Actions
          35


          30                  3
                              2
          25                                       Native Americans

          20                                       Both Asian Americans and
                                                   Hispanics
          15                                       Asian-Americans
                              27

          10                                       Hispanics
                                          1
                                          1
           5      3
                  1                       7
                  3
           0
               1993-2000   2001-2008   2009-2012


      As depicted in Figure 3.9, while the number of cases is small, the OIG’s
review of the Section’s language-minority matters indicates a decrease in the
volume of enforcement actions taken on behalf of Native Americans. In fact, of
the Section’s 42 actions to enforce the language-minority provisions since early
1998, only one has protected the rights of a Native American population. Over

                                       111

the same timeframe, the Section’s enforcement has focused overwhelmingly on
Hispanic populations, with all but three enforcement actions since early 1998
containing some claims on behalf of Hispanic voters. 89 Again, it is difficult to
draw conclusions given the small number of cases at issue, and the OIG did
not receive any allegations that any change in these numbers was motivated by
improper racial or political motivations, so we did not examine them further.


VII.      The Uniformed and Overseas Citizens Absentee Voting Act

       Figure 3.1 reveals that from 1993 through 2012, the Section initiated 44
actions to enforce the Uniformed and Overseas Citizens Absentee Voting Act
(UOCAVA). Fourteen of those actions were initiated in a single year, 2010, and
eight more were initiated in 2012. UOCAVA enforcement was the single largest
focus of new enforcement matters for the Voting Section in which the United
States was a plaintiff from 2009 to 2012. According to the Department, the
increase in the volume of the Section’s UOCAVA work over the past several
years was triggered by the passage of the Military and Overseas Voter
Empowerment Act of 2009 (MOVE Act), which significantly expanded UOCAVA
– including by imposing a requirement that jurisdictions transmit ballots to
voters covered by the Act at least 45 days before a federal election.

       Perez told the OIG that protecting service members’ civil rights was “one
of [his] top priorities” and that, in addition to the large volume of new cases
filed under the MOVE Act, the Section invested considerable resources in
education about and implementation of the new law. Current Voting Section
Chief Christian Herren stated that the Section exerts significant effort to
enforce UOCAVA in every federal election year, but that they were spending
even more time in 2010 on such matters because of the newly enacted
amendments from the MOVE Act. According to the Department, election cycles
that follow enactment of a new federal voting rights law typically require a
greater expenditure of Voting Section resources both to ensure that
jurisdictions understand the demands of the law, and to take enforcement
measures where necessary. The Department has informed us that these
efforts, by necessity, reduced the resources available for other voting rights
activities.

      After reviewing a draft of this report, the Department stated that the
beneficiaries of the Voting Section’s UOCAVA enforcement are service
members, their dependents, and overseas citizens – a group that is classed
without regard to race and that includes large numbers of White voters. The
Department commented that the Voting Section’s comprehensive, resource-

          89   Four of the enforcement actions sought to protect both Asian-American and Hispanic
voters.


                                                112

intensive, and nationwide enforcement of UOCAVA since 2010 is inconsistent
with allegations that the Civil Rights Division has been unwilling to enforce
voting rights laws to assist White voters.


VIII. Conclusions

       Numerous witnesses told us that they believed that improper partisan or
racial considerations have infected enforcement decisions in Voting Section
cases at various times since 2001. We believe that these allegations can be
traced in considerable part to the fact that many Voting Section cases have
actual or perceived impacts on political interests. The Section reviews
redistricting cases that can change the partisan composition of congressional
delegations and voter ID laws have actual or perceived impacts on the partisan
composition of the eligible electorate. Division leadership makes choices on
Voting Section enforcement priorities – such as whether to give greater
emphasis to statutory provisions intended to increase voter registration or
those intended to ensure the integrity of registration lists and prevent voter
fraud – which are widely perceived to affect the electoral prospects of the
political parties in sharply different ways.

      Our examination of the mix and volume of enforcement cases brought
over the past ten years by the Voting Section revealed some changes in
enforcement priorities over time, corresponding to changes in leadership.
However, our review generally did not substantiate the allegations we heard
about partisan or racial motivations and did not support a conclusion that the
Voting Section has improperly favored or disfavored any particular group of
voters in the enforcement of the Voting Rights laws.

       For example, we found no persuasive support for the allegation that
Division leadership during the prior administration (2001-2008) was hostile to
bringing Section 2 or 11(b) enforcement actions on behalf of Black or other
minority voters, or that it gave less support for such cases than for so-called
“reverse-discrimination” cases. Although the number of new Section 2 cases
declined overall during that period, the number of new Section 2 cases brought
since 2009 (under leadership that has not been accused of hostility toward
Section 2 enforcement) has declined even more dramatically. Moreover, only 2
of the 13 Section 2 or 11(b) cases approved by Division leadership from 2001
up to the inauguration in January 2009 involved White victims of
discrimination, a ratio that does not support any suggestion that leadership
pursued such cases at the expense of cases on behalf of racial minorities.

       When we examined individual Section 2 or Section 11(b) cases, we found
that in most cases the leaders of CRT or the Voting Section responsible for
these decisions – sometimes overruling the recommendation of career attorneys
– were generally acting within their enforcement discretion and in several cases

                                      113

were vindicated by subsequent judicial decisions. The only case cited to us
that we found raised any serious question about Section 2 enforcement was the
decision by leadership to prohibit a preliminary investigation in the County C
case. Although this decision was inconsistent with prior and subsequent
decisions by different Division leaders, we did not find it sufficient to support
the larger ideological conclusion for which it was cited to us.

       We also found that, although there was evidence to suggest that some
personnel in Division leadership since 2009 felt that the Section’s highest
priority should be enforcing the voting rights statutes to protect “traditional”
victims of discrimination – racial and ethnic minorities – there was no policy
prohibiting enforcement of these statutes to protect White victims, and that the
decisions that Division or Section leadership made in controversial cases did
not substantiate claims of political or racial bias. In the New Black Panther
Party matter, we found that there were well-considered reasons for dismissing
the action against the two “national” defendants. While we found that the
objective evidence to support an injunction against Jackson was substantially
stronger than the evidence against the two national defendants, we did not find
sufficient evidence to conclude that the decision to dismiss Jackson was driven
by improper racial or political considerations. We found that there were
legitimate non-discriminatory reasons for the Voting Section leadership to
decline to pursue a case against the small business proprietor and to hesitate
to devote resources to the Territory D matter. We could not from these cases,
or any others cited to us, infer that leadership had a blanket policy against
using the voting rights laws to protect White voters in appropriate cases.

       We also found that allegations of politicized decision-making in Section 5
decisions were not substantiated. In the controversial 2002 Mississippi and
2003 Texas redistricting matters there were strong differences of opinion
expressed during deliberations involving the Voting Section career attorneys
and political appointees. After careful review we could not conclude that the
positions taken by the participants were inconsistent with applicable law or
that they were offered as a pretext for advancing partisan objectives. Although
there were also differences of opinion among attorneys involved in the 2005
Georgia Voter ID matter, the decision recommended by the Section Chief and
approved by Division leadership did not support a conclusion that it was
improperly motivated. Likewise, the evidence did not establish discriminatory
decision-making in Section 5 matters since 2009. The decisions made in the
Noxubee and Kinston Section 5 matters and the Division leadership’s
interpretation of Section 5 retrogressive effect prong were within the discretion
of management and did not reflect an improper refusal to enforce Section 5 on
behalf of White voters.

      We found that the allegations that Division leadership during 2001-2008
focused on list-maintenance provisions of the NVRA to the detriment or
exclusion of voter-registration provisions of the statute were not supported by

                                      114

the evidence. We also found insufficient evidence to conclude that leadership
during that period targeted jurisdictions for enforcement of the NVRA for
political purposes. We found that current leadership has exhibited a clear
preference or priority for enforcing the voter registration provisions of the
NVRA, but that there was inadequate evidence to conclude that this
prioritization reflected improper racial or political considerations. Similarly, we
found insufficient evidence to conclude that the Division leadership during
2001-2008 favored enforcement of the language-minority provisions of the
Voting Rights Acts over other voting rights laws for political reasons.

       In sum, we found that there were legitimate, non-discriminatory bases
for the substantive enforcement decisions made by Division leadership in the
high-profile, controversial cases handled by the Voting Section since 2001, and
that these reasons were not a pretext for improper racial or political
considerations. This does not mean that the Voting Section was functioning
smoothly or well during that period. As detailed in the next chapter, we found
that deep ideological polarization, both among career attorneys on different
ends of the partisan spectrum and between some career attorneys and political
appointees in Division leadership in both administrations since 2001, has at
times been a significant impediment to the operation of the Section and has
exacerbated the potential appearance of politicized decision-making.




                                       115

PAGE INTENTIONALLY LEFT BLANK





             116

                  CHAPTER FOUR

  HARASSMENT OR MISTREATMENT OF VOTING SECTION

EMPLOYEES FOR THEIR POLITICAL IDEOLOGY OR POSITIONS 

        THEY TOOK ON PARTICULAR MATTERS


I.    Introduction

       In this chapter we address allegations we received that Voting Section
employees were harassed, mistreated, marginalized, or removed due to their
political ideology or the positions they advocated in connection with Voting
Section matters. These allegations fell into three general categories: (1) peer-
to-peer harassment of career employees; (2) Voting Section or CRT managers or
leadership retaliating against career non-supervisory employees, and (3) CRT
leadership removing, marginalizing, or mistreating some career Voting Section
managers.

       The OIG received a large volume of allegations in these categories,
particularly regarding retaliation or other mistreatment by Section managers
against career employees due to ideological views. As described in greater
detail below, we concluded that it was impractical to investigate the majority of
these allegations in this review due to the passage of time and the nature of the
evidence we would have needed to examine. Instead, we focused on several
incidents in each category for in-depth review. We selected incidents that
related to the broader issues explored in this report, namely allegations of
improper political or racial considerations in case decisions. We also selected
episodes that multiple witnesses cited as having a significant impact on the
Section. A third criterion was whether sufficient evidence was available to
support a conclusion about the allegations in question. To examine the
allegations related to the selected case-studies, we reviewed thousands of pages
of e-mails and internal documents and interviewed numerous witnesses who
were involved in the matters.

      In Section II of this chapter, we review the evidence pertaining to several
incidents in which career employees allegedly harassed or mistreated other
career employees due to their political ideology or their positions on Voting
Section matters. Section III of this chapter examines several incidents of
disclosure of confidential or non-public information about Voting Section
matters or personnel to media outlets that we found exacerbated mistrust
among Voting Section employees or between career employees and Division
leadership. Section IV of this chapter examines allegations Voting Section or
CRT managers or leadership retaliated against career non-supervisory
employees because of their political affiliations or positions they took in Voting
Section matters. Section V of this chapter we examine evidence related to

                                       117

allegations that senior Department and Division personnel took actions or
otherwise mistreated Voting Section managers due to their ideological views or
positions on Voting Section cases or matters. Each section presents our
conclusions about the incidents at issue. In many cases, we obtained
sufficient evidence to establish that the allegations of harassment or
mistreatment were supported, while in some we concluded that the evidentiary
record was mixed or did not support the allegations.


II.    Allegations of Peer-to-Peer Harassment between Career Staff

      In this section we describe the results of our investigation of incidents
involving the alleged harassment of career employees by other career
employees for their political ideology or their positions on Voting Section
matters that were ideologically inconsistent with what their peers thought the
Division should be doing.

       A.     Staff Conduct during Georgia Voter ID (2005)

       In Chapter Three, we described the decision by Division leadership in
2005 to preclear the Georgia Voter ID law under Section 5 of the Voting Rights
Act. As detailed in that chapter, the Georgia statute reduced the number of
forms of voter identification that would be acceptable at the polls, and was the
subject of sharp disagreements among career attorneys in the Voting Section.
In this section we address allegations that one employee was subjected to
harassment for his political ideology and the positions he advocated during
deliberations over the Georgia Voter ID matter.

       Deputy Chief Robert Berman assembled a team to review the Georgia
submission, consisting of a trial attorney, a civil rights analyst, and a member
of the professional staff. 90 When Berman requested additional help for
reviewing the Georgia submission, Section Chief John Tanner assigned a
recently hired attorney, Arnold Everett, to the matter. 91 According to the
Department, Everett had not yet received formal Section 5 training and had
virtually no experience in such matters. As we discussed in Chapter 3, Tanner
told investigators that he chose Everett because he “wanted to get to a decision
expeditiously” and the review process provided a “training opportunity” for
Everett. Tanner said that part of the basis for his decision was his belief that
Division leadership wanted a “diversity of viewpoints” on the review team
because he understood that they lacked confidence in the Section 5 review

       90 An Attorney-Reviewer from the Section 5 group provided guidance to the review

team, but was not engaged in the day-to-day review of the Georgia Voter ID submission and
played a very minor role in the review.
        91 Arnold Everett is a pseudonym. We used pseudonyms throughout this report to

protect the privacy of non-supervisory employees.


                                            118

process. Division leadership confirmed to us that they did not trust the
original review team to act in a non-partisan and unbiased manner and
believed that the review team was predisposed to recommending an objection to
the Georgia Voter ID law.

      Witnesses told the OIG that the rest of the team viewed Everett and his
assignment to the review team with suspicion for a number of reasons, such as
the fact that Everett was a new attorney and just hired into the Department,
knowledge that Everett was a conservative hired by Bradley Schlozman, who at
the time was the Acting Assistant Attorney General for the Civil Rights
Division, and a belief that Everett would be “skeptical about the need for an
objection.” 92

      E-mails revealed that shortly after Everett was assigned to the team,
Hans von Spakovsky – then serving in Division leadership in a career capacity
as Counsel to the AAG – began communicating directly with Everett about his
views of the case without including the other team members. For example, von
Spakovsky gave Everett an unpublished article that von Spakovsky had written
on a different state’s voter ID law that he told Everett not to share with the
other team members. In an interview in a different investigation, then-Section
Chief Tanner stated he was not aware of these communications at the time
they were happening.

       Everett, however, told the other members of the review team about his
contacts with von Spakovsky, and we found that the knowledge of those
contacts further strained the team’s relationship with Everett. One review
team member told the OIG that, after learning of Everett’s communication with
von Spakovsky, the team made it a point to be careful about discussing issues
within earshot of Everett that they did not want Division management to know
about. The review team also excluded Everett from various e-mails and
meetings about the review, and did not share with him the first draft of the
recommendation memorandum for the Section’s leadership. One team member
described Everett in an e-mail as a “hand-picked Vichyite” who was assigned to
the review to produce data in support of preclearing the Georgia submission.
Witnesses told us that that the office politics at the time was such that certain
members of the career staff resorted to black humor when describing working
in the Voting Section, including comparing the Voting Section to Vichy-
controlled France during the Nazi occupation of World War II. One member of

        92 One team member told us, after reviewing a draft of this report, that “the problems

between the team members stemmed from an almost total lack of leadership from Voting
Section management, and [arose] in a climate of real distrust among staff members.” He stated
that many of the actions described in the report “were largely the result of trying to deal with
the frustrations created by the Section chief and ultimately the political appointees in that
period.” Two other team members expressed similar sentiments to the OIG.



                                             119

the Georgia review team told us that he considered himself part of the
“resistance” and that he and others used the term “guerilla war” to describe
their actions in the Voting Section.

       Everett told the OIG, and contemporaneous e-mails confirm that, after
disclosing to the review team that he and von Spakovsky had been in contact,
Everett did not communicate with von Spakovsky or Schlozman for a few
weeks. Everett told us, however, that he then discovered that the rest of the
review team had left him out of the process of drafting the recommendation
memorandum and that, when he saw the draft, he had concerns about its
completeness and accuracy. Everett then informed von Spakovsky of the
situation, and they resumed communicating regularly about the case.

      Von Spakovsky advised Everett that, if he disagreed with the draft
recommendation memorandum, he should speak with Section management
and discuss drafting a dissenting opinion. He also suggested arguments and
analysis to Everett regarding the Georgia statute and warned him to password-
protect any documents that he did not want the other attorneys on the case
team to read. Going forward, Everett expressed to other team members his
view – and that of von Spakovsky – that the Georgia Voter ID law should be
precleared. We found that, as Everett expressed his views on preclearance, the
other review team members became outwardly hostile towards him, in the form
of arguments, refusals to assist him, and increasingly snide e-mails to him. 93
One team member told us he refused to assist Everett with a statistical
analysis because he believed that Everett would not use the evidence honestly.
Unbeknownst to Everett, another team member accessed his document
directory on the Section’s shared drive, copied a memorandum Everett had
drafted about the case, and forwarded it to others on the team in an e-mail
stating “lookie what I found in [Everett’s] directory. Let’s discuss amongst
ourselves.” 94 We further found that members of the original case team made

       93 Some of the comments and actions directed at Everett were insulting. For instance,

Everett and the original team members engaged in a lengthy e-mail debate about a State
mobile voter registration program known as a Georgia Licensing on Wheels (“GLOW”). After the
Georgia matter was over, one of the original review team members distributed mugs with a
picture of the GLOW bus to other team members and others in the office. A review team
member told us that the mugs mocked Everett. The team leader admitted to the OIG that it
was inappropriate to use a photograph submitted as part of the state’s preclearance
submission in this manner.
        94 Although there was no prohibition in the Section on employees accessing documents

on each other’s directories, the purpose of this access was not to enable attorneys to retrieve
and distribute each other’s work without the author’s permission. Access was typically used to
enable attorneys to find information in each other’s files, such as sample briefs or legal
research, relevant to their own cases. Several months after the Georgia ID review, in the
course of reviewing employee e-mails pursuant to an internal investigation relating to a
different matter, Division leadership apparently discovered that one of the career employees on
the Georgia team had accessed Everett’s document and distributed it to other team members.
                                                                                            Cont’d

                                              120

unprofessional and disparaging remarks about Everett to each other and to
other employees in the Section, mocking his intelligence, his legal acumen, and
his personal beliefs.

      In September 2005, after Division leadership pre-cleared the Georgia
submission, Tanner held individual meetings with the three members of the
original review team. According to the team members, Tanner criticized their
recommendation memorandum and accused them of not being “team players”
and engaging in unprofessional conduct toward Everett. Division leadership
gave Everett a $450 “on-the-spot” award for his work on the Georgia Voter ID
review. The other team members did not receive awards.

       B.     Treatment of Members of the Noxubee Case Team (2006-07)

       As discussed in detail in Chapter Three, in 2006 the Voting Section filed
a complaint under Sections 2 and 11(b) of the Voting Rights Act against the
Noxubee County (Mississippi) Democratic Election Committee and its
chairman, Ike Brown. The Noxubee case was developed and litigated by then-
Special Litigation Counsel Christopher Coates along with two trial attorneys
and an intern. This was the Department’s first lawsuit under Section 2 of the
VRA against Black defendants alleging denial or abridgment of the rights of
White voters on account of race. Numerous witnesses told us that there was
widespread opposition to the Noxubee case among the Voting Section career
staff because it was being brought against Black defendants on behalf of White
voters. We found that as a result of their hostility to the Noxubee case, some
career staff harassed a Black Voting Section intern who volunteered to travel to
Mississippi to assist the trial team, and mocked Coates for his work on the
case.

       The intern told the OIG that two career Voting Section employees made
disparaging comments directly to him about his involvement in the trial. In
particular, the intern recalled being questioned directly and indirectly about
why he participated in this trial and told the OIG that Voting Section personnel
made comments like: “You know why they asked you to go down there,” “They
used you as a token,” and “People are saying, ‘Why did you go down there?’”
According to a memorandum drafted by Section management summarizing the
incidents, the intern told a Section manager that the Voting Section employees
informed him that someone who was attending the trial was reporting his
activities and, therefore, the employees knew exactly where he was sitting in
the courtroom and what he did at the trial.

Section Chief Tanner subsequently announced that files on one of the drives would be locked
to prevent employees from accessing such documents without permission. It appears that the
decision to lock the computer files most likely resulted from the discovery of what the team
member had done. However, we were unable to question Tanner regarding this matter because
he refused to be interviewed by the OIG.


                                           121
       The intern stated that those employees also told him about disparaging
comments by other career CRT career employees who questioned why he would
work on the case and insinuated that he was assigned to the matter because
he was Black and that he had been used as a “token.” The intern told the OIG
that he understood that those employees included Pat Tellson, an attorney in
the Voting Section, and Ellen Sydney, an attorney in a different CRT section
who used to work in the Voting Section. 95 The intern stated that he
understood from one or more Voting Section employees that Sydney had stated
words to the effect that: “They only wanted you down there because you are a
black face. How would it look for four white men down there prosecuting all
these black people? They wanted you down there to show that it is not white
against black. They used you because you were black and they needed a black
face.” The intern said that similar comments were directed at his mother, who
was employed in a different component of the Division. For instance, the
intern stated that one of the Voting Section employees approached his mother
and said something to the effect that: “They got [the intern] down there
working on this case on behalf of white voters. Why did you let them go down
there?” 96 According to the intern, he perceived a broader “whisper campaign”
in the office about his participation in the Noxubee case after returning from
the trial, and he told us that this campaign continued for roughly one year.

       The intern told the OIG that the remarks angered and insulted him by
suggesting that he was duped into working on the matter. He stated the
assertion that he was being used by the Noxubee team was incorrect, noting
that he requested to work on the case numerous times. He said the comments
affected his ability to do his job because they made him feel ostracized in the
office. He said that as a result he kept to himself and stayed in his cubicle to
avoid questions about the case. The intern stated that, although he never felt
like he was a “token” while working on the case, those statements made him
feel as though his participation in the case was wrong.

       Sydney denied to the OIG that she made disparaging comments about
the intern and his involvement in the Noxubee trial, but stated that she
witnessed comments of that nature, including that Tellson had called the
intern something to the effect of a “turncoat” in front of his mother. Tellson
told the OIG that she believed the intern was being used in the Noxubee matter
so that “they could have a black face at counsel table,” but did not recall
making comments about the intern’s involvement in the trial. Tellson stated,
however, that she told the intern’s mother that it was “just wrong” that the

       95   Pat Tellson and Ellen Sydney are pseudonyms.
       96  Likewise, Sydney e-mailed an article concerning the Noxubee trial to the intern’s
mother, with the statement: “Your federal tax dollars at work….” The intern’s mother
forwarded the e-mail, along with Sydney’s comment, to her son shortly after he returned from
the trial.


                                             122

intern was sent to the trial because she did not believe interns were permitted
to travel like that and because the intern was working on a project for her and
it would stall while he was at the trial. She stated further that she believed the
intern understood that CRT personnel “felt some opprobrium” about his work
on the Noxubee matter.

      We found that shortly after returning from the trial in early 2007, the
intern grew so upset about the incessant comments that he reported them to
Voting Section management, who in turn reported the incidents to the CRT
Division leadership. The intern’s mother also raised concerns about the matter
with Loretta King, then a career DAAG in CRT Division leadership.

       CRT management then investigated the incidents, including interviewing
the intern and his mother. Christopher Coates, then a Deputy Chief,
interviewed the intern and wrote up a lengthy e-mail detailing his allegations.
Loretta King also interviewed the intern. King told us she told the intern that
“he was a valued employee in the division, that I was very proud of him, that
the work he was doing was important to the division, and he should not let
people get him down.” She told the OIG that she asked him whether he wanted
her to take any action but that the intern told her: “No, I have it under control
you know, everything is fine. Don’t worry about it.”

      King also interviewed the intern’s mother about the incident and,
according to King’s contemporaneous memorandum of the interview, the
intern’s mother said that Sydney made statements to her to the effect that the
reason her son was working on Noxubee was that the trial team “need[ed] a
black face” at their reverse-discrimination trial. The mother also told King that
two career non-attorneys later made similar statements to her. The mother
told King that she declined to file a formal complaint about these incidents at
the time the comments were made because she thought the people were just
“being nosy.” In an e-mail about the incidents to the attorney’s supervisor,
however, King described the conduct as “quite egregious.”

      We found that the Division leadership orally reprimanded Sydney for
making inappropriate comments to the intern’s mother, as well as additional
inappropriate but unrelated statements to other CRT personnel. According to
Division records, Voting Section management orally counseled the two career
Voting Section employees for making comments to the intern. We found no
evidence that Tellson was disciplined.

      The OIG also uncovered e-mails in which current and former Voting
Section attorneys criticized and mocked Coates’s work on the Noxubee case.
For instance, in an e-mail sent to four former Voting Section attorneys after the
Noxubee complaint had been filed but before the trial began, Sydney referred to
Coates as a “klansman.” Likewise, a non-attorney employee in the Voting
Section wrote in an e-mail to a Section attorney: “[P]ersonally i think that the

                                       123

architects of the [Voting Rights Act] and those who fought and died for it are
rolling over in their graves with that perversion of the act ... im sorry, but
[White people] are NOT covered for a reason.” During the course of the
Noxubee trial, a group of current and former Section attorneys exchanged e-
mails that celebrated perceived setbacks for the Department’s case and
appeared to express hope that Coates and the Department would lose the
Noxubee trial. 97 We found as a result of our e-mail review that after the
Noxubee case concluded, current and former Section attorneys who were
opposed to the case continued to make derisive comments about Coates and
his prosecution of the matter. 98 We found no evidence that Division leadership
or Coates were made aware of these particular messages at the time, although
Coates has on numerous occasions stated that he was the subject of overt
hostility in the Section because of his role in the Noxubee case.

       C.       Conflict during Election Monitoring in County D (2006)

      As we discuss in Chapter Three, the Voting Section sent election
monitors, including observers from the Office of Personnel Management (OPM),
to observe a primary election in County D in 2006. This decision arose out of
two separate investigations of voting irregularities in County D, one of which
examined allegations that White political leaders were engaging in illegal voting
practices targeting Black voters, and another that examined allegations that
Black leaders of a local political organization in County D were engaging in
absentee ballot fraud and improper voter assistance.

       Voting Section Chief John Tanner sent trial attorneys Carl Mannett and
Arnold Everett to participate in the election monitoring. 99 Mannett focused on
the allegations of abuses by White political leaders and argued strenuously in a
memorandum to Tanner that the election monitors should not be investigating
absentee ballot fraud because: (1) such an investigation would take the Voting
Section away from its traditional right-to-vote and access-to-the-polls focus; (2)
voting fraud is a criminal matter outside the Voting Section’s jurisdiction; (3)
such an investigation would undermine the willingness of members of the
Black community to cooperate with the Voting Section; and (4) the Department

       97 In one such e-mail, a Voting Section attorney wrote to another CRT attorney who
had previously worked in the Voting Section that “Your man [Chris Coates] is going down on
this.”
        98 For example, after a court issued a ruling in favor of five Native American plaintiffs in

an unrelated Section 2 case, CRT attorney Sydney, who previously worked in the Voting
Section, wrote in an e-mail to two former Voting Section employees: “Never fear. I'm sure that
after his resounding success in the Noxubee case, Mr. Coates and his loyal sidekick will pick
up the mantle and fight the good fight against the five American Indians in this case!” One of
the former Voting Section attorneys responded to this e-mail, stating: “Mr. Coates' success in
Noxubee is simply outstanding - he is, after all, one of the best at what (?!$@$#) he does.”
       99   Carl Mannett is a pseudonym.


                                               124

would be severely criticized if its first investigation into voting fraud in County
D pursued allegations against Black politicians that were popular with the
Black community. Tanner rejected Mannett’s arguments and authorized
Everett to collect information relevant to the allegations of absentee ballot
abuse and improper voter assistance by the Black political organization during
the election monitoring.

      Over the course of the election monitoring, Mannett and Everett had
several disagreements and engaged in shouting matches. One illustrative
disagreement involved Everett’s presence in a County D polling station. Everett
told us that he observed apparent improper assistance of voters and, according
to contemporaneous notes written by Everett, he directed the OPM observers to
take notes about the incidents. Mannett, on the other hand, told us that he
heard from an OPM observer that Everett had been in the polling station for
two hours and was asking voters improper questions. 100 After receiving this
information, Mannett called Everett and told him that it was against state law
for anyone other than OPM observers to enter polling places and that he
should leave the polling place, but with the caveat that Everett could enter for a
short period of time if there was an emergency. Mannett then called a Voting
Section manager stating that Everett was violating the law, and the Voting
Section manager directed Everett to leave the station.

        That evening, Everett and Mannett engaged in a heated argument.
Everett told the OIG that Mannett shouted at him: “[y]ou think I want to mess
with some Federalist Society attorney under a Republican administration?”
Mannett told us that he said this in frustration because he viewed Everett as a
deeply conservative attorney who was protected because he and Coates shared
the same political ideology as the Division’s political leadership. 101 Everett told
the OIG that he believed Mannett’s comments were evidence of his bias against
those he perceived to be conservative and an animosity to those who wanted to
enforce the VRA in a race-neutral manner and on behalf of White citizens.
Everett reported the incident to Section Chief John Tanner, who he said
advised him to go to the CRT Ombudsman. Everett told us he expressed an
initial desire to file a formal complaint with the Ombudsman, but later
withdrew it because he did not want to draw additional attention to himself.

       100 Mannett told the OIG that he received a written report from an OPM poll
watcher discussing Everett’s behavior, which he provided to us. In the handwritten
notes, the poll watcher states that Everett told the poll watchers to report on the
“assistance problem” and to find out from the voters the reasons for their assistance.
The notes further indicate that Everett had been inside the polling station for over two
hours and that the OPM Captain advised the observers not to talk with the voters about
why they needed assistance.
       101 After reviewing a draft of this report, the Department told us that, according to
Mannett, he tried to talk to Everett in a “diplomatic” way that evening and that Everett lied to
him, saying that he was only in the polling site for a few minutes.


                                              125

      D.	      Harassment of a Non-Attorney Employee by Section Attorneys
               (2007)

      In February 2007, Voting Section management received a complaint that
three male trial attorneys, who were perceived to be conservatives, had a
conversation with a non-attorney male employee in which the three attorneys
made inappropriate and harassing comments about a female non-attorney
employee, who was perceived to be a liberal. Contemporaneous documents
indicate that the attorneys made highly offensive and inappropriate sexual
comments about the employee, including her sexual orientation, and remarks
about how she was “pro-black” in her work.

       Division leadership told us that Section Chief Tanner counseled the three
attorneys and instructed them to apologize to the employee, and that the
attorney who had engaged in the most egregious conduct was required to
attend one-on-one anti-harassment training and sign a written
acknowledgement that he understood and would comply with the Division’s
policies regarding harassment in the workplace. Additionally, Division
leadership indicated that it took more general corrective measures in response
to this incident, including developing a mandatory Division-wide anti-
harassment training program.

      E.	      Internet Postings by Voting Section Employees (2007)

       We were told that the atmosphere in the Voting Section was especially
contentious in the spring of 2007, in part because some Section employees
believed Division leadership had politicized the Section’s work and had acted in
a manner that was inconsistent with the Section’s mission by, for example,
preclearing the Georgia Voter ID submission, filing the Noxubee complaint to
protect White citizens, and allegedly ignoring cases that would defend minority
victims. 102 The politicized hiring during this period that was documented in
the 2008 OIG/OPR Report added further tensions to the Voting Section. The
relations between personnel in the Section 5 unit and Division leadership were
particularly acrimonious at the time, largely due to the staff’s resentment over
the removal of the popular Voting Section Deputy Chief who had been in
charge of the unit (which was perceived to be politically motivated because the
Deputy was a liberal), and increasing antagonism towards the new Acting
Deputy Chief. 103 Other events added to the ill will in the Voting Section, such
as the incident discussed in the prior section in which Voting Section attorneys
made highly offensive and inappropriate sexual and political comments
concerning a Section employee in February 2007, and the changes to the
procedures for Section 5 recommendation memoranda and hiring decisions

      102   These allegations are addressed in substance in Chapter Three.
      103   The removal of this Deputy Chief is discussed in Section V.B. of this chapter.


                                              126

that employees told us they believed were ideologically based, discussed
elsewhere in this report. 104

       During this period, at least three career Voting Section employees posted
comments on widely read liberal websites concerning Voting Section work and
personnel. 105 The three employees who we were able to identify with certainty
included three non-attorney employees. 106 Many of the postings, which
generally appeared in the Comments section following blog entries related to
the Department, included a wide array of inappropriate remarks, ranging from
petty and juvenile personal attacks to highly offensive and potentially
threatening statements. The comments were directed at fellow career Voting
Section employees because of their conservative political views, their
willingness to carry out the policies of the CRT division leadership, or their
views on the Voting Rights Act. The highly offensive comments included
suggestions that the parents of one former career Section attorney were Nazis,
disparaging a career manager’s physical appearance and guessing how he/she
would look without clothing, speculation that another career manager was
watching pornography in her office, and references to “Yellow Fever,” in
connection with allusions to marital infidelity involving two career Voting
Section employees, one of whom was described as “look[ing] Asian.”

       We found other postings by career Voting Section employees that
contained intimidating comments and statements that arguably raised the
potential threat of physical violence. For instance, one of the employees wrote
the following comment to an article concerning an internal Department
investigation of potential misconduct by a Section manager: “Geez, reading
this just makes me want to go out and choke somebody. At this point, I’d
seriously consider going in tomorrow and hanging a noose in someone’s office
to get myself fired, but they’d probably applaud the gesture and give me a
promotion for doing it….” Some postings by Section employees contained
statements that could be viewed as disturbing, such as comments that
monitored managers’ movements in the office and described their actions.


        104 We were informed by the Department that other career employees raised additional

allegations in early 2007, regarding the atmosphere in the Voting Section, including through
informal complaints to management and HR, and through formal EEO complaints.
        105 The authors of the comments used pseudonyms, but frequently identified

themselves as Voting Section employees and included non-public information in their posts
indicating that they were Section employees. As discussed below, two Voting Section
employees admitted to the OIG that they published the comments in question.
       106  Although the OIG was able to determine that at least three employees posted
comments, many other posts which likewise contained non-public information and an
undeniable familiarity with the Section’s personnel and operations strongly suggest that other
Voting Section employees posted comments as well. The OIG was unable to establish the
identity of other commenters, however, to the same level of certainty.


                                             127

      In addition, we found postings by Section employees that contained
heated political and even racist commentary, frequently attacking Republicans,
particularly administration officials, and those Democrats who were perceived
to support the Republican administration in order to promote their own
careers. Multiple comments asserted that administration officials or Voting
Section managers who implemented their policies were bigoted against Blacks
or other racial minorities, and one used the expression “po’ Niggrahs” in
describing a manager’s attitude toward Blacks. In one posting, one of the
employees that we identified characterized the ideal neighborhood of one
reportedly conservative career Section attorney as “everyone wears a white
sheet, the darkies say ‘yes’m,’ and equal rights for all are the real ‘land of make
believe.’” Several posts by Section employees criticized the administration’s
enforcement priorities, particularly the Voting Section’s decision to sue Black
defendants in Noxubee, Mississippi. Another post by a career Section
employee asserted that “a good, ethical Republican” is a “seeming oxymoron.”

      Our review also established that Section employees posted non-public
information about sensitive personal matters relating to perceived Republican
or conservative career Voting Section attorneys and career Voting Section
managers who implemented Division leadership’s priorities. For instance,
career Section employees posted information about ongoing internal
investigations by OPR and the OIG, and confidential personal information,
such as EEO complaints and internal disciplinary proceedings. The posts also
contained mocking and taunting statements toward political appointees in the
Division, perceived conservative career attorneys in the Voting Section, and the
career Voting Section managers appointed by Division leadership. Some of the
comments were posted by Section employees while the employees were at work
using their government computers.

       As noted, the OIG found that at least three career Voting Section
employees posted objectionable comments. Two of the three employees
eventually admitted to us that they commented on the websites, stating that
they posted the messages for a variety of reasons, including “blow[ing] off
steam” about their frustrations regarding the Section, embarrassing certain
Voting Section managers (particularly Tanner and the new Acting Deputy Chief
who supervised the Section 5 unit), calling attention to perceived
mismanagement and abuses by Voting Section management, and ultimately for
the purpose of getting Tanner and the new Acting Deputy Chief removed from
their positions. 107 Indeed, the frequency of the postings peaked in late 2007

       107  The third individual we identified is no longer employed by the Department and was
unavailable to be interviewed. Overwhelming evidence established that he had posted on
Internet sites concerning Voting Section matters, including testimony by multiple witnesses
who told the OIG that this former employee unequivocally claimed credit for posting comments
on multiple websites under a particular pen name. In fact, one of the two employees who
admitted posting comments called the third employee the “ring-leader” of their “cyber-gang.”


                                             128

and largely dissipated following the announcement of Tanner’s resignation in
December 2007.

      Karen Lorrie, a non-attorney employee in the Voting Section, initially
denied under oath to us that she had posted comments to websites concerning
Voting Section personnel or matters. 108 Later in her second OIG interview she
admitted that she had posted such comments, identified several of the
statements that she had posted, and acknowledged that she had lied under
oath in her first OIG interview. She also told the OIG that she understood that
the comments she had posted would remain on the Internet and follow the
targets in the future. Lorrie told the OIG that she posted comments online as a
way of “relieving the never-ending stress on the job.” Lorrie stated that she
believed Section management, particularly the Acting Deputy Chief of the
Section 5 unit at that time, had created “severely oppressive atmosphere” and
“an atmosphere of fear and retaliation day in and day out.” Lorrie also cited to
the February 2007 incident in which she was the target of harassing
comments, which we discussed in the prior section. According to Lorrie, she
sought to address those problems through Section and Division management
and other official channels, but she believed nothing was being done to redress
them. 109 As a result, she stated, she posted comments to vent her frustrations
and as “a last ditch call for help.” Lorrie stated that she did not regret posting
comments online, except to the extent that it resulted in questioning from the
OIG.

       The second individual who admitted to the Internet postings was Gerald
Crenshaw, another non-attorney employee in the Voting Section. 110 Crenshaw
stated that he and other employees constituted a “cyber-gang” that was
engaged in “cyber-bullying.” He told the OIG that, for his Internet postings, he
selected as his alias the name of the protagonist of a well-known novel because
he represented “the archetype angry black guy.” According to Crenshaw, he
understood that the character had killed at least one person in the novel and
stated that the fact that others who were familiar with the character might be
afraid of the name could have played a “small part” in his selection of that
pseudonym. Crenshaw, who admitted posting the comment quoted above
mentioning choking someone and placing a noose in a Section office, told the
OIG that he understood how posting such a comment under the character’s
name could be threatening and intimidating, but stated his comments were not
intended to be serious and were not directed at anyone in particular.
Crenshaw further told the OIG that, while he did not regret posting the

       108   Karen Lorrie is a pseudonym.
       109  As noted above, the Section counseled all three attorneys and required them to
apologize, and took additional steps with respect to one of them.
       110   Gerald Crenshaw is a pseudonym.


                                               129

comments, he “should’ve made a better choice of words” on some of them. In
particular, he stated that he believed several of his statements “crossed the
line” because they included “racist” and “intimidat[ing]” language.

       Crenshaw stated further that his direct non-attorney supervisor, Harley
Pross, knew that he was posting comments concerning career Voting Section
employees on Internet sites shortly after he started doing so, adding that he
believed his supervisor was “probably” aware of his post regarding leaving a
noose in the office and his purported desire to choke someone. 111 According to
the Crenshaw, Pross was “indifferent” toward his postings, talked about them
with other Section employees, and did not discourage him from such conduct.
In fact, in one e-mail exchange with Pross, Crenshaw made a direct reference to
his pseudonym and joked about Pross hiding his identity from Voting Section
management, to which Pross responded favorably.

      Pross told the OIG that he was aware of his subordinate’s Internet
postings about other career Section employees and that he had indeed prodded
him to continue posting comments, even after a more senior Section manager
had counseled the employee against posting similar comments in the future.
Pross admitted to the OIG that condoning his subordinate’s actions and
encouraging further postings was inappropriate.

      According to several Voting Section employees, the Internet postings
described above had a negative impact on their performance and created
considerable anxiety, including concerns for their personal safety. For
instance, one frequent target of the blog comments told the OIG that he feared
physical violence due to the vitriolic nature of the postings. Another of the
primary targets of the comments contacted the Department’s Security and
Emergency Planning Staff out of concerns about physical violence following the
posting of the comment about the noose and the desire to choke someone.

       Witnesses told the OIG that some former Voting Section personnel stated
that they left the Section or requested a detail out of the Division at least in
part due to the Internet postings. In addition, career Voting Section attorneys
told the OIG that the blogging created a chilling effect – namely, that they were
hesitant to work on perceived non-traditional matters, such as reverse-
discrimination cases – or that they became more cautious when speaking with
other Section employees out of fear that they would be attacked on the
Internet. The employees who were mentioned in these Internet postings told
the OIG that they were concerned about the impact of the postings on their
future employment prospects.


      111 Harley Pross is a pseudonym. According to the Department, Pross was an

administrative supervisor and was not a part of the Voting Section’s management team.


                                            130

       Although many Section employees told the OIG that the postings had a
negative impact on the Section, two current career Voting Section attorneys
stated that they viewed the comments favorably. One of those two Section
attorneys, who was a trial attorney at the time and has since been promoted to
the position of Section manager, described the blogging to the OIG as
“cathartic” because he believed the comments shed light on how the Section
was being managed at that time. The other attorney, who is a trial attorney,
stated that he believed the postings by one particular Section employee – whose
comments were regularly identified by Section employees as the most caustic
among the prominent posters – were “witty” and “largely fair and accurate.” We
also found that one Voting Section employee wrote e-mails to several current
and former Voting Section employees, celebrating the blog postings.

      Several Voting Section employees complained to Voting Section managers
or CRT Division leadership about the blog postings. Division leadership told us
that they contemplated addressing the postings and consulted with CRT
human resources, ethics, and EEO officials about possible courses of action.

      The only response by the Division concerning the Internet postings was
an e-mail from Principal Deputy Chief Christopher Coates, which had been
drafted by the Division’s Employment Section, to the employee (Crenshaw) who
had written the post mentioning a noose and other comments containing racist
and offensive language. In that e-mail, Coates stated that he recognized
Crenshaw’s right to express his opinions, but counseled Crenshaw to refrain
from using racially offensive language and making statements that created an
implication of intimidation or a disruption of the workplace.

       Despite the admonition from Coates, the very next day Crenshaw’s
supervisor, Harley Pross, told Crenshaw in an e-mail that Coates’s e-mail was
simply a “scare tactic,” Crenshaw’s job was not in jeopardy, and the Internet
posting would not affect Crenshaw’s performance evaluation at all. Crenshaw
told the OIG that, even after receiving Coates’s e-mail, he continued to post
comments on the Internet, including statements that mocked the e-mail itself
and speculated that a career Section manager was watching pornography at
work. Pross told the OIG that he was aware of these postings and that in fact
he had encouraged Crenshaw to post additional comments even after
management’s counseling e-mail.

      Division leadership did not take additional action with respect to the blog
posts because they were unable to identify with certainty who was posting the
comments, were concerned about the appearance of the Civil Rights Division
seemingly spying on its own employees, and were apprehensive about
implicating the employees’ First Amendment rights. 112 As a result, beyond the

       112  In its comments to the OIG’s draft report, the Department noted several additional
factors regarding the Division’s ability to address the Internet postings, including: (1) the vast
                                                                                             Cont’d

                                               131

e-mail admonition to Crenshaw, no meaningful action was taken to identify the
individuals responsible for the offensive postings or to address the conduct.

      Lorrie and Crenshaw, the two employees who admitted to the OIG that
they had posted inappropriate Internet comments, remain employed in the
Section. As noted above, the third employee who we determined posted
inappropriate comments is no longer employed by the Department. Pross
(Crenshaw’s supervisor who encouraged him to continue this activity) is no
longer employed by the Department.

       F.     Ostracism of Career Employees

       Several career Voting Section attorneys told the OIG that they and other
employees were subjected to pervasive mistreatment by other career Voting
Section employees due to their conservative political views or their work on
particular Section matters. We described above the examples most commonly
cited to us of this mistreatment – namely, the “whisper campaign” about the
student intern who worked on the Noxubee trial, the improper behavior of the
original Georgia Voter ID review team towards Arnold Everett, and the
inappropriate postings on Internet websites about self-identified or perceived
conservative employees, Section managers, and Division leadership. Beyond
these incidents, witnesses cited to the OIG other instances of alleged
mistreatment.

       For example, several career attorneys noted that some of the purportedly
liberal career Voting Section employees would ostracize conservatives in the
office, exclude them from meetings on cases or matters, or make derogatory
comments about their involvement in cases. At least two witnesses who
identified themselves as conservatives told the OIG that, when they worked on
controversial matters, attorneys who were perceived to be liberal would
interrogate them about the matters and exert significant pressure on them to
arrive at conclusions that fell in line with traditionally liberal views. Several
conservative Section personnel told the OIG that, soon after they joined the
Section, perceived liberal employees questioned them in a persistent manner
about political issues and their views on civil rights matters, which they
believed were thinly veiled attempts to determine the employees’ political
ideology.


majority of the Internet postings were made outside of work hours and, presumably, from
personal computers; (2) pursuant to DOJ Order 2740.1A, the Division may not search the
Internet activities of its employees on their government computers, even to investigate possible
misconduct, absent approval from the Justice Management Division (JMD); (3) CRT sought
guidance from JMD about available options for addressing the Internet comments in light of
that DOJ Order 2740.1A and concerns about the First Amendment implications; and (4) CRT
followed JMD’s advice, including the decision to counsel Crenshaw.


                                              132

       The conduct manifested itself in petty ways as well. For instance, when
one well-known conservative attorney was leaving the Section, another
employee wrote on his commemorative Department seal: “Bad Luck.” Years
later, when Chris Coates was preparing to leave the Section and his
commemorative seal was available for signatures (a long-standing tradition for
departing Department employees), a conservative Section employee hid the seal
out of fear that it would be “vandalized.”

       Several Voting Section employees told the OIG that the mistreatment of
one group of career employees by another group of career employees because of
their perceived ideology or political beliefs had a detrimental impact on the
work environment in the Voting Section. For instance, employees stated that
the harassment had a chilling effect in which they would not discuss their
personal beliefs or their views on Section work with others in the office, out of
fear that they would be isolated, mocked on the Internet, or mistreated in other
ways.

      G.    Actions To Address and Prevent Harassment

       According to the Department, in April 2007, in direct response to
complaints about harassment in the Voting Section Division leadership began
the process for developing a mandatory Division-wide anti-harassment training
program. In September 2007, the Division held mandatory anti-harassment
training for all CRT managers and employees. That training focused on
maintaining a respectful workplace and preventing harassment, including race-
based harassment, and provided information about the EEO complaint
process. According to CRT records, this was the first anti-harassment training
held by the Division. The Division also posted its EEO and harassment
policies, including complaint procedures, on the Intranet in 2007. In June
2007, AAG Wan Kim issued a memo to all employees reiterating that CRT is an
equal employment opportunity employer and discrimination will not be
tolerated.

       The Department has described additional steps taken by Division
leadership under the current administration to prevent inappropriate or
harassing conduct, including: providing annual EEO and anti-harassment
training to all employees and managers; issuing EEO, prohibited personnel
practice and anti-harassment policies that are available to all employees on the
CRT Intranet and that set forth the various procedures for reporting
misconduct; and sending periodic reminders to all employees about their
obligations to conduct themselves in a professional matter at all times. In
January 2011, for instance, AAG Perez reiterated to all CRT employees – via
posting on the CRT Intranet page and via e-mail message to all CRT employees
– the prohibitions against discrimination and harassment in the workplace,
including specific language that “[a]ll employees must conduct themselves in a
professional manner at all times and refrain from engaging in conduct that

                                      133

may be viewed as hostile or offensive to others in the workplace, including
making derogatory comments about other employees because of their
membership in a protected category, such as race, sex or religion, or because of
their actual or perceived political affiliation.”

       H.     Conclusions about Harassment

      We found that numerous career Voting Section employees engaged in
highly inappropriate and hostile conduct toward other career Section
employees.

       In the Georgia Voter ID matter, we believe it was problematic to add an
inexperienced attorney to the case team because of his perceived ideology and
that of the other members of the team. This assignment, and the subsequent
direct communications between Division leadership and the inexperienced
attorney, created the perception among other team members that the attorney
had been placed on the team for political or ideological reasons. However,
these circumstances did not excuse the conduct that followed. The new
attorney was ostracized and ridiculed, and had his work product copied from
his computer files and distributed without his knowledge or permission, at
least in part because of the perception that he was conservative and because of
the legal positions he advocated while working on the submission. In the
Noxubee matter, a student intern and his mother were subjected to offensive
questions and racially motivated comments due to his willingness to assist in a
Section 2 case against Black defendants, and Coates was the subject of abusive
and inappropriate e-mail comments. In the County D matter, conflict between
two attorneys erupted into a shouting match in which one attorney’s perceived
conservative affiliation was highlighted.

       In 2007, antagonism within the Section fed a series of Internet postings
by Section employees, containing a wide array of highly inappropriate remarks
ranging from petty and juvenile personal attacks to racist and potentially
threatening statements. Some of the comments were posted from work
computers, which we believe constituted a misuse of office resources and
reflected extremely poor judgment. Likewise, some of the Internet postings
contained non-public information about internal Department matters,
generally personnel and disciplinary issues, which reflect exceptionally poor
judgment and may have constituted a violation of federal regulations or
Department policies. 113 We are especially troubled that a non-attorney Voting
Section supervisor, who knew of a subordinate’s improper conduct, not only
suggested that the employee disregard counseling and admonishment from
       113 See, e.g., 5 C.F.R. § 2635.703, which prohibits the use of nonpublic information by
government employees to further the “private interests” of himself or others. Example 5 in the
regulation makes clear that “private interests” need not be monetary, and that disclosing
nonpublic information for political or ideological reasons may also be prohibited.


                                             134

Division leadership, but also encouraged the subordinate to continue the
improper conduct.

       We also are troubled by the failure of Division leadership to take
meaningful action to address some of these issues at the time they arose. The
willingness of career Section employees to post highly inappropriate and even
racist comments on the Internet, in some instances with their identities only
thinly disguised and in one instance with the support and encouragement of a
supervisor, was indicative of a lack of concern that they might be subjected to
discipline by the Division or the Department. Together with other incidents
described in this chapter, it reflected a culture of intolerance that existed in the
Voting Section. Particularly given that some of the employees involved in this
behavior remain in the Voting Section, we believe that current Division
leadership must be vigilant in expeditiously responding to and addressing
future incidents of this nature.


III.	   Disclosures by Voting Section Employees of Non-Public Voting
        Section Information

      Another category of conduct that we learned about during this review
that contributed to partisan rancor within the Voting Section was the
disclosure of confidential or deliberative information for publication by a third
party. Determining the source of these disclosures – some of which occurred
as long as 10 years ago – was beyond the scope of this review. Nevertheless, in
most cases it was apparent that a voting Section employee was the most likely
source of the information based upon its content or statements in the
publication. This conduct, which occurred in the Voting Section with a
frequency that is not typical for a Department component, exacerbated
ideological conflicts within the Voting Section and between career employees
and Division leadership.

       For example, in February 2002, the Department received inquiries from a
reporter who had obtained information about the contents of an internal Voting
Section memorandum regarding the controversial Mississippi Section 5
submission (discussed in Chapter Three). Division leadership suggested to
Section Chief Joseph Rich that this disclosure likely came from career staff in
the Voting Section, which Rich disputed. Soon after, an article was published
stating that political appointees had rejected career lawyers’ recommendation
in the Mississippi matter. 114




      114 Ellen Nakashima and Thomas Edsall, “Ashcroft Personnel Moves Irk Career Justice

Lawyers,” The Washington Post (March 15, 2002).


                                          135

      On another occasion, in November 2005, an article was published
describing the contents of the internal memorandum submitted by those
members of the review team who had recommended an objection to the Georgia
Voter ID law (discussed in Section IV.B. of Chapter Three), and reporting that
the review team’s recommendation had been “overruled the next day by higher-
ranking officials at [the] Justice [Department].” 115 This disclosure fueled
allegations that the decision to reject the staff memorandum and pre-clear the
Georgia law was politically motivated. One member of the review team told us
that he had forwarded the memorandum to numerous other employees so that
Division leadership could not accuse the review team of being responsible for
any subsequent leak of the memorandum.

       Shortly thereafter, in December 2005, the Section’s career staff
memorandum recommending an objection to the Texas redistricting plan
(discussed in Chapter Three) was the basis for an article describing the
incident as “another example of conflict between political employees and many
of the division’s career employees.” 116

      More recently, in 2011, the following statement appeared in a political
blog on the Internet:

         Justice Department sources familiar with Voting Section tactics tell
         me that DOJ has been sending investigators wearing wires and
         electronic surveillance equipment into state welfare and food
         stamp offices across the country to see if state officials are pushing
         voter registration on investigators posing as recipients. They have
         stung Louisiana, Georgia, Rhode Island, and potentially more
         states with these tactics. 117

In 2012, the National Review Online Internet site described the contents of two
purported internal Civil Rights Division reports and quoted at length from a
purported internal Voting Section memorandum recommending preclearance of
certain voting changes under Section 5. 118


         115   Dan Eggen, “Criticism of Voting Law Was Overruled, The Washington Post (Nov. 17,
2005).
          Dan Eggen, “Justice Staff Saw Texas Districting as Illegal,”
         116

http://www.washingtonpost.com/wp-
dyn/content/article/2005/12/01/AR2005120101927.html (accessed March 8, 2013).
       117 Christian Adams, “Millions of Dead Voters, Brought to You By Eric Holder,” PJ

Media, February 14, 2012, http://pjmedia.com/jchristianadams/2012/02/14/millions-of-
dead-voters-brought-to-you-by-eric-holder/?singlepage=true (accessed March 8, 2013).
           Hans A. von Spakovsky, “Crooked Justice,”
         118

http://www.nationalreview.com/articles/334688/crooked-justice-hans-von-spakovsky#
(accessed March 8, 2013).


                                                136

       In the course of our review, we also learned about the efforts of an
outside attorney, who was a former Voting Section manager, to obtain internal
Voting Section documents. In 2008, a Voting Section non-attorney employee
provided information to this outside counsel about the legal reasoning of
Section attorneys underlying the remedy that the Voting Section proposed in a
Section 2 vote-dilution case. This same outside counsel, in 2003, had sought a
copy of the Voting Section career staff’s recommendation memorandum relating
to the review of Texas’s congressional redistricting submission (discussed in
Chapter Three). We found that the outside counsel unsuccessfully attempted
to obtain the 2003 memorandum from at least three Section attorneys, a
Section analyst, and a Deputy Section Chief.

      We were told by three witnesses that the outside counsel’s attempt to
obtain the memorandum in 2003 failed after the outside counsel stated to
Section employees, in substance, that the document had substantial monetary
value. One of the Section attorneys whom the outside counsel approached told
the OIG that the outside counsel’s request seemed “kind of offensive.” This
Section attorney stated further that, although the outside counsel’s comment
had a “sort of corrupt tinge,” the Section attorney did not report the incident to
any supervisors. Another Section attorney that the outside counsel
approached for the memorandum told the OIG that she was not sure whether
the outside counsel’s comment was a joke, but that she was shocked and
scared by the comment and she promptly ended their meeting. She told the
OIG that although she believed his comment was improper, she did not report
the incident to her supervisors because she had no further discussion with him
about it, she was scared at the time, and she did not want “to get in the eye of
any storm.”

       Although the outside counsel did not obtain the memorandum, he
indicated in subsequent filings regarding the case that he had learned from
“sources inside the Department of Justice” that career staff had recommended
that the Department object to the Texas redistricting plan, which was not
public information at that time. In our interview of the outside counsel, the
counsel stated that he did not offer any money for the memorandum, though
he acknowledged in written comments responding to this portion of the report
that he did tell Section employees that the memo would have substantial value
in pending litigation. In his interview, he further indicated that he tried to
obtain a copy of the memorandum because he wanted to “show that the voting
rights of minorities had been violated and that the Section 5 process would
have protected them, but [that] instead [the career staff’s recommendation] was
overruled [by the Bush administration].”

      We also found incidents in which Voting Section career staff shared
confidential Section information with outside civil rights attorneys, some of
whom were working on matters where they were adverse to the Department.
For example, in 2005, a Voting Section attorney sent an internal “weekly

                                       137

report,” which provided the Section’s staff with case status updates, to a civil
rights attorney who used to work in the Section and was representing clients in
private practice on voting matters. 119 The weekly report included arguably
attorney-client-privileged and confidential work-product information, including
summaries of three matters in which the Department had notified jurisdictions
that the Department was planning to file complaints in the immediate future
(including the allegations that would be asserted in the respective complaints),
a description of a meeting between Voting Section attorneys and jurisdiction
officials concerning a Section 5 submission, and a summary of a telephone
conference concerning discovery matters between Voting Section attorneys and
defense counsel in the ongoing Noxubee litigation.

      Division leadership indicated to us that it has taken a variety of steps to
address the improper disclosure of confidential information and remind
employees of their obligations. 120 Several CRT leadership and Section
managers told us that the unauthorized release of confidential information
about internal Voting Section deliberations negatively affected their ability to
manage the Voting Section and was bad for morale. Additionally, CRT and
Section managers told the OIG that their concerns about unauthorized
disclosures of confidential information resulted in management sharing less
information with the career staff regarding Section matters.


IV.    Allegations of Retaliation by Managers against Career Employees

      In this section we address allegations that managers in the Civil Rights
Division and in the Voting Section took actions against career employees
because of their political views or positions they took in controversial cases.

      The OIG received a large number of allegations in this category. For
example, some witnesses told us that they or other employees had received
adverse comments or ratings in their performance assessments or had been

       119   The Voting Section attorney has since left the Department.
       120   In December 2005, AAG Wan Kim reported several unauthorized disclosures of
privileged and confidential internal documents from the Voting Section to the OIG and to OPR.
Kim’s request was referred to the Office of the Deputy Attorney General, which declined to
initiate a leak investigation. More recently, on December 14, 2012, CRT leadership, after
consulting with JMD General Counsel, issued an e-mail to all CRT staff with the subject line:
“Responsibilities of CRT Employees to Maintain the Confidentiality of Internal Division
Documents and Information.” That e-mail “reiterate[d] to all Division employees their
responsibility to maintain the confidentiality of internal Division documents and information,”
and listed the Department rules and practices that require the confidentiality of internal
documents and information. Similar memoranda were issued by Division leadership in prior
administrations.




                                               138

unfairly deprived of bonuses or awards because of their ideologies or political
affiliations. Some attorneys complained that they received undesirable case
assignments or that Division leadership refused to approve cases that they
proposed for investigation or filing because of political or ideological bias. We
even received an allegation that one career employee was given a less desirable
office because of his or her perceived political affiliation. We received these
types of allegations with respect to both the current administration (employees
alleging they were mistreated because they were conservatives or Republicans)
as well as the prior administration (employees complaining they were
mistreated because they were liberals or Democrats).

       In our prior investigation of improper hiring and other improper
personnel actions in the Civil Rights Division, we concluded that former Deputy
Assistant Attorney General Bradley Schlozman explicitly stated his desire to
remove attorneys from the Voting Section because of their political views. As
we outlined in our earlier report, as part of an e-mail exchange with a former
colleague in 2003, Schlozman described Voting Section attorneys as “mold
spores” and wrote, “My tentative plans are to gerrymander all of those crazy
libs right out of the section.” We determined that the Voting Section was
typically staffed with approximately 35 attorneys at the time, and that a total of
20 attorneys left the Section during Schlozman’s tenure. Our prior report did
not include an investigation of the reasons for the departure of each individual
attorney during that period.

       We found it impractical in this review to investigate most of the
allegations of political discrimination in the treatment of career attorneys due
to the passage of time and the nature of the evidence we would have needed to
examine. For example, in order to determine whether performance reviews
were based on the merits or tainted by ideological bias, the OIG would have
had to evaluate the performance of a large number of employees over a lengthy
period in the past and then compare each employee’s performance with the
comments and ratings in each employee’s annual assessment. 121

      However, we identified three incidents or allegations of Voting Section
management mistreatment of career employees for ideological reasons that
were sufficiently discrete and for which relevant evidence was sufficiently

       121  An additional complicating factor in reviewing these allegations was the fact that
some disagreements between employees and managers over positions advocated in Voting
Section cases may raise legitimate issues of performance. If an employee’s ideology results in
resistance or obstruction of legitimate management priorities, or advocating for positions in
cases that are not adequately supported by fact or law, this could be a performance issue
justifying a critical performance assessment. Distinguishing between such performance issues
and purely ideological disputes with respect to incidents that occurred years ago would have
been very difficult, particularly with respect to some voting rights matters for which the
applicable case law provided highly flexible or subjective standards.


                                             139

available to enable us to investigate them. First, several witnesses told us they
believed that in 2005 and 2006 then-Section Chief John Tanner assigned
certain work from the Civil Division’s Office of Immigration Litigation (OIL) –
which many employees found to be an undesirable assignment – to Voting
Section attorneys on the basis of their perceived partisan or ideological
affiliations. Second, witnesses told us that they believed Tanner retaliated
against career employees who recommended that the Voting Section interpose
a Section 5 objection to the Georgia Voter ID law (discussed in Chapter Three
and in Section II.A of this chapter) in their performance assessments because
they took a position contrary to the wishes of political appointees in the
Division, and that these employees were driven out of the Voting Section as a
result of Tanner’s actions. Third, we received an allegation that in 2009 DAAG
Julie Fernandes explored removing a career Voting Section employee from a
Division hiring committee because of the employee’s political views. We
examine each of these matters in turn below.

       A.     Assignment of OIL Briefs (2005-06)

      In late 2004, a backlog of tens of thousands of immigration appeals had
swamped OIL. As a result, the Department issued a directive that attorneys in
other Department components, including CRT, were expected to work on OIL
matters in order to reduce the backlog.

      From September 2005 through May 2007, the Voting Section received
approximately 17 OIL cases, which Section Chief John Tanner assigned to
approximately 10 different attorneys. At least eight current and former Voting
Section attorneys, including some widely perceived to be conservatives, told the
OIG that they believed Tanner targeted the OIL briefs to specific attorneys who
he did not like personally or who disagreed with him or Division leadership on
cases, and used the assignments to drive those disfavored attorneys out of the
Section. 122

      Tanner assigned at least 6 of the approximately 17 OIL briefs to
perceived conservative Section attorneys, including 2 attorneys who
volunteered for the assignments. The remaining approximately 11 matters
were assigned to a handful of perceived liberal Section attorneys. 123 Tanner

        122 Tanner is no longer employed by the Department and declined to be interviewed by

the OIG for this investigation. Tanner was interviewed by the OIG in 2007 in connection with
its investigation into Civil Rights Division personnel actions and in 2006 and 2007 in
connection with another review, but these interviews did not include an in-depth exploration of
the personnel decisions discussed here.
       123   An exact accounting was not feasible because we found no centralized records
regarding these assignments and because some briefs were reassigned to multiple attorneys
within the Section. We pieced together the available evidence to construct the estimates given
in the text.


                                             140

directed 6 of those approximately 11 OIL cases to Pat Tellson, who was,
according to many Section employees, a well-known and outspoken liberal.
Tellson was assigned to the Section 5 unit and did not typically work on
litigation matters. According to an e-mail written to Tanner by the CRT
coordinator of the OIL assignments, Tellson was given “more [OIL assignments]
than anyone else in any trial section.” Tellson told us that she believes the OIL
assignments were harassment and punitive.

      Tanner issued multiple OIL assignments to three other perceived liberal
Section attorneys. One of those attorneys had vigorously disagreed with
Tanner on the 2005 Georgia Voter ID matter, while another of the attorneys
had clashed with Tanner on an ethics-related concern. Tanner assigned an
OIL case to another perceived liberal Section attorney who worked in the
Section 5 unit, but she requested that the matter be reassigned due to her
stated moral objections to such immigration appeals, which Tanner agreed to
do.

       Certain incidents involving Tanner bolstered the impression among
Section personnel that he assigned OIL briefs in a punitive manner. For
instance, one Section attorney told the OIG that Tanner told her on her first
day at the Voting Section that, if she “behaved herself,” he would try to shield
her from OIL assignments. The attorney further stated that she believed
Tanner’s comment was a threat. However, this attorney was not perceived to
be liberal, and there is no evidence that Tanner was referring to ideological or
partisan considerations when he made this comment. In another instance,
Tanner reassigned an OIL brief at the request of a Section attorney who was
perceived to be conservative and gave the matter to another attorney who was
perceived to be liberal and with whom he had clashed on a high-profile case.

       Although Tanner did not appear to have distributed the OIL brief
assignments in an equitable manner, with nearly two-thirds being assigned to
perceived liberal attorneys, we ultimately did not find sufficient evidence to
conclude that he made the assignments on the basis of ideology. We did not
find evidence in our review of Tanner’s e-mails to indicate that there was an
ideological basis for his decision-making in assigning these briefs. Rather, a
handful of his contemporaneous e-mails suggested there were non-ideological
reasons for his assignments. For example, in an e-mail to the CRT coordinator
of OIL assignments (who worked in a different Section of CRT), Tanner stated
that he had chosen Tellson to be the “primary specialist” for the Section on OIL
cases, citing the CRT coordinator’s previous advice to Tanner that attorneys
prepare OIL briefs more quickly as they gain experience with them and noting
that the CRT coordinator indicated that attorneys in his section handled six
such cases simultaneously. Tanner’s e-mail also noted that the Voting Section
had an “extraordinarily heavy and time-sensitive caseload” at the time and that
“everyone else [is] up to their ears” on cases involving the Help America Vote
Act. In addition, when Tellson complained to Tanner that the burden of writing

                                       141

the OIL briefs was impeding her ability to complete her Section 5 work and
exacerbating a shoulder injury from “excessive use of the [computer] mouse,”
Tanner told her that he had not realized that it had become a problem and
agreed to stop assigning her OIL briefs, at least temporarily.

        Additionally, we noted that one of Tanner’s first OIL assignments was to
a perceived conservative Section attorney that Tanner seemed to regard highly,
and Tanner subsequently assigned at least one OIL brief to a perceived
conservative Section attorney that he had nominated for a performance award.
Likewise, although Tanner assigned more OIL briefs to perceived liberal
attorneys, based on what we were told by interviewees during our review, it
appeared that there were more attorneys in the Voting Section at the time (and
all other times relevant to this review) who were perceived to be liberal than
were perceived to be conservative. Taking all of the evidence together, we did
not find sufficient basis to conclude that Tanner used the OIL brief
assignments as a means to retaliate against career employees for their partisan
affiliations or because of positions they had previously taken in controversial
cases.

      B.	   Alleged Retaliation against Certain Members of the Georgia
            Voter ID Team (2005)

       Several current and former Voting Section employees told the OIG that
they believed Tanner retaliated against the three review team members who
recommended that the Section object to the Georgia Voter ID Section 5
submission discussed above in Section II.A. of this chapter and in Chapter
Three. All three left the Voting Section within 14 months after the conclusion
of the Georgia Voter ID matter. Several witnesses told us they believed that
these three employees were ultimately forced out of the Section because of the
positions they took in the Georgia Voter ID review.

       We learned that all three employees were reprimanded by Tanner in
meetings held in September 2005. The three employees told us that a
significant focus of the admonishment was the way the team had treated
Arnold Everett, the attorney who had been assigned to the team by Division
leadership and who had recommended preclearance. Two members stated that
Tanner also criticized their substantive performance on the review, but that his
criticisms were not specific.

      Section management, at Tanner’s request, inserted a negative comment
concerning the Georgia matter into the annual performance evaluation score of
the analyst who worked on that submission, but made other positive comments
about the analyst’s work. The analyst received a lower overall performance
score than in the prior year. The other two members of the team who
recommended an objection – an analyst and an attorney – left the Section
before their performance evaluations were prepared. By contrast, Division

                                      142

leadership gave Arnold Everett, the review team member who recommended
preclearance, a performance award for his work on the matter.

       Although Tanner declined to be interviewed for this review, he has
discussed some of these issues in other contexts. In an interview in another
review and in an e-mail to Division leadership, Tanner identified several
specific problems with the team members’ data analysis, stating that he
believed their analysis was biased, repeatedly omitted key facts, skewed
relevant data, and had to be “jettisoned” because it could not be replicated. In
addition, in response to questions that the Division leadership received from a
reporter asserting that Tanner had retaliated against those employees, Tanner
told the Division’s leadership:

      There were no reprisals against any staff . . . . Where there is room
      for improvement in the performance of federal employees, any good
      manager will point it out and offer opportunities [for] training or
      other improvement of performance. Telling someone that [their]
      work needs improvement and offering them guidance on
      improvement does not constitute reprisal.

       We interviewed all three employees about the reasons for their departure.
The employee who was an attorney told us that she had long planned to leave
the Voting Section because she wanted more professional development,
including trial experience, than she was getting in the Voting Section. She said
she had applied for the job that she later accepted before the Georgia Voter ID
matter happened, and that she did not leave because of the case. The second
employee was more uncertain about the reason for his departure, telling us
that he did not know whether the Georgia matter caused him to leave. He also
said that his work in the Section was cyclical and he knew it would wane in
2006, and that this was a factor in his departure. The third employee told us
that she left when managers would not agree to let her switch from full-time to
part-time status. We did not find evidence that her managers refused this
request in an effort to get her to leave the Section. We also did not find
evidence in the e-mails we reviewed indicating that Tanner was attempting to
force the three employees to leave the Section. Taking all of the evidence into
account, we did not find sufficient evidence to support the widely-held
perception among Voting Section employees that the three Section employees
who advocated an objection to the Georgia Voter ID law were forced out of the
section.

       Finally, as to Tanner’s oral admonishment of the three employees at the
conclusion of the Georgia Voter ID matter for their treatment of Everett and for
their substantive work on the case, as noted above we found that the treatment




                                      143

of Everett by these employees was indeed inappropriate in several instances. 124
We further found no basis to conclude that the Tanner’s negative comment in
the performance assessment for one of the employees and reduction in the
employee’s overall rating from the previous year was in retaliation for any
positions the employee took in the Georgia matter.

       C.	      Consideration of Ideology in the Composition of the Honors
                Program Hiring Committee (2009)

      In late August and early September 2009, the CRT began preparing for
the annual hiring process for the Attorney General’s Honors Program and
Summer Law Intern Program. Pursuant to the CRT procedures established in
2008, the CRT leadership created a CRT Honors Program/Summer Law Intern
Program Hiring Committee, comprising representatives from each CRT
section. 125 Each section chief was responsible for appointing one or two
representatives to the committee, depending on Section resources. The
deadline for the Section Chiefs’ appointments for the 2009 committee was
August 28, 2009.

       Voting Section Chief Christopher Coates was out of the office on leave
when the committee appointments were due, and could not be reached. In his
absence, the Acting Chief appointed career Trial Attorney Carson Poole and
another long-tenured career attorney to the committee. 126 Shortly after Coates
returned from leave on September 1, 2009, he replaced the other Voting
Section attorney with a different career attorney, Gregory Milner. 127 Coates
told the OIG that he believed both of the Voting Section’s initial delegates to the
committee were liberal and that Milner was conservative. 128 Coates explained
that his practice regarding appointments to hiring committees and other
projects was to intentionally pick a conservative and a liberal representative
because he believed this was the best approach to get a broad perspective and


       124 In making these findings, we emphasize that we did not attempt to confirm Tanner’s
assessment of the substantive work product generated by the employees who recommended an
objection. As discussed in Chapter Three, we reviewed the positions taken by all the attorneys
involved in the Georgia Voter ID matter, and did not find a basis to conclude the positions
advocated in their analyses lacked support in law or fact.
       125  According to CRT human resources personnel, the Division had initiated a
comprehensive review of its hiring policies before the release of the OIG’s 2008 report
concerning the Department’s Honors and Summer Law Intern Programs and, following the
release of the OIG’s report, incorporated the OIG’s recommendations into their policies.
       126   Carson Poole is a pseudonym.
       127   Gregory Milner is a pseudonym.
       128 We note that the replaced attorney had served on the Honors Program hiring
committee the previous year at Coates’s request. Coates also appointed an attorney he
perceived to be ideologically conservative to that prior Honors Program hiring committee.


                                              144

a diverse point of view on the subject matter at hand. Coates also stated that
he believed it was important for the Voting Section to have ideological diversity
because its actions affect the political process.

       On September 2, 2009, Acting AAG Loretta King issued a memorandum
to the CRT section chiefs reiterating the rules governing the CRT’s selection
process for the Attorney General’s Honors Program. King’s memorandum
stated that the Section representatives to the hiring committee “may be
members of management (Chiefs, Deputy Chiefs, or Special Litigation Counsel),
or attorneys with at least five years in the Division.”

      On September 3, 2009, Milner and Poole received an e-mail with the
upcoming committee schedule. Poole forwarded the e-mail at 4:50 pm to
DAAG Julie Fernandes, alerting her to Milner’s appointment on the committee
and stating: “If this is not the fox guarding the henhouse, I don’t know what
is.” Poole also stated in his e-mail that he assumed Coates replaced the
original delegate with Milner and concluded: “It just continues.”

      Poole told the OIG that he believed Milner had worked on behalf of the
Republican Party in the past and that he had viewed Milner as having a
particular ideology. 129 He said that, based on Milner’s previous work and his
work in the Voting Section, he thought Milner might err on the side of imposing
ideological requirements on certain applicants and he had a concern about
Milner acting fairly on the hiring committee. When asked what he meant in
stating “it just continues,” Poole responded that Milner was one of the
attorneys hired during the previous administration and had worked with
Coates on a controversial case, and he believed that Milner’s selection was an
attempt by Coates to make sure that the applications were being viewed by
someone who Coates viewed as “an ideological compadre.” 130

      Fernandes wrote back to Poole at 8:04 pm that evening, stating: “I need
to speak to [the CRT Human Resources staffing supervisor] about this.” Four
minutes later, at 8:08 pm, Fernandes e-mailed Acting AAG Loretta King and
the Acting Chief of Staff for the Division, stating:

       I understand that Chris Coates has recommended [Poole] and
       [Milner] to serve on the honors hiring committee from voting.
       However, I also understood that you had to have a certain number

       129 As noted later in this chapter and in Chapter Five of this report, our investigation

revealed that Poole sent numerous messages on the Department’s e-mail system that
expressed views that were hostile to Republicans and political conservatives.
       130The issues concerning the New Black Panther Party case and the dispute between
Coates and Division management (including King) about the dismissal of certain defendants,
which we discuss in detail in Chapter Three, occurred a few months earlier, in April and May
2009.


                                              145

      of years in the Division in order to be on this committee and that
      [Milner] does not meet that qualification. Please let me know the
      status of this and whether we need to find a replacement for
      [Milner].
As noted above, King’s memorandum governing the hiring committee stated
that committee members must either be Section managers or attorneys with
five years of experience in the CRT. Because Milner held a position that
qualified as a Section manager, the five-year requirement did not apply to him.

      At 8:52 pm that night, Poole forwarded Fernandes’s 8:04 pm e-mail to
Chris Herren, then a Deputy Section Chief, and stated: “[Fernandes] said to be
open and let her know what’s going on if it was important. Let’s keep this
between us.”

      The next morning, September 4, 2009, King responded to Fernandes’s
8:08 pm e-mail concerning Milner’s eligibility under the five-year requirement,
saying: “This gets complicated. You should either discuss this with [a CRT
leadership official] or we can discuss when you return.”

       It is unclear whether Fernandes or anyone else took any further action
regarding Milner’s appointment to the hiring committee. Fernandes told the
OIG that she did not recall taking any actions with regard to Milner’s selection
to the committee beyond these e-mails. She stated further that she did not
know whether she communicated any further with King or the other CRT
leadership official about this issue. Fernandes stated that she vaguely recalled
speaking with Coates about the matter, but that she “must have” discussed it
with him.

      Fernandes stated that she probably spoke with the Human Resources
(HR) supervisor referenced in her e-mail and another administrative employee
about the hiring committee, but she did not recall doing so. She also said that
she did not learn about the five-year eligibility requirement until someone told
her about it in connection with this incident. (As noted, even after being told
about the rule, Fernandes did not understand that it was inapplicable to
Section managers like Milner.) The OIG was unable to determine when or how
Fernandes learned about the five-year eligibility requirement for trial attorneys.
The HR supervisor referenced in Fernandes’s 8:04 pm e-mail told the OIG that
she did not speak with Fernandes or anyone else regarding the composition of
the 2009 committee or the relevant eligibility requirements.

       Furthermore, despite Poole’s 8:52 pm e-mail, which appears to reference
some additional communication with Fernandes, neither Fernandes nor Poole
recalled in their OIG interviews any communication aside from the e-mail
exchange. Poole also told the OIG that he did not know whether Fernandes
took any action in response to his initial e-mail.


                                       146

       Fernandes told the OIG that Milner served on the committee and that
she believed the issue was resolved and that her concerns were assuaged,
either because Milner was eligible to serve on the committee or because Coates
persuaded her that there was a good non-ideological reason for waiving the
eligibility requirement in this case. Poole stated in his OIG interview that there
were no problems with Milner’s performance on the committee and that Milner
“made some good recommendations” as a member of the committee.
Furthermore, he stated that he expected that Milner was going to be
reappointed to the committee for the 2010 cycle and that he no longer had any
concerns about Milner’s involvement on the committee. However, Milner was
not reappointed to the Honors hiring committee in 2010 by new Voting Section
Chief Chris Herren. (As described later in this chapter, Coates departed as
Voting Section Chief in early 2010.) Milner told the OIG as of October 2011 he
had been given certain administrative duties like Safe Room Coordinator and
Intern Coordinator.

      When asked about the meaning of the e-mail exchanges concerning
Milner’s appointment to the committee, Fernandes stated that she understood
that Poole was concerned about Coates and the politicization of the Section and
that his e-mail was likely an allusion to those concerns. Fernandes later
acknowledged that she understood that Poole was raising the question because
he thought Milner’s appointment was due to political considerations.

       Fernandes initially told the OIG that her concern was whether Milner
met the eligibility requirements and whether Coates followed the rules in
selecting Milner. Later, she told the OIG that her concern was whether Coates
selected Milner because of his political orientation. She stated further that
assessing whether the selection followed the rules was one piece of evidence in
determining whether it was politically motivated.

       Fernandes also initially told the OIG that she doubted that she would
have raised her concern about Milner’s appointment to King if she believed that
he satisfied the committee eligibility requirements. Later, she added that, even
if Milner had sufficient tenure in the Division, it would be improper for Coates
to select him if the reason he did so was because Milner was conservative, and
that this was her concern.

      Fernandes stated that she knew at the time that Milner described himself
as a political conservative, but she stated that Milner was not her concern. To
the contrary, Fernandes stated that she believed at the time – and continues to
believe – that Milner could satisfactorily fulfill his obligations on the committee
and that he would do “a fine job” in that capacity. According to Fernandes, her
concern was more about Coates’s motivations for appointing Milner, specifically
whether Coates was selecting Milner because of his political orientation. She
said that she believed Coates had an “us-versus-them” mentality concerning
Voting Section personnel, and that he wanted to make sure that a liberal and a

                                       147

conservative served together. She stated further that there is a history of
politicization in the Voting Section and in CRT, and that Coates spent time in
those circles of people. She said that Coates needed to understand that they
“don’t roll that way.” She also told the OIG that she knew of Coates’s practice
of assigning a liberal and a conservative for such assignments.

      According to Fernandes, she knew that Coates was a conservative who
she thought favored other conservatives who he believed were on “his side.”
She said that if Coates had appointed a known liberal to the committee rather
than Milner, she would probably not have raised an objection because she
would not have been concerned about politicization of the hiring process. She
said that, if Coates had made a different choice and there was no reason to
think that the choice was not based on anything but the merits, she would not
have cared.

       We believe that this incident demonstrates that problems of polarization
within the Voting Section continued after the change in administrations. The
participants all viewed this incident through starkly ideological lenses. Coates
substituted Milner for another attorney on the hiring committee who he
perceived to be “liberal,” and said that it was his practice to “balance” the
assignments of liberals and conservatives to projects in order to ensure a
diversity of viewpoints. Poole objected to Fernandes about the assignment of
Milner on the grounds that he was the “fox guarding the henhouse,” a clear
reference to Milner’s perceived ideological views. Fernandes responded to Poole
by telling him that she would look into the matter and then immediately e-
mailed the Acting AAG of the Division about the appointment. Fernandes told
us that she believed Coates frequently acted to advance his conservative
ideological allies, and that she was concerned that he did so in this instance,
even though she had no doubt about Milner’s fitness for the job.

      We believe that it was inappropriate to consider ideology in selecting
Voting Section employees to serve or remain on committees such as the Honors
Hiring Committee, even if the motive was to achieve or restore “balance.” We
found that the focus on ideological considerations with respect to Milner’s
appointment to the hiring committee was troubling considering that the OIG,
together with OPR, released 3 reports concerning improper political
considerations in Department hiring in the 14 months preceding these
events. 131 One OIG-OPR report specifically examined improper political
considerations in the Department’s Honors Hiring Program, the very committee

       131  See OIG-OPR Report, An Investigation of Allegations of Politicized Hiring in the
Department of Justice Honors Program and Summer Law Intern Program, June 2008; OIG-
OPR Report, An Investigation of Allegations of Politicized Hiring by Monica Goodling and Other
Staff in the Office of the Attorney General, July 2008; OIG-OPR Report, An Investigation of
Allegations of Politicized Hiring and Other Improper Personnel Actions in the Civil Rights
Division, July 2008 (Released Publicly January 13, 2009).


                                             148

at issue here. We believe that this incident illustrates that polarization and
mistrust persisted in the Voting Section and infected even routine non-case-
related decisions like the composition of a hiring committee.


V.	   Allegations of Removal or Marginalization of Career Section
      Managers by Political Staff

      In this section, we examine the events surrounding the departures of
three senior Voting Section managers – former Section Chief Joseph Rich,
Deputy Section Chief Robert Berman, and former Section Chief Christopher
Coates – which became the subject of controversy and allegations of
dysfunction, misconduct, mismanagement, or inappropriate behavior.

      A.	   Marginalization of Voting Section Chief Joseph Rich (2004-05)

            1.	   Facts

       Rich was Acting Chief of the Voting Section when the administration
changed in January 2001. In the fall of 2001, shortly after being confirmed as
the new AAG of the Division, Ralph Boyd selected Rich to be the permanent
Section Chief. However, Rich’s relationship with certain members of the
Division’s leadership soured over time. Rich’s relationship with Bradley
Schlozman, who became a DAAG in the Division in the spring of 2003, was
particularly antagonistic. At the time, Schlozman was Deputy AAG and AAG
Alexander Acosta (who had replaced Boyd) had given Schlozman broad
authority to manage the Voting Section. Schlozman eventually transferred
much of Rich’s supervisory authority to others in the Voting Section. In the
spring of 2005, Rich accepted an early retirement offer and left the
Department. Shortly thereafter, Schlozman became Acting AAG of the Division
and named Tanner Section Chief and promoted Coates to Principal Deputy
Chief.

       Rich told investigators that he accepted the Department’s early
retirement offer because he believed there was a political atmosphere in the
Department, Division leadership exhibited personal hostility toward him, and
his responsibilities as Chief had been reduced. We were told by several Voting
Section employees that Rich was a popular chief among many career employees
in the Voting Section, and that they believed Rich was marginalized because of
positions he took on Voting Section matters that were contrary to the political
desires of Division leadership.

       Division leaders we interviewed told us that they lost confidence in Rich
because they believed he often advanced a particular view influenced by his
political ideology, which they thought was driven by information he received
from civil rights advocacy groups. These witnesses stated further that Rich
often resisted or refused taking on assignments with which he disagreed, held

                                      149

pre-determined conclusions on cases and matters, and would not relay to
Division leadership relevant legal or factual information that undermined those
views. 132

      Over the course of our investigation, we learned about several incidents
that contributed to the antagonism and distrust between Rich and Division
leadership. We describe several of these below.

       Mississippi Redistricting Letter: As described in detail in Chapter
Three, in 2002, the Division considered a redistricting plan submitted for
Section 5 preclearance by the State of Mississippi. AAG Boyd decided to issue
a letter to the state to request additional information concerning the
submission. Andrew Lelling, Counsel to the AAG during the Mississippi
matter, told the OIG that letters of this type were usually drafted by the Voting
Section and signed by the Section Chief, but that Rich refused to draft or sign
the letter. Lelling said that Division leadership believed that Rich wanted to
force political appointees to sign the letter in order to make it appear politically
motivated. He said Rich ultimately signed the request for more information,
after Division leadership personnel prepared the text and insisted that he sign
the document. Boyd told us that Lelling probably asked Rich to draft the
letter, and that Lelling relayed Rich’s displeasure with this assignment.

       Rich told us he did not refuse to prepare or sign the letter. He told us
that Lelling and then-Principal DAAG Michael Wiggins asked him to sign the
letter, which he told us he agreed to do despite disagreeing with their decision.

       Rich’s Efforts To Appeal Schlozman’s Decisions: Rich acknowledged
to the OIG that he tested some of Division leadership’s decisions and
instructions. For instance, Rich stated that, when Alex Acosta became AAG in
August 2003, then-Principal DAAG Schlozman told Rich that Division
leadership was modifying their previous practice of permitting the Voting
Section to appeal decisions by the DAAGs to the AAG and that Rich should not
appeal every decision to the new AAG. Rich said he decided to “try it out a few
times” and continued to request meetings with AAG Acosta to appeal
Schlozman’s decisions. Rich stated that after Acosta rejected one of his
appeals in a dismissive manner, he realized that such appeals were fruitless,
and the Section thereafter stopped appealing Schlozman’s decisions to
Acosta. 133 Schlozman told us that during the period that Ralph Boyd was AAG,

       132   We have summarized the view of Division leaders and Rich regarding each other to
illustrate the level of distrust and animosity, not because we found evidence to substantiate the
perceptions described here. Both sides of this dispute vigorously disputed each other’s
allegations.
       133  After reading a draft of this report, Rich told us there was only one instance in
which he tested Schlozman’s rule by asking for a meeting with Acosta. During his OIG
interview, however, Rich stated there might have been “a couple of times” when he appealed
                                                                                             Cont’d

                                               150

Rich regularly appealed intermediate decisions to Boyd, which created
frustrations and tensions between Schlozman and Rich. Schlozman said that
when Acosta became AAG he decided he would not automatically consider all
appeals from the Section Chief.

       “Flexiplace” Incident: In October 2003, Division leadership decided to
terminate a “flexiplace working arrangement” for a Voting Section attorney that
had been established under the prior administration, in which the attorney was
permitted to work full-time outside of the Section’s office. This decision was
communicated to Rich in a voicemail from an employee in the Division’s
Administrative Section. Rich stated that he understood from the message that
he would get a follow-up phone call about the decision, but that he did not.
Rich did not contact Division leadership about the matter. Rich did not
terminate the arrangement for several months, and did so only after a Human
Resources manager asked him about the matter. As a result of Rich’s failure to
implement the directive on a timely basis, Schlozman issued a written
reprimand to him. Rich told us that he appealed the reprimand, that no action
was ever taken on his appeal, and that at the time he left the Department he
was told the reprimand was not official and would not be part of his personnel
file. According to the Department, the Principal DAAG agreed with Rich’s
appeal, and the reprimand was removed from his file.

       Section 2 Recommendation Memoranda: As detailed in Chapter
Three, in early 2004, Rich submitted two memoranda to Division leadership in
which the Voting Section recommended the authorization of separate Section 2
lawsuits against Township A and Township B. We found that the Voting
Section’s treatment in the two memoranda of one essential element in the
relevant legal standard (whether Black voters in the school districts voted
“cohesively”) was inconsistent. Division leadership witnesses told the OIG that
the inconsistent treatment of that element in the two memoranda contributed
to Division leadership’s perception that the Voting Section, under Rich’s
supervision, applied the relevant legal standards inconsistently in order to
support preferred recommendations. We also determined that in rejecting the
recommendation to sue Township A, Schlozman made inconsistent arguments
and used abusive language toward Rich, stating: “Do you do any editing of
these memos at all? I sometimes wonder if you are even capable of exercising
supervision on these type of cases.” Rich told us that Schlozman used abusive
language toward him constantly and was “the most vindictive and difficult
person” with whom Rich has ever worked. Rich stated that Division leadership
took various actions against him resulting from “the unprecedented level of
hostility toward career managers that permeated the leadership of the Civil
Rights Division at that time.”

Schlozman’s decisions to Acosta before a third time when Acosta was so dismissive that Rich
decided not to go to him anymore.


                                            151
       Deletion of Coates’s Noxubee Recommendation: As described in
Chapter Three, in February 2005 the Voting Section filed a civil action against
the Noxubee County (Mississippi) Democratic Election Committee (NDEC), and
its chairman, Ike Brown, alleging violations of Sections 2 and 11(b) of the
Voting Rights Act. The Noxubee case was the first time the Department of
Justice had ever filed a civil action against Black defendants under the VRA
alleging denial or abridgment of the rights of White voters on account of race.

        In May 2004, then-Special Litigation Counsel Christopher Coates
submitted a draft memorandum to Rich that recommended that the
Department conduct parallel criminal and civil investigations of the voting
practices in Noxubee County. 134 Before forwarding Coates’s memorandum to
Division leadership, Rich deleted Coates’s recommendation regarding an
investigation of civil claims by the Voting Section. Rich told us that he
informed Coates of the reasons for Rich’s opposition to the civil investigation at
that time. Upon learning of the deletion, Coates contacted Hans von
Spakovsky – then counsel to the AAG – and sent him the omitted portion of his
memorandum. Von Spakovsky, copying Schlozman, then e-mailed Rich to ask
about the omission, and Rich responded that it was Department practice for
civil investigations to be put on hold pending completion of criminal
investigations.

      Upon receiving Rich’s e-mail, Schlozman sent Rich an e-mail response
stating: “you WILL pursue the section 2 case, and you will initiate it
immediately.” Following the completion of an investigation, Coates prepared a
J-Memo recommending that a Section 2 case be filed in the Noxubee matter.
Rich forwarded it to Division leadership with his concurrence, and the
complaint was filed in February 2005.

       Schlozman told the OIG that when he discovered that Rich had deleted
the recommendation portion of Coates’s memorandum he became angry at
Rich and that this event eroded all trust that CRT leadership had in Rich.
Schlozman characterized the incident with the Noxubee memorandum as the
“final straw” and that he went “apoplectic” and “screamed” at Rich over the
telephone.

       Rich’s Authority Is Transferred to Coates and Tanner: Schlozman
told the OIG that, as a consequence of his concerns and frustrations with Rich,
he transferred all of Rich’s supervisory authority over Section 203 and Section
2 cases to then-Special Litigation Counsels (SLCs) John Tanner and

       134   The memorandum submitted by Coates was not a J-Memo and was entitled
“Recommendation to Conduct Civil and Criminal Investigations into the Voting Practices in
Noxubee County, Mississippi.” In the conclusion, which Rich did not send to Division
leadership, Coates made a specific recommendation to initiate an investigation into potential
civil violations of the VRA resulting from election practices in Noxubee County.


                                             152

Christopher Coates, respectively. Thereafter, the two SLCs had approval
authority over all decisions relating to Section 2 and language-minority
matters, and they reported directly to Division leadership, bypassing Rich.
Schlozman and von Spakovsky told the OIG that they trusted the two SLCs, as
opposed to Rich, to provide them with all the information they would need to
make correct litigation decisions.

               2.     Analysis

      We believe that Division leadership, particularly Schlozman, acted at
times inappropriately or unfairly with Rich. We found that Schlozman
repeatedly used intemperate and sometimes unfair rhetoric in communicating
with Rich. We also found Schlozman’s reaction to Rich’s deletion of a staff
recommendation to initiate an investigation in Noxubee to be extreme, as it is
not necessarily inappropriate for a Section Chief to modify or delete staff
recommendations once the Section Chief has made a final decision on what to
recommend to leadership (in the absence of a practice or rule to the
contrary). 135

       However, we also found that some incidents reflected conduct by Rich
that undermined Division leadership’s confidence in him. For instance, Rich
admitted to the OIG that he tested or resisted some of the instructions from
Division leadership, such as attempting to appeal decisions by DAAG
Schlozman to AAG Acosta, despite being told that such appeals would no
longer be routinely considered. Rich also failed to implement Division
leadership’s direction to terminate the “flexiplace” arrangement for a staff
attorney in a timely manner. In addition, the inconsistent analyses concerning
a critical element of the Section 2 legal standard in the Township A and
Township B recommendation memoranda in 2004 undermined Division
leadership’s confidence in Rich’s management and legal judgment. On the
basis of these incidents, we found that at least some of the reason the Division
leadership marginalized Rich was that it had lost confidence in Rich’s
willingness to implement legitimate management decisions and priorities
promptly. 136

        135 We note that Schlozman later approved Section Chief John Tanner’s modifications

to the procedures for submitting recommendations in Section 5 preclearance reviews in
connection with the Georgia matter, whereby dissenting staff recommendations were
henceforth excluded from the memorandum conveying the Voting Section’s views to Division
leadership. We believe that whatever practice is chosen for dealing with situations in which
there is disagreement between the Section Chief and the career staff, the practice should be
communicated clearly and implemented consistently from case to case.
       136 In light of the conflicting testimony about whether Rich refused to sign the
Mississippi redistricting letter, and the fact that this incident occurred prior to Schlozman’s
tenure in the Division, we did not conclude that this incident contributed to the poor
relationship between Rich and Schlozman.


                                               153

       Taking all of the evidence together, we concluded that Rich and his
supervisors both contributed to the antagonistic relationship between them.
However, in the absence of evidence more specifically linking Schlozman’s
treatment of Rich to Rich’s perceived ideological views, we did not find
sufficient evidence to conclude that partisanship or ideology were the primary
factors in the Division leadership’s treatment of Rich.

      B.	   Involuntary Reassignment of Voting Section Deputy Chief
            Robert Berman (2006)

      In this section, we review the circumstances surrounding the involuntary
transfer of Voting Section Deputy Chief Robert Berman out of the Section in
early 2006 and allegations that he was reassigned for ideological reasons.

            1.	   Facts

      Berman joined the Civil Rights Division under the Honors Program in
July 1978 and was promoted by Joseph Rich to the position of Deputy Chief of
the Voting Section in October 2001, with responsibility for the Section 5 unit.
Berman entered the Department Senior Executive Service Candidate
Development Program in 2004. Pursuant to that program, Berman served on a
5-month detail to the Administrative Office of the U.S. Courts starting in
September 2005, at which point John Tanner was the Section Chief.

      During Berman’s detail, Tanner placed Special Litigation Counsel Yvette
Rivera as Acting Deputy Chief in charge of the Section 5 unit and asked her to
review how the Section 5 unit was doing its work. According to Rivera and
Tanner, Rivera identified several problems relating to management and
workflow inefficiency in the unit.

      Berman told the OIG that he was planning to return to the Voting
Section after his detail ended in January 2006. In late December 2005,
however, Tanner told Berman that he could not return to the Section and that
he would have to find a different position. According to Berman, Tanner told
him that he was not welcome back in the Section because Section management
had conducted an assessment of the Section 5 unit during Berman’s detail and
had uncovered serious problems in the unit’s operations. Berman also told the
OIG that Tanner stated that the decision had been made by the Division
leadership and that it was final. Berman then took a position training newly
hired attorneys at the CRT Office of Professional Development and remained in
that office until August 2008, when he transferred back into the Voting Section
and resumed his duties as Deputy Chief in charge of the Section 5 unit with
the approval of Acting AAG Grace Chung Becker.




                                      154

       Schlozman told the OIG that Berman’s reassignment in 2006 was his
(Schlozman’s) decision, although he stated that incoming AAG Wan Kim
assented to the move. 137 According to Schlozman, Berman had been in the
Voting Section for an extended period of time and the Section 5 unit had
become Berman’s “little fiefdom.” Schlozman stated that he believed moving
Berman and installing a new Deputy to supervise the unit would be “good and
healthy.” Schlozman stated that he was also aware at the time of the decision
of the alleged deficiencies uncovered by Section management’s assessment of
the Section 5 operations.

      Schlozman acknowledged that he and Berman had frequent
disagreements on Section 5 matters and other substantive issues, but denied
that those differences were the motivation behind the move or that the decision
was made in retaliation for Berman's actions on any Voting Section matters.
Schlozman told the OIG that, while the disagreements with Berman “didn’t
help his case,” he often believed Berman was a “generally honest broker” and
did not believe Berman was attempting to deceive him.

       In a 2007 interview with the OIG, Tanner acknowledged that Berman
was transferred involuntarily, but stated that he did not believe that Berman or
any other employee was involuntarily transferred based on the employee’s
political ideology. 138 Tanner stated he was dissatisfied with Berman’s
performance and that Schlozman had also expressed dissatisfaction with
Berman’s performance. Tanner also stated that he believed there were serious
performance deficiencies in the Section 5 unit and problems in the unit’s
operations, and that Berman was not the proper person to implement changes
in the unit.

      Berman told the OIG that, although he did not believe that he was
transferred because of his actions on a particular case, he believed he was
reassigned because he “was not giving them [Division leadership] the answers
that they wanted.”

       According to one Voting Section attorney who was hired by Schlozman,
Schlozman stated as he was preparing to leave the Division that the “good
Americans” (a phrase Schlozman used to describe his ideologically preferred
hires) that remained in the Voting Section were his legacy and jokingly noted
that Berman was no longer in the Section. According to witness testimony and
other evidence obtained by the OIG, there was a perception among some Voting


      137 Upon Kim’s confirmation in November 2005 as AAG of the Division, Schlozman

moved from being Acting AAG of the Division to being the Principal DAAG of the Division.
       138 Tanner was interviewed by the OIG in 2007 in connection with its joint investigation

with OPR into Civil Rights Division personnel actions.


                                             155

Section staff that Berman was transferred because he was perceived to be
ideologically liberal.

            2.    Analysis

       We were unable to independently assess the validity of the criticisms that
Tanner and Rivera made of the management of the Section 5 unit under
Berman’s leadership. Nevertheless, we found that perceived ideology or the
positions Berman took in Voting Section matters likely were among the
motivating factors in Schlozman’s decision to transfer Berman involuntarily out
of the Section.

      First, we note that the OIG’s 2008 report concerning Schlozman’s actions
concluded that he considered political and ideological affiliations in several
personnel actions, including the transfer of other CRT career employees, as
well as case assignments and awards. Although the specific cases discussed in
that report did not involve Voting Section personnel, these transfers occurred
in roughly the same timeframe as Berman’s reassignment.

       Second, we found one of Schlozman’s stated motivations for transferring
Berman – namely, that Berman had been in the Section “forever” – to be
unpersuasive. Although Berman initially joined the Section in 1978, he worked
in the Housing Section for roughly nine years (1991-2000), and had served as
Deputy Chief for less than six years at the time of his transfer. Moreover, other
employees served in the Section for comparable lengths of time, including
Tanner, who Schlozman had previously promoted to Section Chief.

      Third, we found the manner in which Berman was informed that he
could not return to the Section following his detail to support a finding that the
involuntary transfer was based on reasons other than performance. The
decision to remove Berman appears to have been made suddenly, with no effort
to improve Berman’s performance. Furthermore, Schlozman and Tanner did
not give Berman an opportunity to respond to Rivera’s findings concerning the
claimed deficiencies in the Section 5 unit’s performance; in fact, according to
Berman, they never gave him a copy of Rivera’s memorandum. Finally, we
found it significant that a subsequent Acting AAG, Grace Chung Becker,
restored Berman to his position as Voting Section Deputy Chief in charge of
Section 5. We doubt that the Acting AAG would have reinstated Berman to his
former position if his prior performance in that position had been so
problematic.

      C.    Treatment of Voting Section Chief Christopher Coates (2009)

       In this section, we address the treatment of Voting Section Chief
Christopher Coates by CRT leadership during the period from January 2009
until January 2010, when Coates left the Voting Section and was detailed to
the U.S. Attorney’s Office for the District of South Carolina. Coates and others
                                       156

alleged that he was stripped of his responsibilities and effectively forced out as
Section Chief because of his perceived conservative political views or because
he favored “race-neutral” enforcement of the voting rights laws.

               1.	    Facts

      Coates was hired into the Voting Section in 1996. Coates was named
Principal Deputy Chief of the Voting Section by Acting AAG Schlozman in mid-
2005, shortly after John Tanner took over for Joseph Rich as Section Chief.
Acting AAG Grace Chung Becker promoted Coates to Acting Section Chief in
late 2007 upon Tanner’s departure, and promoted him to Section Chief in
2008.

      Coates told the OIG that he did not favor President Obama being elected,
and that he anticipated that he would have problems with the people that the
new administration would put into positions of authority, because he did not
expect them to favor the enforcement of voting rights laws against minority
defendants or on behalf of Whites.

                      a.	     The November 2008 Election and the Presidential
                              Transition Period

       During the transition to the new administration following the November
2008 election and continuing through the initial months of the new
administration, several events occurred that laid the foundation for the
fractious relationship between Coates and the incoming Division leadership,
including Loretta King (a career Deputy Assistant Attorney General who was
temporarily designated as Acting Assistant Attorney General from January
2009 to October 2009) and the administration’s political appointees.

      According to one former Voting Section manager who is now in private
practice, many people in the Civil Rights Division and the civil rights
community at large questioned Coates’s commitment to civil rights and his
judgment as a result of his involvement in the Noxubee case. These concerns
were exacerbated by the OIG-OPR report concerning former Acting AAG
Schlozman’s personnel practices, which was released publicly in January 2009
(during the transition period) and found that Schlozman had inappropriately
considered political and ideological affiliations in hiring and other personnel
actions in the Division. The report revealed an e-mail from Schlozman
concerning a candidate for an Immigration Judge position, in which he
vouched for the candidate’s political ideology, saying: “[D]on’t be dissuaded by
his ACLU work on voting matters from years ago. This is a very different man,
particularly on immigration issues, he is a true member of the team.” 139

      139   Coates worked on voting matters for the ACLU prior to joining the Voting Section.


                                              157

According to e-mails involving Division personnel and several witnesses,
including Acting AAG Loretta King, it was widely understood in the Division
that the Immigration Judge candidate Schlozman referenced was Coates.

      As detailed below, we found evidence that, during the transition period
and in the first few months of the new administration, some CRT attorneys
expressed concerns on various grounds about Coates to members of the
presidential transition unit and incoming Division political appointees. Some
of those employees urged the transition team or the incoming political
appointees to remove Coates as Section Chief. For instance, Pat Tellson, the
former Voting Section attorney who at the time worked in a different CRT
Section, wrote a memorandum to the leaders of the presidential transition unit
overseeing CRT to express concerns about Coates. Tellson stated in the
memorandum that, although her comments “may be carrying coals to
Newcastle,” she believed Coates’s “views and actions reflect a contempt toward
the mission of the Civil Rights Division….” The memorandum quoted
Schlozman’s statement in the OIG-OPR report regarding Coates and cited
among other items Coates’s work on the New Black Panther Party and Noxubee
matters.

      In a memorandum prepared by President-elect Obama’s transition team
overseeing the changeover in the Civil Rights Division, the transition team
referenced the possibility of making changes in the Division’s leadership. The
undated memorandum stated in a section entitled “Assessing Career
Leadership”:

       There should be a careful review of the capabilities and
       commitment of current career leadership and changes should be
       made as necessary, particularly in light of past abuses that led to
       politicization of the Division's work, lost expertise and wrongful
       political hiring, and other personnel moves. However, care should
       be taken to insure that any changes will protect the integrity and
       professionalism of the Division's career attorneys and will not be
       perceived as the politicization pendulum just swinging in a new
       direction.
Attorney General Holder told the OIG that he believed he reviewed the
memorandum during the transition period, but that he did not think the
transition team’s recommendation referred specifically to Coates or any other
specific career manager. 140

       140  Loretta King, who became Acting AAG of CRT at the start of the Obama
Administration, told the OIG that she recalled receiving something related to the transition
team from Thomas Perez, who worked on the transition team and would later serve as CRT
AAG. According to King, she recalled putting it in a pile of documents, but did not recall
reading it.


                                              158

                  b.    Complaints about Coates in 2009

      Loretta King served as Acting AAG of the Division from January 21
through October 6, 2009, and Steve Rosenbaum served as Acting DAAG of the
Division from January 21 through July 17, 2009. King and Rosenbaum told
the OIG they had experiences with Coates early in the new administration that
they cited in April and May 2009 as problems with his leadership in
discussions about removing Coates as Section Chief. King told the OIG that
she also heard complaints about Coates’s management from Voting Section
personnel. For example, she mentioned that a Deputy Chief in the Section
complained to her that Coates was not keeping other managers sufficiently well
informed of Section business.

                        (1)   The Missouri Litigation

       One early incident involved a pending action against the State of
Missouri filed in 2005 under NVRA Section 8. As discussed in Chapter Two,
Section 8 requires states to maintain accurate voting lists by, among other
things, purging the names of deceased or ineligible voters. By 2008, the
Missouri case had been appealed and remanded for further proceedings on a
narrow issue. The Voting Section submitted a brief on the remanded issue,
which the district court struck in January 2009 because the brief contained
data that fell outside the court’s discovery parameters. After the new
administration took office in January 2009, the Voting Section submitted a
new proposed brief to Rosenbaum that was similar to the original but omitted
the offending data. The Voting Section did not provide any case history or
explanation of the circumstances surrounding the proposed brief, which was
due to be filed two days later. For instance, the Voting Section did not tell
Rosenbaum that the court had rejected a similar brief a few weeks earlier and
did not explain what changes had been made to comply with the court’s order.
Rosenbaum discovered these facts when he attempted to reach Coates with
questions about the brief. Coates was not in the office, and Rosenbaum
learned from Voting Section Deputy Chief Rebecca Wertz that the court had
rejected a similar prior brief.

       Rosenbaum had a conference call with Coates and the attorney who
prepared the brief, Deputy Chief Robert Popper, in which they told Rosenbaum
about the circumstances of the case. Rosenbaum told the OIG that he
explained to Coates and Popper that they should have provided background
information prior to sending the brief, so that Rosenbaum could conduct a
meaningful review. According to Rosenbaum, Coates, and Popper, the call
grew heated when Rosenbaum learned about the case history. Rosenbaum
told the OIG that he forcefully expressed his concerns that they had failed to
provide him with essential background information. Both Coates and Popper
told the OIG that Rosenbaum, who was on a speakerphone during the meeting,
shouted so loudly that people in the hallway and in nearby offices heard him.

                                     159

Rosenbaum later cited this incident in a performance review of Coates,
described below.

      Coates told the OIG that he did not attempt to hide the history of the
Missouri litigation from Rosenbaum, and that he assumed that the incoming
Division leadership had access to the outgoing administration’s files for
ongoing matters, including the Missouri litigation. 141

                             (2)	    Complaints about Coates’s Questions to Job
                                     Candidates

       In early 2009, Acting AAG King received complaints about Coates from
one or more former Voting Section lawyers who were working elsewhere in the
Department and had applied to transfer back into the Section. According to
King, the attorneys complained that Coates asked them whether they would be
willing to work on a case like the Noxubee matter – specifically, a case involving
White victims or Black defendants. King told the OIG that she viewed Coates’s
questions to be racially charged and inappropriate “political-barometer” or
“hot-potato” questions, that she instructed Coates not to ask such questions in
the future, and that Coates complied. King told the OIG that she would not
have objected to comparable questions phrased in a less provocative manner,
such as whether a candidate would enforce the voting rights laws in a race-
neutral manner or whether they would work on a matter that they disagreed
with. 142

      Coates acknowledged to the OIG that he asked applicants whether or not
they would be capable of enforcing the Voting Rights Act in a race-neutral

        141 The history of the Missouri litigation is complex. Before the change in

administrations, Coates and the Voting Section trial team briefed Acting AAG Grace Becker
about the unfavorable prospects for the litigation and recommended that the case be
dismissed. It is not clear from the evidence whether Becker had given a clear instruction on
this matter at the time the administration ended and she left office. Although the case team
did not provide this background information to Rosenbaum at the time he was asked to review
the draft brief, we did not find any evidence to suggest that this omission was part of an
intentional effort to conceal information from Rosenbaum or to induce him to make a decision
with respect to the litigation that he would not have made if more fully informed. Rosenbaum
told the OIG that he ultimately agreed with the case team’s recommendation to dismiss the
matter, and the Department subsequently dismissed the case on a voluntary basis.
       142   During Acting AAG King’s tenure, the Division drafted hiring guidance that included
the following statements concerning interview questions: “(1) As a general rule, interviewers
must avoid asking questions that may be construed as eliciting the applicant’s political
affiliation or views. (2) Interviewers may inquire, for legitimate non-discriminatory reasons,
about an applicant's ability/willingness to work on certain types of cases, such as abortion
clinic access, reverse discrimination or death penalty cases. If such questions are asked, they
should be asked of all applicants.” The Division’s final hiring guidance, which contained this
language, was issued in January 2010, after AAG Perez took office. See Guidance for Civil
Rights Division Managers Regarding Hiring for Career Experienced Attorneys (Jan. 20, 2010).


                                             160

manner, using the Ike Brown case as an example. Coates stated that his
motivation for asking the question was not to weed out people of liberal
orientation, but rather “to weed out people who would not fairly enforce the
law.” Coates stated that he believed his questions were appropriate in light of
the previous incidents in which he believed Voting Section employees refused
to work on matters with which they disagreed, particularly the Noxubee
matter. 143 Coates stated further that he did not believe he could effectively
manage the Section if employees were refusing to work on cases. 144 Coates
told us he believed King was opposed to such questions because she was
opposed to the race-neutral enforcement of the VRA. As noted above in
footnote 142, the Division issued hiring guidance allowing questions to
applicants about whether they would be willing to work on reverse
discrimination cases.

                      c.	    CRT Leadership’s Concerns about Coates’s
                             Management of the Voting Section

       King and Rosenbaum told the OIG that they believed Coates was a poor
manager of the Voting Section, alleging that: (i) Coates regularly submitted
materials for Division leadership approval at the last minute, leaving King and
Rosenbaum insufficient time for review before the applicable deadline; (ii)
materials submitted from the Section under Coates’s supervision were of poor
quality; (iii) Coates failed to coordinate and collaborate with some of his
Deputies; and (iv) Coates employed a laissez-faire approach toward the
initiation of investigations and did not have a plan for enforcing the VRA. They
also told the OIG that they viewed Coates as a divisive figure in the Section and
that they had serious concerns about Coates’s trustworthiness, citing the
incident described above in which Coates submitted a proposed brief in the
Missouri NVRA litigation without important background information and their
concerns that Coates might unwittingly facilitate the leaking of information
outside the Department. 145




       143As noted in Chapter Three, there was widespread opposition to the Noxubee case
within the Voting Section. The extent to which Voting Section employees actually refused to
work on this case was disputed. See footnote 28 in Chapter Three.
       144  One of the persons who Coates asked this question of was Pat Tellson, the Voting
Section attorney who had made comments to the mother of an intern who worked on the
Noxubee matter, which is described above in Section II.B of this chapter. Coates told the OIG
that he understood that Tellson did not agree with filing Noxubee and NBPP cases and,
therefore, had a more particularized reason to ask this question of Tellson.
       145 During the course of our investigation, we did not find any evidence that Coates
himself had leaked such information or was likely to do so.




                                             161

       Associate Attorney General Thomas Perrelli told the OIG that, at some
point after he arrived at the Department in March 2009, King raised concerns
about Coates’s performance. Perrelli stated that, over the course of his
discussions with King, she never provided details about Coates’s performance
problems other than stating in general terms that Coates did not manage the
Voting Section well. He told the OIG that he distinctly remembered telling her
that if she had specific problems, she needed to treat them like a manager,
such as addressing the problems with the employee and including them on a
performance evaluation.

      King told the OIG that she and Rosenbaum took steps to improve
Coates’s management practices, such as insisting that he employ a case-
management strategy and hold regular meetings with his management staff.
King acknowledged that Coates was “an obedient public servant” and never
refused an order, although he sometimes took a long time to comply. For
instance, King told the OIG that she instructed Coates to discontinue the policy
on Section 5 matters that the Section would present a single preclearance
recommendation to Division leadership, but she believed his implementation of
that change was slow.

       These criticisms of Coates contrast with the assessments of Coates by
the immediately preceding leadership of the Division. Acting AAG Grace Chung
Becker, who promoted Coates to Section Chief and supervised him for more
than a year, told the OIG that she believed Coates performed well in that
position. Becker stated that she believed Coates was a strong manager and
that Coates was very good about making sure that if there was a disagreement
within his team about what the Section’s recommendations should be, they all
met with her to discuss their opinions.

                     d.	    Discussions by Senior Department Officials about
                            Removing Coates as Voting Section Chief

       Contemporaneous documents show that in April and May 2009,
Department officials, including Acting AAG Loretta King and Deputy Associate
Attorney General Samuel Hirsch explored options for removing Coates as Chief
of the Voting Section. 146 Witness accounts differed as to who was the primary
advocate of exploring these options, but it is clear that the idea was shared
with Attorney General Eric Holder, who generally supported the idea. As
detailed below, the deliberations about removing Coates slowed when career
personnel officials in the Justice Management Division objected because



       146The timing of these discussions was significant because they began just before King
and Rosenbaum became involved in a dispute with Coates over the prosecution of the New
Black Panther Party case, which we discuss in detail in Chapter Three.


                                            162

removal based on the record that had been documented at the time would not
have been appropriate under government personnel rules.

       According to Counsel to the Attorney General Aaron Lewis, Attorney
General Holder was scheduled to visit the Voting Section early in the new
administration as part of an effort to boost morale in the Division. Lewis stated
that prior to the visit, which occurred in early March 2009, King told the
Attorney General that Coates was mentioned in one of the OIG reports
concerning politicization in the Division. Lewis said that AG Holder noted the
information, but had no other comment in response to King’s comment. 147
Lewis told the OIG that in the meeting with Coates and other CRT section
chiefs Holder declared that the past was past and he would not tolerate any
politicized enforcement or hiring in the Division, including retaliation from his
own political staff.

       King told the OIG about another interaction the Attorney General early in
the new administration in which she discussed Coates. According to King,
following a meeting with the Attorney General early in her tenure as Acting
AAG, he asked her how things were going at the Division. According to King,
she informed the Attorney General that she was having problems with the
Chief of the Voting Section, as well as one other section chief. She stated
further that she probably mentioned Coates’s lack of candor and may have
mentioned Coates’s inability to manage the Section. King told the OIG that she
did not remember the Attorney General’s specific response, but recalled that he
expressed concern and may have told her to let him know if she needed any
help with it.

      On April 7, 2009, Attorney General Holder e-mailed his chief of staff and
scheduler requesting a 30-minute meeting with Loretta King and stating:
“Need someone to be designated as follower of revitalization effort.” King told
the OIG that this meeting, which appears to have occurred on April 15, 2009,
and is described below, was a result of her earlier conversation with the
Attorney General.

       On April 10, 2009, a Voting Section trial attorney Carson Poole wrote in
an e-mail to Acting AAG Loretta King: “When will the Section be free from
enemy hands?” Poole stated in his OIG interview that the term “enemy”
referred to Coates, and King also told the OIG that she understood Poole’s
comment to mean Coates, although she stated that that she would not view
Coates as the enemy. Acting AAG King responded to Poole, stating: “LOL! No
comment.”


        147 King told the OIG that she did not think the reference to Coates in the OIG report

arose in any meeting with the Attorney General.


                                              163

       At Poole’s request, King met with him three days later, on April 14, 2009.
Poole stated in his OIG interview that he and King discussed the state of the
Voting Section, particularly his perspective on what had occurred in the
Section over the previous eight years. He told the OIG that he explained to her
that there had been numerous problems and explained to her about the rifts in
the Voting Section and the cliques involving people in conservative groups and
people in non-conservative groups. Poole told the OIG that he did not urge
King to remove, replace, or reassign Coates, but also stated that he understood
that with a new administration coming in, that it was “a no-brainer” that
Coates was not going to remain as Chief. King told the OIG that she did not
recall whether she met with Poole following his e-mail on April 10, 2009, and
stated that, if they did meet, the meeting was inconsequential. She stated
further that she did not recall what she said to Poole or what he said to her.

       On April 15, 2009, Hirsch and King met with Attorney General Holder
and his Counsel, Aaron Lewis, concerning Coates. In his OIG interview and in
contemporaneous e-mails, Hirsch stated that he was called into the meeting
and did not know the purpose of the meeting. King told us that the primary
purpose of the April 15 meeting was to discuss the available options in dealing
with Coates. King stated that the bulk of the conversation focused on whether
they should move Coates and what the options would be, and that she did not
recall any discussion in the meeting about improving Coates’s performance and
leaving him as Section Chief. King told the OIG that she did not recall anyone
explicitly proposing the idea of removing him from the Section Chief position at
the meeting, although she stated that she felt Hirsch had been pushing that
idea in general. King said that she did not favor removing Coates at that time,
because a decision to remove a career manager should be made by a confirmed
AAG rather than by an acting AAG. She said that the Attorney General was
“open to” the idea of removing Coates, and that if she had proposed removing
Coates the Attorney General would have agreed.

      Within an hour of the conclusion of the April 15 meeting, King e-mailed
Hirsch at 1:57 pm to let him know that the Division’s Executive Office “is
checking on the rules for removal now.” That same afternoon King received an
e-mail from the Division’s Executive Office staff on the subject “Christopher
Coates,” indicating his 1-year probationary period as Section Chief had
commenced on May 25, 2008, describing the rules regarding removal of Senior
Executive Service (SES) officials, and attaching a document entitled “SES
Removals and Suspensions.”

      Hirsch told us that he had very little specific recollection of the April 15
meeting with the Attorney General. We found that he was substantially
involved in subsequent communications and meetings regarding the possibility
of removing Coates as Section Chief. Hirsch told us he believed that King had
concerns about Coates’s management and that she thought it would be easier


                                       164

to remove Coates before his probationary period as an SES employee expired,
which was creating, for King, a sense of urgency in taking action on Coates. 148

       In her comments to the OIG concerning the draft report, King stated that
Hirsch’s assertion that she had a sense of urgency in taking action on Coates is
“untrue.” King stated that she was very clear in the meeting that she did not
favor removing Coates at the time because she believed a decision to remove a
career manager should be made by a confirmed AAG rather than by an Acting
AAG. She stated further that she believed at the time and continues to believe
that it was not her role to remove Coates.

      At 7:56 pm on the evening of April 15, Hirsch wrote an e-mail to
Associate Attorney General Thomas Perrelli and Associate Deputy Attorney
General Donald Verrilli describing the April 15 meeting as follows:

       As you know, from 12:30 to about 1:10 today, I met with the AG,
       Loretta King, and Aaron Lewis. Although I did not know in advance
       what would be on the agenda, the meeting ended up focusing on
       personnel issues primarily involving the current and past leaders
       of CRT's Voting Section. As of now, the four of us are scheduled to
       meet again tomorrow from 1:00 to 1:30, to discuss specific options
       for taking decisive and relatively quick action to resolve these
       personnel issues. My understanding is that Loretta has been
       working hard this afternoon with her Executive Office to flesh out
       those options.
       These issues, however, are complex and not easily resolvable.
       While I fully appreciate the AG’s desire to move boldly and speedily
       to fix these important problems, my sense is that the meeting
       tomorrow is premature. Is it possible, in your morning meeting
       tomorrow, for you and [Deputy Attorney General David Ogden] to
       suggest postponing the 1:00 meeting and instead setting up a more
       orderly process for researching and evaluating all our options
       here?

        148 As a general rule, an SES appointee serves under a probationary period for one

calendar year from the date of appointment, during which time the standards for removing the
appointee are lower than for a post-probationary SES appointee. Coates was appointed to the
Senior Executive Service on May 25, 2008, and therefore his probationary period ended on May
25, 2009. However, a different federal law prohibits the involuntary removal of an SES
appointee during their probationary period for 120 days following the appointment of the head
of the agency (in this case, the Attorney General), and the imposition of the 120-day
moratorium does not extend the appointee’s probationary period. In this case, given that
Attorney General Holder was confirmed on February 7, 2009, the 120-day moratorium began
on that date and expired on June 7, 2009. Therefore, although Coates was in his SES
probationary period through May 25, 2009, federal law prohibited his removal for performance
reasons until after June 7, 2009.


                                            165

Perrelli responded by e-mail at 8:10 pm that “[w]e can try to cut this off,” and
Verrilli concurred one minute later, at 8:11 pm, stating: “Right. That is what
we should try to do. Thanks very much.” The meeting that was initially to
have taken place the next day was later cancelled. We found no evidence that
this meeting was rescheduled, although Coates was discussed in a meeting
with the Attorney General on May 5, 2009, as described below.

      Attorney General Holder told the OIG that he did not specifically recall
the April 15 meeting, but that he recalled discussions in early 2009 with King
about Coates’s performance deficiencies and his views on civil rights
enforcement. 149 Attorney General Holder told the OIG that King told him that
Coates was a controversial and divisive force in the Voting Section. The
Attorney General told us that he understood based on what King conveyed to
him that:

       [Coates] wanted to expand the use of the power of the Civil Rights
       Division in such a way that it would take us into areas that,
       though justified, would come at a cost of that which the
       Department traditionally had done, at the cost of people [that the]
       Civil Rights Division had traditionally protected. [Y]ou can do
       both, but my sense was that the degree to which he wanted to do
       this, for lack of a better term, new stuff, would mean it would have
       a really negative impact on our capacity to [do] the traditional
       [cases].
Attorney General Holder told the OIG that the new type of cases he understood
Coates wanted to pursue were “reverse-discrimination” cases. According to the
Attorney General, he understood that King believed Coates “was not a person
who [] believed in the traditional way in which things had been done in the Civil
Rights Division” under Republican and Democratic administrations and that
Coates’s view on civil rights enforcement was “inconsistent with long-time
Justice Department interpretations and policies.” Attorney General Holder
stated that there was no discussion about Coates’s “party affiliation or his
association with certain people,” such as former CRT Acting AAG Schlozman.

      Attorney General Holder stated that he recalled receiving an oral
recommendation that Coates should be removed as Section Chief. The
Attorney General stated that King made clear to him that Coates was not “a

       149 The Attorney General told the OIG that he believed that Acting DAAG Rosenbaum
may have been involved in these discussions and that he may have shared King’s views
concerning Coates. After reviewing a draft version of this report, however, Rosenbaum told the
OIG that he did not participate in the April 15 meeting or the May 5 meeting (discussed below),
and that he does not recall discussing his views about Coates’s performance with the Attorney
General at any time. The relevant evidence indicates that Rosenbaum did not attend the April
15 or May 5 meetings with the Attorney General. Rosenbaum also stated that he did not share
the views concerning Coates’s enforcement priorities described in the text.


                                             166

good fit for the office, given what we wanted to do with the office, which was to
bring it back to where it was prior to [] the Bush years,” and that Coates would
at a minimum find it difficult to implement the Obama Administration’s
policies.

       In addition, the Attorney General stated he was told that management
issues were “a big part” of the concerns regarding Coates’s performance, noting
that he understood that the Voting Section was particularly divided in
ideological camps. He said there was no discussion or consideration of
alternative personnel actions beyond removing or reassigning Coates, such as
counseling or training, because he believed, based on what King and
Rosenbaum told him, that previous efforts to improve Coates’s leadership and
alleviate the Section’s factionalization had failed. The Attorney General stated
that it was his impression from the meeting that “a lot of stuff had been tried”
to improve Coates’ performance but “there was no possibility of redemption.”

       Attorney General Holder stated that he told King that, if she believed a
change was necessary, she was in charge of the Division and he authorized her
to make such changes. King and Hirsch likewise told us that Holder assured
King that, although she was the AAG in an acting capacity, she was the head of
the division and that, if there was a personnel problem and there was an
appropriate way to fix it, she should act on it rather than leaving the problem
until the confirmed AAG arrived.

       Although the initial follow-up meeting was cancelled, in the days
following the April 15 meeting with the Attorney General, King and Hirsch
continued to consult with Department HR personnel, particularly the CRT HR
staff and senior officials in JMD, to explore options for removing or reassigning
Coates. Late at night on April 16, King sent Hirsch an e-mail with a subject
line “our task” indicating that she would call JMD the following day “to see if
JMD can provide further guidance to us” and to possibly arrange a meeting
with JMD. The next day, Friday, April 17, King arranged a meeting with career
JMD officials for Monday, April 20, and circulated a calendar appointment to
Verrilli and Hirsch entitled “Meeting to discuss SES Separation Rules.” King
and Hirsch attended the April 20 meeting, and a few days later, on April 23,
Hirsch sent the JMD officials an e-mail with a subject line “Human resources
issue” and asked the officials if they could send him and King “the basic
description of relevant policies, which we discussed at our meeting earlier this
week . . . .”

      The next day, April 24, the career JMD officials sent King and Hirsch an
e-mail, stating that based on their understanding of Coates’s performance
history from the previous and current performance cycles, “we do not support a
performance-based action at this time. Further documentation and discussion
should occur.” According to the JMD officials who wrote the e-mail, they
arrived at this conclusion because the Division had not sufficiently

                                      167

documented a performance problem for Coates in the 2008 and 2009
performance cycles, during which Coates had received the highest possible
performance rating – “outstanding” – in 2008, and he had received a
substantial performance bonus and pay increase that year. 150 The JMD
officials also noted that Division leadership had not conducted a mid-year
performance appraisal for Coates in 2009 that documented performance
deficiencies, and in the e-mail they recommended that such an appraisal be
completed immediately. The JMD officials also recommended to King and
Hirsch that they consider offering Coates a reassignment to a temporary SES
position with meaningful duties. In the e-mail, the JMD officials also described
the relevant statutory and regulatory provisions governing the removal
procedures for SES officials following a presidential transition.

      As discussed in Chapter Three, during this same period that there were
serious discussions among senior officials in the Division and the Department
about removing Coates as Section Chief, a tense dispute between King,
Rosenbaum, and Coates arose in connection with the New Black Panther Party
(NBPP) case. During a meeting on May 1, 2009, that concerned whether the
Department should seek a default judgment against all four defendants in the
NBPP case, a heated argument erupted between Rosenbaum and Coates, in
King’s presence, concerning Rosenbaum’s accusation that Coates and the
NBPP trial team had hidden information about the NBPP website from Division
leadership. Hirsch noted that he was not present for the incident but that he
viewed this entire episode as important in evaluating Coates's performance as
the Chief of the Voting Section, which has been heavily criticized. So I asked
both Loretta and Steve to take the time to write down exactly what had
happened on Thursday night [April 30] and on Friday morning [May 1], so that
there would be a contemporaneous record for their files.”

      Shortly after that meeting on May 1 regarding the NBPP case, an
appointment entitled “CIVIL RIGHTS REFORM MEETING” was scheduled for
Attorney General Holder with Perrelli, King, Hirsch, Verrilli, and Aaron Lewis,
the Attorney General’s Counsel. Later on May 1, Lewis e-mailed the Attorney
General’s chief of staff, stating: “After the morning meeting, the Attorney
General asked [his assistant] to schedule a meeting today with the Associate
Attorney General, Sam Hirsch, and Loretta King from CRT.” Lewis’s message
stated further that King would not be able to attend the meeting as then
scheduled and he proposed moving the meeting because “[King’s] participation
is necessary to provide the Attorney General the information he wants.” The
meeting was subsequently rescheduled to May 5, 2009.

       150 One JMD official also noted that Coates’s supervisors had requested a waiver of a
standard 12-month moratorium on pay raises following his selection for the SES in order to
give Coates a raise in salary. The JMD official further estimated that such waivers are sought
for only 10-25 of the 400 employees selected for SES annually.


                                             168

       According to witnesses and documents, the central subject of the May 5
meeting with the Attorney General was Coates’s removal. During the meeting,
King updated the Attorney General about the advice JMD had given regarding
Coates’s removal. In addition, King told the Attorney General about the status
of the NBPP case, discussed the possible dismissal of some of the NBPP
defendants, and described Coates’s conduct in the NBPP matter. Hirsch and
Verrilli told the OIG that they recalled the Attorney General urging King to do
what was proper with respect to Coates and to let the chips fall where they
may.

       Aaron Lewis, the Counsel to Attorney General Holder who attended more
than one meeting at which Coates was discussed, told the OIG he did not recall
events at specific meetings, but he recalled general discussion of Coates’s
ability to enforce the law. Lewis stated that the bulk of the conversations were
about Coates’s willingness to enforce the laws evenhandedly. Lewis told the
OIG that he did not have any recollection of discussions on Coates’s
management abilities, with the exception of conversations about how Coates’s
lack of willingness to enforce all civil rights laws could affect his ability to
manage the Section.

       According to Lewis, he recalled that Hirsch, and perhaps others, held the
view that Coates would not be willing to enforce all the civil rights laws and
that “he would still kind of have a political bone to pick.” Lewis stated further
that he recalled that the resolution to that situation discussed among the
Attorney General, King, Hirsch, and Lewis was to, “tell him [Coates] to do it
[equally enforce the civil rights laws], and if he doesn’t do it, then we’ll deal
with it at that point.” Lewis stated it was reported to the Attorney General
during the consideration of the NBPP matter in May 2009 that the Voting
Section had low morale and that “convincing those folks that it was safe to do
their jobs” was going to be a challenge. Lewis stated that he believed Coates
was pushing the NBPP case against King’s recommendation, and it seemed to
CRT leadership that Coates “might not have been as interested in [] traditional
voting rights cases and that he wasn’t really pushing those cases the way he
was pushing this one. If this was reflective of his prioritization in management,
then that wasn’t [] a great reflection.”

                     e.     Coates’s Mid-Year Performance Review

     Pursuant to JMD’s guidance, starting in May 2009, King and Rosenbaum
began preparing a written mid-year performance review for Coates. 151
According to King, the purpose of the review was to document Coates’s
       151 In his comments concerning the OIG’s draft report, Hirsch told us that the
preparation and presentation of the mid-year review was done solely by CRT and that his
involvement in this matter had concluded in early May, long before the performance review was
prepared and presented.


                                            169

performance deficiencies and put Coates on notice about those deficiencies.
Rosenbaum drafted the 3-page document and King edited it. The document
included some of the complaints concerning Coates’s management style that
Voting Section employees had made, such as Coates’s failure to hold meetings
with his Voting Section deputy chiefs. King told the OIG that she believed at
this time that removing Coates was a decision for Perez, whose nomination for
CRT AAG was pending, and she was laying a foundation for Perez to remove
Coates, if he wanted to do so. King stated that Coates’s review was probably
the only written mid-year performance evaluation for CRT SES personnel at the
time. King presented the document, entitled “Performance Deficiencies since
January 20, 2009,” to Coates on June 19, 2009.

        The document identified roughly one dozen management failures and
incidents in which Coates allegedly acted improperly, ranging from serious
accusations to minor incidents. For instance, it stated that Coates: (i) did not
have an effective system in place to track litigation deadlines, which forced the
Department to seek extensions of deadlines on a regular basis; (ii) failed to
provide Division leadership with requisite background information necessary to
review his recommendations, citing specifically the Missouri NVRA Section 8
litigation and the NBPP matter; (iii) failed to promote collaboration in the Voting
Section or hold regular Section-wide meetings or meetings with Section
management beyond the biweekly management meetings with Division
leadership; (iv) did not implement an effective plan to enforce VRA Section 2
with respect to vote-dilution; (v) took actions that “could fairly be seen as
retaliatory” against a Section supervisor who disagreed with Coates on a case
(involving ongoing litigation in New Mexico); and (vi) approved the detail of a
Voting Section attorney to a U.S. Attorney’s office without informing CRT
leadership. The document concluded that “Mr. Coates has been an ineffective
leader of the Voting Section, has failed to provide candid and complete briefings
for Division management, has failed to ensure that proposed briefs address
critical issues and are well-written and has responded to criticism with
contumacious behavior.”

       Coates told the OIG that he believed the document contained “a number
of half-truths or false allegations,” and that he refused to sign it because he
believed it would be used as an admission of the asserted deficiencies. Roughly
one week later, Coates sent King a 9-page memorandum containing a point-by-
point rebuttal of the allegations in the performance deficiencies document. For
example, in response to the allegation that Coates “ha[d] not implemented an
effective plan to enforce the vote dilution prohibitions of Section 2” and that he
had “not assigned a manager the responsibility for developing Section 2
investigations,” Coates stated that he had previously provided to King and
Rosenbaum a written explanation of the plan already in effect governing
Section 2 enforcement. Coates’s rebuttal memorandum also identified a
Deputy Chief of the Section as having been tasked with overseeing the
implementation of the Section 2 plan for identifying investigative targets. In

                                       170

addition, Coates defended the Section’s record on Section 2 enforcement during
his tenure as Chief, asserting that the Section had filed four Section 2 vote-
dilution cases, three of which had settled favorably; that three vote-dilution
investigations had been approved during Rosenbaum’s tenure as Acting DAAG,
with more investigations in development; and that his record on Section 2
matters was better than every comparable time-period during the Clinton
Administration. Coates concluded his rebuttal with a lengthy attack on
Rosenbaum’s motivations, accusing Rosenbaum of targeting Coates because he
was a conservative and a Republican, and of attempting to “endear himself”
with the civil rights groups and CRT personnel who opposed Coates due to his
involvement in the Noxubee and NBPP cases.

       Coates stated that he heard nothing more about his mid-year evaluation
after he gave King the rebuttal, and that he never received an annual
performance evaluation for 2009. King told the OIG that she did not recall the
specifics of Coates’s response, taking any action based on it, or asking
Rosenbaum for his reaction to it. Rosenbaum told us he never saw Coates’s
response. King told us that the mid-year performance evaluation was not
changed. Coates told the OIG that, following the presentation of his mid-year
review, he concluded that he was in an impossible situation and would likely
not be able to remain in the Division. Coates said he asked King about
transferring to another position, but that she told him he would have to
discuss it with Perez once he was confirmed as AAG. King told the OIG that
she took no further action regarding Coates’s position as Section Chief.

                       f.	    Exclusion of Coates from Some Voting-Related
                              Projects

       During the period from January 2009 until he left the Voting Section in
January 2010, we found that Coates was excluded from, and kept uninformed
about, several sensitive projects of importance to the Voting Section, in which
political appointees worked directly with Coates’s subordinates. These
projects, which were largely led by Hirsch and the Principal DAAG in the Office
of Legal Policy, Spencer Overton, included consideration of voting-related
legislative proposals and a group working on a sensitive legislative project
related to a provision of the Voting Rights Act (“Sensitive Working Group”). 152

      In connection with each of these projects, Hirsch had extensive
communications directly with career staff of the Voting Section, often without
Coates’s knowledge or input. In fact, Hirsch repeatedly instructed the Voting
Section staff, as well as others involved in the various projects, that
information concerning those efforts were “close hold,” “confidential,” or

         152 In describing this project, Section Chief Chris Herren told us it involved both

legislative strategy and litigation strategy.


                                               171

statements to that effect. The OIG’s review of relevant documents indicated
that Hirsch instructed the people involved in those projects about the
confidentiality of these matters on at least 20 occasions. Several witnesses told
the OIG that they understood Hirsch’s instructions to mean not telling anyone
about the existence or substance of the projects. 153

        Our review of the relevant evidence established that these projects, which
started in general terms in March or April 2009 and continued through
December 2009, varied in sensitivity and the extent to which Coates was
excluded. For at least two of the matters, , Coates was apparently never
informed about the existence of the project, even though they involved matters
that could affect the Voting Section’s enforcement responsibilities and
members of his staff were working on them. Coates apparently was not
initially informed about other projects, but he eventually learned about them
from Section staff or others in the Department, who mistakenly or intentionally
disregarded Hirsch’s close-hold instructions. 154 Coates knew about the
existence of another group of projects, but was at various times and to varying
degrees left out of substantive discussions between political appointees and the
career staff he supervised.

       Julie Fernandes, who joined the Division as a DAAG on July 13, 2009,
characterized Hirsch’s projects as “cloak-and-dagger” and said these efforts
existed in a “cone of silence,” which excluded anyone not invited to work on the
matter, but particularly Coates. She told the OIG that she remembered being
told explicitly that Coates could not be included in discussions regarding these
projects, saying that her understanding of the confidentiality instruction was
“[d]on’t tell anybody and don’t tell Coates.” Fernandes stated that she resisted
the exclusion of Coates from such projects because she believed that Coates, as
the Section Chief, should be involved or at least informed about the
Department’s voting-related efforts. Fernandes stated that she did not believe
there was any reason to not trust Coates and that she pushed vigorously over
Hirsch’s objections to “open up” the Division’s decision-making process.

      Hirsch told the OIG that Coates was indeed excluded from some of the
projects (for instance, the Sensitive Working Group) and not informed of the

       153 In its comments to the draft report, the Department provided information
concerning, Coates’s involvement in several other voting-related projects during this same
period that the Department told us were led by Hirsch.
       154 For instance, one Section manager who worked on one of these sensitive projects
told the OIG that he/she believed that he/she should not tell Coates about the project, but
eventually decided that it was appropriate to tell Coates about the existence of the project, the
substantive issues involved, and where the project was going. In another instance, a trial
attorney told Hirsch in an e-mail: “Chris [Herren] has advised me that he let Chris C. know
that I was doing some work on this, so I apparently am out of the closet. Looks like we are ever
so close.”


                                              172

involvement of others from the Voting Section. Hirsch said that this was done
in consultation with Overton and on at least some occasions at the request of
the Section personnel (namely, Coates’s subordinates) who were working on the
matters and who indicated that Coates would either be upset at their
involvement with Division leadership or would engage in endless debates that
would slow down the work to “a snail’s pace.” Hirsch told the OIG that he was
“a little dumbfounded” that the employees believed their relationship with the
Section Chief was so bad that they did not want him to know about their work
on those projects. Hirsch stated further that he was most interested in getting
the substantive experts in the Section involved and, therefore, although he was
uncomfortable with excluding Coates, he and Overton acquiesced to the staff’s
requests.

       However, none of the four Voting Section employees that Hirsch
identified as making those requests told the OIG that they requested to Hirsch
that their involvement in the special projects be kept confidential from Coates.
Two of the employees denied that they made such a request and stated further
that they would had no reason to do so; a third told us he does not recall
anything like that and that he believed Coates was aware of his involvement on
those projects; and the fourth said that he did not think that he made that
request, or that he would have had a reason to make that request.
Additionally, three of the employees, as well as Fernandes, told the OIG that it
was Hirsch who expressed the need for confidentiality on those projects.
Likewise, the OIG’s review of relevant e-mails established that Hirsch
repeatedly raised the confidentiality of the projects and exhorted others to keep
the information “close-hold” or “confidential.” Further, Overton told us that he
did not recall any conversation with Hirsch in which Hirsch told him of
concerns raised by Voting Section personnel regarding Coates. Nor could
Overton recall any instances where Section personnel requested that their
involvement be kept from Coates.

      Hirsch also told the OIG in substance that another reason Coates was
excluded from some of the projects was because Hirsch wanted to keep the
groups small and was concerned that Coates would fail to exercise discretion in
keeping things within the group if he disagreed with the outcome on a
particular issue. In explaining why Coates was excluded from the Sensitive
Working Group, Hirsch stated that Coates’s perceived ideology with respect to
the enforcement of voting rights laws “may have been in the air as part of the
mix,” though he said that the central concern was that things be kept within a
small, cohesive group. Hirsch stated further that he believed that there was a
general sense that, if Coates were involved, the group would slow down
considerably and end up in endless debates about principles and timing,
because that was Coates’s style. He said that a lot of members in the group
shared a certain amount of common ground about voting rights and election
law and that Coates may have been out of sync with those views.


                                      173

                  g.    Coates’s Departure from the Voting Section

       As noted previously, Julie Fernandes joined the Department as a DAAG
in the CRT on July 13, 2009. Among her responsibilities was overseeing the
Voting Section and, as a result, Coates reported directly to Fernandes. Soon
thereafter, and just weeks following Acting AAG King’s presentation to Coates
of his poor mid-year performance review, Fernandes offered Voting Section
personnel the opportunity for one-on-one “listening sessions” with her about
conditions in the Voting Section. According to Fernandes, she held meetings
with 20-30 Section employees and heard consistent complaints regarding the
management of the Section, such as a lack of Section-wide meetings, limited
communication and collaboration among managers, and insufficient
transparency in case assignments and other decision-making. Fernandes
stated that she believed the Section had no formal assignment process, a poor
case management system, and no periodic reviews of attorneys’ dockets.
Fernandes stated that she perceived a “lock-down mentality” and a “culture of
fear” among Section personnel.

      Fernandes told the OIG that she concluded that Coates was a “terrible”
manager. Fernandes stated that she pushed Coates to make the Section more
transparent and collaborative, conduct regular attorney docket reviews,
communicate more effectively with his management team, and hold more
Section-wide meetings.

       In light of these interactions with Fernandes, Coates told us that he
believed the hostile relationship with Division leadership that began with
Rosenbaum and King would continue with Fernandes as DAAG. Coates stated
that, although the Voting Section Chief position was the most important he had
ever held and that he did not want to leave at that time, he believed that it was
not going to work out. Therefore, shortly after Perez was confirmed as AAG in
October 2009, Coates raised to Perez the idea of a transfer away from the
Voting Section. According to Coates, he mentioned to Perez that he had
conflicts with individuals in Division leadership, and that he believed people in
CRT leadership, other CRT Section Chiefs, and some in the civil rights
community did not want him to be Voting Section Chief any longer. He told us
he did not go into detail on those problems. Coates said that he told Perez that
he could live without being section chief and that he would very much be
interested in transferring to the U.S. Attorney’s Office in Charleston, South
Carolina. Coates told the OIG that, although he believed he had been
mistreated, he did not present a litany of complaints to Perez because he
wanted Perez to help him secure a detail in South Carolina. He said that he
made the presentation in that way because he wanted Perez to feel that there
was something in the move for him as well.

     According to Perez, during this October 2009 meeting Coates stated that
he was tired of managing the Section and told Perez that he was a “lousy”

                                      174

manager. Perez stated that Coates told him that the new administration
should have the freedom to do what it wanted to do. Perez stated that Coates
expressed a strong interest in transferring to Charleston for personal reasons.

       Perez agreed to pursue Coates’s request, and within several weeks, an
arrangement was reached with the U.S. Attorney’s Office in Charleston.
Pursuant to that agreement, Coates’s title was changed to Counselor to the
Chief of the Voting Section, which was still an SES position, and then detailed
from the Counselor position to be an Assistant U.S. Attorney in South Carolina
from January 2010 until May 31, 2011. Under the terms of the detail
agreement, which was memorialized in a Memorandum of Understanding,
Coates agreed to relinquish his SES position following the completion of the
detail in May 2011. 155 We found e-mails from CRT personnel, including DAAG
Fernandes, Voting Section managers, and at least one attorney, expressing
happiness over Coates’s departure from the Section. After the detail ended in
May 2011, Coates retired from the Department.

               2.     Analysis

       Section Chiefs within components of the Department of Justice are
generally career employees, not political appointees, and many are members of
the SES. Federal regulations prohibit the involuntary removal of any SES
employee for 120 days following the appointment of a new Attorney General
and a new supervising AAG. As noted earlier, under federal regulations even
probationary SES appointees may not be involuntarily removed for 120 days
following the appointment of the head of the agency. We believe that these
practices and rules result in a continuity in management at the Department of
Justice at the outset of a new administration that promotes consistency in the
enforcement of laws and helps avoid the perception that the enforcement of the
nation’s laws depends on the outcome of an election.



       155  We note that Coates’s detail to South Carolina to serve as an Assistant U.S.
Attorney appears to have violated regulations governing SES employees. For example, 5 C.F.R.
§ 317.903(b) requires agencies to obtain approval from the Office of Personnel Management for
details of SES personnel to non-SES positions for more than 240 days. Although CRT notified
JMD about the detail, we found no evidence that the Department notified OPM or that OPM
approved Coates’s detail, which lasted for approximately 18 months. In its comments to the
draft report, the Division stated that the longstanding practice has been that any contact with
OPM regarding SES employees comes from JMD HR, not from the component’s HR staff, which
is consistent with DOJ Order 1920.1 Senior Executive Service (Oct. 1979), and that the failure
to obtain OPM approval appeared to be an administrative oversight.
       We also note that the Senior Executive Service is defined as positions with executive,
supervisory, or managerial responsibilities, see 5 U.S.C. § 3132(a)(2) and 5 C.F.R. § 214.201,
and Coates told the OIG that he served as a trial attorney in the U.S. Attorney’s Office in South
Carolina.


                                              175

       The evidence established that, starting very early in the new
administration, there were serious discussions among senior Department
officials about removing Coates, a probationary SES appointee, from the Voting
Section Chief position. These discussions were more than theoretical. In a
contemporaneous e-mail written immediately after the first meeting on this
topic on April 15, 2009, Hirsch noted that there were plans to have immediate
discussions about “taking decisive and relatively quick action to resolve these
personnel issues,” which we concluded referred to moving quickly to replace
Coates as Section Chief. The evidence indicates that removal or reassignment
of Coates were the predominant options considered and that few, if any,
alternatives were discussed.

       We could not determine whether Deputy Associate Attorney General
Hirsch or Acting AAG King was the primary advocate for removing Coates, as
each of them identified the other as the driving force behind these
discussions. 156 There is no dispute, however, that both King and Hirsch had
significant involvement in the discussions about removing Coates and that the
discussions about doing so began no later than April 2009.

       Attorney General Holder stated that the polarized condition of the Voting
Section was a significant management failure and “a big part” of the rationale
for the discussions about removing Coates, and that he understood that “a lot
of stuff had been tried” to improve Coates’s performance but “there was no
possibility of redemption.” However, he also described the other reasons that
were given to him by King and others for Coates’s removal in ideological terms:
that Coates had a “very conservative view of civil rights law” and wanted to
make “reverse-discrimination” cases such a high priority in the Voting Section
that it would have a negative impact on the Section’s ability to do “traditional”
cases on behalf of racial and language minority voters, and that Coates “had a
view of the law that was inconsistent with long time Justice Department
interpretations and policies.” Significantly, the heated disagreement between
Coates and Division leadership over the NBPP case had not yet occurred when
the discussions about removing Coates began. King and Rosenbaum both
denied criticizing Coates to Holder on the basis of ideology.

       We recognize that if a career Section Chief’s ideology affected his or her
willingness or ability to implement Division leadership’s legitimate enforcement
priorities that might be sufficient evidence of a performance issue that could
support corrective action against the Section Chief. While Coates himself

       156 King told the OIG that she believed Hirsch was “very interested” in moving Coates
from the Chief position and that Hirsch made statements about the necessity of removing
Coates. King stated that she thinks Hirsch probably arrived at that conclusion because she
and Rosenbaum were complaining to Hirsch about Coates. Hirsch told the OIG that he
assumed the idea of Coates’s removal came from King and noted that it was King who brought
the matter to the Attorney General’s attention.


                                            176

acknowledged that he held conservative views and openly favored expanding
the enforcement of the voting rights laws on behalf of White voters even if it
meant pursuing cases against minority defendants, we found no evidence that
Coates had declined to implement any administration directive or otherwise
failed to implement the policies of Division leadership. There is no evidence
that Coates had proposed even one new case on behalf of White voters or
against Black defendants to Division leadership at the time they began the
serious discussions about removing him, or that he had opposed the filing of
any “traditional” cases that the Department’s leadership wanted to pursue. To
the contrary, we found that Coates supported several Section 2 cases and
investigations on behalf of minority voters throughout his career, including
during his tenure as Section Chief under the new administration. Indeed, King
told the OIG that although Coates was sometimes slow to implement her
directions, he was an “obedient public servant” and never refused an order
(and, in fact, she indicated that he complied with her direction regarding
appropriate questioning of applicants).

      We concluded that the allegation that Coates’s ideology was undermining
the enforcement priorities of the new administration was inadequately
supported, particularly at the time the high-level discussions about removing
Coates began. Nevertheless, this was part of the rationale that had been
provided to the Attorney General and it was cited by the Attorney General in
explaining his support for Coates’s removal. We did not find evidence
indicating that the Attorney General knew that there was no support for the
suggestion that Coates had declined to implement administration directives or
otherwise failed to implement the policies of Division leadership.

       After career officials in JMD told King and Hirsch that the JMD officials
would not support a performance-based removal of Coates based upon the
documented record as it existed in April 2009, King and Rosenbaum began
documenting Coates’s performance deficiencies for the acknowledged purpose
of creating an adequate record to support Coates’s removal in the future. This
culminated in the presentation of the “Performance Deficiencies” document by
King to Coates in June 2009. We noted that King told the OIG that she did not
recall reading Coates’s response, taking any action based on his comments, or
telling Rosenbaum about it. Moreover, there was no effort to follow up on the
mid-year performance review as would be expected if those deficiencies were,
indeed, the driving force for the desired personnel action.

       We found that Division leadership held genuine beliefs about Coates’s
weaknesses as a manager, and we recognize that Coates was not without fault
in his management of the Section and his relationships with Division
leadership. For example, we believe that at times Coates took insufficient steps
to ensure that relevant and accurate information was provided to Division
leadership in connection with seeking their approval of court submissions, and
that he did not always ensure that materials were provided them early enough

                                      177

to permit an adequate review. According to Perez, Coates himself admitted he
was not a good manager. We also note that a substantial number of Voting
Section career employees, including more than one manager, expressed
dissatisfaction with Coates as a manager in interviews and contemporaneous
e-mails, although we cannot determine to what extent such views may have
been influenced by the sharp ideological divides within the Section.

        We did not attempt to resolve whether all of the criticisms were justified.
We note that Division leadership in the prior administration spoke highly of
Coates’s management. More significantly, the serious discussions about
removing Coates began very early in the new administration – in April 2009 –
which we believe was too early to have been based entirely on a conclusion that
extensive efforts to improve Coates’s management had been tried and failed
and that further attempts to improve his performance would be pointless. We
found it significant that the predominant solution that Division leadership
explored following the initial meeting with the Attorney General concerning
Coates was removal or reassignment. The evidence established that there was
little consideration of alternatives to improve his performance, such as
counseling, training, mediation, or a Performance Improvement Plan. In short,
although Division leadership clearly had concerns about Coates’s management,
the timing and urgency of the discussions about removing him in April 2009
suggests to us that another factor was also at play: the belief, which was
conveyed to the Attorney General and his Counsel, Aaron Lewis, that Coates’s
ideology drove a desire to pursue reverse-discrimination cases that would come
at the expense of the traditional cases that were the administration’s priority.

      We concluded that Coates’s ideology was a factor in the discussions
among senior Department and Division officials about removing or reassigning
Coates. We believe, however, that the Division’s leadership had not established
that Coates’s ideology was creating an uncorrectable obstacle to the
implementation of the administration’s enforcement priorities at the time they
began exploring efforts to remove him. Based on all the evidence, we believe
that Division leadership’s assessment of Coates was influenced by Coates’s
high-profile association with the Noxubee and NBPP cases and by the fact that
Coates had been promoted to Principal Deputy Chief of the Voting Section by
former Acting AAG Schlozman (who as noted above had a documented record
of making appointments on partisan or ideological bases). 157 Based on our


        157 The perception about Schlozman’s possible motivation in promoting Coates may

well have been a fair one. As detailed in our prior report, Schlozman had a documented record
of making hiring decisions on improper partisan bases. He referred to Coates in an e-mail
using terminology that was very similar to other phrases he commonly used to describe other
conservative candidates for employment that he favored for selection because of their partisan
or ideological affiliations. Nevertheless, even if ideology was a consideration in Schlozman’s
selection of Coates as Principal Deputy Chief, absent a demonstrated impact that his ideology
                                                                                           Cont’d

                                              178

review of employee e-mails and interviews of several witnesses, we found that
some employees in the Voting Section and some civil rights activists considered
Coates to be hostile to “traditional” voting rights enforcement for the same
reasons. The new administration had pledged to make major changes in the
Civil Rights Division, including returning the focus of the Voting Section to
“traditional enforcement efforts.” We concluded that the retention of Coates
was likely perceived by Division leadership as an obstacle to the promised
change, including a renewed focus on “traditional” civil rights enforcement, and
that the discussions about removing Coates were based in part on his view of
the voting laws.

       Regardless of whether federal law permitted a career SES official in the
Executive Branch to be removed under the circumstances present here, we
believe that officials at the Department of Justice must be particularly careful
when exercising removal authority in order to protect the integrity and
professionalism of federal law enforcement. We do not believe that the removal
of career Section Chiefs when administrations change should become a routine
event based on the mere expectation, in the absence of something more, that
the incumbent will not be able or willing to implement the new administration’s
priorities. In this case, we concluded that the Department’s consideration of
removing or replacing Coates was based in part on the unsupported belief that
Coates could not be trusted to faithfully implement the new administration’s
policies and that he would not do so if he was allowed to remain in his position.

       Finally, we had deep concerns about the fact that Coates was excluded
from, and kept uninformed about, several sensitive projects of importance to
the Voting Section, in which political appointees worked directly with Coates’s
subordinates. Our concerns are similar to our concerns about the
consideration of removing him as Section Chief. 158 These projects sometimes
involved direct communications between a political appointee and career
employees who were subordinate to Coates, without Coates’s participation or
knowledge. As with the communications between von Spakovsky and Everett
discussed above and in Chapter Three, such surreptitious communications
between political appointees and career personnel that exclude certain Section
managers are highly problematic. The exclusion of a career Section Chief by
political appointees from matters so closely related to his Section’s expertise


had on his ability to implement Division and administration priorities, it should not have been
a factor that was considered in deciding whether to remove him.
       158   We note that if the concerns about Coates had been limited to his managerial
abilities, such concerns would not have been a compelling reason to exclude him from
substantive projects relating to the work of the Voting Section, in which Hirsch utilized
attorneys from the Section. Nor has any persuasive reason been given to us to suspect Coates
was likely to leak sensitive information. These circumstances indicate that the exclusion of
Coates from some projects was based on ideology.


                                             179

and jurisdiction, and from communications with attorneys under his
supervision, is indicative of a dysfunctional management chain, and it
inevitably feeds the perception that the administration of justice is politicized.
Particularly given the significant political ramifications of the work of the
Voting Section, we believe that Division and Department leadership should
exercise great caution to avoid such a perception. Instead, in this case, the
exclusion of Coates only served to exacerbate the perception.




                                        180

                      CHAPTER FIVE

       THE VOTING SECTION’S RECENT HIRING OF TRIAL

                       ATTORNEYS


I.    Introduction

In this chapter we describe the results of our investigation into whether
members of the Voting Section’s hiring committee and the leadership of the
Voting Section and CRT considered the political affiliations or ideology of
applicants for Voting Section experienced trial attorney positions advertised
between January 20, 2009, and December 31, 2011. We undertook this
portion of our review after receiving a letter request from Senator Charles
Grassley, dated August 10, 2011, in which Senator Grassley asked the OIG to
update the joint OIG-OPR review in 2008 of politicized hiring in the Civil Rights
Division.

       To complete its investigation, the OIG requested detailed information
about the Voting Section’s hiring of experienced trial attorneys. We examined
thousands of pages of documents and e-mails concerning the Voting Section’s
hiring procedures and selection decisions. During the period relevant to our
investigation the Voting Section received 482 applications for vacant
experienced trial attorney positions. We collected information on each
applicant’s education, work history, and political affiliations and analyzed the
resulting data to determine whether trends were apparent indicating bias. We
also conducted interviews of members of the Voting Section’s hiring committee,
CRT Human Resources (HR) staff, and leadership of the Voting Section and
Division, including AAG Perez.

       In Section II of this chapter we provide background information,
including a description of the legal standards for hiring career attorneys. We
also describe an incident involving expedited hiring of career attorneys during
the transition period before the inauguration of a new administration in 2001,
which forms a significant historical backdrop to this chapter, and we
summarize the results of our prior investigations of politicized hiring in the
Department. In Section III we describe the hiring procedures used in CRT
during 2002 to 2011.

      In Section IV of this chapter we present our factual findings regarding
the hiring of experienced career trial attorneys in the Voting Section during the
period from January 2009 to the end of December 2011. Nine new attorneys
were hired into trial attorney positions in the Voting Section during that period
pursuant to an external job announcement published in January 2010. We
describe the recruiting preparations, the formation of the hiring committee, the
evaluation of applications, and the qualifications of the newly hired attorneys.

                                      181

We also present a detailed statistical evaluation of the hiring decisions,
examining the characteristics of the 482 applicants for Voting Section positions
as well as the hiring outcomes. In Section V we present the OIG’s analysis,
and in Section VI we present our conclusions.


II.   Background

      A.    Legal Standards for Hiring Career Attorneys

       The legal standards for hiring career attorneys differ from those that
apply to political positions. Federal civil service law and Department policy
prohibit discrimination based on political affiliation in hiring for career
positions. In contrast, it is not improper to consider political affiliations when
hiring for political positions.

       The Civil Service Reform Act of 1978 (CSRA) establishes merit system
principles for federal agencies to use when making personnel decisions. The
CSRA requires agencies to adopt hiring practices for career employees so that
“selection and advancement [are] determined solely on the basis of relative
ability, knowledge, and skills, after fair and open competition which assures that
all receive equal opportunity.” 5 U.S.C. § 2301(b)(1). In support of these
principles, the Act prohibits consideration of political affiliation in hiring for
career positions:

      All employees and applicants for employment should receive fair
      and equitable treatment in all aspects of personnel management
      without regard to political affiliation, race, color, religion, national
      origin, sex, marital status, age, or handicapping condition, and
      with proper regard for their privacy and constitutional rights.

5 U.S.C. § 2301(b)(2).

       In addition, CSRA Section 2302 forbids “[a]ny employee who has
authority to take, direct others to take, recommend, or approve any personnel
action” from engaging in enumerated “prohibited personnel practices.” Id. at
2302(b). The use of political affiliation as a criterion for considering applicants
for career attorney appointments may violate several prohibited personnel
practices. Section 2302(b)(1)(E) prohibits “discriminat[ing] for or against any
employee or applicant for employment... on the basis of... political affiliation, as
prohibited under any law, rule, or regulation.” Section 2302(b)(12) of the CSRA
also makes it unlawful to “take or fail to take any other personnel action if the
taking of or failure to take such action violates any law, rule, or regulation
implementing, or directly concerning, the merit system principles contained in
section 2301 of this title.” As noted above, that section prohibits
discrimination based on “political affiliation.” 5 U.S.C. § 2301(b)(2).


                                        182

        A Department regulation also prohibits discrimination based on political
affiliation:

       It is the policy of the Department of Justice to seek to eliminate
       discrimination on the basis of race, color, religion, sex, sexual
       orientation, national origin, marital status, political affiliation, age,
       or physical or mental handicap in employment within the
       Department and to assure equal employment opportunity for all
       employees and applicants for employment.

28 C.F.R. Part 42.1(a), Subpart A.

      The laws and regulation cited above do not define “political affiliation.”
Nonetheless, as the OIG stated in a prior review that examined politicized
hiring practices within the Department:

       [I]dentifying candidates as “liberal” or “conservative” by the
       activities or organizations with which they are affiliated can be
       used as a proxy for political affiliation and thus can violate the
       CSRA’s prohibition. Using ideological affiliation can also create the
       appearance that candidates are being discriminated against based
       on political affiliation. In addition, using ideological affiliation can
       violate the requirement that the government use hiring practices
       for career positions that ensure it identifies the best qualified
       applicants through fair and open competition.

See 5 U.S.C. §§ 2301 (b)(1) – (2). 159

      In a related review of politicized hiring within the Department, the OIG
recommended that the Department amend its HR policies to clarify that career
employees’ political affiliations cannot be considered in hiring and that
ideological considerations cannot be used as a proxy to discriminate on the
basis of political affiliations. 160 In response the Department amended its HR
Order to provide:

       [P]olitical affiliation may not be used as a criterion in evaluating
       candidates, and ideological affiliation or other factors cannot be used as
       proxies to discriminate on the basis of political affiliation. Illegal
       discrimination on the basis of political affiliation violates the merit-based

        159 U.S. Department of Justice Office of the Inspector General, An Investigation of

Allegations of Politicized Hiring and Other Improper Personnel Actions in the Civil Rights Division
(July 2008, publicly released on July 13, 2009) 6.
        160 U.S. Department of Justice Office of the Inspector General, An Investigation of

Allegations of Politicized Hiring in the Department of Justice Honors Program and Summer Law
Intern Program (“SLIP Report”)(June 2008) 102.


                                               183

      principles governing federal employment for career employees, and
      undermines public confidence in the Department’s mission.

DOJ Order 1200.1.

        Consequently, the CSRA and Department policy prohibit using political
affiliations, and Department policy prohibits using ideological affiliations as a
proxy for identifying political affiliations, in assessing candidates for career
attorney positions.

      B.	   Expedited Hiring of Career Employees Throughout the
                 Division during the 2000-2001 Transition

       During the course of our larger investigation of the Voting Section for
this review, we received allegations regarding the expedited hiring of attorneys
and other career employees that took place in the Voting Section as well as
other sections of CRT during the transition period between the contested
election of November 2000 and the installation of the new administration’s
political appointees in CRT in 2001. Several witnesses told the OIG that in late
2000, following the contested presidential election, Division leadership in CRT
communicated to the Sections that an expedited effort should be made to fill
approximately 90 vacancies for career positions across the Division. These
vacancies had become available in large part as a result of an increase in
funding for CRT in the 2000 budget, but had not been filled as of the time of
the election. Although events occurring more than a decade ago were not a
central focus of our investigation, we found that widely held perceptions
regarding these hiring decisions throughout the Division in late 2000 and early
2001 affected some witnesses’ interpretations of the context of hiring decisions
that were made more recently by the Voting Section. We therefore looked at
these events as an important background to our investigation of more recent
hiring decisions in the Voting Section.

       On December 15, 2000, Voting Section Chief Joseph Rich stated in an e-
mail to CRT’s Director of HR and the Division’s Executive Officer that the
Voting Section had been allocated eight new positions and that “the front office
wants our recommendations by 1/8.” Rich indicated that the Voting Section
wanted to fill its eight new positions with four attorneys and four non-
attorneys. On December 19, CRT issued a vacancy announcement for attorney
positions in the Voting Section, with a closing date of January 3, 2001. On
December 23, the Saturday before Christmas and before the announcement
closed, Rich interviewed 2 applicants for the positions, and Voting Section
management interviewed at least 12 more attorney candidates during the
period January 2 through January 5, 2001. On January 11, 2001, Rich made




                                       184

his final decisions and extended offers to four attorney candidates, three of
whom accepted. 161

        Several CRT officials involved in the hiring effort that occurred between
November 2000 to January 2001, including the CRT Chief of Staff, two Voting
Section managers, and two CRT HR executives, told the OIG that there was a
concerted effort to hire personnel before the new administration began on
January 20, 2001. Rich told us that although the hiring process had started
“well before the election, . . . once the election came, probably the decision-
making was speeded up so that people coming through the pipeline could [] get
jobs before the new administration came out.” Rich said he suspected that the
Division leadership wanted to expedite the hiring process in order to fill the
positions before the Republicans got into office. He also stated, however, that:
“It wasn’t all ‘Just do it before the Republicans got in.’” Rich told the OIG that
he wanted to fill the vacant positions before the change in administration
because hiring usually pauses after a change in administration as the
appointed personnel become acclimated to the Division, and the Voting Section
had already commenced the hiring process and he did not want to start over
again. Rich stated that he wanted to fill the positions because he anticipated a
substantial amount of redistricting work coming to the Section in 2001 as a
result of the 2000 census and therefore the Voting Section needed to “beef up”
its personnel, particularly its non-attorney staff.

       Rich also told us that there was a concern about what would happen
with the unfilled positions in the new administration. He stated that
Republican administrations typically did not enforce civil rights laws as
vigorously as Democratic administrations and that the Voting Section wanted
“to get good, strong civil rights enforcement people in there.” Rich stated that
candidates’ political affiliations did not play a role in their selection, but he
believed the incoming administration may not have liked the candidates the
Section selected because some of them came from civil rights advocacy groups.
Rich stated that the Voting Section “liked the people we had picked and we did
not know what would happen to them in the next round.”

      Deputy Chief Robert Berman, who was a member of the Voting Section
hiring committee at the time, also told the OIG that there was an effort to
complete the candidate-selection process before the new administration began.
He stated that the process was accelerated out of concern that Acting Division
leadership in the first weeks of the new administration would be reluctant to
make significant decisions like hiring selections. Berman stated that he never
       161  On January 12, 2001, then-Deputy AAG Loretta King e-mailed then-AAG Bill Lann
Lee and Lee’s Chief of Staff William Yeomans about her discussion with a Chief of a different
CRT Section and his hiring efforts. King stated in her e-mail: “With respect to his atty [sic]
hires, he won’t have a recommendation to put forward until the end of next week. I told him
that he risked losing his atty [sic] hires if he didn’t get recommendations to us sooner.”


                                             185

got the impression that there was a concern about the type of candidate that
the new administration would hire.

       William Yeomans, who served as Chief of Staff in CRT at the time, and as
Acting AAG during the first few months of the new administration until AAG
Ralph Boyd was confirmed, told us that the Division was understaffed at the
time and filling the positions before the new administration was “good
government” because there was uncertainty about the positions with the
change in administration, as the new administration could have issued a hiring
freeze and moved the funds elsewhere. Yeomans told the OIG that he believed
that the hiring at that time was based on merit and that there was a strong
case for moving the hiring along during the transition period, given the
concerns that the slots would be lost under the new administration.

       The former Executive Officer of CRT who participated in the 2000-01
hiring process told the OIG that she believed that there was a rush to fill the
slots before the change in administration, saying: “[B]ack during that time, the
message was to push forward and hire as many – recruit and get them on
board as fast as we could.” When asked why there was a rush to fill the
positions, she stated: “My conclusion was let’s get them here before the new
Administration comes on board.” She also told the OIG that she concluded
that the rush to fill the vacant slots arose from a concern about the difference
in ideology between the outgoing and incoming administrations regarding the
enforcement of civil rights laws, particularly that Democratic administrations
tend to focus more on “traditional” civil rights enforcement, while Republican
administrations had usually directed resources away from civil rights
enforcement. She stated that she believed there was a push to bring in
attorneys who were committed to enforcing the civil rights laws and had
“demonstrated experience in supporting civil rights.” She stated that “[i]t was a
push to get the best people in that they could find that was [sic] committed to
the mission of civil rights,” and that in leadership’s view the new
administration might have a different idea of who would be the “best person.”

      The former Director of HR for CRT, who participated in the 2000-01
hiring, told the OIG that she also believed there was a rush to hire people into
CRT before the end of the administration. She stated that during a
management retreat after Election Day in 2000, a political appointee from
Division leadership – she wasn’t sure who – “threatened” to take control over
the hiring if the Section Chiefs failed to fill the slots quickly and that the
Section Chiefs “got the message loud and clear.” 162 According to the Director,

       162  During her OIG interview, the former Director told us the management retreat was
on the day after the election, but also stated that she thought the meeting took place in the
context of “disappointment” over the results of the election, which might suggest that it
occurred as late as December 2000.


                                             186

CRT hiring “had never happened like that before,” and she believed that those
hiring efforts were improper because “[r]eally, what I think they wanted to do
was just, you know, fill the division with people who would continue the fight,
and knowing full well that those weren’t the kind of people that the new front
office would want to hire.” She said that she felt obligated to tell Division
leadership that although filling all of the vacant positions before the
inauguration was not illegal, it was not a good idea. She stated:

       I don't remember who I talked to, but I remember saying, you
       know, I don't think we should fill every vacancy because that’s
       going to leave no flexibility for the new administration and that’s
       going to cause – it’s going to cause hardship on the section chiefs –
       when – because the new administration is going to come in and not
       trust anybody because they’re going to know what happened –
       which is exactly what eventually happened, you know.
She told the OIG that no one paid attention to her concerns.

        The new administration’s AAG, Ralph Boyd, was confirmed by the Senate
and took office with his Deputy AAG, Robert Driscoll, in mid-2001. Boyd and
Driscoll told the OIG that they learned about the expedited hiring that occurred
in the late days of the prior administration. Driscoll stated that he concluded
from his review of materials collected in response to a congressional inquiry
that the CRT career personnel were trying to “stack the deck” with employees
who held progressive views on civil rights enforcement. 163 Driscoll stated that
he recalled that the Division’s Section Chiefs and possibly Yeomans “blanketed”
civil rights advocacy groups with e-mails stating that the Division was hiring.
Boyd told the OIG that he was irritated at the pre-inauguration hiring, which
he considered to be “gaming the system.” He said it bothered him because the
career staff did not trust the new administration to make “honest calls” on who
should work in the Division, and it was evidence of an “existing orthodoxy,”
which he opposed irrespective of its orientation. In addition, Boyd stated that
those hiring efforts reinforced Boyd’s concern about the lack of ideological
diversity in the Division.




        163 In April 2001, Representative James Sensenbrenner wrote a letter to then-Attorney

General John Ashcroft expressing concern about reports of expedited hiring in CRT during the
transition period and requesting information from the Department. The Department’s
response, which was prepared prior to Boyd and Driscoll taking office, reported that in total,
between November 7, 2000, and February 15, 2001, the Division made employment offers to 31
individuals, including 17 attorneys and 2 civil rights analysts, who were not working in the
Department at the time. The response attributed the expedited hiring to the CRT budget
increase in Fiscal Year 2000 and 2001.




                                            187

       Despite Boyd’s and Driscoll’s concerns about the transition-period hiring,
the Division leadership did not conduct further investigation or take further
action regarding those events. Driscoll stated that he concluded that CRT
could hire staff to fill vacancies, that rushing to fill positions prior to the end of
an administration violated no policies or procedures, and that “you were not
going to get any traction with the career staff by re-litigating these issues.” He
also told the OIG that he never discussed this 2000-01 hiring with Yeomans,
Rich, or other section chiefs because he was a new political appointee and had
not previously worked in Washington, D.C., and therefore he assumed that
“this was the way the game was played.”

       We concluded that there was an effort by the outgoing Division
leadership in CRT during the 2000-2001 transition period to fill vacant
positions in various CRT Sections, including the Voting Section, on a highly
expedited basis so as to be completed prior to the change in administrations.
In the Voting Section, this effort was supported by Section Chief Joseph Rich
and others. The way this hiring effort proceeded created the perception, shared
by senior career administrative officials in CRT as well as the incoming political
leadership of the Division, that at least part of the motivation for this activity
was to hire attorneys who favored the enforcement philosophy of the outgoing
administration and to keep the hiring decisions out of the hands of the
incoming administration because of concerns about its enforcement
philosophy. 164

       C.	     Prior OIG Investigations of Politicized Hiring in the 

               Department


       The OIG previously investigated allegations of politicized hiring in the
Department, including in the Division. In 2008 and 2009, the OIG and OPR
jointly issued three reports substantiating allegations that Department officials
unlawfully relied upon political and ideological considerations when making


        164 After reviewing a draft of this report, the Department stated that the increase in

hiring in late 2000 and early 2001 “was consistent with efforts over several years to secure
additional funding for CRT and then make use of available budget resources and to fill
vacancies where possible.” The Department stated that the accelerated hiring process was not
motivated by fears about the ideology of the incoming administration but rather as a
“necessary component to secure additional resources” for the Division. We do not question the
longer-term effort of Division leadership to obtain resources for CRT, which apparently began
significantly before the election. After the election, however, Division leadership had reason to
believe that incoming leadership might not share its views on the appropriate level of resources
to be devoted to the Division or its individual Sections. Yet the Division accelerated the effort
to complete the hiring during the transition period, which created the perception that the
outgoing administration sought to restrict the ability of incoming leadership to make changes
in priorities and resource allocations. We believe this perception likely exacerbated distrust
between the incoming Division leadership and the career staff.


                                              188

employment decisions for the Department’s Honors Program and SLIP, CRT,
and other career attorney positions. 165

       Our investigation of CRT focused on allegations that Bradley Schlozman,
former DAAG and Acting AAG, inappropriately considered political and
ideological affiliations when making hiring and other personnel decisions
affecting career attorneys in the Division.

        Our statistical review of Schlozman’s hiring decisions, based on data
gathered from resumes, application materials, e-mails, and interviews, showed
that of the 99 attorneys he hired, 63 had identifiably Republican or
conservative affiliations, 2 had identifiably liberal affiliations, and 34 had
unknown affiliations. 166 These ratios were similar in the subset of 18 attorneys
that Schlozman hired into the Voting Section: 11 had identifiably Republican
or conservative affiliations, none had identifiably Democrat or liberal
affiliations, and 7 had unknown affiliations. 167


       165  These reports are: U.S. Department of Justice Office of the Inspector General, An
Investigation of Allegations of Politicized Hiring in the Department of Justice Honors Program and
Summer Law Intern Program (June 2008); U.S. Department of Justice Office of the Inspector
General, An Investigation of Allegations of Politicized Hiring and Other Improper Personnel
Actions in the Civil Rights Division (July 2008, publicly released on July 13, 2009); and U.S.
Department of Justice Office of the Inspector General, An Investigation of Allegations of
Politicized Hiring by Monica Goodling and Other Staff in the Office of the Attorney General (July
2008). The reports are available at: http://www.justice.gov/oig/reports/index.htm (accessed
March 8, 2013).
       166 We explained the classification methodology for analyzing the ideological makeup of
the attorneys analyzed in the SLIP Report as follows:
       We recognize that these determinations are not precise and that categorizing
       organizations as liberal or conservative can be somewhat subjective. . . . For example,
       we categorized as “liberal” organizations promoting causes such as choice in abortion
       issues, gay rights, defense of immigrants, separation of church and state, and privacy
       rights. Examples of organizations we considered liberal include Earthjustice, the
       American Civil Liberties Union, Planned Parenthood, Lambda Law Association, and
       Ayuda. We categorized as “conservative” groups promoting causes such as defense of
       religious liberty, traditional family values, free enterprise, limited government, and right
       to life issues. Examples of groups we considered conservative include the Federalist
       Society, the Alliance Defense Fund, the Christian Legal Society, and the Family
       Research Council. In reviewing candidates’ applications, we considered a candidate’s
       affiliations to be “neutral” if the organizations listed did not have an apparent liberal or
       conservative viewpoint, or if the candidate listed affiliations with both liberal and
       conservative organizations.
SLIP Report at 19, n.18.
       167 Schlozman provided the OIG with the names of several individuals he hired into the

Voting Section who he said he “knew or strongly suspected” were liberals. We compared the
names Schlozman provided with the information developed in our prior investigation and
determined that it was not apparent from these individuals’ resumes, applications, or other
available information that they were liberals or Democrats. One of the individuals identified by
                                                                                          Cont’d

                                               189

       This statistical evidence was supported by extensive e-mails
documenting Schlozman’s preference for hiring conservative attorneys and his
desire to marginalize attorneys he perceived to be liberal or move them out of
the Sections he was supervising. These e-mails included discussions about
personnel in the Voting Section. For example, in an e-mail on July 15, 2003,
to a former colleague, Schlozman wrote, “I too get to work with mold spores,
but here in Civil Rights, we call them Voting Section attorneys.” As part of the
same e-mail exchange, on July 16, 2003, Schlozman wrote, “My tentative plans
are to gerrymander all of those crazy libs right out of the section.” Schlozman
and Tanner (during an earlier review) told the OIG that they believed that the
quality of the Voting Section’s work suffered from the fact that the staff, in their
view, was overwhelmingly liberal, and that Schlozman’s hiring decisions
reflected his desire to create more ideological diversity within the Voting
Section. 168

        Based on the statistical evidence combined with the overwhelming
corroborating documentation, we concluded that politicized hiring had
occurred in the Division during Schlozman’s tenure in the Division from 2003
to 2006. We concluded that Schlozman considered political and ideological
affiliations when hiring and taking other personnel actions relating to career
attorneys, in violation of federal law and Department policy, and that his
actions constituted misconduct.


III.   CRT Hiring Procedures from 2002 to 2011

      Over the past 10 years, CRT has modified its hiring procedures for
experienced attorneys several times. 169 Prior to 2002, career staff in the
various CRT Sections managed the hiring process with the assistance of the
Division’s HR Office. While authorization was needed from the Division’s Office

Schlozman was a self-described Republican who listed Republican affiliations on her resume.
Schlozman also listed three individuals he described as liberals who he promoted to
management positions in the Section: Section Chief John Tanner, Principal Deputy Chief
Christopher Coates, and Special Litigation Counsel Chris Herren. We did not review these
individuals’ resumes or applications to determine how they would have been classified in the
prior investigation. However, we note that in another context, Schlozman identified Coates as a
“true member of the team” which we believe was intended to convey that Coates was
conservative. See Chapter Four, Section V.C.1.a., page [155].
        168 Schlozman told us in a letter written in response to a review of a draft portion of

this report that his low opinion of some Voting Section career attorneys was based upon his
view that some were unprofessional and insubordinate and had engaged in partisan conduct.
       169 The Department hires career attorneys either as entry-level attorneys through the
Honors Program, or laterally as experienced attorneys. According to the website of the
Department’s Office of Attorney Recruitment and Management (OARM), experienced attorneys
must have no less than one year of experience following graduation from law school, though
individual positions may require more years of experience.


                                              190

of the AAG to fill a vacant position, once that approval was obtained, the
Section Chief or his designee reviewed the applications and decided which
candidates to interview without Division leadership involvement. After
completing interviews, the Section Chief made a hiring recommendation to the
Division leadership. According to CRT staff, these recommendations typically
proved non-controversial and the Division leadership routinely approved them.

       Beginning in 2002, the Division leadership became more involved in the
hiring process. Witnesses told us that this increased involvement was
prompted at least in part by concerns about hiring practices during the 2000-
2001 transition period, as discussed above. In a memorandum dated February
25, 2002, CRT announced a “new attorney hiring process” designed to “create a
centralized system of recruitment and selection for experienced attorney
positions.” 170 Under the new policy, instead of allowing Section Chiefs to select
which candidates to interview, DAAGs made this decision. The Section Chiefs
interviewed the applicants that the DAAGs selected. In some cases the Section
Chiefs were permitted to identify and interview other candidates from the
applicant pool. Section Chiefs made their hiring recommendations to their
supervising DAAG, who forwarded the Section Chief’s and the DAAG’s own
recommendation to the AAG for review and approval.

      In December 2003, the AAG further centralized Division hiring
procedures, adding a requirement that DAAGs obtain the concurrence of the
Principal DAAG (a political appointee) when seeking approval to hire from the
AAG and when selecting candidates for the Section Chief to interview. In
addition, Section Chiefs were prohibited from obtaining their own copies of
resumes and had to review applications in the Division’s HR Office.

      Our earlier investigation of politicized hiring in CRT, which examined all
Sections in CRT from 2001 to 2007, found that political and ideological
considerations did not influence hiring and personnel decisions except in those
sections that Schlozman supervised. Our report found that Schlozman relied
upon political and ideological considerations when making hiring and other
personnel decisions in the Voting Section and the four other sections he
supervised. 171 The evidence developed during our earlier investigation also
showed that the AAGs and Principal DAAGs who supervised Schlozman failed
to exercise sufficient oversight to ensure that Schlozman did not engage in
inappropriate hiring and personnel practices.

       170 Executive Officer, Civil Rights Division, memorandum to Section Chiefs, New
Attorney Hiring Process, February 25, 2002.
       171  Schlozman also supervised the Special Litigation, Employment Litigation, Criminal,
and Appellate Sections. This report focuses on the Voting Section, and thus this chapter
concerns hiring practices in the Voting Section and does not examine hiring practices in other
sections of CRT.


                                             191

       The issues identified in CRT’s hiring process eventually resulted in the
implementation of numerous reforms. In March 2009, CRT formed a working
group of Section Chiefs and the Director of its Office of Professional
Development to draft new policies for hiring experienced attorneys for career
positions and to govern attorney promotions. The group issued a report in
September 2009 that recommended returning primary decision-making on
hiring matters from the Division leadership to the career staff. This
recommendation was accepted by AAG Perez, who issued a new policy on
hiring experienced attorneys in December 2009. 172

       The new hiring policy stated that it was formulated “[t]o ensure a fair,
transparent, and merit based hiring process,” and required each Section Chief
to establish a hiring committee of at least three members, including the Section
Chief and at least one non-manager attorney, for each vacancy announcement.
Under the policy, hiring committee members must review applications relative
to the qualifications identified in the vacancy announcement and recommend
candidates for interviews to the Section Chief. Applicants that the Section
Chief selects for interviews must be interviewed by no fewer than three hiring
committee members. After interviews conclude, the policy requires the Section
Chief to submit hiring recommendations, with input from members of the
hiring committee, to the AAG or his designee for review and approval. If the
AAG or designee opts to reject recommended candidates, the decision must be
made in writing.

       The hiring policy also emphasized that hiring in CRT is based on merit-
based principles and should never involve discrimination based on race, age,
political affiliation, or other prohibited factors. Members of CRT hiring
committees are required to attend training on merit system principles,
prohibited personnel practices, and hiring and interviewing policies, and must
certify that they will comply with applicable requirements. 173

      In January 2010, AAG Perez supplemented the new hiring policy with a
lengthy guidance memorandum on Division hiring procedures for career
experienced attorneys that was sent to Section managers and hiring committee
members. 174 The memorandum addressed numerous hiring issues, such as
sensitive interview questions concerning disabilities and confidentiality when
conducting reference checks. The memorandum specifically instructed

       172Thomas E. Perez, Assistant Attorney General, memorandum to Civil Rights Division
Employees, Civil Rights Division Experienced Attorney Hiring Process, December 3, 2009.
       173 CRT also provides training on merit system principles and EEO during its

Supervisor and Professionalism training courses.
       174  Thomas E. Perez, Assistant Attorney General, memorandum to All OAAG Attorneys,
et al., Guidance for Civil Rights Division Managers Regarding Hiring for Career Experienced
Attorneys, January 20, 2010.


                                            192

interviewers “as a general rule” to avoid asking questions that could be
construed to seek information about the applicant’s political affiliation or
views. It also identified desirable skills and experience for use in establishing
qualifications to guide the Sections’ selection criteria. These include
“[d]emonstrated academic achievement,” “[d]emonstrated interest in the
enforcement of civil rights laws,” and “[s]ubstantive knowledge and expertise in
the laws, rules and regulations applicable to the work of the section,” among
10 other factors. 175

      AAG Perez also issued guidance to the Division on December 10, 2009,
and July 13, 2010, on the need to follow merit system principles in hiring and
avoid “prohibited personnel practices.” 176 We found that comparable guidance
was issued by AAG Wan Kim in June 2007, by Acting AAG Grace Chung
Becker in August 2008, and by Acting AAG Loretta King in early 2009.

        In our interview of AAG Perez, he said that his main concern with hiring
when he returned to the Department in October 2009 was to reestablish the
role of career staff. 177 In testimony before the Senate Judiciary Committee in
September 2011, Perez said that he was “quite confident” that merit-based
hiring had been restored in CRT, and that the Division hires attorneys with
civil rights backgrounds because relevant experience is very helpful.
        175 The 10 factors are: (1) skill and experience developing and handling matters of

complexity and significance; (2) written and oral communication skill and experience, including
producing written work product that is accurate, well organized, thorough and free of
typographical and grammatical errors; (3) oral advocacy, trial and presentation skill and
experience, including effectively representing agencies and/or clients in court, administrative
and regulatory proceedings, and/or as part of outreach efforts, training or other presentations;
(4) research skill and experience; (5) negotiation skill and experience, including effectively
representing agencies and/or clients in mediation and settlement negotiations; (6) skill and
experience working cooperatively and productively with third parties, including charging
parties, witnesses, respondents, opposing counsel, court personnel and the staff of other
agencies; (7) skill and experience working cooperatively and productively with supervisors,
colleagues, and staff; (8) level of supervision required, including the ability to complete tasks
with the level of supervision commensurate with the GS-level of the vacant position; (9) skill
and experience supervising the work of attorneys and staff; and (10) availability and willingness
to travel. According to the guidance memorandum, these factors were not listed in order of
importance and may not apply to every attorney vacancy in CRT.
       176  In response to a draft of this report, the Department stated that CRT has
implemented additional safeguards, including: issuing written hiring policies that require
public and Section-specific postings of all positions and that make clear the minimum
qualifications; instituting hiring committees; requiring that written hiring recommendations be
submitted to the Office of the Assistant Attorney General (OAAG); requiring written
explanations if the OAAG overrules a recommendation; prohibiting Internet searches of
applicants; creating a system that allows any interested person or organization to sign up to
receive attorney vacancy announcements automatically; and requiring mandatory training for
all employees involved in the hiring process.
       177 Perez previously served in CRT at the Department as a prosecutor in the Criminal
Section from 1989 to 1995, and as a DAAG from 1998 to 1999.


                                              193

      Attorney General Holder told the OIG that he has taken a “hands off
approach” to hiring other than to set out general terms to restore hiring
procedures to the way they existed when he was Deputy Attorney General. 178
He said that he believes that hiring is something that the career staff should
oversee, subject to directives such as his diversity initiative.


IV.	   Hiring of Career Trial Attorneys in 2010 in the Voting Section

       A.	    Hiring Procedure

      The Voting Section hired nine experienced attorneys for career trial
attorney positions between January 20, 2009, and December 31, 2011, all of
whom were hired following a single external job announcement that opened for
one month starting on January 22, 2010. 179

              1.	     Recruiting Preparations and Formation of the Voting
                      Section’s Hiring Committee

      According to CRT and Voting Section managers, by the end of 2009 the
Section was critically short-staffed and needed to hire additional attorneys. 180
DAAG Fernandes told the OIG that she recalled that the staffing situation in
the Voting Section was “stark” due to the previous loss of many mid-level
attorneys and that she believed that only four trial attorneys remained who had
the necessary experience to “run cases.” We determined that the average
number of attorneys from 2003 through 2008 was approximately 36. During



       178Attorney General Holder served as Deputy Attorney General of the Department from
June 1997 to January 2001.
       179 Our review focused on the hiring of experienced trial attorneys into the Voting
Section between January 20, 2009 and December 31, 2011, in response to an external job
announcement. These made up the substantial majority of all attorney hires during that
period and they were all hired according to a common procedure, described in this section.
Our analysis excluded attorneys who transferred to the Voting Section from other components
of CRT. We did not evaluate the hiring of entry-level attorneys through the Honors Program.
Hiring decisions under this program are made at a Division-wide level using a different
procedure than the one that the Voting Section used for hiring experienced trial attorneys.
Two Honors attorneys selected by CRT during 2009-2011 were assigned to the Voting Section.
(Two other Honors attorneys who were hired in 2008, prior to the period of our review, began
working in the Voting Section in 2009.) In addition, our review did not evaluate the selection of
Deputy Chiefs and Special Litigation Counsels during this period. Most of these appointments
were promotions of attorneys already employed by the Voting Section, although two (one
Deputy Chief and one Special Litigation Counsel) were hired from outside the Section.
       180 A hiring assessment that the Voting Section completed in November 2009 supported
this view and provided justification for the assignment of additional attorneys to the Section.
By that time, CRT had obtained funding for 102 new positions in the Division.


                                              194

that period the Voting Section lost 31 trial attorneys, including 9 in 2005. In
November 2009, the Voting Section had 38 attorneys. 181

       We were told that concerns over expected increases in workload related
to redistricting and anticipated litigation further amplified the perceived need
among CRT managers to hire attorneys in the Voting Section. Section Chief
Herren said that he expected “a crush” of litigation following completion of the
census in 2010. A Voting Section Deputy Chief, SaraBeth Donovan, also told
the OIG that the demands on the Section were escalating due to redistricting
and other initiatives and therefore it was necessary to hire experienced
attorneys who could “hit the ground running” and handle trial work.

       Fernandes told us that in light of these circumstances, she worked to
create new attorney positions in the Voting Section and asked Herren to
develop a list of alumni who had left the Section in the recent past as a way to
demonstrate to AAG Perez that substantial talent had been lost that needed to
be replenished. Fernandes stated that she remembered thinking to herself that
there may be former staff who wanted to return to the Section now that the
environment was not so “toxic.” Herren told the OIG that he believed that
Fernandes used the term “diaspora” to describe the departure of staff during
the eight years of the last administration. He also stated that staff in the
Section prepared a list of alumni for Fernandes but he could not recall its
purpose, though he believed it could have been to persuade AAG Perez that the
Section needed more attorneys.

      Our review of the list that Herren provided to Fernandes in November
2009 showed that it included 25 former Voting Section attorneys who
previously had left the Section. The list, however, omitted 29 former Section
attorneys who had left the Section since January 2001, including 8 attorneys
who were widely perceived to be conservatives. 182 A Voting Section Deputy
Chief, Rebecca Wertz, said that she may have worked on the list and that it
included former experienced attorneys who were still in the Washington, D.C.,
area and who might have been interested in coming back to the Voting Section.
Wertz stated that she was “fairly sure” that the “conservative” alumni that the
OIG asked about would not have been interested in returning and therefore
were not included on the list.




       181   Three of these attorneys were serving details outside of the Voting Section.
       182  These attorneys were members of organizations such as the Federalist Society and
the Republican National Lawyers Association. In response to a draft of this report, Herren
stated that the list he provided to Fernandes included one self-identified Republican. This
attorney was hired during the second Bush administration and worked in the Voting Section
for only a few months.


                                                195

       Fernandes told the OIG that she never would have directed that
conservatives or staff hired during the prior administration be excluded from
the list. However, she felt that staff who had been “pushed out” by the prior
administration would have been more likely to return to the Section if the
“environment” in the Section were different. She described the individuals who
left as those that the prior administration thought were not “good Americans,”
a phrase Schlozman used to describe his preferred hires, or people that they
could trust, and so the prior Division leadership wanted to make their lives
“hell” and push them out of the Section.

       Another Deputy Chief, Berman, contributed to the list and said that it
identified attorneys who had worked in the Section during a 5-year redistricting
cycle (such as 2000-2004). Herren stated that the list “never went anywhere”
and was somewhat of a “pointless exercise.” Two attorneys on the list applied
for the 2010 trial attorney positions and both were hired. We also found that
Voting Section staff contacted persons outside the Section to notify them of the
vacancies, including former Voting Section attorneys who were on the list.
However, we did not find sufficient evidence to conclude that the list Herren
provided to Fernandes was actually used in recruiting or selecting new
attorneys in the Voting Section.

       By early January 2010, AAG Perez approved Fernandes’s and the Voting
Section’s request to hire additional trial attorneys and to post a hiring
advertisement. Herren told the OIG that he received a draft advertisement
from the Division’s HR Office and that Division staff revised it. The final
announcement identified a limited number of “required qualifications”: three
years post-J.D. experience, excellent professional judgment and interpersonal
skills, and “substantial litigation experience.” The announcement also set forth
“preferred qualifications” that described other skills related more particularly to
voting litigation:

      (1) substantive knowledge of the Voting Rights Act (VRA) and other
      statutes enforced by the section; (2) familiarity with the various
      analytical approaches utilized to review voting changes under
      Section 5 of the VRA; (3) experience investigating and/or litigating
      voting rights or civil rights cases; (4) federal judicial experience; (5)
      experience serving as the lead attorney in federal court cases; (6)
      familiarity with statistical methodologies used in civil rights cases;
      and (6) fluency in Spanish, Chinese, Korean, or Vietnamese
      languages.

       Academic achievement was not identified as a required or preferred
qualification. Herren told the OIG that he did not purposefully omit academic
achievement from the hiring announcement, and he could not think of a
circumstance where it would not be a preferred qualification.


                                        196

      The hiring announcement was published on the USAJOBS website on
January 22, 2010. It also was posted on the Department and CRT Internet
and Intranet sites. According to the Division’s HR staff, organizations or
persons who had notified HR that they wanted to receive notification of CRT job
announcements, or organizations or persons who otherwise had been identified
to HR for this purpose, received e-mail messages alerting them to the
experienced trial attorney advertisement. An HR staff member told the OIG
that the Division created this “outreach” list in 2009 based on a contacts list
that OARM developed for its Department-wide recruiting efforts, and the
Division has maintained its own “outreach” list since that time. CRT also
added an invitation on its employment website for organizations to sign up to
receive e-mail announcements of job advertisements, and requested staff to
recommend groups to include on the list. 183 The Division’s HR Department
updated its “outreach” list over time. 184 CRT staff told us that if they received a
request to add an organization to the list, the organization would be added.

      We conducted an analysis of CRT’s “outreach” list, which in February
2010 contained contacts at approximately 150 organizations. The large
majority of the organizations on the list were bar associations and law schools.
We determined that most of the organizations on the list were neutral or non-
ideological. Approximately 10 of the organizations on the list are generally
considered to be “liberal” and only 1 (the Becket Fund for Religious Liberty) is
generally considered to be “conservative.” 185

       In addition to the notifications sent by the HR Department, AAG Perez
sent a Division-wide e-mail in December 2009 requesting staff to “inform your
friends and networks” about vacant positions. Our review of Voting Section e-
mails and information provided by Herren revealed that Herren sent e-mail
notifications to a variety of individuals and organizations, many of whom had
no readily apparent ideological or partisan affiliation. Herren sent notifications
to at least 11 individuals from “liberal” civil rights organizations, including the
American Civil Liberties Union (ACLU), the Mexican American Legal Defense
and Education Fund (MALDEF), the National Association for the Advancement

       183 The invitation for organizations to enroll in this service is found at:

http://www.justice.gov/crt/employment/ (accessed March 8, 2013).
       184 The HR staff member who maintained CRT’s outreach list told us that organizations
with outdated contacts were removed from the CRT outreach list if efforts to update the contact
proved unsuccessful or if the organization was not interested in being included on CRT’s list.
       185   A copy of the 2010 outreach list is attached to this report as Appendix B. In
evaluating whether an organization was “conservative” or “liberal,” we followed the same
procedures we utilized in our SLIP Report, described above in footnote 165. We also used this
classification methodology for analyzing the ideological makeup of the applicant pool. As we
recognized in our prior report, these determinations are not precise and categorizing
organizations as liberal or conservative is subjective. Therefore, the statistics included in this
chapter are rough approximations as opposed to precise statistical measurements.


                                               197

of Colored People Legal Defense and Education Fund (NAACP LDF), and the
Lawyers’ Committee for Civil Rights under Law (LCCR). 186 We found that
Herren did not send any e-mail notifications to “conservative” civil rights
organizations. Herren told us he attempted to reach a wide audience and that
he did not pick to whom he sent the ads based on ideology. 187

      Herren told the OIG that staff from the Division’s HR Department and the
Division’s Employment Counsel instructed him to circulate the announcement
broadly and he sent it to the “normal contacts for the work that we do.” Herren
stated that he was striving to follow the directions he received from the Division
and to widely circulate the hiring announcement, which he said he did by
contacting persons who did election work and by sending it to persons who
maintained the blogs that they read. Herren stated that circulating the
announcement was intended to broaden the applicant pool and that his goal
was simply to ensure that people knew about the job openings and that it got
wide distribution among the people that the Section regularly dealt with.

        Shortly following publication of the hiring announcement, the Voting
Section formed a 7-person hiring committee to evaluate applications, conduct
interviews, and make hiring recommendations. It consisted of Herren, two
deputy chiefs, two senior attorneys, and two junior attorneys. During our
interviews of the hiring committee members, we learned that one member
previously was active with a local Republican Party organization, and another
had paid dues to the American Constitution Society and had worked for a
Democratic Congressman. 188 Another told us he was a Democrat. Three of the
hiring committee members did not identify partisan or ideological
affiliations. 189

     Our review of Voting Section documents also revealed that, prior to
becoming hiring committee members, two of the seven members had used the
Department’s e-mail system to express views that were hostile to Republicans
and political conservatives, although they were not related to hiring or other


        186In the interest of full disclosure, and as indicated in his nomination filings, we note
that during the period from November 2009 to April 2012, Inspector General Horowitz served
on the Board of the LCCR. The position was not compensated. He resigned from the board
upon becoming Inspector General. During his tenure on the board he did not refer or
recommend any LCCR employees for positions in the CRT or elsewhere in the Department.
        187The CRT website states “Sections may also distribute announcements to additional
organizations who may know of qualified candidates for a particular vacancy announcement.”
See http://www.justice.gov/crt/employment/ (accessed March 8, 2013).
       188 We indicated in the SLIP Report that the American Constitution Society is generally

considered to be a liberal organization. SLIP Report at 20.
        189     The seventh hiring committee member retired before we asked about these
affiliations.


                                                198

personnel decisions within the Voting Section. For example, one of these two
attorneys, Carson Poole (the member who told the OIG he was a Democrat)
wrote: “[S]omehow whenever a republican says he or she is doing something
because of a concern about a disadvantaged group, my antennae go up. [I]
can’t help it.” Poole sent numerous other e-mails reflecting his political views
prior to becoming a committee member.

       We asked Poole whether, based on the totality of his e-mail commentary,
he believed someone could question his objectivity. Poole stated that he did
not believe so. He told the OIG that he did not “take action” based on ideology
or political affiliation. He said that if a Republican applies for a job, you review
the applicant’s qualifications and consider what the law requires. He stated
that the views expressed in the e-mails he sent had to be evaluated in the
context of how Schlozman and others in Division leadership during the prior
administration had politicized the Voting Section and had done things that he
felt were not appropriate for Department attorneys. He also discussed his
admiration of CRT’s leadership during the Reagan Administration, which he
described as “very conservative,” and said that they conducted themselves
professionally.

       When we asked Herren about Poole’s e-mails (he was a recipient of some
of them), he said that Poole had a lot views that are hostile to a lot of people
and that Poole had a “fair amount of disdain” for both conservatives and
liberals. Herren said, however, that he still had confidence that Poole would
treat applicants fairly and that Poole’s prior dealings with Republican and
Democratic elected officials in very sensitive cases did not raise concerns about
his judgment.

      We did not find any e-mails, notes, or other evidence that any of the
members of the hiring committee discussed their political views or the political
views of applicants in connection with their work on the hiring committee.

      Before commencing their work, each of the hiring committee members
completed mandatory training on the Division’s hiring policies. They also
signed a certification agreeing to abide by the Division’s policy on merit system
principles and prohibited personnel practices, which provides in pertinent part:

      [P]olitical affiliation cannot be considered as a criterion in
      evaluating candidates, and ideological affiliation or other factors
      cannot be used as proxies for determining political affiliation.
      Discrimination based on political affiliation violates the merit-
      based principles governing federal employment for career
      employees, and undermines public confidence in the Division’s
      mission.




                                        199

               2.     Evaluation of Applications

        The hiring announcement closed on February 22, 2010, and resulted in
the submission of 482 applications. The hiring committee members began
their evaluation of the applications by arranging them alphabetically and
dividing them into 6 groups of approximately 80 each, with each hiring
committee member (except Herren) being assigned 1 of the groups of 80 for
initial review. Herren told the OIG that he asked the hiring committee
members “to make the first cut” by identifying applicants who “had a
background in the work of the Section.” He said he did not believe that he
defined this background in a particular way.

        The hiring committee used a spreadsheet to record information about the
applicants that reflected in part the qualifications from the hiring
announcement. Herren said that the purpose of the spreadsheet was to try to
come up with a set of criteria that would tell hiring committee members
something about applicants who might be interested in the Section’s work and
would remain with the Section for an extended period. The final version of the
spreadsheet included 10 criteria: graduation year, language fluency, years of
litigation experience, judicial clerkships, voting experience, prior work for the
Department, prior work for the Civil Rights Division, election monitoring
experience, experience with Voting Rights statutes, and “general civil
rights/public interest experience.”

        Four of the seven hiring committee members told the OIG that the most
important factor in their consideration of applications was litigation experience,
especially experience involving the statutes that the Voting Section enforces,
and a fifth described this factor as “very important.” Herren stated that voting
litigation experience was “extremely important” to the hiring committee’s
evaluation of applications because the work that the Section performs is some
of the most complex in the Division and that it was helpful to have staff who
were experienced working with the statutes that the Section enforces.

      We asked hiring committee members about their use of the “general civil
rights/public interest experience” criterion in their evaluation of applications.
Herren stated that its purpose was to identify people who had some
background or interest in civil rights or public interest work that might be
helpful. Herren said that the Section received applications from tax lawyers,
investment bankers, and others “who are clearly just looking to get into
government,” and that he could not see how they would have an interest in the
Section’s work. 190 Another hiring committee member told the OIG that the fact

        190 In response to a draft of this report, Herren elaborated that some of the people who

applied “had submitted an application without anything indicating any experience, interest or
background in voting, civil rights or public interest work and without crafting something
tailored to our job (including no cover letter tailored to our job).” According to Herren, he “most
                                                                                             Cont’d

                                               200

that an applicant had experience in or had shown an interest in civil rights
work was “a plus,” but it was not “the beginning and the end.” Two committee
members told us that attorneys with “civil rights/ public interest” experience
may be better able to work with the communities that Voting Section staff meet
with in their work.

       Our examination of the hiring committee’s spreadsheet showed that
“general civil rights/public interest experience” was used by the hiring
committee to capture a diverse array of experiences, including policy and/or
legal work on behalf of American Indians, prisoners, criminal defendants,
immigrants, pro bono clients, and disadvantaged persons. We found, however,
that “public interest experience” and “general civil rights experience” unrelated
to the investigation or litigation of cases were not criteria in the Section’s
vacancy announcement. CRT’s hiring policies require that the Section’s
selection criteria must “parallel” the qualifications identified in the vacancy
announcement.

        Two other hiring committee members responded that they looked for
work experience in the applications that reflected “a commitment to civil rights”
or public service. We asked how this commitment contributed to the success
of a litigator in the Voting Section. Three of the hiring committee members said
that they believed that such an applicant would be more committed to the
Section’s work and would be more likely to remain in the Section for a longer
period of time. They also stated that prior civil rights and public interest work
made an applicant better suited to work in sensitive situations with citizens
from minority communities or those who had been disenfranchised. However,
one hiring committee member stated that he was not sure that having such a
commitment to civil rights made the applicant more qualified or capable of
successfully performing voting litigation work.

      We also asked hiring committee members about how they viewed
experience working for civil rights groups such as the ACLU. One member
stated that he viewed the experience as “generally positive.” Four other
members stated that it depended on the work the applicant performed for the
organization, and that prior experience that involved litigation was especially
helpful.

      Additionally, we asked about the hiring committee’s review of
applications that indicated Republican or conservative affiliations. Herren told
the OIG that he would not review an application that included Federalist
Society membership differently than other applications, and that he had


definitely did not seek to make a categorical point that persons who start out as tax attorneys
(or any other kind of attorneys) are just looking to get into government when they apply for our
job announcements.”


                                              201
previously recommended hiring one attorney who “was as Federalist Society as
they come,” and that he was pleased to work with the person. He said that he
is confident based on what he knows about the hiring committee members and
their deliberations that they did not consider political or ideological factors
when they made their hiring recommendations.

       Other hiring committee members unanimously stated the same belief
and that the resumes of Republicans or conservatives were treated fairly. The
sole self-identified Republican on the hiring committee told the OIG that in this
person’s view, the hiring committee functioned in an ideologically neutral way
and that politics and ideology were not part of the hiring committee’s
deliberations.

       Poole also stated that he would not review an application that included
Federalist Society membership differently than other applications. Poole also
said that an application from someone who is known to be a Republican would
not be viewed in the Voting Section with skepticism. He said “there are people
in the section who are Republicans and who are good lawyers and write good
briefs and who take good positions.”

      After hiring committee members completed inputting data for the 482
applicants into the spreadsheet in early March 2010, they each identified their
preferred candidates from the roughly 80 resumes they had individually
reviewed, designating them “top applicants.” All hiring committee members
then reviewed the applications in the “top applicant” pool, which totaled 77.
Members then prioritized these applications and further narrowed the field to
the 24 candidates who were invited for interviews. 191 Three of the candidates
who were invited to interview withdrew from consideration, so that a total of 21
candidates were actually interviewed.

       Before and during the period when the hiring committee was preparing
to conduct interviews of these 21 candidates, members of the hiring committee
received unsolicited resumes for several candidates who already had applied as
specified in the hiring announcement, as well as recommendations on behalf of
certain candidates from representatives of liberal civil rights organizations and
other acquaintances, such as judges and attorneys in the Department.
According to CRT’s Employment Counsel, CRT policies do not prohibit hiring
committee members from receiving unsolicited resumes or recommendations
on behalf of candidates who have applied for posted vacancies. CRT hiring
policies require experienced attorneys to be hired in response to vacancy
announcements and prohibit receipt of unsolicited resumes in the absence of

       191   Hiring committee members identified 23 applicants to interview from the 77
identified as “top applicants.” One additional applicant who was not included in the list of the
77 “top applicants” was also invited to be interviewed.



                                              202

such announcements. Recommendations also must be based upon personal
knowledge of the applicant’s abilities.

      Herren and other hiring committee members who received the
unsolicited resumes or recommendations forwarded the communications to all
other hiring committee members for their consideration. Herren and another
hiring committee member also saved unsolicited resumes and
recommendations with the name of the submitter on a computer shared drive
that the hiring committee established for use during the hiring process so that
the other committee members could review these materials.

       Herren told the OIG that he sent the resumes and recommendations that
he had received to all of the hiring committee members because he wanted to
be transparent with them. He said that it was not his intention to give any of
these candidates elevated consideration, and that he did not believe that the
hiring committee’s receipt of this information affected their deliberations. We
determined that the hiring committee received unsolicited recommendations for
approximately 30 applicants. Three of these applicants were eventually hired.
These candidates submitted applications according to the instructions provided
in the Voting Section’s hiring announcement. The recommendations
highlighted their voting litigation experience and were received from a
representative of a liberal civil rights group, a supervisor in another component
of the Department, and an attorney in the Voting Section. We found no
evidence that the hiring committee’s procedures for dealing with unsolicited
recommendations violated any CRT policies or introduced any partisan bias
into its recommendations.

      The hiring committee started interviews of the 21 applicants in mid-
March 2010 and concluded them in June. Candidates met with a panel
consisting of three members of the hiring committee, and separately with
Herren and Wertz. Prior to starting interviews, the hiring committee developed
a common set of interview questions.

       Our review of notes taken during the hiring committee’s deliberations
following the interviews showed that the hiring committee was keenly focused
on the candidates’ voting litigation experience and substantive knowledge of
voting rights. The notes included entries such as “great litig experience”, “good
background, voting not focus”, and “litig background good.” The notes also
reflected substantial consideration of language abilities and discussion of the
likelihood that the candidates would remain interested in the Section’s work
and not resign. Consistent with the hiring committee members’ descriptions to
us of their deliberations, the notes did not reflect consideration of the
candidates’ ideology or political affiliation.

      After the hiring committee members completed deliberations on the 21
candidates that had been interviewed, Herren considered their suggestions and

                                      203

determined which candidates to recommend to AAG Perez. Herren told the OIG
that he remembered disagreeing with one committee member and refusing to
recommend one of the member’s preferred candidates. After considering the
hiring committee’s recommendations, Herren then prepared hiring approval
memoranda for AAG Perez that discussed the candidates’ qualifications.

      AAG Perez approved all of Herren’s proposed hires. The Voting Section
made the last of its nine trial attorney hiring offers in July 2010, all of which
were accepted.

               3.      Qualifications of the Newly Hired Attorneys

       Our review of the backgrounds of the Voting Section’s new attorneys
revealed a high degree of academic and professional achievement. Of the nine
attorneys hired, five had a degree from Harvard or Yale including two with law
degrees from those universities, two had graduate degrees in addition to their
law degrees, one was a Fulbright Scholar, and one was a Truman Scholar.
With regard to work experience, eight of the nine attorneys had voting litigation
experience, including seven who had two or more years of such experience;
three previously had worked for the Voting Section at the Department; four had
other litigation experience within the Department; five had eight years or more
of general litigation experience; and one was a former legal advisor in Iraq and
Afghanistan. In addition, five of the nine previously worked as attorneys for
law firms that were included in The American Lawyer’s top 100 law firms for
2010, which identifies the nation’s most profitable law firms. 192 These firms
handle highly complex legal matters and are known to recruit and hire some of
the most skilled attorneys available.

      Below we provide statistical information about the applicant pool and the
Voting Section’s hiring decisions.

       B.      Statistical Evaluation

       We analyzed the applications of all of the Voting Section trial
attorney candidates for the nine attorney positions and CRT’s hiring
selections to determine whether differences were apparent in the rate at
which CRT selected or rejected candidates with differing political and
ideological affiliations. When making these classifications we followed
the methodology used in our prior review of politicized hiring in the CRT.
As we stated in our earlier report:
       [W]e reviewed the applicants’ resumes and application credentials.
       We examined whether a hired attorney’s resume or application

        192 Given the list’s focus on profitability, we recognize that it is an imperfect measure of

the skill of the lawyers who work at the ranked firms.


                                               204

       listed work experience with a Republican or Democratic politician
       or membership in an organization specifically affiliated with a
       political party, such as the Republican National Lawyers
       Association. We also considered whether an attorney’s application
       materials cited membership in or employment by any organization
       generally considered to be conservative or liberal. 193

      We started by examining the overall applicant pool, paying particular
attention to the applicants’ ideological or party affiliations as expressed on their
resumes, their level of relevant experience, and their academic qualifications.
We then compared the qualifications and affiliations of the applicant pool with
those of the nine selected candidates in order to determine whether any
inferences could be drawn about ideological or partisan bias in the selection
process. We paid particular attention to subsets of the rejected applicants who
possessed qualifications that members of the hiring committee considered to be
valuable. These qualifications related primarily to work experience, especially
as concerns voting litigation.

               1.      Characteristics of the Applicant Pool

        The most striking fact about the overall applicant pool was that an
extremely small number of applicants submitted materials that indicated they
had Republican or conservative affiliations. Figure 5.1 shows the breakdown of
applicant affiliations. As reflected in this figure, we determined that of the 482
applications that the Voting Section received, roughly 237 (49 percent) listed
Democratic/liberal affiliations. The resumes of 235 applicants (49 percent) did
not allow us to classify them either way. 194 Only 10 (2 percent) of the 482
applicants were identifiable as Republican or conservative by their listed
affiliations. 195


       193 U.S. Department of Justice Office of the Inspector General, An Investigation of
Allegations of Politicized Hiring and Other Improper Personnel Actions in the Civil Rights Division
(July 2008, publicly released on July 13, 2009) 32 n.27. As noted above in footnotes 165 and
184, the classification of organizations as generally “liberal” or “conservative” is inevitably an
imperfect and subjective assessment and therefore the statistics that we cite are rough
approximations and not precise measurements. However, we determined that given that there
were nearly 500 applicants for the attorney positions, the shifting of a handful of organizations
or applicants to different categories would not have materially affected our analysis and
conclusions. Appendix C is a list of the organizations that appeared on the applicants’
resumes that we classified as “liberal” and “conservative.”
       194 One applicant had both Democratic/liberal and Republican/conservative affiliations
on her resume. For analytical purposes in the numbers, figures, and tables in this chapter, we
have treated this candidate as part of the group of candidates with “unknown” affiliations.
       195 Of these 10 applicants, 5 worked for Republican politicians, and 6 were affiliated
with 1 or more conservative organizations. These were the Alliance Defending Freedom,
American Enterprise Institute, Americans United for Life, Campus Crusade for Christ,
                                                                                           Cont’d

                                               205

                     Figure 5.1 – Affiliations of All Applicants




                                                            Democrat or
                            49%              49%            Liberal
                                                            Republican or
                                                            Conservative
                                     2%                     Unknown




        We found that when the pool of applicants was limited to applicants with
substantial general litigation experience or applicants with some voting
litigation experience, the ideological makeup of the groups changed
significantly. Figure 5.2 shows the affiliations of applicants with eight or more
years of litigation experience.




Christian Legal Aid, Christian Legal Society, Federation for American Immigration Reform, and
the Pacific Justice Institute. One applicant was a member of the Federalist Society and the
Republican National Lawyers’ Association.
         We recognize that some Republican or conservative applicants may have chosen to leave
all references to their affiliations off their resumes because such affiliations should be
irrelevant to an application for federal employment, or out of concern that including such an
affiliation would work against their chances for selection.


                                            206

     Figure 5.2 – Affiliations of Applicants with Eight or More Years of 

                             Litigation Experience





                                              35%
                                                      Democrat or
                                                      Liberal
                                                      Republican or
                                                      Conservative
                    63%
                                                      Unknown

                                                2%




      We determined that 112 of the 482 applicants had 8 or more years of
general litigation experience. As shown on Figure 5.2, approximately 39 of
those 112 (35 percent) had Democratic/liberal affiliations, only 2 (2 percent)
had Republican/conservative affiliations, and 71 (63 percent) were unknown.
Thus, an overall applicant pool that was evenly split between applicants with
Democratic/liberal affiliations and those with unknown affiliations became a
refined applicant pool that was majority unknown when the requirement of
substantial general litigation experience was applied to it.

      Applying the qualification of voting litigation experience to the overall
applicant pool resulted in an even more dramatic change to the ideological
makeup of the applicant pool. Figure 5.3 shows these results.




                                       207

 Figure 5.3 – Affiliations of Applicants with Voting Litigation Experience




                             13%



                                                          Democrat or
                                                          Liberal
                                                          Unknown




                                        87%




        We determined that only 38 of the 482 applicants had some amount of
voting litigation experience. Of those 38 applicants, approximately 33 (87
percent) had Democratic/liberal affiliations, none (0 percent) had
Republican/conservative affiliations, and 5 (13 percent) had unknown
affiliations. Attached as Appendix D is a listing of the affiliations for these
applicants and the source of their voting litigation experience. These
percentages remained essentially unchanged when we refined the analysis even
further, to consider only those applicants with at least 2 years of voting
litigation experience. Of the 22 applicants with at least 2 years of voting
litigation experience, roughly 19 (86 percent) had Democratic/liberal
affiliations, none had Republican affiliations, and only 3 (14 percent) had
unknown affiliations. Thus, focusing attention on those applicants with voting
litigation experience (regardless of whether the experience was minimal or
extensive), as opposed to those applicants with substantial general litigation
experience, had the effect of making the applicant pool overwhelmingly
Democrat/liberal.

            2.    Hiring Outcomes

       We next examined the hiring outcomes, comparing the characteristics of
the 9 candidates who were hired with the 473 applicants who were not. The
purpose of our comparisons was to determine which characteristics appeared
to be most important in the selection process, and to examine whether
applicants with similar qualifications were treated differently depending on
their partisan or ideological affiliations.



                                     208

        We determined that eight of the nine new hires had one or more liberal
affiliations, and two of them also had an affiliation with the Democratic Party.
In addition, five of the hires had an affiliation with one or more of the following
five civil rights groups: ACLU, La Raza, LCCR, MALDEF and the NAACP. None
of the 10 candidates with Republican/conservative affiliations were hired, and
only 1 of the 235 candidates with unknown affiliations was hired.

      We further evaluated differences between the 9 applicants who were
hired, and the 473 applicants who were rejected, taken as a group and
subdivided by ideological affiliations. 196 Table 5.1 presents data for several
factors related to work experience, language abilities, and academic
achievement for these groups.




       196  We use the term “rejected applicants” to describe all candidates who were not hired.
In fact, some of these candidates may have removed themselves from consideration prior to a
decision being made on their applications.


                                             209

                              Table 5.1 - Attributes of Hired and Rejected Applicants 197

                                                                     Hired Applicants, by Affiliation         Rejected Applicants, by Affiliation


                                 All                             Democrat       Republican or               Democrat     Republican or
         Attributes           Applicants   Hired     Rejected    or Liberal     Conservative    Unknown     or Liberal   Conservative      Unknown
Number of Applicants             482         9         473           8               0              1          229             10             234


Experience Qualifications
  Highly Experienced            10 (2%)    5 (56%)    5 (1%)      4 (50%)            0           1 (100%)    5 (2%)            0               0

  8+ Years Total Litigation    112 (23%)   5 (56%)   107 (23%)    4 (50%)            0           1 (100%)   35 (15%)         2 (20%)       70 (30%)
  At least 2 Years Voting
  Litigation                    22 (5%)    7 (78%)    15 (3%)     6 (75%)            0           1 (100%)    13 (6%)           0            2 (1%)
  Some Voting Litigation        38 (8%)    8 (89%)    30 (6%)     7 (88%)            0           1 (100%)   26 (11%)           0            4 (2%)
  DOJ Litigation
  Experience                    23 (5%)    3 (33%)    20 (4%)     2 (25%)            0           1 (100%)    8 (3%)          1 (10%)        11 (5%)
  Worked for Top 100 Law
  Firm                         163 (34%)   5 (56%)   158 (33%)    5 (63%)            0              0       86 (38%)         2 (20%)       70 (30%)


Academic Qualifications
  Highly Qualified
  Academically                 52 (11%)    2 (22%)   50 (11%)     2 (25%)            0              0       27 (12%)         1 (10%)        22 (9%)


Other Attributes
  Spanish Language
Fluency                         20 (4%)    2 (22%)    18 (4%)     1 (13%)            0           1 (100%)    11 (5%)           0            7 (3%)
  Political Affiliation        100 (21%)   2 (22%)   98 (21%)     2 (25%)            0              0       92 (40%)         6 (60%)           0
  Ideological Affiliation      202 (42%)   8 (89%)   194 (41%)   8 (100%)            0              0       187 (82%)        6 (60%)        1 (1%)




           We identified “Top 100 Law Firms” from The American Lawyer’s top 100 law firms for 2010 which, as noted previously,
         197

ranks law firms based on their profitability and is an imperfect measure of the skill of the lawyers who work at them. The criteria
we used to designate an applicant as “highly qualified academically” are described in the text below.




                                                                         210

       As Table 5.1 demonstrates, the new hires as a group had significantly
more litigation experience than the candidates who were not hired. For
example, 56 percent (5 of 9) of the new hires had 8 or more years of litigation
experience. By comparison, only 23 percent (107 of 473) of the rejected
applicants as a whole had this much experience. The differences are even
greater with respect to voting litigation experience: 78 percent of the new hires
(7 of 9) had 2 or more years of voting litigation experience, compared to 3
percent of all rejected candidates (15 of 473). In addition, 33 percent of the
new hires (3 of 9) previously worked as trial attorneys in the Voting Section.

        We also examined hiring rates among applicants in various categories,
which demonstrated that the hiring process was extremely selective and
focused on candidates with substantial voting litigation experience. Among all
applicants, 9 of 482 (2 percent) were hired. Among those with
Democratic/liberal affiliations, 8 of 237 applicants (3 percent) were hired.
None of the 10 applicants with Republican/conservative affiliations and only 1
of the 235 applicants with “unknown” affiliations were hired. We examined
hiring rates among candidates with voting litigation experience, which we
found was the greatest predictor of hiring outcomes of the factors we reviewed.
In all, there were 38 applicants with some voting litigation experience; 8 of
them (21 percent) were hired. We also examined hiring rates among
candidates who had 8 or more years of general litigation experience and found
that this factor did not explain much about the hiring outcomes. There were a
total of 112 applicants with such experience, of which 5 were hired (4 percent).
However, all five of those applicants also had some voting litigation experience.

       Figure 5.4 illustrates the prevalence of voting litigation experience in the
hiring committee’s identification of “top applicants,” the selection of
interviewees, and hiring recommendations.




                                        211

        Figure 5.4 – Voting Litigation Experience of the Applicant Pool

 100%
               5% (22/482)
               3% (16/482)
  90%                         21% (16/77)
  80%
                              12% (9/77)
  70%                                       58% (14/24)

  60%                                                       78% (7/9)
                                                                           2 years or more
  50%
              92% (444/482)                                                Less than 2 yrs
  40%
                              68% (52/77)    17% (4/24)                    None
  30%

  20%
                                                            11% (1/9)
  10%                                        25% (6/24)
                                                            11% (1/9)
   0%
               Total Pool      CRT Top      Scheduled for    Hired
                              Applicants      Interview


      As the figure reflects, of the 77 candidates designated by the hiring
committee as “top applicants,” 32 percent (25 of 77) had voting litigation
experience, while of the 24 applicants selected to be interviewed from the 77
“top applicants,” 75 percent (18 of 24) had voting litigation experience. Thus,
72 percent (18 of 25) of the “top applicants” who had some voting litigation
experience made it through the next cut and were asked to interview for the
new positions, while only 12 percent (6 of 52) of the remaining “top applicants”
were asked to interview.

        Table 5.1 and Figure 5.4 corroborate the statements of members of the
hiring committee that they weighed voting litigation experience very highly.
They also show that there was a dearth of applicants with Republican or
conservative affiliations or with unknown affiliations who also had voting
litigation experience.

      We next examined candidates who met high academic standards to
determine whether this was a significant factor in hiring and whether there
were differences in rejection rates for these candidates based on affiliation
status. We considered candidates to be “highly qualified academically” if they
met at least three of the four following criteria: (1) attended a top 20 ranked
law school; 198 (2) were in the top 20 percent of their law school class; (3) had a


        198We relied upon U.S. News and World Report’s rankings for 2010: Yale, Harvard,
Stanford, Columbia, New York University, Berkeley, Chicago, University of Pennsylvania,
                                                                                        Cont’d

                                               212

judicial clerkship; and (4) were a member of the law review. As shown on Table
5.1, academic qualifications do not appear to have been a major factor in the
selection of new hires. Only 22 percent (2/9) of the new hires were “highly
qualified academically,” compared to 11 percent (50/473) of the rejected
applicants as a whole, 12 percent (29/237) of the applicants with
Democratic/liberal affiliations, 9 percent (22/235) of the applicants with
“unknown” affiliations, and 10 percent (1/10) of the applicants with
Republican/ conservative affiliations. 199 Because only one applicant with
Republican/conservative affiliations was “highly qualified academically,” we
could not effectively analyze whether highly qualified Republican/
conservatives were treated differently than their Democratic/liberal
counterparts.

        The rejected applicants included a Rhodes Scholar with significant
litigation experience and a former partner in a prestigious law firm who had
worked at the Department previously and received a John Marshall Award –
the Department’s highest award presented to attorneys for contributions and
excellence in legal performance. Both applicants were eliminated in the first
round of application reviews and were not “top applicants”; one had liberal
affiliations and the other had unknown affiliations.


V.     Analysis

       Although the focus of our investigation was hiring in the Voting Section
since January 2009, in the course of our review we found evidence that an
unusual effort was made during the transition period before the new
administration took office in January 2001 to hire a significant number of new
attorneys into the various CRT sections, including the Voting Section, on a
highly accelerated schedule, with the effect of limiting the ability of the new
administration to make its own decisions about hiring or staffing levels. We
found no basis to conclude that this effort violated any law or Department
policy. However, it created the perception, shared by senior career
administrative officials in CRT as well as the incoming political leadership of
the Division, that part of the motivation for this activity was to hire attorneys
who favored the enforcement philosophy of the outgoing administration and to
keep the hiring decisions out of the hands of the incoming administration.
This perception undermines the public’s confidence that career attorneys in the
Division are selected in a non-partisan and non-ideological manner. We believe
this effort harmed the relationships between incoming political leadership who

University of Michigan, Duke, Northwestern, University of Virginia, Cornell, Georgetown, UCLA,
Texas, Vanderbilt, USC, Washington University, Boston University, Emory, and Minnesota.
       199 Most of the hiring committee members told us they considered academic

achievement in assessing candidates; two said they did not.


                                            213
discovered the hiring campaign and the career leadership who participated in
the effort, and generated mistrust between Division leadership and career staff
in the Voting Section. The Department should ensure that this expedited
hiring practice on the eve of an impending change in administration is not
repeated.

        In connection with our review of the hiring of career attorneys in the
Voting Section since 2009, we did not identify any e-mails, documents, or
testimony indicating that CRT staff purposely considered political or ideological
affiliations when hiring experienced trial attorneys for the Voting Section. The
overall applicant pool was evenly split between those with Democratic or liberal
affiliations and those with unknown affiliations, but that there were only 10
applicants with identifiably Republican affiliations out of 482 total applicants.
Our evaluation of CRT documents and witness statements and assessment of
hiring statistics showed that CRT staff focused primarily on litigation
experience related to voting rights when making hiring selection decisions, and
that the subset of applicants with such experience was characterized by a high
concentration of applicants with Democratic Party or liberal affiliations.

        We determined that since publication of our earlier report on politicized
hiring in CRT, the Division implemented numerous reforms to address the
issues in the hiring process that our report described. CRT established new
policies that limit the role of political appointees in the hiring process and that
require mandatory training on merit system principles for members of CRT
hiring committees. 200 CRT staff utilized these new policies when it recruited
attorneys to the Voting Section in 2010. Accordingly, we found that each
member of the Voting Section hiring committee signed a certification expressly
committing to abide by merit system principles and not to consider political
affiliation when evaluating applicants, or to use ideological affiliation as a proxy
for determining political affiliation.

       Our review of thousands of internal CRT documents, including e-mails,
hand-written notes, and interviews of CRT staff who participated in the
selection of the Voting Section’s experienced attorneys did not reveal that CRT
staff allowed political or ideological bias to influence their hiring decisions. All
members of the hiring committee, including the one member who was a self-
identified Republican, told us that politics and ideology were not part of the
hiring committee’s deliberations.

       We also found that after the hiring committee was formed, its members
identified selection criteria that were based largely on voting rights work
       200 We recognize that limiting the role of political appointees in hiring does not
guarantee that hiring decisions will be free of partisan or ideological considerations, because
career employees also may have strong partisan views and affiliations and may act on them in
making hiring decisions.


                                              214

experience. Our interviews with hiring committee members, review of
contemporaneous notes taken during the hiring committee’s deliberations, and
assessment of its recommendations showed that litigation experience involving
voting rights and the statutes that the Voting Section enforces were highly
important to the hiring committee’s review of applications. 201

       Our statistical assessment of the Voting Section’s hiring process
confirmed that members of the hiring committee considered voting litigation
experience to be highly important. We found that 75 percent (18 of 24) of the
applicants who were invited for interviews by the hiring committee and 89
percent (8 of 9) of those hired had at least some voting litigation experience. In
comparison, only 6 percent (30 of 473) of the rejected applicants had such
experience, and only 1 of 444 applicants without it was hired. (This applicant
was “highly qualified academically” and fluent in Spanish.) The difference was
similarly pronounced with respect to applicants who had at least two years of
voting litigation experience. We determined that 78 percent of the new hires (7
of 9) had 2 or more years of voting litigation experience compared to only 3
percent (15 of 473) of all rejected applicants. Three of the nine new hires
previously had worked as trial attorneys in the Voting Section.

        Our assessment also revealed that roughly 33 of the 38 applicants (87
percent) with voting litigation experience had Democratic/liberal affiliations,
and that the other 5 applicants had unknown affiliations. In contrast, the
entire applicant pool contained only 10 candidates whose resumes indicated
Republican or conservative affiliations, and of that group none had any voting
litigation experience and none were hired. Eight of the 38 applicants with
voting litigation experience were hired, 7 of whom had Democratic/liberal
affiliations and 1 who had unknown affiliations. None of the other four
applicants with voting litigation experience and unknown affiliations were
hired. We found that all four of these applicants worked for private law firms
and government entities, and that two of the four had comparatively little


       201   We found an analogous situation with other Department components when we
evaluated hiring in our earlier reviews of the Honors and Summer Law Intern Programs. As we
noted at the time, while the components placed far less emphasis on experience given that they
were drawing from a candidate pool of law school students and recent graduates, some
components nevertheless indicated a preference for candidates with a demonstrated expertise
related to the component’s area of work:

       [S]ome components looked for experience that indicated an interest or expertise
       in the type of law practiced by that component. For example, the Antitrust
       Division valued a background in economics, [the Environment and Natural
       Resources Division] a background in environmental issues, and the Civil
       Division’s Office of Immigration Litigation (OIL) or [the Executive Office of
       Immigration Review] a background in immigration law.
SLIP Report at 11.


                                            215

voting litigation experience, such as working on a single voting case. Neither of
those two applicants were interviewed. Of the remaining two applicants, the
hiring committee interviewed one of them and concluded that he would require
substantial guidance. The committee was not impressed with the background
of the fourth applicant and he was not designated a “top applicant.” We found
that this data was not sufficient to conclude that the conservative and
unaffiliated candidates were purposely rejected because they lacked
Democratic or liberal affiliations, particularly in the absence of any
documentary or other information to indicate otherwise.

        Witnesses told us they weighted voting litigation experience heavily
because the Section had lost many experienced attorneys and was expecting a
large volume of new litigation. The hiring decisions were consistent with this
explanation. Eight of the nine candidates who were hired had such experience
(the ninth was highly qualified academically and was fluent in Spanish). The
pool of applicants having such experience was made up almost entirely of
applicants with Democratic/liberal affiliations. However, we did not find
documentary or other evidence to indicate that the Voting Section used voting
litigation experience as a surrogate to identify and select candidates with
Democratic/liberal affiliations.

       Witnesses told us that the Voting Section valued voting rights litigation
experience very highly in the selection process. This was a legitimate criterion,
particularly in light of the Voting Section’s stated need for experienced
attorneys who would be ready to “hit the ground running” by leading complex
voting rights cases immediately. However, we note that the use of this criterion
created an applicant pool that was highly skewed toward applicants with
liberal affiliations since the vast majority of the organizations that provided the
voting rights experience that the hiring committee was able to consider were
liberal organizations. The Department observed, and at least one prominent
conservative witness confirmed, that there are few if any conservative
organizations that provide voting rights experience to their employees.

       One factor that we could not assess with precision was the impact of the
outreach list, which was predominantly neutral but included approximately 10
liberal organizations and one conservative organization. We did not have data
to indicate which applicants learned about the vacancies through the outreach
list and what their ideological affiliations were. We recognize, however, the
possibility that the use of such a list could tend to bias the applicant pool
toward persons affiliated with the organizations on the list.

      Our investigation identified several instances in which two hiring
committee members expressed views that we found would lead a reasonable
person to question their ability to evaluate job applications free from political or
ideological bias. These included e-mails sent by Poole on the Department’s e-
mail system, before the hiring committee was formed, that were highly critical

                                        216

of Republicans or conservatives. However, we did not find any evidence that
Poole or other Voting Section staff allowed their political views to compromise
their duty to apply merit system principles when evaluating job applications,
and we note that each member of the hiring committee signed a certification
attesting to abide by those principles. 202 Moreover, other hiring committee
members, including one who was Republican, told us they did not detect any
bias in the hiring-related conduct of the two attorneys who had previously sent
e-mails reflecting their political views.

       We believe that Poole’s selection by Herren to serve on the hiring
committee created a risk that the Committee’s judgments and the Section’s
hiring would be subject to future charges of partisanship, particularly in light
of the recent high-profile issues in the Division with regard to politicized hiring
and the efforts by the Division to modify its hiring protocols to ensure that
future hiring decisions were free from actual or perceived politicization. Herren
was a recipient of some of the most partisan e-mails that Poole had
disseminated on the Department’s e-mail system. Poole’s use of Department
resources in this manner potentially called into question his ability to
objectively evaluate applications free from political bias. In addition, Poole’s
practice of expressing his partisan views in Department e-mails was widely
known. 203 However, as noted above, we found no evidence that Poole’s conduct
in making hiring recommendations was infected by his partisanship.


        202 This circumstance stands in contrast to the evidence we found in our prior review of

CRT hiring practices. We found numerous e-mails and witness statements establishing that
Schlozman considered candidates’ political and ideological views. Schlozman’s e-mails, for
example, showed that he spoke with an applicant “to verify his political leanings and it is clear
he is a member of the team,” inquired whether another applicant was “conservative?”, and that
with respect to the Voting Section his “tentative plans are to gerrymander all of those crazy libs
right out of the section.” CRT Report at 21-23.
        203 In response to a draft of this report, Herren objected to our criticism. In written

comments he stated that Poole was only one of three attorneys in the Section in early 2010
who had experience hiring and managing experienced attorneys, and that Poole’s criticisms of
others were not limited to conservatives. Although Herren stated that he could not defend
Poole’s e-mailing practices, he explained that he retained confidence in Poole. According to
Herren:
       I personally worked closely with [Poole] on a number of projects in his time in the
       Voting Section. I saw firsthand his work with attorneys and election officials around
       the country on very sensitive and high profile matters, including Democratic and
       Republican attorneys, election officials, and statewide elected officials. [Poole] was
       exceptionally competent and professional in his work dealings, particularly with
       persons outside the office. I had confidence, based on my extensive personal work
       experience with [Poole], [that] he could separate any personal views from his work.
       Based on my experience, [Poole] had high ethical standards, independent judgment,
       and he handled highly sensitive matters with discretion (in the sense that I never saw
       any evidence that he would leak details about our work). I trusted him. . . . I saw
       nothing during the hiring process that indicated [Poole] did anything wrong. Your draft
                                                                                            Cont’d

                                              217

       We received inconsistent responses from CRT staff to our questions
concerning the purpose of the list of former Voting Section attorneys that
DAAG Fernandes requested in late 2009 – a list that ultimately included 25
former Voting Section attorneys but omitted several former Section attorneys
who were widely perceived to be conservatives. Fernandes stated that she
requested a list of attorneys who had left the Section since 2005 and did not
seek a list that excluded conservatives. Herren told the OIG that he could not
remember how the list of attorneys was compiled, but believed it should have
included attorneys who left during the prior administration, primarily those
who departed the Section due to improper practices like those described in the
prior OIG report. Wertz told us she believed that she may have worked on the
list and said that she thought that Fernandes was looking for staff with
extensive voting rights experience who might be interested in returning.
However, when we pointed out that some attorneys on the list did not have
extensive voting experience, she could not explain why they were included.
She also could not explain why conservatives were left off the list even though
they had significant voting litigation experience. She said that they may not
have been interested in returning, though we found that Voting Section staff
did not make any attempt to gauge the interest of the conservative attorneys.
Berman said that the list was made up of attorneys with redistricting
experience.

       Although we did not receive a consistent explanation for the purpose of
this list, we did not find sufficient evidence to conclude that the list was
actually used in the recruitment and selection of new attorneys for the Voting
Section. However, we found the explanations we received about the list
troubling because it appeared that the list was prepared in part for recruiting
purposes (Fernandes said she thought that there may be former staff who
wanted to return to the Section), people widely perceived to be conservatives
were omitted from it, and staff in the Voting Section failed to provide a
consistent explanation as to why that was the case.

      We believe these incidents point to ongoing risks within the Voting
Section for future violations of merit system principles, as well as for creating
perceptions that CRT engages in favoritism based on ideology and politics. We
believe that the Division should consider instituting several additional
protections that will minimize the risk of prohibited personnel practices, as well
as the perception of favoritism.




      report finds nothing wrong in what [Poole] actually did during the hiring process. I do
      not believe that the alleged perception that [Poole] was partisan or ideological should
      trump the reality that I had reasonable basis for believing he had something of value to
      offer to the process and I honestly believed he could be fair.


                                            218
       We found that the Voting Section’s use of the “general civil rights/public
interest experience” criterion in its evaluation of applicants, without any
greater specificity or definition, was problematic. We recognize why reviewers
might look favorably upon applicants with “general civil rights experience”
and/or “public interest experience” in the context of the Section’s work.
However, we believe that criterion lacked sufficient connection to the
qualifications required for the experienced trial attorney position and, due to its
broad scope and use to assess the degree of applicants’ “commitment” to civil
rights, was vulnerable to misuse to determine applicants’ ideological
leanings. 204 The reasons the committee members gave us for using this
criterion were not persuasively connected to the job skills needed to be a
successful voting rights litigator. We did not understand what this criterion
added beyond the other criteria that the hiring committee employed, such as
experience with the statutes that the Voting Section enforces. 205 Most
committee members stated that it provided some assurance that the applicant
would be interested in the Section’s work and not leave prematurely, and
would have experience interacting with communities that had a history of being
disenfranchised. Two members told us its purpose in part was to gauge the
applicant’s “commitment to civil rights.” One hiring committee member told
us, however, that he was not sure that having such a commitment made the
applicant more qualified or capable of successfully performing voting litigation
work.

       We also found that the “general civil rights/public interest experience”
criterion was not included in the list of sample criteria contained in CRT’s
guidance document for hiring experienced attorneys or the Voting Section’s job
announcement. The guidance emphasizes the importance of specificity in
defining job duties and desired skills and experience:

      Because the type of work, and the skills and experience needed to
      perform that work varies from section to section, CRT does not utilize
      Division-wide selection criteria/qualifications for hiring experienced
      attorneys. Instead, section managers should tailor vacancy
      announcements to reflect the specific duties of the position and the
      specific skills and experience sought by the section (emphasis added).

        We believe that the “general civil rights/public interest experience”
criterion is not sufficiently “tailored” and the explanations provided to us
regarding the practice of assessing the degree of applicants’ civil rights
“commitment” were inadequate. Although we find it unremarkable that staff in
the Civil Rights Division would look favorably upon applicants with relevant
civil rights experience when filling job vacancies (such as voting rights litigators

      204   The criterion was not limited to litigation or investigation experience, for example.
      205   The one committee member retired before we asked about this issue.


                                               219

to fill voting litigation positions), our interviews highlighted the risk that poorly
defined or overly broad hiring criteria can create opportunities to bypass skills
legitimately required or preferred for a particular position in favor of
inappropriate considerations. Evaluating the degree of applicants’ civil rights
“commitment” creates the possible appearance that CRT is searching for
applicants who share political or ideological views common in the liberal civil
rights community. This perception is compounded by the fact that the
“commitment” that passes muster often is demonstrated through work with a
small number of influential civil rights organizations. We found that 43
percent of the “top applicants” (33 of 77), 71 percent of those invited to be
interviewed (17 of 24), and 56 percent of those hired (5 of 9) had an affiliation
with one or more of the following five organizations: ACLU, La Raza, LCCR,
MALDEF and the NAACP. We believe that civil rights organizations, as well as
private law firms, the military, state and local government, and others, can
provide applicants with experiences that are highly relevant to job duties in the
Voting Section.

       If the Voting Section in fact prefers candidates with experience working
with disenfranchised communities, for example, it should establish such work
as one of its hiring criteria rather than subsuming it into a broad experience
criterion that readily can be manipulated to assess one’s commitment to
political or ideological objectives and that adds marginal value to the hiring
process. We believe the same applies for the assessment of applicants’ civil
rights “commitment” as a gauge of their willingness to remain with the Section.
If CRT is concerned that applicants will leave prematurely, they can ask
applicants to commit to stay with the Section for a defined period of time. For
example, the Tax Division requires its new hires to sign a form committing to
four years of continuous service.

      We therefore recommend that the Voting Section better adhere to the
guidance that CRT already has developed for hiring experienced attorneys and
use hiring criteria that are better tailored to the specific duties of the position
and that appear in the Section’s vacancy announcement.

       We also encourage the Voting Section to reevaluate its hiring criteria to
better account for the significant contributions that applicants with limited or
no civil rights experience could make to the Section, especially those with
defensive litigation backgrounds. 206 Our review of the rejected applicant pool
showed that the Voting Section passed over candidates who had stellar
academic credentials and litigation experience with some of the best law firms
in the country, as well as with the Department.


        206 CRT’s guidance for hiring experienced attorneys includes a lengthy list of potential

criteria. CRT sections are not required to use these criteria, however.


                                              220

       Given the extremely high academic performance and professional
achievement that was reflected in the resumes of these applicants, we are not
persuaded that they would be significantly less capable voting rights litigators
than applicants with civil rights backgrounds in disciplines other than voting
(such as employment or housing law). 207 We do not believe that attorneys who
start their careers as tax lawyers or in some other area of the law and who
apply for a position in CRT necessarily lack a sufficient interest in the Section’s
work. For example, financial circumstances may have caused some highly
qualified law school graduates to start their careers in higher-paid law firm
associate positions rather than in the public sector. Moreover, when we asked
Attorney General Holder about the importance of bringing staff to the
Department who have defensive litigation experience, he stated that “[t]here is
value in bringing people in from those different places because . . . career
lawyers don’t have that private practice experience. . . . And I think that mix
makes for a better, healthier Division.”

        We concur with this view and therefore recommend that CRT not place
primary emphasis on a “demonstrated interest in the enforcement of civil rights
laws” as a hiring criterion. As with the assessment of candidates’ “commitment
to civil rights,” we believe that this criterion says little, standing alone, about
one’s litigation skills and adds minimal additional insight about a candidate
beyond what is already provided through use of the criterion that assesses the
candidates’ “substantive knowledge and expertise in the laws, rules and
regulations applicable to the work of the section.” We are hard pressed to
identify a situation where an applicant who has taken the effort to apply for a
position and has such “knowledge and expertise” would at the same time lack a
bona fide “interest” necessary to be successful, and that does not also entail
evaluation of the candidate’s ideology. To the extent that the “demonstrated
interest in the enforcement of civil rights laws” criterion refers to civil rights
litigation experience on behalf of plaintiffs, we believe this criterion overlooks
the value of defensive litigation experience and risks skewing the qualified
applicant pool to candidates having experience of a type that is typically found
with a limited number of civil rights groups.

     In sum, we make the following recommendations. Our first three
recommendations apply specifically to the Voting Section:

       (1) That the Voting Section use hiring criteria that are based on the
specific skills, duties, and experience that are required or preferred for vacant
positions and that appear in the Section’s vacancy announcement;

       207 Wertz told the OIG that the Section was presented with a wealth of voting
experience in the last applicant pool that may not repeat itself, and that if the Section had to
make selections based on general litigation experience it would have to develop additional ways
to rank applicants. We agree with this assessment.


                                             221

      (2) That the Voting Section refrain from relying on the “general civil
rights/public interest” criterion in the future; and

       (3) That the Voting Section adopt hiring criteria that better account for
the significant contributions that applicants with limited or no civil rights
backgrounds can make to the Section, including those with defensive litigation
experience.

      Our fourth recommendation relates to a criterion that is used Division-
wide, and therefore applies to all of CRT:

       (4) That the Civil Rights Division not place primary emphasis on
“demonstrated interest in the enforcement of civil rights laws” as a hiring
criterion.


VI.   Conclusion

       We did not find sufficient evidence to conclude that CRT staff considered
applicants’ political or ideological affiliations when hiring experienced trial
attorneys for the Voting Section in 2010. Nevertheless, the primary criterion
used by the Voting Section hiring committee in assessing the qualifications of
applicants, namely prior voting litigation experience, resulted in a pool of select
candidates that was overwhelmingly Democratic/liberal in affiliation. We were
told that few if any conservative organizations provide voting rights experience
to their employees, which could have contributed to this effect. We found that
prior voting litigation experience was a reasonable criterion to use.
Additionally, our investigation identified several hiring practices that we believe
increased the risk of violating merit system principles and creating perceptions
that the Voting Section engaged in prohibited personnel practices, including
use of a general civil rights/public interest criterion. We therefore made four
recommendations that the Voting Section and CRT should implement to
mitigate these risks.




                                       222

                         CHAPTER SIX

     INVESTIGATION OF ALLEGED POLITICITIZATION OR BIAS IN

             RESPONSE TO REQUESTS FOR RECORDS


I.      Introduction

      This chapter describes the results of our investigation into whether Civil
Rights Division staff, primarily the Voting Section, treated responses to
requests for records differently based upon the political affiliation or ideology of
the requester.

       On February 10, 2011, the OIG received a request from Congressman
Frank R. Wolf to investigate whether the political or ideological position of the
requester may have influenced the timing and nature of the Civil Rights
Division’s responses to requests for records from the public. Congressman
Wolf’s request to the OIG referred us to an attachment to his letter, which
contained a blog post by J. Christian Adams, a former attorney in the Voting
Section, on the blogsite Pajamas Media (renamed PJMedia in October 2011). 208
In his blog post, Adams alleged that CRT provided preferential treatment when
responding to records requests from civil rights groups or individuals alleged to
support “liberal” issues in comparison to requests from Republicans or
individuals or organizations alleged to support “conservative” issues. 209
Adams’s blog post first provided two different examples where requests from
Republicans or conservative media allegedly received slower responses than
those from liberal organizations for similar types of records. Adams’s blog post
then listed 16 separate incidents where “liberals” allegedly received fast
response times, and 10 separate incidents where “conservatives, Republicans,
or political opponents” allegedly received slow response times. The vast
majority of the incidents described in Adams’s blog post related to requests for
Voting Section records. 210

      On April 29, 2011, the OIG notified Congressman Wolf that we intended
to broaden the scope of our review of the Voting Section to include an

        208Appendix E to this report contains a copy of Congressman Wolf’s request to the OIG
and the attached blog post from Mr. Adams.
       209 For purposes of this chapter, we used the same characterizations of individuals or

groups, such as “liberal” and “conservative,” that Adams used in his blog post.
        210Adams also made these same allegations in a written submission to a hearing before
the Senate Judiciary Committee in March 2011. See U.S. Senate Committee on the Judiciary,
The Freedom of Information Act: Ensuring Transparency and Accountability in the Digital Age,
112th Cong., 1st sess., March 15, 2011, 63-69.


                                             223

examination of whether requests for records submitted to the Voting Section
were treated differently based upon the perceived political affiliation or ideology
of the requester. 211 Our investigation of the allegations of disparate treatment
of records requests based on political affiliation of the requesters included both
a review of the particular comparisons identified in Adams’s blog post as well
as a comprehensive review of Voting Section records and internal Voting
Section e-mails to identify other potential instances of disparate treatment or
interference in the records response process.

       To conduct this review, we examined applicable laws, regulations, and
policies governing requests for Voting Section records, and applicable
regulations and standards barring preferential treatment in the performance of
official work. We also examined tens of thousands of Voting Section
documents related to records requests, including records regarding all the
instances of alleged preferential treatment cited in Adams’s blog post; records
regarding requests by the same individuals, organizations or political parties
listed in the article; and thousands of Voting Section e-mails relating to records
requests. We conducted interviews with current and former managers in the
Voting Section, the Division, and the Division’s FOIA Office. We also
interviewed relevant managers and staff in the Voting Section who oversaw and
handled requests for Voting Section records, as well as Mr. Adams.

      Section II of this chapter provides relevant background information,
including an overview of the different kinds of records requests that the Voting
Section receives from the public, and a description of the Voting Section’s
procedures for responding to such records requests and the evolution of those
procedures since 2003. Section III provides our factual findings. Section IV
provides our analysis regarding the allegations, summarizes our conclusions,
and provides a recommendation.


II.    Background

       A.     Relevant Standards of Ethical Conduct

      All Department employees are subject to the Standards of Ethical
Conduct for Executive Branch Employees, codified at 5 C.F.R. Part 2635. See
28 C.F.R. § 45.1. These Standards provide that “employees shall act impartially
and not give preferential treatment to any private organization or individual.” 5
C.F.R. § 2635.101(b)(8). Therefore, with respect to our review here, the
Standards of Ethical Conduct would bar any disparate treatment by Voting

       211  In March and April 2011, the Department reported in correspondence to members
of Congress that these allegations appeared to be unfounded, after it conducted an initial
review of them in response to several congressional oversight requests in February and March
2011.


                                            224

Section employees in response to requests for Voting Section records on the
basis of ideological or political considerations, or personal friendships or
affiliations. 212

       B.     Overview of Records Requests Received by the Voting Section

      The requests for information that the Voting Section receives fall into two
main categories: requests for copies of pending Section 5 submission files, and
requests for information pursuant to FOIA, 5 U.S.C. § 552.

              1.      Requests for Pending Section 5 Submission Files

       Many records requests received in the Voting Section relate to
preclearance submissions made under Section 5 of the Voting Rights Act. As
discussed in Chapter Three, Section 5 requires certain states and jurisdictions
to obtain approval from the Department or the U. S. District Court for the
District of Columbia prior to implementing changes in their election
procedures. The Department has promulgated regulations, referred to as
procedures, that govern the administration of Section 5. See 28 C.F.R. Part 51.
Under these procedures, the public may submit written comments on a
proposed voting change for which preclearance is sought – known as a Section
5 submission – during the 60-day period when the submission is pending
before the Division. See 28 C.F.R. §§ 51.1(a)(2) and 51.29-30. To aid the
public-comment process, the Department’s procedures permit the public to
obtain copies of pending Section 5 submission files upon written request
through regular mail, facsimile, or electronic mail. 28 C.F.R. § 51.50(d).
However, the Department’s procedures also permit portions of pending Section
5 submission files to be withheld to the extent they are exempt from inspection
under FOIA, 5 U.S.C. § 552(b). 213 Id.



       212     Additionally, these Standards provide that “an employee shall not use his public
office . . . for the private gain of friends, relatives, or persons with whom the employee is
affiliated in a nongovernmental capacity.” 5 C.F.R. § 2635.702. An expedited response to a
request for records may be a “private gain” or “benefit” within the meaning of 5 C.F.R. §
2635.702. Therefore, for a Voting Section employee to expedite a response to a request for
records on behalf of a friend would potentially violate 5 C.F.R. § 2635.702. See 5 C.F.R. §
2635.702(a) (example 2). While Congressman Wolf’s request for an OIG investigation focused
on alleged ideological or political bias in response to records requests, our review examined
materials and witnesses for any kind of bias, including one based upon personal ties to the
Voting Section. Other than some general anecdotes discussed below, we did not find specific
instances of bias in responding to records requests based upon personal ties to the Voting
Section since 2009.
       213 Responsive materials typically withheld involve privacy issues, such as home
addresses, phone numbers, or voter registration data, which may be part of a pending Section
5 submission file. See 5 U.S.C. § 552(b)(7)(C).


                                              225

      Public requests for pending Section 5 submission files are time-sensitive,
given the limited 60-day period to submit comments on a proposed voting
change under Department consideration. See 28 C.F.R. §§ 51.1(a)(2), 51.9.
Materials responsive to a request for a pending Section 5 submission file are
usually easily located and gathered by: (1) reviewing the records for the
Section 5 submission that have been loaded on a computer database, referred
to as Submission Tracking and Processing System (STAPS); (2) confirming that
STAPS contains the complete file by reviewing the original paper file for the
particular submission; and (3) conferring with the personnel in the Voting
Section assigned to review the pending Section 5 submission to ensure all
relevant materials are included.

      Due to the time-sensitivity of such requests, we were advised that the
Voting Section gives first priority to responding to requests for records
concerning pending Section 5 submission files. The Department’s procedures
codify this priority by expressly stating that it is the Department’s “intent and
practice to expedite, to the extent possible, requests pertaining to pending
submissions.” 28 C.F.R. § 51.50(d).

            2.     Requests under the FOIA

       Public requests for all other Voting Section records, including closed
Section 5 submission files relating to voting changes no longer under review,
fall under the provisions of FOIA, 5 U.S.C. § 552. The Department’s
implementing regulations for FOIA are set forth in 28 C.F.R. Part 16.

       Absent exigent circumstances, the Voting Section gives second priority to
responses to FOIA requests for Voting Section records that do not involve
pending Section 5 submissions. However, it is Voting Section policy to expedite
requests for closed Section 5 files if the Voting Section determines that those
files are necessary to review in order to be able to provide comments on a
pending Section 5 submission file.

      Under Section 552(b), FOIA sets forth several exemptions that permit an
agency to withhold records in their entirety or in part. 5 U.S.C. § 552(b).
These exemptions provide protections to nine specific categories of records. Id.
These categories include inter-agency or intra-agency documents that would be
unavailable by law to a person or entity in litigation with the agency; and
records compiled for law enforcement purposes if, among other things,
disclosure “could reasonably be expected to” interfere with enforcement
proceedings, or constitute an unwarranted invasion of privacy. See id. §§
552(b)(5), (b)(7)(A), and (b)(7)(C).

      We were told that public requests for Voting Section records under FOIA
are highly variable with respect to the complexity of the request, the volume of
responsive materials, and the difficulty involved in gathering such materials.

                                       226

Such requests have ranged from those seeking a single letter to others seeking,
for example, records regarding a state’s history of compliance with provisions of
the NVRA, or records regarding the total number of Section 5 submissions and
objections interposed by the Department over several decades. We further were
told that some FOIA requests for Voting Section records require extensive
review to determine if certain records should be withheld because they are
exempt from disclosure. See 5 U.S.C. § 552(b). This document screening
process can be time-consuming, even if all responsive materials may be
withheld, because the Department FOIA regulations require an estimate of
withheld responsive materials by page-count or some other form of reasonable
estimation, and a determination of the exemption category that applies to each
withheld responsive document or categories of documents. See 28 C.F.R. §
16.6(c).

       Following receipt of a FOIA request, the Voting Section logs it in and
places it in a queue, which we were told the Voting Section generally endeavors
to address in the order of receipt. However, we were also told that in order to
minimize the number of and processing time for pending requests, the Voting
Section responds promptly to simple requests such as a request for a
determination letter issued by the Department regarding a Section 5
submission or a print-out from the STAPS database. 214 If possible, the Voting
Section also will try to respond promptly to requests involving time constraints
such as a litigation deadline, a request related to a pending Section 5
submission file, or other demonstrated pressing need, provided that such
requests are relatively narrow and not time-consuming. In contrast, complex
requests involving large amounts of time or work will receive slower responses,
even if such requests were received earlier.

      Such “multi-track” processing of FOIA requests is expressly authorized
under FOIA and Department implementing regulations. See 5 U.S.C. §
552(a)(6)(D)(i); 28 C.F.R. § 16.5(b). We were told that the Division’s FOIA Office
and the Voting Section staff notify FOIA requesters that they may receive faster
processing of their requests if they are willing to the narrow the scope of their
requests.

      The Voting Section’s overall prioritization of responses to requests for
Voting Section records was first summarized on November 13, 2003, in a chart
form for inclusion in a Section 5 guidance manual on the Voting Section’s

       214  Witnesses told us that it usually takes a short time (as little as one hour) to locate
responsive information to requests of this type and to send out a response. In addition,
according to managers in the FOIA Office and Voting Section staff, this pragmatic approach
prevents simple requests that may take a short time and involve a few pages of responsive
material from “sitting” in the queue for a very long duration until staff can complete earlier,
voluminous, and time-intensive requests. It also prevents unnecessary increases in the
number of pending requests while complex requests are processed.


                                               227

Intranet. The prioritization of responses, as discussed above, has generally
remained the same since 2003. However, other procedures for processing
requests for Voting Section records have changed over time. The current
procedures are generally summarized on the Voting Section’s Intranet and in
training session handouts for all Section employees. The development of these
procedures is discussed below.

       C.	      Organizational Responsibilities for Responding to Records
                Requests

                1.	    Responses to Requests for Pending Section 5 Submission
                       Files

       Voting Section personnel oversee responses to requests for pending
Section 5 submission files. For such requests, Voting Section personnel search
for, gather, and respond directly to the requester for records that can be
released in their entirety. 215 Voting Section personnel send any responsive
materials that may require redaction to the Division’s FOIA Office for final
determination, processing, and expedited response to the requester with any
redacted materials.

     Three Voting Section employees are assigned to work on requests for
pending Section 5 submission files:

             •	 a Deputy Section Chief, SaraBeth Donovan, who reviews and
                oversees draft responses in addition to other Voting Section
                responsibilities; 216
             •	 an analyst (the “Records Analyst”) who has worked on Voting
                Section records requests for more than 13 years and currently
                does so exclusively due to the backlog, which is discussed in more
                detail below; and
             •	 a full-time contract-attorney who was hired in August 2010 for the
                sole purpose of helping to reduce the large backlog of records
                requests in the Voting Section.




       215 The Voting Section also sends a courtesy copy of these requests and direct
responses to the Division’s FOIA Office, which assigns a FOIA number to such direct responses
from the Voting Section for recordkeeping purposes.

       216   Another Voting Section attorney acts as a back-up reviewer to Donovan when
needed.


                                             228

              2.      Responses to FOIA Requests

      The Division’s FOIA Office oversees responses to FOIA requests for Voting
Section records and records in the 10 other Division sections and Division
leadership offices. The FOIA Office is responsible for ensuring the Division’s
compliance with FOIA, providing guidance and training to Division employees
on FOIA-related issues, and formally responding to requests for records from
the public.

       Upon receipt of a FOIA request for records within the possession of the
Division, the FOIA Office sends a referral to the relevant section and requests
that it search for responsive materials and provide a recommendation
regarding disclosure of any responsive materials. 217 After searching for and
collecting responsive records, Division sections provide these materials to the
FOIA Office to process a response to the requester. In addition, sections
provide their recommendations to the FOIA Office as to what materials can be
released in their entirety, what materials should be withheld fully or partially
under a FOIA exemption, and what materials may be released as discretionary
disclosures even though they could be withheld under FOIA exemption. 218
Once a response is completed, the FOIA Office will issue a formal response to
the requester.

       Within the Voting Section, the same three employees who are responsible
for responding to requests for pending Section 5 submission files are also
responsible for searching, reviewing, and making recommendations for the
release or non-release of materials responsive to FOIA requests for Voting
Section records.



       217  The public can request Voting Section records (pending Section 5 submission files
or records under FOIA) directly by sending an e-mail request to Voting.Section@usdoj.gov, or
by clicking on this e-mail address link on the Section’s Web site, and specifying the records
requested. See http://www.justice.gov/crt/about/vot/ (accessed March 8, 2013). However,
the Voting Section sends a copy of each FOIA request that it receives directly from the public to
the FOIA Office, which logs in the request and refers it back to the Voting Section for a
recommended response.
       218  The FOIA Office generally makes the final determination on the release or non-
release of responsive materials. However, any disagreements between the FOIA Office and a
section can be resolved by the Division’s leadership or at higher levels within the Department.
In response to a Presidential Memorandum declaring that agencies should adopt a
presumption in favor of disclosure on FOIA matters, the Attorney General issued a
memorandum to all heads of agencies in which he, among other things, “strongly encourage[d]
agencies to make discretionary disclosures of information” whenever possible. See Presidential
Memorandum for Heads of Executive Departments and Agencies Concerning the Freedom of
Information Act, 74 Fed. Reg. 4683 (Jan. 26, 2009); Attorney General Memorandum for Heads
of Executive Departments and Agencies Concerning the Freedom of Information Act (Mar. 19,
2009).


                                              229

      D.	   Voting Section Creates Procedures To Respond to Records
            Requests (2003)

       The Records Analyst told the OIG that she believed that prior to August
2003 it was common practice for Section staff to provide Voting Section records
directly to requesters whom they knew personally without the knowledge of
staff who were responsible for records requests. We were told by the Records
Analyst that an incident in approximately August 2003 triggered the adoption
of more formal Section-wide procedures. According to the Records Analyst,
sometime during the summer of 2003, two individuals on opposite sides of
private litigation made separate requests for the same records to the Voting
Section. One requester sought the records directly from Section personnel
whom he knew and received a response immediately outside of the FOIA
process, without the knowledge of Section personnel assigned to handle FOIA
requests. The other requester went through the FOIA process and did not
receive an immediate response. When the other requester discovered that his
opponent in litigation received an immediate response, he lodged a complaint
to the Division’s leadership about disparate treatment.

       In late August 2003, the Division’s leadership held a meeting with
Division FOIA managers, Voting Section managers, and Voting Section
personnel who worked on records requests to discuss this incident of perceived
disparate treatment. Voting Section staff who attended the meeting told the
OIG that Division leadership was obviously displeased about this episode.
Division leadership learned that it was not uncommon for career staff to
provide records directly to requesters whom they knew personally, without
following the FOIA process.

       Following Division leadership directives and the meeting with Division
leadership, the Voting Section took several measures to change the way records
requests would be handled in the future. Voting Section managers issued a
Section-wide directive, “effective immediately” on August 22, 2003, that staff
should not respond to any public requests for Section 5 related materials that
may be used in litigation. In addition, Voting Section managers issued Section-
wide instructions in November 2003 that set forth the procedures and priorities
for responding to records requests, as generally described above in Section II.B.
The Section-wide instructions stated that requests for Voting Section records
were to be handled only by Section personnel assigned to responding to these
matters. Voting Section staff told the OIG that the policy set forth in these
instructions on prioritization of requests is still generally consistent with how
records requests are handled today, although other procedures for processing
requests have changed. According to Voting Section staff, these instructions
represented the first time that policies were distributed to the entire Section for
the various categories of requests for Voting Section records.



                                       230

       As an additional measure, the Division’s leadership instructed the
Division’s FOIA Office to start assigning FOIA tracking numbers for all records
requests, including pending Section 5 file requests, to ensure better
recordkeeping of all responses. Voting Section staff also were instructed to log
all requests and the action taken in response to the request.

       In July 2004, Division leadership requested that the Voting Section
provide immediate notice of requests from major civil rights groups. Hans von
Spakovsky, former counsel to the Division’s AAG, told the OIG that requests
from major civil rights groups warranted immediate notification at the time to
ensure that they were handled appropriately and not being delayed given past
criticism of the Division from these groups. In response, the Voting Section
began providing a monthly chart to Division leadership that summarized all
records requests received, including the identity of the requesters. Mr. von
Spakovsky told the OIG that these procedures were designed to provide
Division leadership with periodic notice and a general picture of the requests
received on particular topics. He also said the procedures were implemented
because of concern over past incidents where staff handled requests without
the FOIA Office’s or Division leadership’s knowledge, and because of the
general perception among some in Division leadership that some Voting Section
staff might show favoritism to advocacy groups with which they had past ties.

       In September 2004, the Voting Section disseminated its first monthly
chart to Division leadership. Voting Section staff told the OIG that the chart
listed the identity of requesters exactly as they identified themselves on their
requests; the date the request was received, a summary of the request, the
status of the request, and the FOIA tracking number for the request. The
Voting Section sent such monthly charts to Division leadership as a routine
matter from September 2004 until at least October 2010. 219

       E.	    Designation of New Manager to Oversee Records Requests in
              2006

      In May 2006, Voting Section Chief John Tanner designated Donovan to
oversee and manage records requests after the Deputy Section Chief who
previously served in this role left the Department. Donovan has managed
records requests since 2006 and was promoted to Deputy Section Chief in
2010. During her tenure, Donovan has systematized the process of records


       219  According to Donovan, the Voting Section stopped sending monthly charts to the
Division leadership because the Division leadership was no longer specifically requesting them,
“not because of an express policy change” by anyone. The Records Analyst added that, as time
passed, new Division leadership personnel did not seem to have a frame of reference for why
they were receiving the charts. However, the Records Analyst stated that the Voting Section
still maintains its own internal charts.


                                             231

requests to prevent potential abuse and has intervened on several occasions to
address individual efforts to circumvent the formal process.

            1.    Systemization of Records Requests and Responses

      Donovan told the OIG that early in her tenure as the attorney overseeing
records requests she discovered that the Voting Section lacked a coherent
system for processing records requests despite the prior measures. For
example, Voting Section staff rarely retained copies of the requests, the
responses recommended to the FOIA Office, or the final responses, and the few
copies that were retained were not organized by date or requester. Donovan
also discovered that Voting Section personnel who were not assigned to FOIA
matters were receiving and forwarding records requests to the FOIA Office
without proper routing memoranda and without notifying her or the Records
Analyst. Donovan attributed the weaknesses in compliance with prior records
management directives to the significant staff turnover during this period.
Donovan told the OIG that prior to her tenure “there was nobody really playing
the cop” regarding compliance with procedures for handling records requests.

      Donovan took several steps to rectify these problems. In April 2007, in
response to her concerns, Voting Section Chief Tanner issued a Section-wide e-
mail emphasizing that all requests for information other than in active cases
should be treated as records requests and be routed immediately to the Voting
Section FOIA team for proper processing. Donovan sent two similar Section-
wide e-mails in August 2007, which further emphasized that records requests
must be in writing and staff should not make any commitments on a response
time. Donovan told us that emphasizing the records procedures was necessary
to ensure that requests were tracked properly and handled consistently.

      Since 2008, the Voting Section has followed formal procedures
established by Donovan for tracking FOIA requests. Each request is
memorialized in a log-in memorandum within a few days of receipt, and the
request and memorandum is then forwarded to the Division’s FOIA Office.
Each record request is retained electronically together with the log-in
memorandum, copies of any material collected in response to the request, and
copies of any subsequent memoranda created in connection with preparing the
response. The Voting Section follows similar record retention procedures to
track responses to pending Section 5 submission files. We confirmed that the
Voting Section had created these electronic records consistent with the
procedures that had been described to us.

      In January 2009 and October 2010, Donovan held training sessions for
Voting Section staff to ensure that they knew how to properly handle records
requests. Donovan held the January 2009 training on Voting Section records
requests procedures for Section 5 staff because she had received several
questions on FOIA procedures from Section 5 analysts. She also told the OIG

                                     232

that training for Section 5 staff was important because the majority of records
requests involve Section 5 file materials (open or closed), and thus Section 5
staff had the greatest potential to mishandle requests or send them directly to
requesters if they were not familiar with the records requests procedures.
Donovan worked with other Voting Section managers to place her written
guidance from the January 2009 training session on the Section’s Intranet for
all Section employees to observe. In October 2010, Donovan held a similar
training session for Section 5 staff and new attorneys to further ensure that
Voting Section staff were aware of and observed proper procedures for records
requests.

              2.	     Response to Incidents of Potential Favoritism from
                      2006-2008

       Donovan told the OIG that early in her tenure as the attorney overseeing
records requests she had to clamp down on Voting Section personnel because
of periodic incidents in which some records requesters used their contacts in
the Section to receive records outside the FOIA process. For example, she told
the OIG that she heard occasionally from 2006 to 2008 that determination
letters or STAPS reports had been sent out without her knowledge. As these
incidents came to her attention, she addressed them with staff.

       In addition, at Donovan’s request, Voting Section managers and FOIA
Office managers addressed efforts by former Voting Section managers to obtain
records directly from staff. 220 For example, we were told that former Voting
Section Chief Tanner (who had left the Section in December 2007) asked
various staff in 2008 to send records to him directly. In response, Section
Chief Christopher Coates stated in an e-mail in July 2008 to Voting Section
managers and staff handling records requests that Tanner “needs to go
through the FOIA and take his place in line” just like any other requester.

        Additionally, Donovan told the OIG that she took similar action with
regard to another former Voting Section manager who sought records directly
from Section employees. According to Voting Section staff, this former
manager also routinely requested expedited responses by claiming that the
responsive materials were needed for litigation. 221 Donovan said that she
initially expedited these requests but realized after she gained more experience
with Department FOIA regulations that this claim was being used improperly to


       220 In Chapter 4, Section III, we discuss the issue of unauthorized disclosures by Voting

Section employees of confidential Voting Section information, including to outside counsel who
was a former Voting Section manager.
       221 Under the Department’s FOIA regulations, a FOIA request may qualify for an
expedited response where it is found that the subject matter of the request involves, among
other things, “the loss of substantial due process rights.” See 28 C.F.R. § 16.5(d).


                                             233

receive expedited treatment. When the former manager persisted in these
requests, Donovan consulted with the FOIA Office, which sent the former
manager a letter to formally notify him that his request for a priority response
due to anticipated, fast-track litigation did not qualify for expedited treatment
under Department FOIA regulations.


III.   Factual Findings

       The allegations contained in the blog post by former Voting Section
attorney Christian Adams identified 18 individuals who had allegedly received
faster compliance with their records requests than had individuals or
organizations allegedly with conservative backgrounds. Adams’s blog post
identified these 18 requesters as individuals that supported “liberal” issues or
were “politically connected civil rights groups.” The list of “liberal” groups
identified by Adams included requesters affiliated with such organizations as
NAACP LDF, MALDEF, the ACLU, and the Native American Rights Fund, and
the alleged response times ranged from same-day service to 20 days. Adams’s
blog post provided few details about these requests beyond the requester’s
name, any affiliated organization, and alleged response time. It provided little
to no information regarding the type or scope of the request. Adams’s blog post
asserted that the alleged quick response time for these requesters was due to
their political affiliation or ideology.

      Adams’s blog post also described 12 requesters who it identified as “well-
known conservatives, Republicans, or political opponents” of the current
administration. Adams’s blog post stated that these requesters had to wait for
long periods of time before getting responses from the Division. This list
included Republican office-holders and other requesters affiliated with such
organizations as the Washington Times, the Center for Individual Rights, and
Judicial Watch. The alleged response times for these requesters were at least
four months or longer. As with the 18 “liberal” requests, Adams’s blog post
provided few details about the 12 “conservative” requests beyond the
requester’s name, any affiliated organization, and alleged response time. It
similarly provided little to no information regarding the type or scope of the
request. Adams’s blog post asserted that the alleged slow response time for
these requesters was likewise due to their political affiliation or ideology.

       Our review investigated the issue of differential response times for Voting
Section records requests from several angles. In subpart A, we examine how
the type of records being requested affected the response times. In particular,
we investigated whether the allegedly faster response times reported in Adams’s
blog post for some requesters were associated with requests for high priority,
easily assembled records, while the longer response times were associated with
complex or non-priority requests under Voting Section policies. In subpart B,
we examine the impact of a rapidly increasing backlog of record requests

                                       234

contributing to the differences in response times reported in Adams’s blog post.
In subpart C, we examine three of the particular comparisons made in Adams’s
blog post. In subpart D, we examine the Voting Section’s responses to other
record requests made by organizations identified as conservative in Adams’s
blog post. In subpart E, we describe the results of our review of tens of
thousands of Voting Section e-mails in evaluating whether there is evidence of
ideological bias in responses to records requests.

       A.     Role of Request Type in Response Times

       Our review of Voting Section records revealed that much of the difference
in response times for the requests cited in Adams’s blog post was attributable
to the type of request made. We determined that 15 or 16 of the 18 requests
identified as receiving preferentially expedited treatment sought pending
Section 5 submission files (or records related to pending submission files). 222
As discussed in detail above, an expedited response for a pending Section 5
submission file request is consistent with Department regulations and Voting
Section policy due to the limited period to comment on a proposed voting
change.

       Our review also determined that none of the 12 requests from
conservatives described in Adams’s blog post sought files related to pending
Section 5 submissions. Indeed, our review of the larger population of
requesters since January 2009 did not identify any conservative requesters
seeking records in this category. Hans von Spakovsky, former Counsel to the
AAG, provided information to the OIG that may help explain this data. He told
the OIG that in his experience the Heritage Foundation, where he has been
employed after leaving the Department, does not comment on pending Section
5 submissions and such activity is usually not an issue of importance to
conservative organizations. He told the OIG that “there’s probably a dozen
liberal advocacy groups that work on voting issues,” that “specialize in looking
at voting issues and they comment a lot on Section 5 submissions when they
get [to the Department].” By contrast, von Spakovsky said that he could “not
think of a single conservative organization that concerns itself or concentrates
on voting issues.” However, von Spakovsky told the OIG that conservative

       222 The uncertainty regarding whether the number is 15 or 16 stems from the following:
Adams’s blog post lists a request from Jenigh Garrett of the NAACP which allegedly received
expedited treatment of “same day service.” Garrett made multiple requests to the Voting
Section since 2009, two of which received expedited responses because they were for pending
Section 5 submission files, and one of which was for a closed Section 5 file. The latter request
was shown as receiving same-day service in Voting Section records, although we determined
the response was in fact sent out approximately one month after the request was originally
made. We do not know which of Garrett’s submissions was referred to in Adams’s blog post,
which is why the number of responses relating to pending Section 5 submission files may be
15 or 16.


                                             235

organizations are spending more time recently on voting issues as a result of
Voting ID proposals.

       Moreover, our review of Voting Section records revealed many instances
where the requesters identified in Adams’s blog post as being affiliated with
“liberal” organizations received slow responses from the Division when they
made requests for records not related to pending Section 5 submissions. For
example:

         •	 Raul Arroyo-Mendoza (Advancement Project): Arroyo-Mendoza
            typically received pending Section 5 submission files within 5 days
            after he requested them. However, the Voting Section required 18
            months to respond to his March 2009 request for a closed Section
            5 submission file.
         •	 Jenigh Garrett (NAACP): Garrett has made multiple records
            requests to the Voting Section. We found that Garrett waited more
            than two and a half years for a response to a request made in
            January 2008 for records regarding state compliance with Section
            2 of the NVRA.
         •	 Laughlin McDonald (ACLU): McDonald requested records
            regarding two closed Section 5 submission files in August 2009.
            Despite the fact that it had not yet responded to his request, on
            May 1, 2012, the Division FOIA Office sent a notice letter to
            McDonald to inform him that his request would be closed unless
            he contacted the Office within 30 days and expressed a continued
            interest in obtaining the requested records. The FOIA Office did
            not receive a response from McDonald to the notice letter and his
            request was administratively closed on June 28, 2012.

We further found that, as of July 2010, when the Division FOIA Office began a
push to complete the 10 oldest pending requests, the NAACP had 2 of the
oldest unaddressed FOIA requests pending with the Voting Section, 1 since
January 2008 and another since July 2008.

      Our review also revealed examples of expedited responses for requests
involving the Republican Party or offices run by a Republican. For example:

         •	 South Carolina Attorney General’s Office: The South Carolina
            Attorney General’s Office received a response in August 2009 five
            days after its request for a 1988 closed Section 5 file, which
            required retrieving and reviewing materials from the Federal
            Records Center and on microfiche. The Voting Section processed
            the response expeditiously after the state said it needed materials
            quickly because it had been sued under Section 5 of the Voting
            Rights Act.

                                      236

           •	 Rick Boyer (Attorney in Virginia): In January 2012, Boyer received
              a response 15 days after his request for records regarding closed
              Section 5 files in which the Department approved the procedures
              used by the Republican Party of Virginia to certify candidates who
              can appear on primary ballots for the presidential election. The
              Voting Section expeditiously processed the response, in
              conformance with the request, due to the then upcoming
              Republican presidential primary election in Virginia in early March
              2012.

These response times are consistent with Voting Section policy, as discussed
above, to expedite where possible requests involving time constraints, provided
that such requests are relatively narrow and records can be located and
processed quickly.

      B.      Role of Increase in Backlog in Differences in Response Times

       We determined that another factor in the differences in response times
has been the dramatic increase in the number of records requests made to the
Voting Section in recent years, which has resulted in a growing backlog of non-
priority requests. We found that this backlog has disproportionately affected
the “conservative” requesters referenced in Adams’s blog because, unlike the
“liberal” requesters he referenced, those requesters generally had not made
requests for documents in any priority categories.

      Donovan told the OIG that the Voting Section has experienced a large
increase in the backlog of pending records requests in recent years. She also
stated that the current backlog will take more than one year to address.
Therefore, she instructed the Records Analyst to call every requester who made
a request during the last year to inform them of the substantial backlog and
determine if a narrower response, such as providing a determination letter or
STAPS report, will resolve their request. The requesters are informed that if
they still wish to receive something other than a priority pending file or a
simple request, the response may take more than one year.

       The data regarding demand for Voting Section records and backlog of
unfilled requests showed a significant increase since 2006. In September
2006, for example, the Voting Section only had four pending records requests.
By comparison, in January 2012 the Voting Section had more than 170
outstanding records requests. Since 2008, the number of unfilled requests has
increased as follows:

           •	 As of January 1, 2008 – 24 outstanding requests;
           •	 As of January 1, 2009 – 46 outstanding requests;
           •	 As of January 1, 2010 – 62 outstanding requests;

                                       237

             •   As of January 1, 2011 – 63 outstanding requests; and
             •   As of January 1, 2012 – 172 outstanding requests.

This trend was largely unchanged at the end of Fiscal Year (FY) 2012
(September 30, 2012). At that time, the Voting Section had 156 of the 209
pending records requests in the Division, or 75 percent of the pending records
requests. 223

      Witnesses told us that this backlog is attributable to a rapid increase in
the number of requests made for Voting Section records since 2008. 224
According to Division records, the Voting Section received 264 records requests
in 2011, comprising approximately 46 percent of all records requests made to
the Division. As shown in the table below, the total number of requests for
Voting Section records has increased since FY 2009 and has represented a
high percentage of all requests made to the Division.

       Table 6.1 – Approximate Number of Requests Since FY 2009


 FY              Total Division Requests         Voting Requests           Percent Voting


 2009            475                             166                       35%


 2010            446                             165                       37%


 2011            569                             264                       46%


 2012            513                             191                       37%


The Chief of the Division’s FOIA Office, Nelson Hermilla, told the OIG that the
Voting Section has received the most records requests among the 11 Division
sections and the Division’s leadership since 2009. 225


      223 In FY 2012, the Voting Section closed 170 requests, or 29 percent of the Division’s

580 FOIA requests.
       224  The Chief of the Division’s FOIA Office, Nelson Hermilla, told the OIG that the
Division’s FOIA backlog is “higher than it’s been . . . for at least 16 years” due to the large
accumulation of requests in the Voting Section.
       225The data in Table 6.1 is for fiscal years, ending on September 30. The Division
received more records requests in FY 2011 than all but the largest components or offices within
the Department (such as the Federal Bureau of Investigation, Bureau of Prisons, Executive
                                                                                         Cont’d

                                                238

       We were told that several factors account for the increase in records
requests and the resulting growth in the backlog. First, the Voting Section
experienced significant demand for pending Section 5 submission files
involving redistricting submissions after the 2010 census, as reflected in the
substantial growth in voting requests from 165 in 2010 to 264 in 2011 shown
in Table 6.1. Donovan told the OIG that the heavy redistricting load is a
significant reason for the recent backlog increase. In addition, the Voting
Section Records Analyst told the OIG that they are spending virtually all of
their time now on pending Section 5 submission file requests. Donovan also
told the OIG that responding to these priority requests for pending redistricting
submissions has increased processing time because the Voting Section must
perform a line-by-line file review for potential privacy or other required
redactions.

      Second, the Voting Section adopted technological improvements that
made it easier for individuals to request records, particularly pending Section 5
submission files. For example, since 2009, records requests can be submitted
by e-mail as discussed above. In addition, individuals can now sign up to
receive electronic notices of Section 5 activity from the Voting Section, which
generates additional requests for pending Section 5 submission files.

       Third, the Voting Section has received several priority requests from
Congress and the U.S. Commission on Civil Rights since 2009 pursuant to
their oversight authority. Such requests are not FOIA requests. However,
Voting Section Chief Chris Herren told the OIG that these requests cannot “just
be put in a queue.” Herren also told the OIG that responding to the oversight
requests on the New Black Panther Party case from the U.S. Commission on
Civil Rights “completely consumed” Voting Section staff for a significant period.
Herren said to us that the multitude of oversight requests as a whole created
the “perfect storm” for the increase in their backlog, which has been
compounded by the 2010 census and demand for pending redistricting
submissions.

       Based on the foregoing, we found that the large increase in demand for
priority record requests since 2008 has been a significant factor in longer
response times for all requests, except priority requests for pending Section 5
submission files or requests for records that are very easily collected. The
increasing backlog has exacerbated the differences in response times between
priority requests and non-priority requests.




Office for Immigration Review, Executive Office for United States Attorneys, United States
Marshals Service, and the Criminal Division) according to data from the Department of Justice
Office of Information Policy.


                                            239
      C.    Examination of Particular Comparisons

      In his blog post, Adams also examined what he considered to be similar
requests made by individuals with ideologically different backgrounds, and
highlighted what he believed was disparate treatment by the Voting Section in
responding to those requests. We summarize our findings on these items
below.

            1.     Ashby/Somach/Hebert

      In Adams’s blog post and his interview with the OIG, he alleged that
Chris Ashby, a Republican election attorney, received a slower response
(“nearly eight months”) to his December 2008 request for 5 submissions made
under Section 5 of the VRA, while Susan Somach of the Georgia Coalition for
the Peoples’ Agenda received “the same type of records” for 23 submissions in
just 20 days. In his interview with the OIG, Adams also compared the
treatment of Ashby with that of Gerry Hebert, a former Voting Section manager
who in February 2009 sought comments submitted in a 1-month period for a
pending Section 5 submission file. Our review of these examples revealed that
Somach and Hebert’s requests related to pending Section 5 submission files
(which were given the highest priority for response) while Ashby’s request
related to closed Section 5 submission files (which were not).

      Additionally, Adams told the OIG that Ashby (who he described as a
Republican) and Hebert (who he described as a “partisan liberal”) sought
“virtually identical information.” He also stated to the OIG that this identical
information was at the Voting Section’s “fingertips” and “not off in some
archive.” In fact, our review revealed the opposite to be the case.

       Donovan told the OIG that responding to Ashby’s request for five closed
submissions files required time to determine the breadth of responsive
information and where it was located. Contemporaneous documents regarding
Ashby’s request showed that some of the five closed files for Ashby’s request
had to be retrieved from the Federal Records Center, and one of the closed files
in the Federal Records Center could not be located. In addition,
contemporaneous documents showed that Division staff had difficulty locating
one closed file that was not in the Federal Records Center and had not been
entered into STAPS. Ashby was sent a response to his request for five closed
Section 5 files approximately 8 months after his request was made, once all the
responsive materials could be located, reviewed, and processed.

      Donovan told the OIG that Hebert represented a jurisdiction that
submitted a Section 5 submission to the Department for preclearance. In
February 2009, Hebert requested any comments from the public on the then-
pending submission received during the past month in order to be able to
respond to them on behalf of the jurisdiction. Contemporaneous documents

                                       240

regarding Hebert’s request showed that records responsive to his request for
any comments during the 1-month period were easily located by reviewing the
file for the pending submission and checking with Division staff assigned to the
submission. Donovan also told the OIG that it required less than one day, and
possibly just one hour, to gather the responsive materials and send out a
response to the Hebert request.

      Therefore, in addition to Ashby’s request being for non-priority materials
while Hebert’s was for priority materials, we found that the Ashby request was
not comparable to the Somach or Hebert requests in difficulty of processing.

              2.	    Media Requests for New Hire Resumes: Boston Globe
                     and Pajamas Media (PJM):

       Adams’s blog post also alleged that Charlie Savage, then a reporter for
the Boston Globe, received a prompt response ahead of the statutory deadline
for a request seeking the resumes of new hires in the Division during the Bush
Administration. It also alleged that Pajamas Media (PJM) had to file a lawsuit
to try to obtain the “exact same information” for new hires during the Obama
Administration. Our investigation revealed that these requests were not
comparable in scope or timeframe.

      In February 2006, Savage sought the resumes of new hires for three
sections in the Division during the period from 2001 to 2006. The Division
FOIA Office, not the Voting Section, was responsible for obtaining the
responsive materials to this request from the HR Office and responding to the
request. We found that the FOIA Office did not substantively respond to the
Savage request ahead of the statutory deadline as stated in Adams’s blog post.
Rather, the FOIA Office sent its standard form letter to Savage approximately
one week after receiving his request. The letter acknowledged receipt of
Savage’s request, provided a FOIA tracking number, and stated that there may
be some delay in processing his request.

       The FOIA Office provided Savage with a substantive response containing
most of the responsive resume material on March 29, 2006, over one month
after his request. A follow-up response was provided on June 28, 2006, over
four months after his initial request, which largely furnished all remaining
responsive and releasable materials. 226

       226 The FOIA Office’s June 28 response notified Savage that there were a few additional
responsive documents that contained potentially sensitive information regarding applicants’
work products with other Department of Justice components and the Department of State.
The FOIA Office informed Savage that it would consult with these other offices and the
Department of State regarding a release recommendation for these documents. On June 14,
2007, the FOIA Office provided one additional document to Savage that the Department of
State agreed to release.


                                             241

       In October 2010, Richard Pollock of PJM sought the resumes of all new
hires for all 11 sections in the Division during the period from 2001 to 2010. 227
As with the Savage request, the Division’ s FOIA Office was responsible for
obtaining the responsive materials to this request from the HR Office and
formally responding to the request. As with the Savage request, the FOIA
Office sent a form letter to Pollock approximately one week after receipt of his
request. The letter, like the letter to Savage, stated that there may be some
delay in processing his request because of the large number of requests
received by the Division.

      Hermilla told the OIG that the request from PJM was broader in scope
and timeframe than that of the Savage request. In addition, Division records
showed that the backlog of pending Voting Section requests was far greater in
2010 than in 2006, as noted above.

      According to Adams’s blog post, PJM filed a lawsuit against the
Department regarding its FOIA request in January 2011. Hermilla told the OIG
that PJM sued the Department “primarily on the basis of delay” in receiving a
response to its request. On April 21, 2011, PJM and the Department reached
an agreement whereby PJM agreed to significantly narrow the scope of PJM’s
request. PJM’s narrowed request, as memorialized in a letter from the
Division's FOIA Office to counsel for PJM on May 13, 2011, sought the resumes
of new hires in all 11 sections in the Division from January 21, 2009, to April
21, 2011. The FOIA Office provided counsel for PJM with responsive resume
materials on May 13, 2011. 228

       Based upon the foregoing, the total response time to the PJM request
was essentially seven months (October 6, 2010 to May 13, 2011), while the
total response time to the Savage request was essentially four and a half
months (February 6, 2006 to June 28, 2006). However, after PJM agreed to
narrow the scope of its request, it received a response less than one month
later, which was faster than the initial response to Savage on March 29, 2006.




       227 Adams’s blog post indicated that PJM initially submitted its request in the spring of
2010, and that it renewed its request by certified mail on October 13, 2010, after not receiving
a response from the Division to its initial request. According to Hermilla, no record of a request
from PJM for Division resumes exists prior to a request dated October 6, 2010, which was
date-stamped as received on October 13, 2010.
       228 Sometime between July 2011 and September 2011 in PJM’s lawsuit proceedings,
the Department provided PJM with a 3-page document that contained an itemized list of
personal interest/hobby information that was redacted on privacy grounds from the resumes
provided on May 13, 2011, without disclosing any identities. On September 1, 2011, PJM and
the Department stipulated to the dismissal of PJM’s complaint.


                                              242

            3.    National Public Radio (NPR)/PJM

      Adams’s blog post also alleged that National Public Radio (NPR) received
a prompt response to its request, while journalists from “conservative media”
received no responses at all. In his interview with the OIG, Adams further
stated that Ari Shapiro of NPR and Jennifer Rubin of PJM sought “similar sorts
of requested information,” but NPR was sent a response in five days and PJM
was still waiting for a response. Our review revealed that these requests were
not comparable in complexity or breadth.

       On February 23, 2009, NPR requested copies of public settlement
agreements filed with courts by the Division during two 1-month periods:
January 19, 2008, through February 19, 2008; and January 19, 2009, through
February 19, 2009. Contemporaneous e-mails relating to this request showed
that virtually all responsive material was retrievable in less than five minutes
merely by printing a report from a Division database. The FOIA Office then
conferred with Division sections to ensure that no information was missing
from the computer report. Donovan told the OIG that she spent approximately
10 minutes on the NPR request. On March 25, 2009, the Division responded
to the request.

      On May 28, 2009, Jennifer Rubin of PJM sent a letter to the Division’s
FOIA Office that contained 21 separate requests for records of communications
from or to certain managers, attorneys, and analysts in the Voting Section on
numerous topics, such as hiring decisions, travel requests, investigations,
outside publication of articles, and interaction with certain advocacy groups.
Hermilla told the OIG that Rubin’s request was “clearly complex” based on the
number of separate requests and the likely potential for a significant volume of
records. He said that Rubin’s request was “among a select . . . 5 percent” of
requests that have involved over 20 separate requests for records in his 27
years in the FOIA Office. He also said that many of the requests targeted
individual attorney communications, thus raising potential personal privacy
issues and issues of Voting Section enforcement sensitivity. Therefore, a “line-
by-line” review of responsive materials would be required.

       On October 4, 2010, Hermilla sent a letter to Rubin asking if she would
consider narrowing the scope of her request to fewer than 21 items to possibly
receive a quicker response. Hermilla told us that Rubin never responded to
this letter.

       Donovan told the OIG that the review of the sensitive material responsive
to this request has been “very time-consuming.” For example, she told us that
one Voting Section attorney alone had 8,000 e-mails that had to be reviewed in
processing Rubin’s request. Additionally, Donovan told us that she has
devoted significant time to address this broad request, but must review and


                                      243

process responsive materials by herself because of the sensitive personal and
managerial information targeted by the request.

      On September 27, 2012, the Division’s FOIA Office closed the Rubin
request by providing Rubin with the responsive materials to her request. We
are concerned that a FOIA request took over 3 years to complete. Nevertheless,
we found that the NPR and PJM requests were not closely comparable with
regard to the difficulty of finding and processing the responsive material. The
bulk of the NPR request could be completed in minutes without the need to
review sensitive information. The PJM request was the opposite.

      Similarly, we found that the requests by journalists from other
organizations that are referenced as conservative in Adams’s blog post (The
Washington Times, Human Events, and the group Judicial Watch) were also not
comparable to the NPR request. The requests by most of those journalists,
which are discussed below, sought records relating to the NBPP case (much of
which was privileged). By contrast, the NPR request was for public settlements
that had been filed in federal court during a 2-month period.

       D.     Other Requests from Alleged Conservative Requesters

       We also examined the Voting Section’s responses to other record
requests made by organizations identified as conservative in Adams’s blog post.
None of these requests sought pending Section 5 submission files or were
otherwise eligible for expedited processing under the Voting Section’s
procedures. For example, 6 of the 12 individuals or organizations cited in
Adams’s blog post as receiving slow response times because they were
“conservatives, Republicans, or political opponents” of the current
administration made requests in the summer of 2009 related to the NBPP
case. 229 With one exception, the FOIA Office sent responsive materials to each
of these requesters on the same day (February 9, 2010), after a 7- to 8-month
wait. 230 These requests were voluminous and involved sensitive materials,
such as evidence collected and records regarding the dismissal of the matter
and decisions not to bring criminal charges, requiring line-by-line review for
exempt information. Donovan told us the requests also were considered
sensitive because there was a pending OPR investigation of the NBPP case.



        229 These six requesters cited in Adams’s blog post were: Congressman Wolf, State

Representative Stephen Barrar (R-PA), Jed Babbin (editor at Human Events), Jerry Seper
(reporter for Washington Times), Jenny Small (researcher for Judicial Watch), and Michael
Rosman (General Counsel for Center for Individual Rights). The NBPP case was a high-profile
matter, which is discussed in Chapter Three.
        230 Congressman Wolf was sent an earlier response, on September 11, 2009, by the

Office of Legislative Affairs.


                                            244

       We found four other requesters in the summer of 2009 who sought
materials related to the NBPP case in addition to the six cited in Adams’s blog
post. Three of these requesters were private citizens and one was the Director
of the Equal Opportunity Office at the University of Georgia. Each of these four
requesters also received a response on February 9, 2010, after a 7- to 8-month
wait. Given the extensive nature of the requests, which encompassed large
amounts of privileged materials, and the consistency in response times for all
requesters, we found that a 7- to 8-month response time did not reflect
ideological or political bias.

       Additionally, Adams’s blog post identified a request from Ben Conery of
The Washington Times. On November 11, 2009, Conery requested records
pertaining to the Department’s objection to the Kinston, North Carolina Section
5 submission. As discussed in Chapter Three, by that date, the Section 5
matter was no longer pending, as the Department had interposed its objection
to the proposed change in August 2009, and the subsequent lawsuit was not
filed until April 2010. Accordingly, the request was not subject to priority
treatment by the Section. Voting Section records and witness statements
demonstrated that the Conery request was processed and sent by the Voting
Section to the Division FOIA Office on April 16, 2010, the same day as six other
requests that sought records pertaining to the same matter.

       Adams’s blog post also identified a request from Jason Torchinsky, who
he described in his post as an “ace GOP lawyer,” alleging that as of February
2011, Torchinsky received no response at all to his request (which was for a
closed Section 5 submission file from 2005). Our review of Voting Section
records indicated that Torchinsky requested the closed Section 5 submission
file on August 19, 2009, and withdrew his request on August 30, 2010, after
Torchinsky had obtained the submission from the locality that submitted it.

      Adams’s blog post also stated that as of February 2011, Jim Boulet of the
English First Foundation had received no response to his request for Division
records. Voting Section records showed that on October 22, 2008, Boulet
submitted a request to then-Attorney General Michael Mukasey for materials
and information from a Department symposium on voting rights enforcement
that had been held at the National Advocacy Center. The letter requested
materials including audio and video recordings and e-mails relating to “the
Department’s interpretation of the statement ‘you must be a citizen to vote’ to
be voter suppression” purportedly made at these meetings.

      Boulet’s request was forwarded to the Division on December 8, 2008. 231
The request did not seek information concerning a pending Section 5

      231 The date stamp on the letter and the date on the routing slip seem to reflect that the

Department did not actually receive the Boulet request until December 8, 2008.


                                             245

submission and did not qualify for expedited treatment under Voting Section
policy. Donovan told the OIG that the nature of the request was challenging
because it took her time to discern the specific statement Boulet referenced, let
alone the Department’s interpretation of it, and construct searches to find
responsive materials. Further, Donovan told us, and contemporaneous e-mails
showed, that the request required coordination with and a search of responsive
materials from Division leadership offices in the Division, the Criminal
Division, and others, which increased the time required for a response. Voting
Section records show that Boulet received a response to his request in
September 2010, which stated that the Division was unable to locate
responsive documents.

      E.	   OIG Review of Internal Voting Section E-mails for Evidence of
            Ideological Bias in FOIA Responses

        In addition to examining the particular record requests and responses
identified in Adams’s blog post, the OIG reviewed tens of thousands of e-mails
relating to FOIA responses in the Voting Section between 2001 and 2010, and
conducted follow-up interviews in instances where we had questions regarding
the timing of the responses. We did not find any evidence during this process
of ideological bias in handling FOIA requests. We did find that some “liberal”
civil rights groups complained to Division leadership about the speed of Voting
Section responses to their records requests, but we did not find evidence that
these complaints resulted in treatment for these groups that was inconsistent
with the priority system established in the Voting Section, as described above.
We summarize the general complaints we observed from civil rights groups and
two specific cases below.

       Voting Section Chief Herren told the OIG that “liberal” civil rights groups
met with Division leadership early in this administration to “complain quite
bitterly” that the Voting Section was not being as responsive as it had been in
the past to their records requests. Herren summarized their complaints to the
OIG as follows: Civil rights groups complained that the Voting Section had
“gone backwards” in terms of general openness. They were critical of the
Voting Section’s policy on privacy redactions, which they perceived unduly
slowed the pace of responses to their requests. They claimed that in the past
they could merely call the Voting Section records staff with their requests and
they would receive them promptly without delay for redactions or a queue
process.

      Herren said to the OIG that these groups put “a lot of pressure” on the
Voting Section to be more responsive and make information more available.
However, Herren told the OIG that it was not possible to address most of their
complaints. Referring to the changes to Voting Section procedures described in
Section II, above, Herren said that Donovan had transitioned the Section’s
records response process away from an ad hoc system to one that was

                                       246

systematic and tracked with institutional controls. Herren told the OIG that he
explained to Division leadership the system and controls that had been put in
place to prevent troublesome incidents, like the 2003 incident involving
disparate treatment of identical requests as described in Section II.D., above.
Herren told the OIG that he informed Division leadership that Donovan had
refined the process with the FOIA Office to institute the proper controls to track
requests, train employees on proper procedures, and treat requesters
consistently. Herren said to the OIG that he did not recall any “push back” or
“pressure [being placed on the Voting Section] to do things differently” from
Division leadership after this process was communicated to them.

      Two specific cases of individuals from civil rights groups complaining to
Division leadership about their perception of slow responses to their requests
for Voting Section records are highlighted next.

              1.      League of United Latin American Citizens

       In August 2009, an attorney for the League of United Latin American
Citizens (LULAC), complained to Julie Fernandes, then a DAAG in the Division,
about slow responses to requests for Section 5 files. The LULAC attorney
claimed that he was able to obtain these records “very quickly” from the Voting
Section in prior administrations simply “by placing a phone call” to Voting
Section staff handling Section 5 issues. In response, Fernandes asked Herren
for the background and status regarding the pending LULAC requests. Herren
provided Fernandes the background on the request, which Donovan compiled
for Herren.

      The LULAC requests in question were made on June 29, 2009, and
August 10, 2009, and sought Section 5 submission files. The August 10
request was for a pending submission and as such was entitled to expedited
treatment. Voting Section personnel were able to complete that request for the
pending Section 5 file request within three weeks. The second requested file
was for a closed Section 5 submission. Donovan told us that she had originally
placed this request in the regular, non-priority queue because it was for a
closed Section 5 file. After the status inquiry and her re-review of the request,
she determined that the request was related to the pending Section 5
submission, as it involved the same county, and was needed in order for
LULAC to comment on the pending Section 5 submission. 232 As discussed
above, expediting a closed Section 5 file request in these circumstances would
be consistent with Voting Section policy. However, it still took the Voting
Section over three months to complete and send a response to LULAC, even
though the LULAC attorney significantly narrowed the request in early

       232 Donovan told the OIG that the closed file request would have “sat in queue” in

accordance with policy if it had been unrelated to the pending Section 5 submission file.


                                             247

September 2009. We found no evidence to conclude that LULAC obtained
preferential treatment as a result of contacting Fernandes.

            2.    Mexican American Legal Defense and Education Fund

      In January 2010, counsel for MALDEF complained to Fernandes about a
slow response by the Voting Section to a request for Section 5 files, which were
requested by MALDEF on October 26, 2009, and were not fully sent out until
January 5, 2010. By the date of the complaint to Fernandes, MALDEF had
already received the response to the records request.

       Contemporaneous documents and follow-up interviews with Voting
Section staff revealed that the request in question was for a file that could have
been processed quicker because a response had been prepared for another
requester a year earlier. In responding to Fernandes’s inquiry, Voting Section
staff explained to Fernandes at the time that demand for Voting Section
records had increased significantly, including time-sensitive pending requests,
and that staff were trying to address voluminous FOIA requests on the NBPP
case. According to contemporaneous Voting Section e-mails, Fernandes agreed
that MALDEF’s complaints were unwarranted and the response time was “more
than reasonable” once she understood the background regarding the request
and response and the existing demand for Voting Section records. We did not
find any evidence that the complaint from the counsel for MALDEF to
Fernandes resulted in any future preferential treatment for MALDEF or
political interference in subsequent records requests by MALDEF.

      Donovan told the OIG that in no case did she feel pressured by Division
leadership to expedite requests simply because managers wanted it done. She
told us that “there needed to be a business reason to expedite [requests],” and
that requests were not expedited on the basis of a requester being a friend of
Division leadership or having access to Division leadership that others did not
have.


IV.   Analysis

       As noted above, the Standards of Ethical Conduct for Executive Branch
Employees require employees to “act impartially and not give preferential
treatment to any private organization or individual” in the performance of
official government business. 5 C.F.R. § 2635.101(b)(8). We did not find
evidence that differences in response times to record requests made to the
Voting Section were attributable to preferential treatment based on the
ideological affiliations of the requesters.

      As detailed above, the vast majority (15 or 16 out of 18) of the alleged
expedited record responses cited in Adams’s blog post were made in response
to requests for pending Section 5 submission files. Requests for pending

                                       248

Section 5 submissions have been given the highest priority under Voting
Section implementing regulations and longstanding policy due to the need to
provide the information in time to enable the requester to file public comments
within the 60-day period permitted under law. Based on our review, it appears
that numerous organizations commonly perceived to be liberal have submitted
requests for records of this type over the years. By contrast, we were unable to
identify any conservative organizations that submitted such requests during
the period of our review. This imbalance among requesters explains the vast
majority of the apparent discrepancies in response time cited in Adams’s blog
post.

       We also examined several comparisons of individual responses
highlighted in Adams’s blog post. As detailed above, in each case we found a
valid, non-ideological explanation for differences in the response times. Often,
the requesters identified as “conservative” submitted requests for records that
were more voluminous and difficult to locate, and required time-consuming
reviews to protect private personal information or privileged material. For
example, in his blog post and interview, Adams compared quick response times
for two requesters he described as liberal (Susan Somach and Gerry Hebert)
with a slow response time for a requester he deemed conservative (Chris
Ashby). The former requests were for readily available, easily assembled
materials as they related to pending Section 5 submission files; the latter was
for many closed files, some of which had to be retrieved from the Federal
Records Center, and some of which could not be readily located. Similarly, the
request for new hire resumes from the Boston Globe reporter was substantially
narrower and more limited in time than the subsequent request for resumes
from PJM, at least until the latter was narrowed as to years, and then it was
responded to relatively quickly. Moreover, as discussed in Section II.B., “multi-
track” processing of FOIA requests, depending on scope and complexity, is
expressly authorized under FOIA and Department implementing regulations.
See 5 U.S.C. § 552(a)(6)(D)(i); 28 C.F.R. § 16.5(b). In sum, we found no
evidence supporting the allegation that differences in response times were the
result of partisan or ideological favoritism.

       We also reviewed tens of thousands of e-mails relating to FOIA responses
in the Voting Section between 2001 and 2010, and conducted follow-up
interviews where we found communications suggesting the possibility of
ideological bias or political interference in a records response from the Voting
Section. Our review did not find any substantiation of ideological favoritism or
political interference in such responses.

      The procedures for responding to requests for Voting Section records
were substantially regularized beginning in 2003, and these procedures were
strengthened beginning in 2006 with Donovan’s appointment to oversee
records requests. We found that these procedures have helped to protect
against bias in responding to records requests.

                                      249

       We are concerned by the fact that the Voting Section currently has a
substantial backlog of records requests. A main factor in the current backlog
is the large increase in requests for pending Section 5 submission files, which
receive first priority in response under Department regulations and policy. See
28 C.F.R. § 51.50(d). As noted above, these requests tend to come almost
exclusively from individuals associated with liberal organizations or advocacy
groups. As the Voting Section continues to work through this backlog, the
dearth of requests in this priority category coming from conservative groups or
individuals could create a deceptive appearance, without more information,
that the Voting Section favors liberal requesters over conservative requesters.
Again, we concluded that any such appearance would likely be the result of
differences in the types of records that have typically been requested by liberal
and conservative requesters, and that no inference of political or ideological
favoritism should be drawn from it where this key difference exists.

       Recommendation:

       To address the mounting backlog for non-pending Section 5 file requests,
we recommend that the Voting Section consider devoting at least temporarily
more resources to handling such requests. We are mindful of the fact that
most components are pressed for resources to fulfill their many obligations and
that budgets have shrunk. However, the Voting Section and Division
leadership should consider temporarily assigning additional staff and
managers to help process the increased demand for Voting Section records, in
order to reduce the current backlog. Such a stopgap measure is consistent
with past measures taken by other agencies under similar circumstances,
according to findings and guidance from the Department’s Office of Information
Policy. 233




       233  See Office of Information Policy, 2010 Summary of Agency Chief FOIA Officer
Reports, Section II.D.4., and Section V.F., (noting how other agencies utilize non-FOIA staff to
assist on a temporary basis during peak workload periods and to address backlogs)
(http://www.justice.gov/oip/foiapost/2010foiapost23.htm (accessed March 8, 2013)).


                                              250

                             CHAPTER SEVEN

                              CONCLUSION

       This review examined several issues: the types of cases brought by the
Voting Section and any changes in the types of cases over time; any changes in
Voting Section enforcement policies or procedures over time; whether the
Voting Section has enforced the civil rights laws in a non-discriminatory
manner; and whether any Voting Section employees have been harassed for
participating in the investigation or prosecution of particular matters. We
focused on the period since 2001, addressing enforcement decisions made
during the last two administrations and allegations of harassment during the
same period. Our review was subsequently expanded to address allegations
about how the Voting Section processed information requests, and about hiring
practices in the Voting Section from 2009 to 2011.

       As detailed in Chapter Three, our examination of the mix and volume of
enforcement cases brought by the Voting Section revealed some changes in
enforcement priorities over time, but we found insufficient support for a
conclusion that Division leadership in either the prior or current
administration improperly refused to enforce the voting rights laws on behalf of
any particular group of voters, or that either administration used the
enforcement of the voting laws to seek improper partisan advantage. Although
we had concerns about particular decisions in a few cases, we found
insufficient evidence to conclude that the substantive enforcement decisions by
Division leadership in Voting Section cases were made in a discriminatory
manner. Our conclusion encompasses our review of some of the more
controversial enforcement decisions made in Voting Section cases from 2002
through 2011, by Division leadership in both the prior and current
administrations.

      Notwithstanding this conclusion, our investigation revealed several
incidents in which deep ideological polarization fueled disputes and mistrust
that harmed the functioning of the Voting Section. As detailed in Chapter
Four, these disputes arose at various times both among career employees in
the Voting Section and between career employees and politically appointed
leadership in CRT. On some occasions the incidents involved the harassment
and marginalization of employees and managers.

       We believe that the high partisan stakes associated with some of the
statutes that the Voting Section enforces have contributed to polarization and
mistrust within the Section. Among other things, the Voting Section reviews
redistricting cases that can change the composition of Congressional
delegations and voter ID laws that have actual or perceived impacts on the
composition of the eligible electorate. Moreover, the Division’s leadership
makes choices on Voting Section enforcement priorities – such as whether to

                                      251

give greater emphasis to provisions intended to increase voter registration or
those intended to ensure the integrity of registration lists and prevent voter
fraud – that are widely perceived to affect the electoral prospects of the political
parties differently. We found that people on different sides of internal disputes
about particular cases in the Voting Section have been quick to suspect those
on the other side of partisan motivations, heightening the sense of polarization
in the Section. The cycles of actions and reactions that we found resulted from
this mistrust were, in many instances, incompatible with the proper
functioning of a component of the Department.

       Polarization within the Voting Section has been exacerbated by another
factor. In recent years a debate has arisen about whether voting rights laws
that were enacted in response to discrimination against Blacks and other
minorities also should be used to challenge allegedly improper voting practices
that harm White voters. Views on this question among many employees within
the Voting Section were sharply divergent and strongly held. Disputes were
ignited when the Division’s leadership decided to pursue particular cases or
investigations on behalf of White victims, and more recently when Division
leadership stated that it would focus on “traditional” civil rights cases on behalf
of racial or ethnic minorities who have been the historical victims of
discrimination.

       The scope of our review did not permit us to trace the source of mistrust
and polarization within the Voting Section back to a single event or decision, if
that were even possible. One significant event, and the earliest one we address
in this report, was the decision by the outgoing Division leadership during the
transition period in December 2000 and January 2001 to greatly accelerate the
hiring procedure for new attorneys in the Section and elsewhere in the
Division. We were told that this surge in hiring took place in the context of a
longer-term increase in Division resources made available by Congress.
However, as we discuss in Chapter Five, we concluded that the acceleration of
this activity during the 2000-2001 period at a minimum created the
perception, both among long-time senior career professionals who were
involved in the process and among the political appointees in the incoming
Division leadership, that it was done in order to hire attorneys perceived to
favor the enforcement philosophy of the outgoing administration and to limit
the ability of the incoming administration to make its own hiring and resource
allocation decisions. We found that these actions generated mistrust between
the incoming political leadership in the Division who discovered that the hiring
campaign had occurred and the holdover career leadership who participated in
the hiring effort.

      The polarization and suspicion became particularly acute during the
period from 2003 to 2007, including when Bradley Schlozman supervised the
Voting Section in his capacity as Principal DAAG and Acting AAG. As detailed
in a prior report by the OIG and OPR, Schlozman illegally recruited new

                                        252

attorneys into the Voting Section and other parts of the Division based on their
conservative affiliations. As was evident from the e-mails we cited in our earlier
report, Schlozman’s low opinion of incumbent career attorneys in the Voting
Section was based in significant part on their perceived liberal ideology and
was not a well-kept secret. During this review, we found that Schlozman’s
decision to transfer Deputy Section Chief Berman out of the Voting Section in
2006 was motivated at least in part by ideological considerations.

        We also found that some career employees in the Voting Section
contributed significantly to the atmosphere of polarization and distrust by
harassing other career employees due at least in part to their political ideology
or for positions taken on particular cases. As detailed in Chapter Four, some
career staff assigned to the Georgia Voter ID Section 5 preclearance matter in
2005 behaved in an unprofessional manner toward one attorney who was
perceived to be ideologically close to Division leadership. The behavior
included outward hostility, snide and mocking e-mails, and accessing the
attorney’s electronic documents on the Voting Section shared drive without his
permission. In 2007, some career employees made offensive and racially
charged comments to and about a student intern who volunteered to assist the
trial team in the controversial Noxubee matter, which was the first Section 2
case brought against minority defendants on behalf of White voters. Division
leadership reprimanded one career attorney and counseled two others for this
conduct. We also found that some Voting Section employees criticized and
mocked the trial team in e-mails to each other at work, sometimes using
inappropriate and intemperate language.

      In 2007, three male attorneys who were widely perceived to be
conservatives were counseled for making highly offensive and inappropriate
sexual remarks about a female employee, together with remarks that she was
“pro-black” in her work. Later that year, during a period of high tension in the
Section, at least three career Voting Section employees posted comments on
widely read websites concerning Voting Section work and personnel. Some of
the postings included a wide array of inappropriate remarks and attacks, as
well as highly offensive and potentially threatening statements. The postings
included non-public information about attorneys, managers, and internal
Department matters. They reflected exceptionally poor judgment and may have
constituted a violation of Department regulations or policies. We do not believe
that Voting Section or Division managers responded adequately to some of
these incidents. We were especially troubled that a non-attorney Voting
Section supervisor, who knew of a subordinate’s improper conduct, not only
suggested that the employee disregard counseling and admonishment from
Section leadership, but also encouraged the subordinate to continue the
improper conduct.

       The functioning of the Voting Section and the relationship between
political appointees in the Division’s leadership and career employees was

                                       253

further undermined by unauthorized disclosures of confidential information
about internal deliberations and debates in several controversial matters,
including the Mississippi and Texas redistricting matters and the Georgia Voter
ID matter, which we also discuss in Chapter Four. Managers responded to the
threat of further disclosures by limiting career staff access to information and
imposing stricter secrecy on more sensitive projects. Despite these efforts,
unauthorized disclosures of sensitive and confidential Voting Section
information, apparently for political purposes, have continued to the present
time. We believe that these disclosures and the responses to them came at a
cost to trust, collegiality, and cooperation, and increased the appearance of
politicization of the Voting Section’s work. While it was beyond the scope of
our review to determine the specific source of these unauthorized disclosures,
the impact that they had on the relationship between Division leadership and
career staff and the operation of the Voting Section was readily apparent to us.

      In January 2009, a new President was inaugurated and, soon after, new
leadership took office in the Department and the Division. A transition team
memorandum that was provided to the incoming Department leadership
advised them that, in reviewing the career leadership in the Division, “care
should be taken to insure that any changes will protect the integrity and
professionalism of the Division's career attorneys and will not be perceived as
the politicization pendulum just swinging in a new direction.” Despite this
admonition, we found that the polarization in the Voting Section continued, as
evidenced by several events.

       For example, we found that starting in April 2009, there were serious
discussions among senior leadership in the Division and the Department about
removing Christopher Coates as Chief of the Voting Section, at least in part
because of a belief that Coates had a “very conservative view of civil rights law”
and wanted to make “reverse-discrimination” cases such a high priority in the
Voting Section that it would have a negative impact on the Section’s ability to
do “traditional” cases on behalf of racial and language-minority voters.
However, we found no evidence that Coates had declined to implement the
decisions or policies of the new administration at the time of this effort, despite
his admittedly conservative views and his acknowledged willingness to pursue
“reverse-discrimination” cases. Division leaders also believed, based in part on
complaints from career employees, that Coates was a flawed manager and a
divisive figure whose removal would improve the functioning and morale of the
Voting Section. After career officials in JMD told Division leadership that the
then-existing record would not support a performance-based removal, an effort
was then undertaken by Division leadership to document Coates’s performance
deficiencies. Ultimately, however, Coates requested and was granted a transfer
out of the Division. We found the manner in which the Coates matter was
handled further increased the appearance of politicization of the Voting
Section.


                                       254

      We also found that in 2009, then-Section Chief Coates placed a career
Section manager on the Honors Program Hiring Committee in order to
“balance” the political views of a different committee member who Coates
considered to be liberal. Almost immediately thereafter, DAAG Fernandes
explored removing the manager from the committee due at least in part to his
perceived conservative ideology, although she abandoned this effort. We found
that considering the political or ideological leanings of employees in
determining the composition of a hiring committee was inappropriate.

       The continued polarization within the Voting Section also came into
focus during “brown bag” meetings between Section personnel and DAAG
Fernandes in 2009. During one meeting about Section 2 enforcement, in
September 2009, Fernandes made comments about Division leadership’s
intention to prioritize “traditional civil rights enforcement” on behalf of racial or
ethnic minorities. Some career staff interpreted her comments to signal that
Division leadership had a blanket policy of not pursing Section 2 cases against
Black defendants or on behalf of White voters. At another meeting later in
2009, Fernandes made comments about Division leadership’s intention to
focus on enforcing the “voter access” provisions of the NVRA that some career
staff interpreted to mean that the administration would take no steps to
enforce the “list-maintenance” provisions of the statute, the former of which are
perceived to be supported by liberals while the latter are perceived to be favored
by conservatives. Fernandes told the OIG that her comments at both meetings
were not intended to convey the absolutist positions that some witnesses
attributed to them, but rather reflected her understanding of Division
leadership’s legitimate enforcement priorities. At a minimum, these incidents
reveal that the politically charged atmosphere and polarization within the
Voting Section continued even after the 2009 change in the Division’s
leadership.

       During the course of our investigation, we received additional allegations
about the unfair treatment of perceived liberals by Section or Division
management from 2003 to 2008, and additional allegations about the unfair
treatment of perceived conservatives by Section or Division management from
2009 to the present. These included allegations that career attorneys received
undesirable assignments or unfavorable performance reviews and that Division
leadership refused to approve cases that the attorneys proposed because of
political or ideological bias. We could not investigate many of these allegations,
but we were struck by the perception within the Voting Section that this sort of
conduct has continued across administrations. Again, we believe that the
perception that some career employees are disfavored by management due to
their political views is unusual in the Department, and that it hampers Section
operations and undermines the perception of impartial law enforcement.

      We did not find sufficient evidence to substantiate allegations about
partisanship in hiring. As detailed in Chapter Five, our review did not

                                        255

substantiate allegations that the Voting Section considered applicants’ political
or ideological affiliations when hiring experienced trial attorneys in 2010.
Nevertheless, we found that the primary criterion used in assessing the
qualification of the 482 applicants, namely prior voting litigation experience,
resulted in a pool of 24 candidates selected to be interviewed (9 of which were
ultimately hired) that had overwhelmingly liberal or Democratic affiliations.
Although we found that the composition of the selected candidates was the
result of the application of objectively neutral hiring criteria, this result
contributed to the perception of continued politicization in the Section. We
recommend steps that the Section should take to avoid creating perceptions of
ideologically biased hiring.

       Our investigation also found no support for allegations that partisan
allies of the current administration received preferential treatment in the
Voting Section’s responses to requests for records, including FOIA requests. As
detailed in Chapter Six, we found that differences in the time it took for the
Voting Section to respond to records requests were attributable to variance in
the time-sensitivity of the requests, the complexity and size of the requests,
and the difficulty of locating responsive documents. We found that the Voting
Section regularized and strengthened its procedures for responding to records
requests in 2003 and since 2006, and that these procedures have helped
protect against favoritism in responding to records requests. Nevertheless, we
are concerned about the increasing backlog of requests in the Voting Section,
which may be contributing to the appearance of politicization in responding to
such requests, and we made a recommendation to address the issue.

       Although we did not conclude that substantive enforcement decisions in
the Voting Section during the period of our review were infected by partisan or
racial bias, we believe that the perception remains that enforcement of the
voting laws has changed with the election results. Much of this perception is a
byproduct of legitimate shifts in enforcement priorities between different
administrations. However, some of it has been fed by the incidents of
polarization, discord, and harassment within the Voting Section described in
this report. It is precisely because of the political sensitivity of the Voting
Section’s cases that it is essential that Division leaders and Voting Section
managers be particularly vigilant to ensure that enforcement decisions – and
the processes used to arrive at them – are, and appear to be, based solely on
the merits and free from improper partisan or racial considerations.

       In the highly controversial NBPP matter, we found that the decisions that
were reached by both administrations were ultimately supportable on non-
racial and non-partisan grounds. However, we also found that the manner in
which the outgoing administration filed the case without following usual
practice and the new administration’s dismissal of Jackson as a defendant at
the eleventh hour, particularly viewing the latter in the context of the
contemporaneous discussions about removing Coates as Section Chief, both

                                      256

risked undermining confidence in the non-ideological enforcement of the voting
rights laws.

       We do not believe that ideological polarization and bitter controversy
within the Section are an inevitable consequence of the high political stakes in
some Voting Section cases. Other Department components – including
components that specialize in subject areas that are also politically
controversial, such as environmental protection – do not appear to suffer from
the same degree of polarization and internecine conflict. We believe the
difference is largely a function of leadership and culture, and that steps must
be taken to address the professional culture of the Voting Section and the
perception that political or ideological considerations have affected important
administrative and enforcement decisions there.

       Given the troubling history of polarization in the Voting Section, Division
leadership needs to promote impartiality, continuity, and professionalism as
critical values in the Voting Section, and leadership and career staff alike must
embrace a culture where ideological diversity is viewed as beneficial and
dissenting viewpoints in internal deliberations are welcomed and respected.
We also believe that leadership and career staff must be continually mindful of
the need to ensure the public’s confidence in the Voting Section’s impartiality.
We were surprised and dismayed at the amount of blatantly partisan political
commentary that we found in e-mails sent by some Voting Section employees
on Department computers. We recognize that Voting Section employees, no
less than other Department employees, are entitled to their individual political
views. However, the importance of separating such views from Section work is
paramount. Government e-mails are readily forwarded and reproduced, and
political commentary that is intended to be private may quickly become public,
which could further exacerbate the appearance of politicization in the Section
and undermine the public’s confidence in the Department.

       The Department’s leadership also should avoid the use of direct
communications with staff attorneys with the explicit or implicit understanding
that intermediate supervisors who are not trusted by management will not be
included in or informed about the communications. We saw this practice
during the prior administration in the Georgia Voter ID case in 2005 and
during the current administration in the exclusion of Section Chief Coates from
some voting-related projects in 2009. We believe that communications of this
type between Division or Department leadership and career personnel that
intentionally exclude the career employees’ supervisors are indicative of a
dysfunctional management chain and can only feed mistrust and polarization.

      Employees in the Voting Section have a critical role to play in improving
the Section’s culture. Employees must appreciate the importance of public
confidence in the impartial enforcement of the voting rights laws. They must
also be prepared to implement legitimate enforcement priorities set by Division

                                       257

management even if the employees disagree with them. The pattern of
undermining Division management and other career employees through
personal attacks in blog posts and the unauthorized disclosure of confidential
and privileged information must stop. Department employees have several
options for addressing instances of actual or perceived misconduct or
mismanagement, including reporting them to the OIG and OPR.

       Many of the career and political employees who were involved in the most
troubling incidents described in this report have left the Department and are
no longer subject to administrative discipline. However, several of the
incidents involved conduct by current Department employees and we are
referring those matters to the Department for a determination of whether
discipline or other administration action with respect to each of them is
appropriate.

       The conduct that we discovered and document in this report reflects a
disappointing lack of professionalism by some Department employees over an
extended period of time, during two administrations, and across various facets
of the Voting Section’s operations. In the Department, professionalism means
more than technical expertise – it means operating in a manner that
consciously ensures both the appearance and the reality of even-handed, fair
and mature decision-making, carried out without regard to partisan or other
improper considerations. Moving forward, the Department’s leadership should
take steps consistent with the findings and recommendations contained in this
report to ensure that the actions and decisions of the Section and its employees
meet the standards of professionalism and impartiality that are rightly
expected and demanded by the public of the Department of Justice.




                                      258

APPENDIX A 

                                                            u.s. Department of Justice
                                                            Civil Rights Division




Office of the Assistant Attorney General 	                  Washington, D. C. 20530




 MEMORANDUM

 TO: 	                  Michael E. Horowitz 

                        Inspector General 


 FROM: 	                Thomas E. perezt f p 

                        Assistant Attorney General 

                        Civil Rights Division 


 DATE: 	                March 11,2013

 RE: 	                  Response to the Office of the Inspector General's report entitled Review ofthe 

                        Operations ofthe Voting Section ofthe Civil Rights Division. 



         Thank you for the opportunity to provide this response to the report by the Office of the
  Inspector General entitled Review ofthe Operations ofthe Voting Section ofthe Civil Rights
  Division.

          The report examines the Voting Section's enforcement of the federal voting rights laws
  over time. We agree with your conclusion that since 2009, "the decisions that Division or
  Section leadership made in controversial cases did not substantiate claims of political or racial
  bias." Report at 114.

           The report also examines the hiring process for selecting experienced trial attorneys in
  the Voting Section in 2010. You reviewed "thousands of internal CRT documents, including e­
  mails, hand-written notes, and interviews of CRT staff," and concluded that this review "did not
  reveal that CRT staff allowed political or ideological bias to influence their hiring decisions."
  Report at 214. We agree with this conclusion, and with your findings that "the backgrounds of
  the Voting Section's new attorneys revealed a high degree of academic and professional
  achievement," Report at 204; that "the new hires as a group had significantly more litigation
  experience than the candidates who were not hired," Report at 211; and that "prior voting
  litigation experience was a reasonable criterion to use" in selecting experienced trial attorneys.
  Report at 222.

         In addition, the report examines the Division's and the Voting Section's process for
  responding to Freedom of Information Act requests and other public requests for records. We
  agree with your conclusions that since 2009, there is "no evidence supporting the allegation that
differences in response times were the result of partisan or ideological favoritism,” and that your
review “did not find any substantiation of ideological favoritism or political interference in such
responses.” Report at 249.

        Finally, the report examines complaints of staff mistreatment based on actual or
perceived political ideology, directed at both conservative and liberal employees. The
complaints you examined were concentrated in the period from 2004 to 2007, but included two
instances in 2009. We agree that mistreatment of Division employees based on their political
ideology is never appropriate, and in the past several years we have implemented a number of
measures to ensure that the Division and the Voting Section continue to maintain a professional
and collegial work environment. Notwithstanding our agreement that you have identified several
instances of unacceptable conduct, we do have concerns about other aspects of your examination
of these issues, which we describe further below.

      In the remainder of this letter, we address some of the conclusions in your report with
which we concur, while noting some aspects of the report with which we do not agree.

The Division’s Enforcement of Voting Rights Laws

         Chapter Three of the report examines trends in the Voting Section’s enforcement activity
over time. We agree with the conclusion in this chapter that substantive enforcement decisions
since 2009 were not motivated by improper partisan or racial factors and did not improperly
favor or disfavor any particular group of voters. Report at 114. Regarding the New Black
Panther Party litigation, we agree with the conclusion you have reached – as the OPR also found
in its 2011 report – that the decisions to dismiss three of the defendants and limit the injunctive
relief sought against the fourth were not the result of improper racial or political considerations.
Report at 114. We agree as well with the finding of both the OIG and the OPR that political
leadership did not direct the outcome of the case. Report at 71.

        Because your investigation did not include a review of our enforcement activities since
the end of 2011, your report does not fully capture one of the most significant trends in the
Voting Section’s enforcement activity over time – namely, that the Voting Section’s workload
and productivity in the past two years increased to what we believe are among the highest levels
ever. The Voting Section began participation in 43 new cases in fiscal year 2012 – the largest
number of new litigation matters in any fiscal year ever, to the best of our knowledge. This
number of new matters exceeded the prior year’s activity level by a significant margin, and that
year was itself a record fiscal year, with 27 new cases. During this time period, we expended
considerable resources litigating declaratory judgment actions under Section 5 of the Voting
Rights Act that blocked discriminatory voting changes from taking effect (including four cases
that went to trial in the D.C. District Court in 2012); defending the constitutionality of Section 5;
and aggressively enforcing the statute that protects the rights of servicemembers and overseas
citizens to participate in our democracy. 1 The Voting Section also dramatically expanded its

1
 In 2012 alone, the Voting Section participated in the following cases that resulted in published judicial decisions,
not including consent decrees, amicus participation, or appellate cases: South Carolina v. United States, No. 12-cv­
203, 2012 WL 4814094 (D.D.C. Oct. 10, 2012) (three-judge court) (Section 5 preclearance for South Carolina voter
ID law granted in part and denied in part); Texas v. Holder, No. 12-cv-128, 2012 WL 3743676 (D.D.C. Aug. 30,
2012) (three-judge court) (denying preclearance for photo identification requirement for in-person voting); Texas v.


                                                          2

amicus practice, filing more amicus briefs in the last fiscal year than in the previous nine years
combined.

The Voting Section’s Process for Hiring Experienced Trial Attorneys

        Chapter Five of the report examines the Voting Section’s hiring of experienced trial
attorneys in 2010. We agree with the report’s conclusions in this chapter that the Voting
Section’s selection process for these attorneys was based on legitimate criteria, “particularly in
light of the Voting Section’s stated need for experienced attorneys who would be ready to ‘hit
the ground running’ by leading complex voting rights cases immediately.” Report at 216. The
report also confirms that politics and ideology were not considered in making hiring decisions,
see Report at 203, 214, 216, 255-56; that the successful candidates had “a high degree of
academic and professional achievement,” Report at 204; and that the successful candidates had
significantly more voting litigation experience than the candidates who were not hired. Report at
215 (“78 percent of the new hires (7 of 9) had 2 or more years of voting litigation experience
compared to only 3 percent (15 of 473) of all rejected applicants.”).

        The Division took seriously the findings of the 2008 OIG/OPR report on politicized
hiring and other personnel practices in the Division. 2 One of my first priorities after being
confirmed as Assistant Attorney General in October 2009 was to adopt significant reforms to the
Division’s hiring process to implement the recommendations in the 2008 OIG/OPR report. The
Division also put in place significant additional safeguards beyond those recommended by the
2008 OIG/OPR report, as you note. Report at 193 n.176. Our goals in implementing these
significant reforms were to restore merit-based, career-driven hiring, and to ensure that the hiring
practices from 2003 to 2006, which the 2008 OIG/OPR report found to be illegal, are not
repeated.

        The OIG’s conclusions in this report demonstrate that the safeguards the Division created
were effective in ensuring that political and ideological affiliations were not considered during
the career hiring process. In its investigation, the OIG reviewed “thousands of internal CRT
documents, including e-mails, hand-written notes, and interviews of CRT staff who participated

United States, No. 11-cv-1303, 2012 WL 3671924 (D.D.C. Aug. 28, 2012) (three-judge court) (denying
preclearance for statewide redistricting plans); Florida v. United States, 885 F. Supp. 2d 299 (D.D.C. 2012) (three­
judge court) (denying preclearance for early voting changes, and granting preclearance for change-of-address
procedures); Chisom v. Jindal, No. 86-cv-4075, 2012 WL 3891594 (E.D. La. Sept. 1, 2012) (holding that an earlier
consent decree entered into by the United States, private plaintiffs, and the State of Louisiana to resolve a Section 2
lawsuit determined the process for who would become the next chief justice of the state supreme court); United
States v. Alabama, 857 F. Supp. 2d 1236 (M.D. Ala. 2012) (granting motion for preliminary injunction in UOCAVA
lawsuit); United States v. Alabama, No. 12-cv-179, 2012 WL 642312 (M.D. Ala. Feb. 28, 2012) (order); United
States v. Georgia, No. 12-cv-2230, 2012 WL 4336257 (N.D. Ga. July 05, 2012) (granting preliminary injunction in
UOCAVA lawsuit); United States v. New York, No. 10-cv-1214, 2012 WL 254263 (N.D.N.Y. Jan. 27, 2012)
(granting motion for permanent and supplemental relief in UOCAVA lawsuit); United States v. Florida, 870 F.
Supp. 2d 1346 (N.D. Fla. 2012) (finding that Florida’s list maintenance program likely violated Section 8 of the
NVRA, but denying temporary restraining order on the ground that Florida had voluntarily suspended that program).
2
 See Report of the Office of the Inspector General and the Office of Professional Responsibility, An Investigation of
Allegations of Politicized Hiring and Other Improper Personnel Actions in the Civil Rights Division (July 2008), at
www.justice.gov/opr/oig-opr-iaph-crd.pdf.



                                                          3

in the selection of the Voting Section’s experienced attorneys,” and this review “did not reveal
that CRT staff allowed political or ideological bias to influence their hiring decisions.” Report at
214. Instead, merit-based considerations such as voting litigation experience governed the 2010
hiring decisions that the OIG examined. Report at 215 (“Our interviews with hiring committee
members, review of contemporaneous notes taken during the hiring committee’s deliberations,
and assessment of its recommendations showed that litigation experience involving voting rights
and the statutes that the Voting Section enforces were highly important to the hiring committee’s
review of applications.”). Indeed, the hiring committee’s emphasis on voting litigation
experience has proven to be tremendously valuable in light of the heavy litigation demands the
Voting Section confronted in 2011 and 2012, which were among the Section’s busiest years ever
in terms of trial practice.

        Although the report concludes both that the hiring process complied with federal laws
and Department policies, and that the selection criteria were appropriate, the OIG includes
several recommendations to mitigate any residual risks of violating merit system principles in the
future and to avoid any perception of prohibited personnel practices. These recommendations
include that the Division and the Voting Section “refrain from relying on the ‘general civil rights
/ public interest’ criterion in the future’”; “not place primary emphasis on ‘demonstrated interest
in the enforcement of civil rights laws’ as a hiring criterion”; and better account for the
“significant contributions that applicants with limited or no civil rights backgrounds can make to
the Section.” Report at 222. We appreciate the OIG’s focus on further prophylactic steps the
Division may be able to take to continue refining its hiring practices. We also agree that
attorneys with a wide range of substantive backgrounds can make – and have made – important
contributions to the work of the Division and the Voting Section. Attorneys from a diverse array
of legal backgrounds were in fact hired across the Division in 2010.

         We believe, however, that it is both usual and appropriate for a litigating component
within the Department to value experience in the subject matter of that component when making
hiring decisions. Recent vacancy announcements in other components, for instance, include a
trial attorney position in the Indian Resources Section of the Environment and Natural Resources
Division stating that “[e]xperience in litigation, in particular water rights litigation, and
knowledge of Indian, administrative, and water law is highly desirable”; and a trial attorney
position in the Asset Forfeiture and Money Laundering Section (AFMLS) of the Criminal
Division listing “experience with financial investigations and tracing money” as a preferred
qualification. Just as it is understandable for the Indian Resources Section to value a background
in Indian law, and for AFMLS to value a background in tracing money, we believe that it is
appropriate in selecting attorneys for litigating positions in the Civil Rights Division to consider
whether applicants have experience with and a demonstrated interest in civil rights litigation. 3

       We have a number of concerns about the report’s description of the hiring decisions made
in January 2001. The report does not fully describe the totality of the circumstances surrounding
a two-year effort to secure additional resources for the Civil Rights Division. In addition,
although we agree with the finding that there is “no basis to conclude that [the 2000-2001 hiring]
3
 Specifically minimizing civil rights experience was one practice used in the 2003-2006 period as a proxy for
making ideological hiring decisions. See 2008 OIG/OPR Report 17 (noting that Bradley Schlozman minimized the
importance of prior civil rights experience).



                                                      4

effort violated any law or Department policy,” Report at 213, we believe that describing the
2000-2001 hiring as a “significant historical backdrop” to subsequent personnel practices, Report
at 181, may give the misimpression that this hiring helps to explain or minimize the severity of
the subsequent illegal conduct in hiring and other personnel practices from 2003 to 2006. In the
more comprehensive joint review by the OIG and the OPR that examined these personnel
practices from 2003 to 2006, and which was based in part on interviews of several former
Assistant Attorneys General, the 2000-2001 hiring is not described as a backdrop to the
subsequent illegal conduct you identified.

The Voting Section’s Process for Responding to Records Requests

        Chapter Six of the report examines allegations that the Voting Section’s responses to
public records requests displayed favoritism based on the ideology of the requester. The OIG
conducted an exhaustive review of evidence, including reviewing “tens of thousands of e-mails
relating to FOIA responses in the Voting Section between 2001 and 2010,” and “did not find any
substantiation of ideological favoritism or political interference in such responses.” Report at
249. You also concluded after reviewing the response times for records requests that there was
“no evidence supporting the allegation that differences in response times were the result of
partisan or ideological favoritism.” Report at 249. The report also found that the Voting Section
instituted additional procedures beginning in 2006, and “that these procedures have helped to
protect against bias in responding to records requests.” Report at 249. We agree with the
report’s conclusion that the Voting Section did not give preferential treatment to requesters based
on political or ideological affiliation.

        The report notes a concern regarding the Voting Section’s current backlog of pending
records requests. We have accepted the OIG’s recommendation to assign additional staff to help
process the increased demand for Voting Section records. In response to this report, two
managers in the Voting Section will devote additional time to handling the backlog of records
requests. In addition, the Division recently authorized the Voting Section to hire an additional
full-time contractor to assist in reducing the large backlog of records requests. We will also
provide training to additional paralegal contractors who are already on staff so that they can
devote time to records requests as well. We currently anticipate that these additional staffing
assignments will be short-term (three- to six-month) assignments, although we are prepared to
retain this level of resources longer than that if necessary to continue addressing the backlog.

Treatment of Voting Section Staff and Managers

        Chapter Four of the report examines complaints regarding mistreatment of Voting
Section employees because of their political ideology, including incidents involving both
perceived conservatives and perceived liberals. These complaints are concentrated in the period
from 2004 to 2007, but include two examples that occurred in 2009. The Department takes very
seriously any allegations of harassment, mistreatment, unauthorized disclosure of internal
information, and other unprofessional conduct. The OIG has documented in this chapter a
number of troubling incidents that have no place in the Department, and we have taken steps to
prevent similar incidents from recurring.




                                                5

        As the report notes, the Civil Rights Division took steps to address a number of these
specific incidents of improper conduct at the time they arose in the period between 2004 and
2007. The report also notes many of the broader measures the Division implemented to train all
staff on their anti-discrimination and anti-harassment obligations, including “providing annual
[equal employment opportunity (EEO)] and anti-harassment training to all employees and
managers; issuing EEO, prohibited personnel practice and anti-harassment policies that are
available to all employees on the CRT Intranet and that set forth the various procedures for
reporting misconduct; and sending periodic reminders to all employees about their obligations to
conduct themselves in a professional manner at all times.” Report at 133.

         The Division has continued to remind employees of these obligations. For example, as
your report notes, in January 2011, I “reiterated to all CRT employees – via posting on the CRT
Intranet page and via e-mail message to all CRT employees – the prohibitions against
discrimination and harassment in the workplace, including specific language that ‘[a]ll
employees must conduct themselves in a professional manner at all times and refrain from
engaging in conduct that may be viewed as hostile or offensive to others in the workplace,
including making derogatory comments about other employees because of their membership in a
protected category, such as race, sex or religion, or because of their actual or perceived political
affiliation.’” Report at 133-34. The Division has also investigated, in consultation with the
Justice Management Division (JMD), the recent unauthorized disclosures of internal Voting
Section information and documents, and issued a Division-wide email in December 2012 to
reiterate to staff that they must maintain the confidentiality of internal documents and
information.

        In addition to these efforts, Division leadership since 2009 has sought to promote
effective and respectful decision-making by ensuring that career attorneys and professionals have
every opportunity to provide their considered views and advice. For example, as you note, the
“change to the Section 5 recommendation procedure was controversial within the Voting
Section” when it was implemented in 2005. Report at 86 n.70; see also Report at 153 n.135.
This change was controversial because senior leadership dramatically re-engineered the
longstanding process by which decisions in Section 5 matters were made to deny career staff a
full opportunity to express their position, and to obscure the appearance of staff dissent. I agree
with you that “it is essential that Division leaders and Voting Section managers be particularly
vigilant to ensure that enforcement decisions – and the processes used to arrive at them – are, and
appear to be, based solely on the merits and free from improper partisan or racial
considerations.” Report at 256. That is why, in 2009, the Division restored the prior practice of
allowing each staff member who works on a Section 5 submission to state his or her views in
writing so that those views can be considered in the decision-making process, and I reiterated the
importance of this process in a 2011 memorandum to Voting Section staff. Report at 86 n.70.

         We believe these and other efforts have improved the atmosphere and professional
culture within the Voting Section considerably over the past several years. The Voting Section is
a far different place in 2013 than it was in 2005 or 2007. Nonetheless, we acknowledge, as your
report notes, that voting rights enforcement is a particularly important area in which to assure
professionalism and impartiality, and we recognize the need to continue taking additional steps
to maintain and strengthen the culture of the Voting Section and to foster a work environment
that is as collegial and healthy as possible. In response to this report, we will reiterate to all


                                                 6

Division staff their professionalism obligations, including the prohibition on harassment based
on perceived political ideology. We also have begun the process of developing a written policy
to further address the continuing challenge of unauthorized disclosures of internal and
enforcement-related information. Continuing the work of strengthening a collegial, professional
work environment in the Voting Section is one of our highest priorities, and we expect these
steps to assist us in this effort.

        This chapter examines the staffing of the Honors Program Hiring Committee in 2009, and
finds that “this incident demonstrates that problems of polarization within the Voting Section
continued after the change in administrations.” Report at 148. As described in the report, former
Voting Section Chief Chris Coates decided in September 2009 to assign a manager to a hiring
committee because Coates perceived that manager to be conservative. Report at 144-45. You
concluded that Coates’s decision to do so was inappropriate. Report at 148. Then-Deputy
Assistant Attorney General Julie Fernandes received a complaint about Coates’s staffing
decision; investigated her options for addressing that complaint; and concluded that she should
take no action because she became satisfied that the manager could perform the duties on the
hiring committee effectively and properly. Report at 145-47. To the extent this incident
demonstrates that ideological polarization continued into 2009, we believe it does so only
through Coates’s improper staffing decision. Fernandes’s response – to investigate the
complaint she received, and to make no further staffing changes after concluding the manager
would serve effectively on the committee – was itself perfectly appropriate.

        The report also examines discussions among Division and Department leadership in early
2009 to address serious concerns regarding Coates’s performance. These concerns are
documented throughout your report, which notes, “Division leadership held genuine beliefs
about Coates’s weaknesses as a manager, and . . . Coates was not without fault in his
management of the Section and his relationships with Division leadership.” Report at 177.
Incoming Division leadership heard consistent complaints in early 2009 from career staff in the
Voting Section about Coates’s management deficiencies. Report at 159-60, 174, 178. By his
own account, Coates was not a good manager. Report at 174-75. Among the concerns for
Division leaders at the time was the recurrent problem, which your report documents, that Coates
“took insufficient steps to ensure that relevant and accurate information was provided to Division
leadership in connection with seeking their approval of court submissions.” Report at 177; see
also Report at 56, 58, 61 n.45, 159-60.

        It was these and other management and performance problems that prompted the
Department’s examination of its personnel options. In light of these documented concerns,
Division and Department leadership engaged in appropriate conversations in the spring of 2009
regarding their options for addressing these serious management and performance problems;
consulted with JMD and followed JMD’s guidance to document any performance shortcomings
before taking action; and then ultimately chose not to take any action to remove or reassign
Coates involuntarily. Moreover, we do not agree that Department policy projects were
improperly staffed, or with the suggestion that this staffing was part of an effort to remove
Coates from his position.




                                                7

Conclusion

        Without question, the Voting Section in January 2009 had low morale and an
unacceptable degree of staff conflict, which we believe were largely a product of the illegal
hiring, transfers, case assignments, and other personnel practices that occurred in the Division
from 2003 to 2006 and that are documented in the 2008 OIG/OPR report, as well as the
management deficiencies that existed at the time. Since 2009, the Civil Rights Division and the
Voting Section have undertaken a number of steps to improve the professionalism of our
workplace and to ensure that we enforce the civil rights laws in an independent, evenhanded
fashion. For example, as noted above, the Voting Section restored its review process under
Section 5 of the Voting Rights Act to allow each staff member working on a submission the
opportunity to state his or her view, a practice that had been followed for decades until it was
changed in 2005. In late 2009 and early 2010, the Division finalized and implemented its
reformed hiring procedures to restore merit-based and career-driven hiring across the board,
including in the Voting Section.

        The selection in 2010 of Section Chief Chris Herren, a career Voting Section attorney
who joined the Section in 1992, was a critical step in the Voting Section’s development. Herren
has a deep knowledge of and experience in enforcement of the federal voting rights laws, and
enjoys the respect of Section employees, election administrators around the country, and other
key external stakeholders. He has assembled a strong management team of experienced voting
rights attorneys. Under his leadership, in 2011, the Voting Section implemented a number of
structural reforms to better manage its litigation efforts, including the creation of subject-matter
teams to allow for effective strategic planning as well as opportunities for professional
development for all staff. Your review has identified additional measures that may allow us to
accomplish our mission even more effectively in the future, and we will of course consider those
recommendations. We recognize that although significant progress has been made, additional
work remains.

        We are pleased that the conclusions following your review are that the Voting Section
has not, since 2009, considered improper or partisan factors in its enforcement, hiring, public
records request response times, and other functions. We look forward now to turning our full
attention to the critically important work of enforcing our nation’s voting rights laws.

       Thank you for the opportunity to provide this response.




                                                 8

APPENDIX B 

                                  Attorney Outreach List 

                          Status of Updates as of February 5, 2010 


List of Current Organizations

ADAPT
Alexander Graham Bell Association for the Deaf and Hard of Hearing
American Arab Anti-Discrimination Committee
American Association of People with Disabilities
American Bar Association - Commission on Mental and Physical Disabilities Law
American Bar Association - Commission on Racial and Ethnic Diversity in the Profession
American Civil Liberties Union
American Council of the Blind
American Diabetes Association
American Foundation for the Blind
American Speech-Language-Hearing Association
American Translators Association
American University - Washington College of Law
Anti-Defamation League
Arab American Bar Association of I!1inois
Asian American Bar Association of Houston
Asian American Bar Association of New York
Asian American Justice Center
Asian American Lawyers Association of Massachusetts
Asian Bar Association of Washington
Asian Pacific American Bar Association of Pennsylvania
Asian Pacific American Bar Association ofthe Greater Washington, D.C. Area
Asian Pacific American Legal Resource Center
Asian Pacific Bar Association of the Silicon Valley
Association of American Law Schools - Indian Nationals & Indigenous People
Association of American Law Schools - Minority Section
Autistic Self Advocacy Network
Bar Association ofthe District of Columbia
Barristers' Association of Philadelphia, Inc.
Bazelon Center for Mental Health Law
Bill of Rights Defense Committee
Black Women Lawyers of Greater Chicago, Inc.
Boston University
Brain Injury Association of America
Brigham Young University Law School
Burton Blatt Institute
Cambodian-American Asian American Civic Organizations
Catholic University, Colnmbus School of Law
Columbia University
Constance List, Listserv (discussion gronp of African American Attorney)
Council of Shia Professionals
Council of State Administrators of Vocational Rehabilitation
Deaf and Hard of Hearing in Government
Department of Defense Operation Warfighter
Department of Justice Association of Black Attorneys
Department of Justice Association of Hispanic Employees for Advancement and Development
Department of Justice AG's Committee on the Employment of Persons with Disabilities
Department of Justice Equal Employment Opportunity Staff (Disability Program Manager)
Department of Labor Office of Disability Employment Policy, Workforce Recruitment Program
Department of Labor Federal Disability Workforce Consortium
Department on Disability Services, D.C. Govermnent
Department of Rehabilitation Services, Virginia
Disability Rights Education and Defense Fund
Equal Employment Opportunity Commission
Fairfax Bar Association
Federal Bar Association
Federal Bar Association, Indian Law Section
Federal Emergency Management Agency
Florida Legal Services
Florida State University College of Law
Fordham University
Fulton County, GA Office of the Child Attorney
Gate City Bar Association
Gay, Lesbian, Bisexual and Transgender Attorneys of Washington, D.C.
George Mason University Law School
George Washington University School of Law Development Office
Georgetown University Law Center
Georgia Asian Pacific American Bar Association
Georgia Association of Black Women Attorneys
Hispanic Bar Association of Orange County
Hispanic National Bar Association
Howard University Law School
Immigration Project of the Wisconsin Coalition Against Domestic Violence
Jack & Jill of Greater St. Louis
Korean American Bar Association of Northern California
Language Access Consultants
Lawyers Committee for Civil Rights Under the Law
Lewis and Clark Law School
Loyola Law School, Los Angeles
Maryland Division of Rehabilitation Services
Mental Health America
Mexican American Bar Association of Los Angeles County
Minnesota Hispanic Bar Association
Multi-cultural Committee Service
Muslim Bar Association of Southern California (MBASC)
  National Alliance for the Mentally III
  National Asian Pacific American Bar Association
  National Association of the Deaf
  National Association of Judiciary Interpreters & Translators
  National Bar Association (national African American bar association)
  National Coalition for Disability Rights (NCDR)
  National Coalition of Mental Consumer/Survivor Organizations
  National Coalition on Health Care
  National Conference of Women's Bar Associations
  National Council on Disability
  National Council on Independent Living
  National Disability Rights Network
  National Federation of the Blind
  National Hispanic Prosecutors Association
  National Immigration Law Center
  National Indian Justice Center
  National Organization on Disability
  National Policy and Advisory Council on Homelessness
  National Spinal Cord hljury Association
  Native American Bar Association of Washington, D.C.
  New York School of Law
  New York State Association of Criminal Defense Lawyers
  North American South Asian Bar Association
-Office of Child Altumey, F1±iten-eomll:y, Ge<lrgia
  Pakistan American Public Affairs Committee (PAKPAC)
  Paralyzed Veterans of America
  Pan Asian Lawyers Association of San Diego
  Pennsylvania Association of Criminal Defense Lawyers
  Project EARN
  Public Interest Law Center of Philadelphia
  Self Advocates Becoming Empowered
  Sikh Coalition
  Skadden Arps Fellowship
  South Asian Bar Association of Washington, D. C.
  South Asian Bar Association of Northern California
  Southwestern Law School
  Stanford Law School
  Texas Southern University, Thurgood Marshall School of Law
  The ARC of the United States
  The ARC and United Cerebral Palsy Public Policy Collaboration
  The Becket Fund for Religious Liberty
  U.S. Attorney's Bulletin 

  United Cerebral Palsy 

  United Spinal Association 

  University of California - Berkeley School of Law 

University of California - Davis
University of California - Hastings College of Law
University of California- UCLA School of Law
University of Chicago Law School
University of Connecticut School of Law
University of Dayton School of Law
University of the District of Colurnbia - David A. Clarke School of Law
University ofIdaho College of Law
University of Illinois College of Law
University of Maryland School of Law
University of Miami School of Law
University of Michigan - Ann Arbor
University of Missouri School of Law
University of Pennsylvania Law School
University of Tulsa College of Law
Vietnamese American Association of the Greater Washington, D.C. Area
Villanova University
Virginia State Bar Association
Washington & Lee School of Law
Washington Lawyers' Committee for Civil Rights and Urban Affairs
William and Mary School of Law
Wolverine Bar Association
Women's Bar Association of D.C.

E-Mails Bounced Back

Alexandria Bar Association
American Bar Association - Commission on Women in the Profession
American Corporate Counsel Association
Assistant United States Attorneys Association
Association of Black Lawyers of Westchester County, New York
California Association of Black Lawyers
Colorado Hispanic Bar Association
Connecticut Hispanic Bar Association
Cornell University
Dallas Asian-American Bar Association
Federal Bar Association - Federal Litigation Section
Filipino Bar Association of Northern California
Hispanic Bar Association of D.C.
Houston Lawyers Association
J. L. Turner Legal Association
Korean American Bar Association of Washington State
Metropolitan Black Bar Association
National Association of Protection and Advocacy Systems
National Association of Deaf Law Center
National Association of Women Lawyers
National Lesbian and Gay Law Association
Native American Bar Association
Oklahoma Indian Bar Association
Organization of Chinese Americans
Philippine American Bar Association
Prince George's County, Maryland Bar Association
San Francisco Law Raza Lawyers Association
South Asian Bar Association of New York
The California Minority Counsel Program
U.S. Department of the Air Force - Judge Advocate General's Department
University of Baltimore School of Law
University of Nevada Las Vegas -William S. Boyd School of Law
University of Richmond - T.C. Williams School of Law
University of Wisconsin - Madison
Utah Minority Bar Association

No Response From E-Mail

Alliance of Black Women Attorneys
American Bar Association - Government and Public Sector Lawyers Division
American Bar Association - Section of Litigation
American Bar Association - Section of Litigation, Minority Trial Lawyers Committee
American Bar Association - Young Lawyers Section
American Judges Association
Anne Arundel Bar Association
Asian American Bar Association of the Greater Chicago Area (AABA)
Asian American Bar Association of the Greater Bay Area
Asian Pacific American Legal Center of Southern California
Asian Pacific American Bar Association of Colorado
Asian Pacific American Bar Association of Los Angeles County
Asian Pacific American Lawyers Association of New Jersey
Association of American Law Schools - Litigation Section
Association of Black Women Attorneys
Association of Black Women Lawyers of New Jersey
Baltimore County Bar Association
Bar Association of Baltimore City
Bar Association of the District of Columbia - Young Lawyers Section
Black Lawyer's Association of Cincinnati
Black Women's Bar Association of Suburban Maryland, inc.
Black Women Lawyers Association of Los Angeles
Blind Veterans Association
Chicago Committee on Minorities in Large Law Firms
Connecticut Asian Pacific American Bar Association
Cook COlmty Bar Association
Cuban American Bar Association
Dallas Hispanic Bar Association
D.C. Bar Association
Department of Justice Pam Asian Employees Association
Dominican Bar Association
D.W. Perkins Bar Association, Inc.
Fairfax, Virginia Bar Association - Young Lawyers Section
Federal Bar Association - Federal Career Service Division
Federal Bar Association - D.C. Chapter
Federal Bar Association - Capitol Hill Chapter
Federal Bar Association - Pentagon Chapter
Federal Bar Association - Maryland Chapter
Federal Bar Association - Northern Virginia Chapter
Federal Research Services, Inc.
Florida A&M University College of Law
Filipino American Lawyers of San Diego
Greater Washington Area Chapter, Women Lawyers Division of the National Bar Association
Harvard University
Hispanic Bar Association
Hispanic Bar Association of the Commonwealth of Virginia, Inc.
Hispanic Bar Association of Michigan
Hispanic Bar Association of Pennsylvania
Hispanic Employment Program Managers
Hispanic Lawyers Association of Illinois
Indian American Bar Association - Chicago
Indian Law Resource Center - Washington, D.C. Office
Inter-American Bar Association
Japanese American Bar Association of Los Angeles
John M. Langston Bar Association of Los Angeles
Korean American Bar of Southern California
Lawyers for One America
Los Abogados Hispanic Bar Association of Maricopa County
Local Government Attorneys of Virginia
Loren Miller Bar Association
Maryland Hispanic Bar Association
Maryland State Bar Association
Maryland State Bar Association - YOlmg Lawyers Section
Maryland State's Attorneys' Association
Maryland Trial Lawyers Association
Massachusetts Association of Hispanic Attorneys
Massachusetts Black Lawyers Association
Minnesota American Indian Bar Association
Minnesota Association of Black Lawyers
Minority Corporate Counsel Association
Montgomery County, Maryland Bar Association
Monumental City Bar Association
National American Indian Court Judges Association
National Asian Pacific American Legal Consortium
National Association for Public Interest Law
National Association ofAssistant United States Attorneys
National Association ofBiaek Women Attorneys
National Association of Blind Lawyers
National Black Prosecutors Association
National Congress of American Indians
National Legal Aid & Defender Association
National South Asian Bar Association
Nativeamericanlaw, Listserv
North Carolina Central University School ofLaw
Northwestern University
Northwest Indian Bar Association
Orange County Japanese American Lawyers' Association
Old Dominion Bar Association
Puerto Rican Bar Association oflllinois
Puerto Rican Bar Association, Inc.
Regent University School ofLaw
Sam Cary Bar Association
South Asian Bar Association of Southern California
Southern California Chinese Lawyers Association
S1. Mary's University School of Law
University of Arizona, James E. Rogers College ofLaw
University of Florida Frederic G. Levin College of Law
University ofNOlth Carolina at Chapel Hill
University of Southern California
University ofTexas at Austin School of Law
University of Virginia School ofLaw
Virgil Hawkins Florida Chapter National Bar Association
Virginia Bar Association
Virginia Commonwealth's Attorneys Services Council
Virginia Trial Lawyers Association
Washington Bar Association
Washington Council of Lawyers
West Virginia Bar Association
West Virginia Prosecuting Attorneys Institute
West Virginia Trial Lawyers Association
West Virginia University College ofLaw
Women's Bar Association ofMaryland, Inc.
APPENDIX C 

                         Applicant Organizations

Liberal Organizations

American Civil Liberties Union
Amnesty International
Advancement Project
Alliance for Justice
American Constitutional Society
Appleseed Foundation
Asian American Justice Center
Asian American Legal Defense and Education Fund
Ayuda
Baltimore Public Justice Center
Brennan Center for Justice
Carter Center
Center for Constitutional Rights
Center for Death Penalty Litigation
Center for Reproductive Rights
Clean Water Action
Common Cause
Community Legal Services Immigration Clinic
Death Penalty Clinic
Demos
EarthRights International
Equal Justice Society
Equality Florida
Equality Michigan
Environmental Defense Fund
Environmental Law Center
Fair Elections Legal Network
Florida Immigrant Advocacy Center
Gay and Lesbian Victory Fund
Gaylaw
Greenpeace
Human Rights Campaign
Human Rights First
Human Rights Watch
Illinois Coalition for Immigrant and Refugee Rights
Immigrant Rights Coalition
Innocence Project
Irish Center for Human Rights
Irish Refugee Services
Lambda Legal Defense and Education Fund
Law School Civil and Human Rights Clinics and Organizations (various)
Law Students for Choice
Lawyers’ Committee for Better Housing
Lawyers’ Committee for Civil Rights
Legal Aid Organizations (various)
Legal Momentum [formerly National Organization for Women Legal Defense and
Education Fund]
Mexican American Legal Defense and Education Fund
Migrant Legal Action Program
National Association for the Advancement of Colored People (NAACP)
NAACP Legal Defense Fund
National Abortion Rights Action League (NARAL)
National Association for Public Interest Lawyers
National Council of La Raza
National Immigration Justice Center
National Law Center on Homelessness and Poverty
National Wildlife Federation
National Women’s Law Center
New Mexico Lesbian and Gay Lawyers Association
New York Civil Liberties Union
Oliver W. Hill Foundation
Open Society Institute
People for the American Way
Poverty & Race Research Action Council
Prisoner Legal Services
Prisoners and Families Clinic
Project Vote
Puerto Rican Legal Defense and Education Fund
Southern Center for Human Rights
Southern Coalition for Social Justice
Southern Environmental Law Center
Southern Poverty Law Center
Texas Civil Rights Project
Working People’s Law Center
World Organization Against Torture
World Organization for Human Rights

Conservative Organizations

Alliance Defending Freedom
American Enterprise Institute
Americans United for Life
Campus Crusade for Christ
Christian Legal Aid
Christian Legal Society
Federalist Society
Federation for American Immigration Reform
Pacific Justice Institute
Republican National Lawyers Association
Young Christian Society
APPENDIX D 

 Applicants with Voting Litigation Experience – Affiliations and Source of 

                          Litigation Experience 



                                                       Source of Voting
Applicant Name              Affiliations            Litigation Experience
Applicant 1*      Advancement Project, Lawyers’    Advancement Project
                  Committee for Civil Rights
                  (LCCR), worked for Democratic
                  member of Congress
Applicant 2       LCCR                             LCCR
Applicant 3       LCCR, member of state            LCCR
                  Democratic Party
Applicant 4       LCCR, American Civil Liberties   ACLU
                  Union (ACLU)
Applicant 5*      National Association for the     NAACP
                  Advancement of Colored People
                  (NAACP)
Applicant 6       ACLU                             National Association of
                                                   Latino Elected and
                                                   Appointed Officials
                                                   (NALEO); former Voting
                                                   Section attorney
Applicant 7*      None                             Former Voting Section
                                                   attorney
Applicant 8       American Constitution Society    Brennan Center for
                  (ACS), Brennan Center for        Justice
                  Justice, ACLU, worked on
                  campaigns for two Democratic
                  candidates
Applicant 9       ACS, ACLU                        State Public Advocate’s
                                                   Office
Applicant 10      Campaign Legal Center,           Campaign Legal Center
                  Common Cause
Applicant 11*     Advancement Project              Advancement Project
Applicant 12      Brennan Center for Justice,      Brennan Center for
                  interned for Democratic member   Justice
                  of Congress
Applicant 13      Worked on or volunteered for     Solo practice (portfolio
                  campaigns for four Democratic    included election law
                  candidates,                      cases)
Applicant 14*     Volunteered for campaign of      Former Voting Section
                  Democratic candidate             attorney
Applicant 15      ACS, Mexican American Legal      MALDEF, LCCR
                  Defense and Educational Fund
                (MALDEF), Equal Justice
                Society, LCCR
Applicant 16    LCCR                               State Office of Legislative
                                                   Counsel, Elections and
                                                   Litigation Office
Applicant 17*   NAACP                              NAACP
Applicant 18    LCCR, NAACP, ACLU                  Solo practice (worked on
                                                   voting rights case)
Applicant 19    Worked for state Democratic        Solo practice (worked on
                party                              two voting rights cases)
Applicant 20    Worked for campaign of             Fair Elections Legal
                Democratic candidate, Fair         Network
                Elections Legal Network
Applicant 21*   MALDEF, Southern Coalition for     Former Voting Section
                Social Justice                     attorney
Applicant 22    Project Vote, worked for           Project Vote
                Democratic member of Congress
Applicant 23    People for the American Way,       People for the American
                volunteered for campaigns of two   Way
                Democratic candidates
Applicant 24    ACS, Urban Justice Center,         Brennan Center for
                Brennan Center for Justice,        Justice
                Center for Reproductive Rights,
                worked on campaign for
                Democratic candidate
Applicant 25    LCCR                               LCCR
Applicant 26    Interned for Democratic state      State Board of Elections
                representative                     and Ethics
Applicant 27    Fair Elections Legal Network,      Fair Elections Legal
                Greenpeace                         Network
Applicant 28*   Equality Florida                   Private law firm (drafted
                                                   amicus brief on NVRA)
Applicant 29    MALDEF                             MALDEF
Applicant 30    ACS, LCCR, member of college       Private law firm
                Democratic society                 (represented various civil
                                                   rights advocacy groups
                                                   in HAVA lawsuit against
                                                   state)
Applicant 31    NAACP, worked on campaign for      Private law firm (pro
                Democratic candidate, worked       bono work on election
                for Democratic member of           law issues)
                Congress
Applicant 32    ACLU, interned for Democratic      Private law firm (drafted
                member of Congress                 brief in defense of
                                                   citizens’ right to vote)
Applicant 33         Interned for Democratic member         Private law firm
                     of Congress                            (prepared amicus brief
                                                            on constitutionality of
                                                            VRA Section 5)
Applicant 34         Advancement Project                    Private law firm (pro
                                                            bono work contributing
                                                            to amicus brief on the
                                                            constitutionality of VRA
                                                            Section 5)
Applicant 35         None                                   Asian American Justice
                                                            Center
Applicant 36         None                                   State Board of Elections
Applicant 37         None                                   Private law firm
                                                            (contributed to amicus
                                                            brief on the
                                                            constitutionality of VRA
                                                            Section 5)
Applicant 38         None                                   State Attorney General’s
                                                            Office (litigation on ballot
                                                            access and voters’ rights
                                                            cases)
 
* Applicant was hired.

Note: One of the nine applicants hired did not have prior voting litigation experience
and therefore does not appear on this chart.
APPENDIX E 

      FRANK R. WOLF                                                                                241 CANNON HOUSE OFfiCE BUI~ NG
                                                                                                     WASIlINGTO"., DC 20616-4610
       10'fl.l DISTRICT, VIRGIN '"
                                                                                                            (202) 225-5136


COMMITTEE ON APPROPRIATIONS                                                                            13873 PARI: C!.NTlII R¢.o.o
                                                                                                                SUllE 1aO
          SU~ICOMMlTT!lS'                                                                                 H£RNDON. VA 20171
                                                                                                             (703) 709-S800
RANKING MEMBER-COMMERCE-JUSTICf:­                                                                      (800) 945-9653 (IN $TAn)
               SCIENCE

      TRANSPORTATION-HUD             ((ongreS'S' of tbe Wniteb f$tateS'                               110 NOHTl-I CAMERON STRH"I
                                                                                                        WINCHE$TEf'I. VA 22601
                                                                                                             (540) 667-00:90
     CO-CHAIR-TOM LANTOS 
                    J!)ouse of 3[\epresentatibes                             (800) 8~63 (IN ST"n:)

   HUMAN RIGHTS COMMISSION 

                                                      February 10, 20 II                                  wolf,house.gov




       Ms. Cynthia Schnedar
       Acting Inspector General
       U.S. Department of Justice 

       950 PelUlsylvania Ave NW 

       Washington DC 20530 


       Dear Ms. Schnedar:

                I appreciate your testifying before my subcommittee yesterday to help the Congress
       .identify waste, fraud and abuse at the Department of Justice. However, this morning I was made
        aware of lhe enclosed report detailing a disturbing type of "abuse" that was not raised during our
        hearing: the possible politicization of Freedom of Information Act (FOIA) 'requests within the
        department.

               According to the enclosed information, a review of recent responses to FOIA requests by
       the department showed potential political and ideological factors may have influenced how
       quickly responses were provided. If accurate, this would reflect an abuse of the department's
       authority and, potentially, a violation of federal FOIA law.

              As you will read in the enclosed document, the American Civil Liberties Union (ACLU),
       the National Association for the Advancement of Colored People (NAACP), and National Public
       Radio (NPR) received immediate responses to FOlA requests while journalists from The
       Washington Times, Human Events and the group Judicial Watch waited five to six months for
       responses from the Justice Department. Other requests from conservative organizations were
       reportedly never responded to.

                I have firslhand experience with the FOIA office at the Justice Department. In May
       2009, I made a FOIA request to the department requesting infonnatioD.pertaining to the attorney
       general's efforts to secretly release a number of Guantanamo Bay detainees and re-settle them in
       northern Virgiilla. I made the .FOIA request after the attorney general stonewalled my official
       requests for this information. However, the department, again, failed to provide the information
       that I requested after many months.

               The enclosed information demonstrates a troubling inconsistency in the department's
       treatment of ForA requests, potentially based on the requester's political or ideological position.
       AIl FOIA requests should be answered in accordance with the law. This inconsistel1cy serves
       only to decrease public confidence in government and in direct conflict with President Obama's
       pledge for greater transparency.




                                        THIS STATIONERY PRINTED ON PAPER MADE OF RECYClED FIBERS
Ms. Cynthia Schnedar
Feb~uary 10,2011
Page 2


         I ask that you open an immediate investigation into this matter to de~nnine whether the
political or ideological position of the FOIA requester may have influenced the timing and nature
of tile department's responses. Additionally, I will be inserting this letter with my questions for
the committee record relating to yesterday' s hearing. I look forward to your prompt response.

       Best wishes ..




       E ..




                                                                                                      I

                                                                                                      i
Bombshell: Justice Department Only Selectively Complies
with Freedom of Information Act (PJM Exclusive)
According to documents PJM has obtained, FOIA requests from liberals or politically connected civil
rights groups are often given same day turn-around by the DOJ . But requests from conservatives or
Republicans face long delays, if fulfilled at all.

February 10, 2.011 - by J. Christian Adams



Eric Holder's Justice Department has even politicized compliance with the Freedom of
Information Act. According to documents I have obtained, FOIA requests from liberals .or
politically connected civil rights groups are often given same day tum-around by the DOJ. But
requests from conservatives or Republicans face long delays, if they are fulfilled at all.

The documents show a pattern of politicized compliance within the DOJ's Civil Rights Division.
In particular, I have obtained FOIA logs that demonstrate as of August 2010, the most
transparent administration in history is anything but. The logs provide the iIidex number of the
information request, the date of the request, the requestor, and the date of compliance.

For example, Republican election attorney Chris Ashby of LeClair Ryan made a request for the
records of five submissions made under Section 5 of the Voting Rights Act. Ashby waited nearly        ,.
                                                                                                      1
eight months for a response. Afterwards, Susan Somach of the "Georgia Coalition for the
Peoples' Agenda_ a group headed by Rev. Joseph Lowerv. made requests for 23 of the same
                  "
type of records. While Ashby waited many months for five records, Somach waited only 20 days
for 23 records.

Under the Obama DOl, FOIA requests from conservative media never obtained any response
from the Civil Rights Division, while National Public Radio obtained a response in five days.

In 2006, Charlie Savage, then at the not-yet-insolvent Basion Globe, requested all of the resumes
of the recently hired attorneys in the Bush Civil Rights Division - including mine. DOJ
leadership was convinced rushing out the resumes of dozens of lawyers far before the deadline
was a good thing.

Savage apparently has never made a similar request to the Obama Justice Deprutment, even
though the inspector general has opened an investigation into political payback and
discrimination under Eric Holder. I wrote at PJM:

Savage could bolster his credibility by making the same inquiries of this Justice Department as
he did to the Bush DOJ. For starters, he could examine the preposterous hiring practices in the
Civil Rights Division since Obarna's inauguration. The more time that passes without an inquiry
from Savage and the New York Times, the more partisan his badgering of the Bush DOJ appears.

Yet Savage won the Pulitzer for attacks on the Bush administration.
 In spring of 2010, Pajamas Media requested the exact same infonnation from the DOJ that
 Charlie Savage requested in 2006 - except for hires made in the Obama DOJ. Recall the Bush
 administration turned over all the resumes of attorneys as fast as they could, and well before the
 statutory FOJA deadline.                           .

 PJM's request was ignored. Then on October 13,2010, the request was renewed by certified
 maiL Still, no response as required by law.

 So on January 18,2011 , the case of Pajamas Media v. United Slates Department ofJustice was
 filed in the United States District Court in D.C. The most transparent administration in history?
 Hogwash.

 Don't be fooled thinking that anyone was congratulating the DOJ's 2006 zeal in rocketing
 resumes to the Boston Globe. The Bush DOJ's eagerness to speed attorney resumes to the Boston
 Globe was rewarded with savage attacks. RepUblicans mistakenly bet that being champions of
 good government would earn them kudos. The only thing it earned was a kick in the teeth.

 That's not to say that anyone should have violated the FOJA, 'as the Obama DOJ has done with
 PJM's request. But why would you grant favors to political opponents who plan to cut your
 throat? I suspect the current leadership of the DO] takes that for granted. Notice they I:tave not
 suffered a whiff of scrutiny until now. .                  "                           .

 The data in the FOIA logs I obtained reveal the priorities ofihe Civil Rights Division­ 

 transparency for friends, stonewalls for the unfriendly. Those enjoying speedy compliance with 

.their Freedom oflnformation Act requestS include: 


 - Gerry Hebert, noted free speech opponent, partisan .liberal, and former career Voting Section
 lawyer who testified against now-Senator Jeff Sessions when he was nominated to the federal
 judiciary. Same day service.

 - Kristen Clarke, NAACP Legal Defense Fund. Clarke sought the dismissal of the voter
 intimidation case against the New Black Panther party. Same day service.

 :- An Shapiro of National Public Radio. Five day service.
 - Nicholas Espiritu of the Mexican American Legal Defense Fund. Next day service.

 - Eugene Lee of the Asian Pacific American Legal Center. Three day service.

 - Edward DuBose, president of Georgia NAACP. Same day service.

 - Raul Arroyo-Mendoza of the Advancement Project. Same day service.

 - Nina Perales of the Mexican American Legal Defense Fund. Two day service.

. - Tova Wang of Demos. Three day service.




                                                                                                      ~.   ;
- Mark Posner and Robert Kengle of the Lawyers CommitteeJor Civil Rights Under Law.
Kengle is the same former DOJ attorney who did not want to do election coverage in Mississippi
where a federal court found that white voters were being discriminated against. Same day
service.

- Brian Sells, formerly of the ACLU and now of the DOJ Voting Section. (Paging Charlie 

Savage). One day service.                                           .


- Natalie Landreth, Native American Rights Fund. Same day service'. 


- Fred McBride, ACLU redistricting coordinator. Same day service. 


- Jenigh Garrett, NAACP Legal Defense Fund: Same day service. 


- Joaquin Avila, well-known election law professor in Seattle who advocates for the rights of 

illegal aliens io vote in American elections. Next day service. 


In contrast, well-known conservatives, Republicans, or political opponents had to wait many
months for a response, if they ever got one:

- Michael Rosman, Center for Individual Rights. Six month wait. 


- Jennifer Rubin (seeking records relating to employees, like Charlie Savage did). No reply at 

all. 


- Congressman Frank Wolf. Five month wait. Wolf now chairs the Appropriations 

Subcommittee in charge of the DOJ budget. Oops. 


- Jed Babbin, editor at Human Events. Six month wait. 


- Jerry Seper, Washington Times. Six month wait. 


- Jim Boulet of the English First Foundation. No reply at all. 


- Jenny Small of Judicial Watch. Five month waiL 


- Republican Pennsylvania state Representative Stephen Barrar. Four month wait. 


- Jason Torchinsky. former DOJ and now ace GOP lawyer. No reply at all. 


- Ben Conery, Washington Times. Five month wait. 


It should be noted that the logs reveal plenty of mundane compliance to requestors of no 

particular note. Other times, very short delays mark a request from an administration friend . But 

in no instance does a conservative or Republican requestor receive a reply in the time period 





                                                                      "
prescribed by law. The logs·demonstrate an unmistakable pattern -     friends zoom in the express
lane, while foes ·are stuck waiting on the shoulder.                              .

Politicized compliance with ForA might be an administration-wide pattern. The revelation that
the Obama Department of Homeland Security has politicized the ForA process may be just the
tip of the iceberg.

If so, what should.we make of patterns of lawless noncompliance with the FOIA? If nothing else,
it exposes the rank hypocrisy of those heady days in 2008 when transparency was a campaign
promise. In the worst case, we have an administration willing to violate the law to conceal details
about their governance.

Even this should outrage members of the mainstream media -      unless of course they already
zoom along in the DOJ information fast lane.      .
